<html>
<title> - UNITED STATES STRATEGY AND MILITARY OPERATIONS TO COUNTER THE ISLAMIC STATE IN IRAQ AND THE LEVANT AND UNITED STATES POLICY TOWARD IRAQ AND SYRIA</title>
<body><pre>[Senate Hearing 114-342]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 114-342
 
 UNITED STATES STRATEGY AND MILITARY OPERATIONS TO COUNTER THE ISLAMIC 
 STATE IN IRAQ AND THE LEVANT AND UNITED STATES POLICY TOWARD IRAQ AND 
                                 SYRIA

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

             MAY 21; JULY 7; SEPTEMBER 16; DECEMBER 9, 2015

                               __________

         Printed for the use of the Committee on Armed Services
         
         
         
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]         
         
         


        Available via the World Wide Web: http://www.fdsys.gov/
        
        
        
                               _________ 

                  U.S. GOVERNMENT PUBLISHING OFFICE
                  
 21-326 PDF               WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 
               
        
        
        



  

                      COMMITTEE ON ARMED SERVICES

                     JOHN McCAIN, Arizona, Chairman

JAMES M. INHOFE, Oklahoma            JACK REED, Rhode Island
JEFF SESSIONS, Alabama               BILL NELSON, Florida
ROGER F. WICKER, Mississippi         CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          JOE MANCHIN III, West Virginia
DEB FISCHER, Nebraska                JEANNE SHAHEEN, New Hampshire
TOM COTTON, Arkansas                 KIRSTEN E. GILLIBRAND, New York
MIKE ROUNDS, South Dakota            RICHARD BLUMENTHAL, Connecticut
JONI ERNST, Iowa                     JOE DONNELLY, Indiana
THOM TILLIS, North Carolina          MAZIE K. HIRONO, Hawaii
DAN SULLIVAN, Alaska                 TIM KAINE, Virginia
MIKE LEE, Utah                       ANGUS S. KING, JR., Maine
LINDSEY GRAHAM, South Carolina       MARTIN HEINRICH, New Mexico
TED CRUZ, Texas

                   Christian D. Brose, Staff Director

               Elizabeth L. King, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                              may 21, 2015

                                                                   Page

United States Policy in Iraq and Syria...........................     1
Keane, GEN John M., USA (Ret.), Former Vice Chief of Staff of the 
  Army...........................................................     4
Kagan, Dr. Frederick W., Christopher Delmuth Chair and Director, 
  Critical Threats Project, American Enterprise Institute........    10
Harvey, COL Derek J., USA (Ret.), Director, Global Initiative for 
  Civil Society and Conflict, University of South Florida........    13
Katulis, Brian, Senior Fellow, Center for American Progress......    16

Questions for the Record.........................................    47

                              july 7, 2015

Counter-Islamic State of Iraq and the Levant (ISIL) Strategy.....    49
Carter, Hon. Ashton B., Secretary of Defense.....................    54
Dempsey, GEN Martin E., USA, Chairman, Joint Chiefs of Staff.....    59

Questions for the Record.........................................   100

                           september 16, 2015

United States Military Operations to Counter the Islamic State in 
  Iraq and the Levant............................................   117
Wormuth, Hon. Christine E., Under Secretary of Defense for Policy   121
Austin, GEN Lloyd J., III, USA, Commander, U.S. Central Command..   126

Questions for the Record.........................................   169

                            december 9, 2015

United States Strategy to Counter the Islamic State of Iraq and 
  the Levant and United States Policy Toward Iraq and Syria......   185
Carter, Hon. Ashton B., Secretary of Defense; Accompanied by 
  General Paul J. Selva, USAF, Vice Chairman of the Joint Chiefs 
  of Staff.......................................................   189

Questions for the Record.........................................   243

                                 (iii)


                 UNITED STATES POLICY IN IRAQ AND SYRIA

                              ----------                              


                         THURSDAY, MAY 21, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:32 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, Ayotte, 
Cotton, Rounds, Ernst, Tillis, Sullivan, Graham, Cruz, Reed, 
Nelson, Gillibrand, Blumenthal, Donnelly, Kaine, and King.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Now that Senator Ernst is here, we can 
begin.
    [Laughter.]
    The committee meets today to receive testimony on United 
States policy in Iraq and Syria.
    I want to thank each of our expert witnesses for appearing 
before us today on this critical and complex topic.
    Before I go any further, the Secretary of Defense and 
Chairman of the Joint Chiefs were invited to appear. 
Admittedly, very short notice, and we will be asking them to 
appear after the recess is over, depending on whether the bill 
is on the floor, or not. But, we certainly would like to hear 
from the Secretary of Defense and the Chairman of the Joint 
Chiefs.
    Today, we have General Jack Keane, former Vice Chief of 
Staff for the Army and chairman of the Institute for the Study 
of War.
    General Keane, we're pleased you could take time from your 
duties on FOX News to being with us today.
    Dr. Fred Kagan, who is--that's a joke--Dr. Fred Kagan, 
director----
    [Laughter.]
    Dr. Fred Kagan, the Director of the Critical Threats 
Project at the American Enterprise Institute; Colonel Derek 
Harvey, U.S. Army (Retired), Director of the Global Initiative 
for Civil Society and Conflict at the University of South 
Florida; and Brian Katulis, who is a Senior Fellow at the 
Center for American Progress.
    Could I point out, for the benefit of my colleagues, that 
General Keane and Dr. Kagan were key elements and individuals 
who went over to the White House in 2006 to talk to then-
President George W. Bush concerning the need for a surge, 
that--the strategy in Iraq was failing at that time, and they 
were two of the major architects--and I know they'll give 
credit to many others, but two of the major architects of the 
surge, which turned out to be, at great sacrifice of American 
blood and treasure, a success.
    The black flags of Islamic State of Iraq and the Levant 
(ISIL) are now flying over yet another major Iraqi city, 
Ramadi, the capital of Iraq's Anbar Province, and reports 
overnight suggest that ISIL now controls the Syrian city of 
Palmyra, as well. This hearing does not--is not about the fall 
of any one city, as important as those losses are, but, rather, 
what these defeats have revealed about the limitations of an 
overly constrained American air campaign, the weaknesses of 
Iraqi forces, the growing malign role of Iran, and the 
ineffectiveness and inadequacy of United States military 
support of--for our Iraqi and Syrian partners. But, most 
concerning, it highlights the shortcomings of the 
administration's indecisive policy, inadequate commitment, and 
incoherent strategy. This misguided approach has failed to 
stop, if not fostered, the expansion of ISIL to a dozen 
countries. The loss of Ramadi, once the symbol of Iraqis 
working together with brave young Americans in uniform to 
defeat al-Qaeda, must be recognized as a significant defeat. 
ISIL's victory gives it the appearance of strength and boosts 
its ability to recruit more fighters while reinforcing Iran's 
narrative that only it and its proxies can rescue Iraq.
    The fall of Ramadi and capture by ISIL of American-supplied 
military equipment is another setback for the United States and 
further undermines our credibility as a reliable strategic 
partner in the region.
    And yet, the Obama administration seems unwilling or unable 
to grasp the strategic significance. As ISIL terrorists 
ransacked Ramadi--by the way, the Pentagon's news page ran a 
story with the headline, ``Strategy to Defeat ISIL is 
Working.'' Secretary of State John Kerry said Ramadi was a mere 
``target of opportunity.'' And 2 days ago, when a review should 
have been well underway to correct an incoherent strategy that 
is woefully under-resourced, the White House Press Secretary, 
Josh Ernst, said, ``Are we going to light our hair on fire 
every time there's a setback?'' I would point out for my 
colleagues that maybe his hair isn't on fire, but there are 
bodies on fire in the streets of Ramadi as we speak.
    The disaster of Ramadi should lead to a complete overhaul 
of U.S. Strategy. The President has stated, ``Our goal is 
degrading and ultimately destroying ISIL,'' but neither 
strategy nor resources support this goal. Our efforts in Iraq 
may actually be aggravating the conditions that gave rise to 
ISIL in the first place by relying on brutal Iranian-backed 
Shi'a militias and insufficiently empowering Sunni Iraqis. At 
best, this increases Iran's malign influence. At worst, it 
reinforces ISIL's rhetoric that it is the only force standing 
against violent sectarian Iranian-backed militias.
    President Obama has cleverly maneuvered us into the 
position that Sunni Iraqis that we--think we support Iran, and 
Shi'a Iraqis think we support ISIL. But, the situation is far 
worse in Syria. The Iran-backed Assad regime, together with 
Iranian proxies like Hezbollah, continues the slaughter that 
has killed more than 200,000 Syrians and displaced 10 million 
more. Despite this tragedy, the administration has defined its 
policy in Syria more by what it will not do rather than the--by 
the end state we aim to achieve. Although the United States 
military's train-and-equip program for moderate Syrian forces 
is now finally providing assistance to vetted fighters, the 
administration still has not decided whether it will defend 
Syrian opposition against Assad's barrel bombs upon their 
return to Syria. Refusing to support the forces we train is not 
only ineffective, it is immoral.
    While it is still unclear what President Obama is willing 
to do in Syria, it is clear our partners do not draw confidence 
from statements of what we will not do. Ramadi's fall should 
lead our Nation's leaders to reconsider its indecisive policy 
and incoherent strategy that has enabled ISIL's expansion, 
undermined regional stability, strengthened Iran, and harmed 
America's credibility. What we desperately need is a 
comprehensive strategy, the decisive application of an 
increased, but still limited, amount of United States military 
power, and a concerted effort by the Iraqi Government to 
recruit, train, and equip Sunni forces. This will require 
disciplined thinking, clear priorities, a strategy supported by 
adequate resources, and, most of all, the leadership and 
resolve of the President to succeed.
    I look forward to hearing from our witnesses today on these 
important questions.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, first, let me thank the chairman for 
calling this timely and very, very important hearing, and also 
thank Senator Nelson for acting as the Ranking Member today. I 
have two Appropriations Committee--one Appropriations Committee 
and one Bank Committee markup, and I apologize, I cannot be 
here.
    With that, with your permission, Mr. Chairman, I'd like to 
yield to Senator Nelson.
    Chairman McCain. Senator Nelson.

                STATEMENT OF SENATOR BILL NELSON

    Senator Nelson. Thank you, Mr. Chairman.
    what I'm going to do is just put my statement in the record 
so we can get on to it.
    But, what you underscore is certainly accurate. The fall of 
Ramadi--what is the Abadi government going to do? Do they have 
the capability of getting Sunnis to come in and take up the 
fight against ISIS? And so, we need, as you all testified to 
us--How far are we along in implementing the counter-ISIS 
campaign in Iraq? And what has the Abadi government done to 
empower the Sunni tribes to resist ISIS? And what does Ramadi 
mean about retaking Mosul? And will these events force Iraq's 
political leadership to overcome their differences in their 
attempts at government?
    So, with those questions, thank you, Mr. Chairman.
    [The prepared statement of Senator Nelson follows:]

               Prepared statement by Senator Bill Nelson
    I'd like to welcome our witnesses this morning, and thank them for 
being willing to testify on such short notice.
    The recent headlines about the fall of Ramadi, and the brutal 
massacre of civilians that followed, demonstrate once again the extreme 
threat that the self-declared Islamic State, or ISIS, poses to the 
people of Iraq and Syria; to the wider region, extending from North 
Africa to South Asia; and to the world.
    The response in some quarters to this news has been to declare that 
the entire strategy in Iraq is called into question, or to claim that 
the Iraq strategy has collapsed.Others, while calling the events in 
Ramadi a significant setback, argue that the United States should not 
abandon its Iraq strategy, in particular the fundamental principle that 
this is not America's war, but Iraq's, though the United States and its 
coalition partners can help support the Iraqi government in that 
existential fight.
    Accordingly, Ramadi should be seen as a wake up call that the Abadi 
government needs to do more to include the Sunnis and build the 
capabilities of the Sunni tribes to take the fight to ISIL.
    The committee would be interested in getting our 
witnesses'perspectiveson the significance of the events in Ramadi 
within the context of the broader conflict with ISIS.Some of the policy 
questions that arise include:

    <bullet>  How far along are we in implementing the counter-ISIS 
campaign in Iraq, how long will it take, and is there a need for 
strategic patience as we build the military and political capabilities 
in Iraq required to confront ISIS?
    <bullet>  What has the Abadi Government done to empower the Sunni 
tribes to resist ISIS, and what more needs to be done?
    <bullet>  What does the fall of Ramadi mean for the campaign to 
retake Mosul and should there be a shift to an ``Anbar First'' 
strategy, which would put off the Mosul offensive until after a 
counteroffensive to retake Ramadi and other key Sunni cities?
    <bullet>  Will these events force Iraq's political leadership to 
overcome their differences and govern inclusively, in a manner that 
addresses long-standing grievances of Sunnis, Kurds, and other minority 
communities?

    I look forward to our witnesses testimony this morning.

    Chairman McCain. Thank you, Senator Nelson.
    And, you know, Palmyra is one of the historic places on 
Earth, and, as it's being threatened now, we know what ISIS 
does to these antiquities. We're about to perhaps, 
unfortunately, see another destruction of an obviously 
irreplaceable historic heritage sites that--it would be another 
great tragedy along the lines of the destruction of the 
Buddhist statues at Bamiyan, years ago.
    Welcome the witnesses.
    And, General Keane, we'll begin with you. Thank you, sir.

 STATEMENT OF GEN JOHN M. KEANE, USA (RET.), FORMER VICE CHIEF 
                      OF STAFF OF THE ARMY

    General Keane. Thank you, Chairman McCain, Ranking Member 
Reed, Senator Nelson, and distinguished members of the 
committee. I appreciate you inviting me back to testify.
    I was here a few months ago dealing with global security 
challenges facing the United States. And I must say, I was 
pretty impressed with the bipartisan support for the challenges 
our country is facing and the way you're willing to work 
together to come to grips with it.
    I'm honored to be here with my distinguished colleagues. 
Obviously, I know Fred Kagan and Derek Harvey very well. 
They're long and close associates. As much as Fred and I may 
have had some impact on the previous administration in changing 
their strategy--and there were others who were working towards 
that end, as well--Derek Harvey, sitting here, was the catalyst 
for understanding the enemy. He was pushing against the 
intelligence group think that existed at the time. And he 
defined that enemy better than anybody did in this town. And 
that was the beginning of understanding what was happening to 
us, why it was happening, and what Fred and I thought we could 
realistically do about it. So, I'm honored to be here with all 
of them.
    I've got some maps up there that you may want to use to get 
a reference. It's always good to see where things are 
happening, to understand the scale and magnitude.
    You know, approximately 9 months ago, the President 
announced the U.S. public policy----
    Chairman McCain. General, could you give me a second? I 
don't think we have----
    General Keane. We have to get the chairman maps. Okay.
    Approximately 9 months ago, the President announced the 
U.S. public policy that, along with our coalition partners, the 
United States would degrade and ultimately destroy ISIS. Weeks 
later, he changed ``destroy ISIS'' to ``defeat,'' a more 
appropriate term.
    A strategy was crafted to accomplish this objective, which 
consisted among some things as humanitarian assistance, 
undermining the ISIS ideology, countering the finances, 
providing military assistance to our Iraqi partners, to include 
airstrikes into Syria, and assisting the Iraqi Government 
politically to move toward a more representative government, 
which actually, obviously, led to a change in governments. I 
cannot address undermining the ideology and the finances in 
this testimony. It's beyond my expertise.
    While there has been some progress and some success, 
looking at this strategy today, we know now that the conceptual 
plan is fundamentally flawed. The resources provided to support 
Iraq are far from adequate. The timing and urgency to provide 
arms, equipment, and training is insufficient. And, as such, we 
are not only failing, we are, in fact, losing this war. 
Moreover, I can say with certainty that this strategy will not 
defeat ISIS.
    As to the concept, ISIS, who is headquartered in Syria, 
recruits, trains, and resupplies in Syria, controls large 
swaths of territory in Syria--and you can look at your map 
there to take a look at that--to include the entire Euphrates 
River Valley in Syria from Iraq to the Turkish border. It 
connects now to the Euphrates River Valley in Anbar Province, 
which leads to the suburbs of Baghdad. And it's currently 
expanding to the west as far as Damascus. And they just seized, 
as the Chairman mentioned, Palmyra City and Palmyra Air Base in 
Central City--in central Syria, aligning the central east-west 
corridor from Iraq all the way to homes in the west in Syria.
    And yet--and yet--we have no strategy to defeat ISIS in 
Syria. We have no ground force, which is the defeat mechanism. 
Yes, we have airpower. And, despite the success at Khobani--and 
yes, we have degraded ISIS command and control in Syria, their 
logistics, and we have killed many ISIS fighters--but, airpower 
would not defeat ISIS. It has not been able to deny ISIS 
freedom of maneuver and the ability to attack at will. Syria is 
ISIS's sanctuary. We cannot succeed in Iraq if ISIS is allowed 
to maintain that sanctuary in Syria. We need a strategy now to 
defeat ISIS in Syria.
    As you can see on the map that deals with the global 
rings--take a look at that--many ISIS--on that ISIS map--ISIS 
is expanding beyond Iraq and Syria into Sinai, Yemen, Libya, 
and Afghanistan. This is where they actually have people on the 
ground, and they have actually provided resources, and they 
have--actually have a contract written and signed with the 
people on the ground who are affiliated with them. And they're 
also inspiring and motivating radical sympathizers throughout 
the world, which are depicted in that map on yellow, as we are 
painfully aware of in Europe and in the United States and 
Australia. Yet, there is no strategy with our allies to counter 
that expansion. I would go further to say there is no strategy 
to counter the destabilization of the Middle East.
    As to Iraq, it certainly makes sense to assist Iraq in 
reclaiming lost territory and avoid deploying United States 
ground combat units. However, ISIS, despite some setbacks, is 
on the offense, with the ability to attack at will anyplace, 
anytime. And, particularly, the fall of Ramadi has exposed the 
weakness of the current Iraq strategy. It is more than just a 
setback.
    Politically, the administration deserves credit for helping 
to usher out the Maliki government and bring the new Abadi 
government in. However, Abadi is isolated, is undermined by 
Maliki, who is still and remains a nefarious character, and 
others within Abadi's own party. Abadi is unduly influenced by 
Iran. And the United States is not nearly as consequential as 
it should be. A United States objective should be, politically, 
to reduce Iran's influence. We need a focused diplomatic and 
political effort with the Abadi government, with the best 
people we have available to do it.
    Militarily, clearly the Iraqi army is a serious problem. 
While some have fought heroically, many have not. There are 
serious leadership, discipline, morale, and competence issues. 
This will take time to fix. But, if we believe that Iraq is 
important to United States security, then we must help them fix 
it. And it will take many more trainers and a much more 
concerted effort to put in the best leaders available.
    The Sunni tribal force is almost nonexistent, yet we cannot 
reclaim the Sunni territory that has been lost, particularly 
Anbar Province and Mosul, and we cannot hold the territory 
after we have reclaimed it if we do not have a Sunni tribal 
force. The Abadi Government must authorize this force, and the 
United States should arm, equip, and train it. They must know 
that the Iraqi Government and the United States is behind them. 
Right now, they know the Iraqi Government is not. Their 
families are being killed by the hundreds, eventually by the 
thousands. They are disillusioned by the United States, in 
terms of its lack of support.
    The Peshmerga. They're skilled, they're willed, they will 
fight. They need arms, and they need advisors, down at the 
fighting level, to assist them with planning, execution, and to 
call in airstrikes.
    The Shi'a militia are largely protecting Baghdad. Most of 
what ISIS owns is Sunni territory. If we use the Shi'a militia 
to reclaim that territory and hold it, Iran has undue 
influence, politically, in Iraq as a result of it, and the 
Sunni people will suffer under the hand and the gun of the 
Shi'a militias. We must, in fact, reduce their influence.
    The role of advisors. Advisors are only at brigade 
headquarters and above, currently. This is flawed. Advisor 
teams must be with the units that are fighting, at least at the 
battalion level, which is what we did in the past so 
successfully. Advisors, as the name implies, helps units plan 
and execute, and it also builds their confidence in themselves. 
They are also forward air controllers and can direct airpower 
as well as attack helicopters. The war in Iraq is largely 
close-combat urban warfare, which demands the bombs be guided 
from our airplanes to the ground by people on the ground. 
Seventy-five percent of the sorties that we're currently 
running with our attack aircraft come back without dropping 
bombs, mostly because they cannot acquire the target or 
properly identify the target. Forward air controllers fix that 
problem.
    Special Operation Forces direct-action teams should be 
employed, not as an exception, which is what we successfully 
saw this last weekend in Syria with the raid, but routinely in 
Iraq and Syria against the ISIS leadership and critical 
infrastructure. Similar to what we have done in Iraq and 
Afghanistan in the past during the surges, when Fred and I were 
there, as well as Colonel Harvey, we averaged--the surges in 
Iraq and Afghanistan, we averaged somewhere between eight to 
ten of these operations a night. In fact, when the UBL raid was 
taking place in Pakistan, there were nine of these going on in 
Afghanistan that very night.
    We should also do large-scale raids. What does that mean? 
We should use elements like Rangers to conduct attacks at night 
over critical infrastructure to kill ISIS fighters who are 
difficult to dig out with airpower at altitude. These are 
surprise attacks. They're not intended to stay. They're in and 
out maybe one night. We stay, at the most, a couple of days, 
depending on how much of a fight we're getting into.
    We desperately need enablers to assist the Iraqi Security 
Forces. This is crucial support that helps them succeed on the 
battlefield. What is it? Robust intelligence capability. We 
have some, but we've got to ramp it up more than what we have. 
Increased UAVs, not to assist airpower, which we're currently 
doing in terms of surveillance, but to assist ground forces. 
That's a different application, and it's a different type of 
UAV. We need attack aviation. That's Apache helicopters. And we 
need other helicopters to assist the ground forces. C-130 
transports to move troops and supplies and other logistics 
support. And we need increased U.S. command-and-control 
headquarters to help control the increase of trainers, 
advisors, and others that I'm suggesting here.
    Obviously, what I am suggesting is increased United States 
political and military involvement in Iraq, which begins to 
shore up many of the weaknesses of the current strategy. While 
I believe we can still do this without U.S. and allied combat 
brigades, it is much more difficult now than what it was 9 
months ago. I believe we have to do some serious contingency 
planning for the introduction of ground combat brigades, both 
United States and allied.
    Finally, we need to get past our political psychosis on 
Iraq which is defined by the questions: Should the United 
States have gone into Iraq in 2003? Should the United States 
left Iraq in 2011? While they were crucial U.S. policy 
decisions, there is--and there is much to learn from them, and 
we have--we've got to get past it. ISIS is much more than Iraq. 
Our forces should be what the--our focus should be what the 
President started out with: defeating ISIS. That will take 
political will. And war is a test of wills. It will take 
accepting risk. It will take accepting casualties. It will take 
focus. And it will take increased U.S. resources. And it will 
take honest evaluations as--and assessments.
    What I fear is this. I hear a disturbing and frightening 
echo of the summer of 2006, when administration, senior 
government--when a different administration, senior government 
officials, and military senior generals came before this 
committee and, in the face of compelling evidence that our 
strategy in Iraq was failing, these officials looked at you and 
defended that strategy and told you that, overall, the strategy 
was succeeding. You and your predecessors took a strong 
bipartisan exception to those opinions. Many, as a result of 
it, wanted to give up on Iraq. Others wanted to do something 
about fixing the problem.
    I hope you choose the latter and get on with helping to fix 
the problem. And I look forward to your questions.
    Thank you.
    [Supplemental material to the statement of General Keane
follows:]

      
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      

      

    Chairman McCain. Dr. Kagan.

STATEMENT OF DR. FREDERICK W. KAGAN, CHRISTOPHER DELMUTH CHAIR 
  AND DIRECTOR, CRITICAL THREATS PROJECT, AMERICAN ENTERPRISE 
                           INSTITUTE

    Dr. Kagan. Mr. Chairman, Senator Nelson, thank you very 
much for calling this hearing. And thank so many of you for 
attending. It shows a sense of urgency about the problem on the 
part of this committee that it's hard to detect in the rest of 
the administration. So, I'm very grateful to the committee, as 
always, for the opportunity to speak, but for the attention 
that it's trying to focus on this problem.
    I receive, every day, a superb daily rollup of activities 
in the region produced by my team in the Critical Threats 
Project and the team at the Institute for the Study of War. I 
can't read it all anymore. It's too long. It's too long because 
the region is engulfed in war. It's sort of hard to tell that 
from the isolated headlines that pop up and fade away. But, 
we--this is the regional war. This is the beginning of the 
regional war. It could get a lot worse, but this is a war that 
is becoming a sectarian war across the region. It is a war 
between Saudi Arabia and Iran, fought largely by proxies, but 
now, dismayingly, also directly. There are some people who 
think that it's a good thing that the Saudis and others are 
acting independently. I would suggest that they take a look at 
the historical efficacy of Saudi military forces and ask 
themselves if they think that that's really a reed we want to 
rest our weight on.
    And I think we can focus too heavily on what the Iraqi 
Security Forces are doing, or not doing, as we have in the 
past. They're not doing enough. Prime Minister Abadi is in a 
box. We have helped put him there with our policies. So, it's 
not sufficient just to look at and criticize what the Iraqis 
are doing. We really do need to look in a mirror and look at 
what we are doing or not doing.
    As I follow the daily reports, I see a coherent enemy 
strategy across the region. I see deliberate enemy operations, 
which you can actually depict on a map. And I commend to you a 
terrific report by the Institute for the Study of War called 
``ISIS Captures Ramadi,'' which actually has a military--old-
fashioned military-style map showing the ISIS maneuvers, 
because they are maneuvering. This is not a terrorist 
organization. This is an army that is conducting military 
maneuvers on an operational level with a great deal of skill. 
It is not an accident that Ramadi fell over the weekend and 
Palmyra fell yesterday. It is not an accident that there were 
ISIS attacks in Beiji and at the refinery, that there was a 
prison break in Diyala, that there were threats against the--
not the Hajj--a pilgrimage in Baghdad, and then Ramadi was 
decisively attacked and taken. This was a coherent campaign 
plan, and a very intelligent one, very well executed. This is a 
serious threat. What I can't discern from the daily operations, 
let alone from the statements of the administration, is any 
coherent American strategy to respond to this threat.
    And I want to talk about the threat for a minute. ISIS is 
one of the most evil organizations that has ever existed in the 
world. We really have to reckon with that. This is not a minor 
annoyance. This is not a group that maybe we can negotiate with 
down the road someday. This is a group that is committed to the 
destruction of everything decent in the world. And the evidence 
of that is the wanton destruction, uncalled for even by their 
own ideology, frankly, of antiquities thousands of years old 
that represent the heart of the emergence of human civilization 
in the West. This is a group that sells captives into slavery. 
It's a major source of financing for them, actually. This is a 
room--a group that engages deliberately in mass rape. This is a 
group that conducts mass murder. And this is a group that is 
calling for and condoning and supporting and encouraging lone-
wolf attacks, and it will soon, I think, not be just lone-wolf 
attacks, in the United States and the west. This is a group of 
unfathomable evil. Unfortunately, they are extremely effective. 
And they have a degree of military capability--not terrorist 
capability--that we have not seen before in an al-Qaeda 
organization. This is not something where we should be 
spectators. This is not something where we should just say, as 
some people do, ``Well, just let them kill each other.'' This 
is unacceptable, from a moral perspective and from a U.S. 
national security perspective, to just watch a group like this 
succeed in this way.
    I want to make the point that, of course, any criticism of 
the White House today is received--at least from our side--is 
received as a partisan attack. I want to make the point that if 
that was the case, then I must have been a Democrat in 2006, 
because we were attacking the Bush administration with the 
Senator--with the chairman and a number of other members of the 
committee, as aggressively, or, in fact, more aggressively, 
than we've ever critiqued this White House. The fact is that 
what matters is that the strategy is failing, as it was failing 
in 2006, only we are in a much worse strategic position today 
than we ever were in 2006, because it's not just Iraq.
    I note that, to speak of the issue of urgency, the Iranians 
seem to feel a certain sense of urgency about this, as well. 
And their Minister of Defense, General Dehghan, was in Baghdad 
over the last few days, signing defense cooperation agreements, 
ostensibly, but surely working to coordinate Iranian support on 
the ground. The Foreign Policy Advisor to the Supreme Leader, 
Velayati, was in Damascus and Beirut, talking with Bashar al-
Assad and Hassan Nasrallah, no doubt coordinating plans to, I 
assume, maintain and increase the military deployment of 
Hezbollah forces in Syria and possibly ask Assad what his plan 
is, given the circumstances. Those are very senior leaders. I 
don't notice that we have sent senior leaders of that rank, or 
anything close to it, to speak with Prime Minister Abadi. And, 
of course, we have no one to speak with, effectively, in Syria.
    Senator Nelson asked about what this means for the counter-
ISIS campaign. It means that the campaign that has been 
described by the administration and our general officers is 
completely derailed. I do not believe that there is any 
reasonable prospect that it will be possible to retake Mosul 
this year. I think the fight for Ramadi will be hard enough. I 
think that these operations in and around Ramadi demonstrate 
that the Iraqi Security Forces, at current levels of United 
States support, are not capable even of defending their 
territory against determined ISIS attack, let alone clearing a 
major ISIS safe haven.
    So, we are--our campaign strategy is completely derailed, 
in my view. I think it was a campaign strategy, as the Chairman 
pointed out, that was of limited likelihood to be successful, 
in any event, because it addressed only part of the problem and 
left a major safe haven effectively untouched. But, such as it 
was, it's over.
    My colleague, Derek Harvey, will speak in some more detail 
about what kinds of troops and enablers are required. I agree 
with General Keane--I'm even willing to put a number on the 
table--I think that we need to have a total of 15- to 20,000 
United States troops in Iraq in order to provide the necessary 
enablers, advisors, and so forth. I think anything less than 
that is simply unserious.
    And I think we really need to do that, because, I think, 
otherwise, we're looking at an ISIS state that is going to 
persist. We're looking at an ISIS state that is going to 
continue to govern territory, that is going to continue to have 
resources that we simply cannot afford to let an evil enemy of 
this variety have. And I think it is a major United States 
national security priority to respond to this, especially as 
it's become clear that it's beyond the capabilities of the 
Iraqis.
    And lastly, I want to make two larger points that are 
directly relevant to this committee. One is, you cannot argue 
for a forceful strategy in Iraq and defend the sequester. Our 
Armed Forces have been seriously damaged by the sequester. It 
needs to be removed immediately. In fact, the Armed Forces 
budget needs to be increased significantly. We are at war, 
whether we like it or not, and the longer this President 
refuses to address it, the worse it's going to be when we 
become engaged. We need to be preparing for that now.
    And lastly, we need to be strengthening our abilities to 
collect intelligence, and not weakening them. This is not the 
moment to dismantle our capabilities to see what the enemy is 
doing. This is the moment to be engaged in wise reform of 
oversight of the intelligence community. And so, It is ironic 
that one of your colleagues spent yesterday arguing for the 
elimination of a program important to our national security.
    So, I think there are things that the administration can do 
and things that Congress can do, but it's going to be a tough 
fight.
    I thank the committee for listening to me this morning.
    Chairman McCain. Colonel Harvey.

STATEMENT OF COL DEREK J. HARVEY, USA (RET.), DIRECTOR, GLOBAL 
INITIATIVE FOR CIVIL SOCIETY AND CONFLICT, UNIVERSITY OF SOUTH 
                            FLORIDA

    Colonel Harvey. Mr. Chairman, Senator Nelson, and members 
of the committee, thank you for having me here. I appreciate 
the opportunity.
    I want to begin with focusing on the Islamic State and the 
trends in Iraq. I believe that, even before the fall of Ramadi, 
the best that could be said is that Baghdad was holding the 
line. Even with the success in Tikrit, there's great difficulty 
in holding that terrain. And even in areas that have been 
cleared earlier in northern Diyala Province in eastern Saladin, 
ISIS has worked their way back in. They just changed their 
profile, went to ground, and now they're infiltrating back in 
and conducting attacks and rebuilding their capabilities.
    Over the past month, they've continued to do shaping 
operations in the Baghdad area, western Baghdad. In one day, 
just a couple of days ago, there were eight IEDs, two VBIEDs, 
and several small-arms skirmishes in Baghdad itself. That's to 
say nothing about what's going on in Abu Ghraib and other areas 
around the belts of Baghdad.
    They continue to hold the line along the Kurdish front, 
north in the Nineveh area around Mosul, and they've expanded 
successfully in other areas, particularly in Syria. They are 
very good at doing shaping operations. They are taking 
advantage of their interior lines of communication. They are 
well armed, well resourced, and well led.
    I think the fall of Ramadi should lead to questions about 
the progress asserted by the Pentagon and the administration. 
There are two strategically important Sunni Arab cities in 
Iraq: Mosul, the second largest city, which was a former 
Ottoman capital, and, of course, Ramadi, which is the capital 
of the largest geographic province. And ISIS controls Raqqa, 
which is another provincial capital, but it's in Syria. The 
fall of Ramadi renews the sense that ISIS has momentum, which 
is important for rallying Sunni Arabs who may be on the fence 
in this fight, and also could aid with foreign fighter 
recruitment and some funding.
    without an alternative, Sunni Arabs, tribes, and the 
peoples in the region, without someone to protect them and lead 
them, are going to fall into the camp of the Islamic State, 
particularly as this campaign becomes increasingly polarized. 
And the movement of Shi'a militias, Popular Mobilization units, 
into Anbar Province is going to contribute to this 
polarization. And I fully expect that the Islamic State, in the 
near future, will try to conduct operations in Karbala and 
Najaf to further inflame this fight. That is part of their 
major strategy, to polarize this fight between the different 
communities.
    Now, I would note that ISIS has many challenges and 
weaknesses, but the problem is that ISIS is not losing. I 
believe that the United States has continued to underestimate 
the Islamic State, which I suspect shows a lack of 
understanding about the Islamic State, its capabilities, 
strengths, and weaknesses and how it sees the fight and a path 
to victory.
    We've seen this story before. It's like deja vu, for me. We 
focus too much on our own activity, our own programs, our own 
budgets, but we're not focusing on the impact on the enemy. And 
the enemy has a vote.
    From public statements, we're not looking at the right 
things, and the metrics and measures that are asserted by the 
military, the Pentagon, are not really appropriate. The number 
of airstrikes is interesting, but irrelevant. What is the 
effect on the enemy and its capacity to fight? Stating that 
ISIS has lost 25 percent of the territory it conquered is 
interesting, but it's really not relevant, because ISIS did not 
control eastern Saladin or northern Diyala or some of the other 
areas, but they're still there. They're contesting, and they're 
rebuilding, and they're shaping. So, that is a false metric 
that's been put out.
    Striking oil infrastructure in Syria is a good thing, and 
it's been degraded. But, the enemy has a vote. It's--their 
efforts there have been complicated. They've reduced their 
production. But, they've adapted, and, creatively, they have 
developed miniature mobile refinement capabilities, even using 
blow-dryer air heaters to make refined product. It is crude, 
yet it is a sophisticated adaptation. And crude is still going 
to Turkey. And they are producing enough fuel for their own 
requirements. They're still earning millions of dollars every 
month from oil in Syria. It's been degraded, but I think the 
lower cost of oil on the markets has had just as much of an 
impact as any operations we've conducted. And again, they have 
adapted.
    The same for funding and foreign fighter flow. They are 
still very resilient and adaptive in working around the actions 
that have been taken. And the actions that have been taken on 
foreign fighter flow and going after finances have been weak 
and not very assertive, not well resourced. And I'll talk more 
about that.
    ISIS is excelling at a hybrid war. They're fighting 
conventionally, as needed, they're adapting, and they're 
employing terrorist techniques--coercion, assassination, 
subversion--as necessary, depending upon the terrain. It is 
showing that it can hold key terrain, fight hard, and 
synchronize operations across space and time. And they respond 
with agility to secure tactical and operational advantages and 
overmatch, as we saw in Ramadi. They are very effective, they 
are well led. They are skilled, and they have professional-
quality leadership and command-and-control. And they know the 
geography, they know the terrain, and they know the human 
terrain in these areas very, very, very well. They are 
ruthless, and they are committed and determined. And they're 
exhibiting the will to fight. And they're fighting for power, 
they're fighting for ideological reasons, but, for many Sunni 
Arabs who are frustrated and angered about their condition in 
life and how they have been treated by Baghdad, they're 
fighting for their land, their families, and their future. And 
they are not motivated by a hardline Salafist Takfiri 
annihilationist agenda, but they're fighting anyway, because 
they're fighting for their own lives and their own future, and 
they're fearful.
    There are many Sunni military-aged males, to date, that 
have not taken sides in this fight. It's just a matter of time, 
if this polarization continues and we let this drag on, that 
ISIS will gain more and more recruits from the Iraqi population 
base. The Iraqi fight with ISIS is not dominated by foreign 
fighters. This is a homegrown fight, and we have to keep that 
in mind. ISIS, as Fred mentioned, maintains operational freedom 
in most of the Sunni Arab provinces, and they appear stronger 
because, importantly, relatively, their opposition is very 
weak.
    Now, the Sunni Arab political and tribal leaders are weak 
and divided, and seen as illegitimate by many within these 
Sunni Arab provinces. And too many Sunni Arabs are on the 
fence. They've been given no reason to come onto the side of 
the Baghdad government or to come to us. Prime Minister Abadi's 
government is weak and divided, and is increasingly undermined 
by Shi'a opposition. Same with the Iraqi Security Forces that 
are small, weak, poorly resourced, and not well led. And it 
will take far too long to train and rebuild them to make a 
difference this year.
    Moreover, I assess that there is a concerted effort to 
undermine the efficacy of the Iraqi Security Forces by Shi'a 
militias, Iranian proxies, and some members within the 
government, including the Dawa Party, particularly some members 
in the Ministry of Interior. They seek to weaken the Iraqi 
Security Forces and provide alternative institutions of power 
that they control.
    Again, the coalition is weak. We could talk about that, but 
there's not a lot of allied cooperation and resources put into 
this fight.
    Lastly, the U.S. lines of operation, for the most part, 
have been poorly resourced, both in theater and at the 
interagency level right here in Washington, DC. I do not see 
the urgency or the resourcing within Treasury or the 
intelligence community or others to really energy and 
aggressively go after this fight in this region.
    So, although U.S. airstrikes, I believe, have complicated 
the ISIS operations, the air campaign has not been decisive. 
It's been relatively small and limited. And the Islamic State, 
as I mentioned, has been adaptive and creative. Importantly, 
they remain well armed and well resourced. And our lines of 
operation, be it counter-finance, counter-foreign-fighter flow, 
delegitimizing the brand, the training, building of the Iraqi 
Security Forces (ISF), and the military campaign, at best, 
appear disjointed, poorly resourced, and lack an effective 
framework to bring it all together. I think we need to relook 
this.
    And, with that, I'll look forward to your questions.
    Chairman McCain. Thank you.
    Mr. Katulis, thank you for being here.

STATEMENT OF BRIAN KATULIS, SENIOR FELLOW, CENTER FOR AMERICAN 
                            PROGRESS

    Mr. Katulis. Great. Thank you, Mr. Chairman and Senator 
Nelson and all of your distinguished colleagues. It's a real 
honor to be here today.
    Mr. Chairman, your efforts, over the last few months, to 
elevate our national security debate have been incredible and 
very important, the hearings that you held earlier this year 
and everything that the members of the committee have been 
doing have been very important for our country as we look at 
the world and not just the Middle East.
    Mr. Chairman, I prepared written testimony. With your 
permission, I'd like to submit that for the record----
    Chairman McCain. Without objection.
    Mr. Katulis.--this afternoon.
    It's really an honor, here, to be with the copanelists, who 
I have great respect for, not only their expertise, but their 
service to country. And what I wanted to do this morning with 
my remarks is to try to complement their insights with what I 
focus on in my own work, which is looking at dynamics within 
the region and the strategic dynamics, and nesting the problem 
of Iraq, Syria, and ISIS within that. And, Mr. Chairman, you 
said, at the outset, beforehand, that you'd like to discuss 
concrete steps. So, while I give my analysis of what I think is 
happening in Iraq, Syria, the region, and more broadly, I will 
offer some ideas that I hope we can discuss, some of which I 
think members of the panel have proposed in legislation.
    The way I see the challenge--and I don't disagree with much 
of what was said here earlier--the challenge of ISIS, I think, 
operates on three different levels, or three concentric 
circles:
    The first is Iraq and Syria, quite obviously. That's where 
the devastation has been astounding over the last few years. 
And many of the steps, I think, that have been proposed here, 
in terms of security measures and security cooperation 
measures, is something that I, frankly--it's a little outside 
of my expertise to evaluate. I look at the political and 
strategic dynamics. But, I do think, inside of Iraq, no matter 
what we've done or what we do in the coming years, every type 
of security assistance should be implemented with a close eye 
to internal political and power dynamics. And, at this stunning 
moment--and what happened in Ramadi, I think, should shock 
everybody--we should keep an eye on these measures of what we 
need to do to help our Iraqi partners on the security front, 
but understand what we have learned over the last 10 years 
plus, is that the political dynamics are terribly important.
    In those regards, what I think we need to do and the Obama 
administration needs to do is to hold the Iraqi Government 
accountable for a lot of the ideas that have been discussed, in 
terms of arming Sunni tribes, building a national guard. If you 
look at what the Obama administration did last summer--and I 
was a supporter of this measure of using security assistance as 
leverage to help the Iraqis create a different type of Iraqi 
Government--we need to continue that process. When the police 
in Ramadi were not being funded, when concepts like the 
national guard still remain stuck in parliament, it makes it 
hard for any number of U.S. trainers to actually do their job 
if those mechanisms are in place.
    A second thing I think we need to start to entertain--and I 
know people are discussing this--is the notion of greater 
decentralization inside of Iraq, decentralization of authority, 
in some of the proposals that people have discussed about 
mechanisms for giving arms directly to Sunni tribes or to 
Kurdish forces. Again, I think we should consider that and 
balance it against the overall objective of trying to keep Iraq 
together.
    The second component, obviously, is Syria. And this, in my 
view, is the weakest link in the overall approach in this first 
circle. And Mr. Chairman, Senator Kaine, many others, have 
highlighted this, but we need to do something about this. The 
gap between the Obama administration's stated goals and what 
we're actually doing to shape the environment on the ground is 
alarming. In my view, we need to accelerate that which the 
administration proposed and you funded, the training and 
equipping of third-way forces. We need to link these efforts to 
the broader regional dynamics. What's happening in Syria right 
now is a very complicated engagement by actors in the region. 
If you see not only ISIS's gains, but the gains of Jabhat al-
Nusra, al-Qaeda's front, this--these gains don't come from 
nowhere. They're being offered support from various actors in 
the region. And the main point is that the end state in Syria, 
which is often described by the administration in ways that our 
tactics don't link up with what we want to achieve.
    But, the overall point in this first circle--Iraq and 
Syria--which I hope you take away and I think we need to 
discuss some more, is, How do you link these problems and how 
we address them? What worries me is that, quite often, we look 
at a challenge in Iraq, or a corner of Iraq, but we don't link 
it to the broader problem of Iraq and Syria. Last summer, ISIS 
effectively eroded the borders between these two countries. And 
what we've had over the last year or so is a debate about a 
series of different tactics, some of which have been 
implemented, and some have not. And I think if we can all bring 
our thinking together to talk about, How do we actually have an 
integrated strategy that focuses on ISIS, both in Iraq and 
Syria?
    On the second level, the regional level--and here I hope we 
can think a little bit more about this--but, for essentially 
the last 4 or 5 years, the Middle East has slipped into this 
period of fragmentation. Not only has Iraq and Syrian state 
structures collapsed, we've seen Libya and Yemen feel these 
strains. And a big part of what is going on--and this challenge 
of ISIS and where it comes from--is the struggle between the 
regional powers: Iran and Saudi Arabia, but there are other 
actors, too. Much of it is sectarian, but the conflict is 
multidimensional. It is multifaceted. Our resources matter, but 
Iran, Saudi Arabia, others, have been funding their own 
proxies. And what I think is missing, in terms of the U.S. 
leadership on all of this, is accounting for all of these 
efforts. How do we actually better organize and come up with a 
better strategic conception?
    Essentially, since 2003 and the Iraq War, when we made the 
decision to move from a strategic posture of dual containment 
of Iran and Iraq, I think we've been struggling for: What is 
our overarching strategy in the Middle East? We made some gains 
at certain periods, as was noted, in the surge in Iraq in 2007-
2008, but the broader picture of ``What is the United States 
trying to do in the region?''--I think, still that question has 
not been answered.
    I think the Obama administration, rightfully, has taken 
some positive steps in the right direction. The building of an 
anti-ISIL coalition that has 62 countries in it, including key 
stakeholders in the region, is an important opportunity, one 
that I don't think has been fully seized yet by the 
administration. Its engagements in that coalition effort has 
been episodic. In February, for instance, we had a Countering 
Violent Extremism Summit. And the questions of ``What then, 
after the summit?'' I think remain unanswered, to a large 
extent.
    Just last week was a very important summit with the GCC 
nations and, I think, an important communique. As with 
everything in life, and with this administration, the followup 
is going to be very important. Those commitments, not only to 
Iraq and the fight in Syria, but the broader fight against 
ISIS, there needs to be implementation.
    Finally, one last point on the equilibrium point, because I 
know it's a big debate up here, is the question of equilibrium 
in the broader region. The Obama administration often speaks of 
its engagement with Iran and the diplomatic engagement on the 
nuclear front as an opportunity to achieve some new type of 
equilibrium in the region. I share that aspiration. But, we 
need to be clear-eyed about how hard that will be at a time 
when Iran, when other actors in the region, are actually 
investing in a number of different proxy wars. We need to be 
clear about how realistic that is and what we're trying to do.
    And on the final point, on the international level--and 
I'll close here--quite clearly, this problem of ISIS is 
connected in ways that the problems that Derek and General 
Keane and Dr. Kagan dealt with in the previous decade--it's 
much more complicated by the fact that you have more than 
15,000 foreign fighters flooding into--and perhaps the number 
is higher. And what I would suggest, at the international level 
and our analysis, is that the debate about ISIS is terribly 
important, but it's moving very quickly. The debate that many 
people are having on Syria right now is the fight between 
Jabhat al-Nusra, ISIL, and a number of different actors. And I 
would say that 14 years after 9/11, nearly 14 years, if you 
look at this broader landscape, beyond Iraq and Syria, and Iraq 
and Syria as the epicenter, this new trend toward Salafist 
jihadism, and the growth of it, is something that we actually 
haven't wrestled with, that we need to widen the landscape and 
keep focused on it to assess what we're doing and whether we're 
applying resources to meet those threats.
    So, in conclusion, I hope the events of the last week or so 
and, I hope our discussion today, is a constructive wake-up 
call about what we can do to move from what I think has been a 
largely reactive crisis management and somewhat tactical 
approach to the problem set, not only over the last year or 
two, but over the last decade. And I hope that the events can 
motivate all of us, including you, with your leadership, to 
drive towards the sorts of unity that we need in things like an 
Authorization for the Use of Military Force, a national 
conversation that reinvigorates our sense of purpose. Because, 
as Derek and others have described, this is a very dangerous 
adversary. We've not yet created that strategy, the holistic 
strategy to actually defeat them. And we can.
    Thank you.
    Chairman McCain. Well, I thank you.
    Could I mention to my colleagues that a vote is on, and, if 
you'd like to go and come back, please do so. I'll try to 
continue the hearing. I may have to pause. But, I know that you 
have questions for the panel, so maybe we could work it that 
way, however you'd like.
    I'd like to begin by picking up a little bit on what Mr. 
Katulis just said. This is this whole idea of the perception of 
Iran and what the prospects are. Because it seems to me that--
and the necessity to be clear-eyed about it--because it seems 
to me that one of the reasons why we were not acting more 
aggressively against Bashar Assad has got to do with this 
idea--or, in my view, illusion--that once we conclude the 
nuclear agreement, there will be a whole new relationship with 
Iran in the Middle East, which, in my conversations with our 
friends in the Sunni Arab states, scares the heck out of them.
    So, I--maybe I could ask the panel about--it seems to me, 
in my view, that it is a real impediment to any real 
significant action in Syria. For example, the Free Syrian Army, 
what little there is that we are training, we have not told--
or, the administration has said there is no policy yet about, 
when we send these young men that we are training back into 
Syria, that--whether we would protect them from Bashar Assad's 
barrel bombing. It seems to me that that--that there's a degree 
of immorality associated with telling people you're going to 
train and equip them, and then not protect them from being 
killed when they go back in, and that they are only to fight 
ISIS and not Bashar Assad, the father of ISIS.
    So, I'd maybe begin with you, General Keane, and--because 
it--I don't think that Americans are fully aware of this 
contradiction, here.
    General Keane. Yes. Well, Senator, I agree, in principle, 
here, with what you're saying.
    Just a--so, our audience and the committee can understand, 
we may forget that, early on in the rebellion against Assad, 
the momentum was actually on the opposition forces side. Many 
people in this town were predicting that the regime was going 
to fall. I think we can all recall that.
    Chairman McCain. That was testimony before this committee 
by the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff, yes.
    General Keane. And that opposition force came to town here 
and got many on their dance card to--they needed additional 
arms and ammunition--specifically, antitank weapons and 
antiaircraft weapons--to deal with a conventional military. 
They were stuck with rifles, machine guns, RPGs, and the like. 
That early encounter in 2012 was denied--late 2011, early 2012. 
And then the Central Intelligence Agency (CIA) became convinced 
that we could actually vet the Free Syrian Army--and I will say 
that the Institute for the Study of War had some impact on 
providing them information that assisted them with that 
conclusion. And General Petraeus would have met that, when he--
as the Director at the time. And he presented a briefing to 
Secretaries Clinton and Panetta and Dempsey--General Dempsey--
and they agreed with him that it was--this force could, in 
fact, be armed, equipped, and trained robustly. But, the 
administration did not do that. And, tragically, as a result of 
that, the Free Syrian Army now is a mere shadow of its former 
self. There's, frankly, not much of it left.
    Chairman McCain. And could I add----
    General Keane. Go ahead.
    Chairman McCain.--in desperation, isn't it true that they 
have now joined forces with al-Nusra, an al-Qaeda-affiliated 
organization. Is that true?
    General Keane. Well, organizations that were a part of 
their organization, you know, have broken from them. They were 
Islamic organizations, not radicalized, and they have joined 
with Jabhat al-Nusra, who is--who has gained more territories, 
more aggressive, and has had more success against the regime 
than any force out there. So, that is true.
    And what we're doing is--and I know the committee's been 
briefed on this--we're attempting to train 5,000 people that 
would become part of the Free Syrian Army. But, what 
organization are they going to plug into? And it's totally 
disconnected, because the Free Syrian Army is not fighting 
ISIS. They don't have the wherewithal to fight ISIS and the 
regime. They're fighting the regime. So, we're training forces 
that will join Free Syrian Army, in theory. And, indeed, they 
will fight the regime forces, which has nothing to do with 
ISIS, at the moment. So, that's how flawed the strategy is in 
Syria. It makes no sense. We don't have ground forces.
    As the chairman suggests, Does it make any sense to train 
these forces, arm them and equip them and provide them some 
leadership, and then put them back into the fight against 
Assad's conventional military, which will bomb them and attack 
them with conventional artillery, mortars, and, obviously, 
barrel bombs and the like?
    So, that strategy in Syria is flawed. And obviously, the 
only way that ISIS will eventually be defeated in Syria is with 
some kind of a ground force. Our allies in the region are 
suggesting to us--and we having--we're not agreeing with them--
is that what we should do is deal with Assad, change the 
momentum against Assad by shutting down his airpower, using no-
fly zones and buffer zones to achieve that end, and that change 
in military--in momentum, militarily on the battlefield can 
shift the political equation to get some kind of a settlement.
    Now, listen, that's arguable whether that's achievable, or 
not. But, sitting here and doing nothing, and permitting this 
to go on, I think that's quite irresponsible, in terms of the 
humanitarian catastrophe that's taking place there, and also 
that ISIS is expanding and gaining in strength in Syria every 
single week and month.
    So, the Syrian strategy needs to be thought out. It needs 
to lead to a situation where we have our Arab--where we have a 
coalition of Arabs in the region, and possibly the Turks 
participating also. And they would likely ask us to participate 
in a coalition to deal with ISIS in Syria. And I do think we 
should listen to them about dealing with Assad and that regime 
first, in some limited capacity, to change the political 
equation.
    Chairman McCain. I'm going to have to go vote. I'd like to 
hear the--from the other witnesses. I'm going to have to go 
vote.
    Senator Ernst.
    If someone isn't back yet after you, we will take a brief 
pause until my return.
    Senator Ernst. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today. I really do 
appreciate it very much, and I apologize that I had to step 
out.
    But, I do agree with the panel, that we need a 
comprehensive strategy. Right now, there is no strategy. As an 
element and--really, just as an element, I do want to talk a 
little bit more about arming the Kurds. Of course, this is a 
passion of mine. So, over the past couple of months, I have 
been advocating for the administration to increase its support 
to the Kurdish regional government in Iraq to fight ISIS. And I 
believe that this is a commonsense proposal, considering the 
Peshmerga's willingness to fight--they are willing to fight--in 
close combat. And it is truly unmatched by any other group in 
that region in the fight against ISIS.
    The Kurdish people have been vital in supporting our 
coalition efforts to defeat ISIS and in providing support to 
around the 1.6 million displaced persons from Iraq and Syria. 
And also, for the past quarter century, Iraqi Kurds have proven 
to be reliable partners by supporting United States interests 
every time that we have sought their assistance. And I have 
spoken with many of the men that have served up in that region, 
and they always state what great allies the Kurds have been to 
them in our fight. So, they are proven to be great allies of 
ours.
    Earlier this week, former CIA and NSA Director, General 
Michael Hayden, once again spoke for the need to increase 
United States support to the Kurds in the fight against ISIS. 
And, on Tuesday, General Hayden said, ``I would double down on 
the Kurds. Their military has the virtue of showing up when it 
comes to a fight, and they've been our friends in the area for 
decades.''
    I would tend to agree with him. But, I would love to ask 
each of you to please explain that, if you do agree with 
General Hayden's assessment or if you disagree, and maybe why. 
So, please, to the panel--General Keane, if we might start with 
you.
    Thank you.
    General Keane. Yes, certainly I agree with that. The 
problem we have is--and they've told you, and they've told 
others, that they're not getting the kinds of arms that they 
need, the quantity of those arms are not there. We're passing 
that through the Iraqi Government. We probably should have 
continued the covert problem--program we did have with--passing 
it through the Central Intelligence Agency, and we probably 
would have had them armed by now if we did it robustly. But, 
they also need advisors. Because, when they're fighting, they 
need coordination with airpower to make their ground operations 
that much more effective.
    I would say this. As good as the Kurds are, they have, 
also, a limited interest in what they're willing to fight for 
inside Iraq. And they certainly are not going to participate in 
reclaiming Anbar Province and other parts of Iraq. So, yes, we 
have to do what we should for the Kurds, but we also need to 
recognize that a lot more needs to be done with others, as 
well.
    I'll leave it to my colleagues, here, who have more 
information than I do.
    Senator Ernst. Right. Thank you.
    Dr. Kagan.
    Dr. Kagan. Thank you, Senator.
    I agree with General Keane, especially about the last 
point. We certainly should help the Kurds defend Kurdistan. 
There's no question about that. And we could be doing more than 
we are. But, the Kurds cannot retake Arab Iraq for--on behalf 
of the Arabs. And I think, in--although the Kurds are not 
remotely--I don't want to put the Kurds in the category of 
Shi'a militias, because they absolutely are not, and they don't 
behave that way. Nevertheless, I think if you saw large Kurdish 
forces in Mosul for a long period of time, you would find that 
you would have an ethnic war on your hands that would not be in 
our interest and would make room for ISIS or its successor to 
come in. So, I don't think the Kurds could actually do what we 
need them to do, even if they wanted to.
    I would only add that, although I agree that we should--
that the Kurds have been very reliable allies, fighting on the 
ground against our common enemies, they have been less than 
helpful in Baghdad, repeatedly, and they still are being 
somewhat less than helpful than they might be, on a number of 
issues, including demands for oil revenues and various other 
things.
    I do believe that we should assist them in their defense, 
but I also think that we should use that assistance as leverage 
to try to get the Kurds to think a little bit more about the 
interests of Iraq as a whole, from a political standpoint, than 
they sometimes do.
    Senator Ernst. Thank you.
    Colonel Harvey.
    Colonel Harvey. I agree with what has already been said on 
this issue. I would add that the Sunni Arab communities along 
the green line, the fault lines, are tremendous numbers of 
friction points there, about territory, about past grievances. 
So, we would have to be very careful about how we--how they 
would be employed. And I think, you know, that's about making 
sure that there are red lines about how far they could go in 
coordination, where they are willing to fight along the 
frontiers where the Islamic State controls land. We do not want 
to further polarize these communities more than they are 
already. But, arming them effectively and developing a 
mechanism to accommodate Baghdad's interest about knowing 
what's being delivered, but making sure that it gets 
delivered--we have to figure a way to just get that done and 
coordinate that, but deliver those weapons that are going to be 
very important to the defense of those Kurdish lands.
    Senator Ernst. Thank you.
    Mr. Katulis. Very quickly, Senator, three points.
    First, in principle, I think it's an idea worth--worthy of 
consideration. The first point, though--in my recent visits to 
Kurdistan, the divisions that still exist inside of the Kurdish 
Peshmerga, and some of the political divisions--the KDP and the 
PUK having separate lines of control--to actually implement 
that effectively, they'll need to deal with those divisions.
    The second is that you have actors in the region, including 
us, beyond us, regional actors who have offered some of this 
support. And sometimes it's been blocked by Baghdad, itself. 
There are sensitivities to even the proposal, because it leads 
to questions of, ``Oh, are you trying to break up Iraq?'' And I 
think we need to be careful in the presentation of that.
    Which leads to a third point relevant to Iraq, to Syria, to 
the region more broadly. The more that the United States or 
other actors within the region invest in subnational actors or 
nonstate actors for the benefit of trying to defeat terrorist 
organizations like ISIS, there's advantages to that, because 
oftentimes they're more capable, as we've seen with the Kurdish 
Peshmerga. There's a potential long-term disadvantage to it, in 
that the fragmentation of states, the--could accelerate if--if 
we're working in the short term to defeat a threat and to deal 
with a counterterrorism issue, but the building blocks that 
we're putting into place actually then contribute to what I've 
seen, especially in Syria--and again, I'm not arguing against 
it; it's just the potential downside risk in the long term, the 
notion that we could further inadvertently accelerate the 
fragmentation of these state entities.
    Senator Ernst. Well, thank you. I appreciate that very 
much. And the idea, I believe, and where I am coming from, is 
that we simply have no strategy in that region, not one that 
has been communicated clearly to any of us. So, I think 
establishing at least a safe zone--I do agree that the 
Peshmerga--their interest is only in Kurdistan, it is not 
moving out into the rest of Iraq. I understand that. But, at 
least establishing a safe zone within Iraq that is free of ISIS 
is a step in the right direction. I think we need to think 
about that, we need to pursue that.
    But, any thoughts on where--just your idea of where the 
administration needs to go, at this point? I still see some 
reluctance coming from the administration on admitting that 
ISIS continues to expand, not just within Iraq, but also 
globally. I--any thoughts on what we need to do or how we can 
work with the administration on developing a strategy, one that 
will work?
    Yes, please.
    Mr. Katulis. I would stress, again, where I focus on, which 
is the regional aspects. I think what the United States can do 
more of--my colleagues have talked about, militarily and other 
things--it's beyond my expertise. The fact that the anti-ISIL 
coalition has five working groups--a military one, one on 
countering violent extremism, on counterterrorism funding, on 
foreign fighters and stabilization--I would suggest that those 
mechanisms are a great template, but also that they've not been 
used effectively.
    And, going back to the point I was trying to make, in the 
region, that I think it's wise to actually try to channel the 
resources and the efforts of others to much more constructive 
ends. We often debate about what we do. And I think we need to 
do more. That's clear. And I think we need to lead. But, using 
these mechanisms in the anti-ISIL coalition more effectively, 
having more followup on things like--we often think it's soft, 
but it's not--the countering-violent-extremism efforts, it's 
not sufficient to me to have a 1- or 2-day conference without 
any clear, precise followups. And I--I mean, I think they're 
talking about it, but we need to have great clarity to our 
regional partners in knowing--those in the coalition--of, 
``Okay, this is what we're going to do.'' In the way that 
General Keane and Derek and Dr. Harvey have talked about--Dr. 
Kagan have talked about--in the military steps, we also need a 
campaign that is multifaceted on those regards, that, again, 
nests at its core what we do, but in partnership with others.
    Senator Ernst. Thank you.
    Yes, sir.
    Colonel Harvey. I think that, given the President's 
strategy and the lines of operation that they have had, I don't 
think those were ever given an opportunity to succeed, because, 
even though I thought that they were insufficient to the task 
last summer, in September, when he declared them, they have not 
been adequately resourced, organized, or executed, to date. 
Again, as I said in my opening statement, that's here in 
Washington, DC, at the interagency level, as well as in 
theater.
    So, if we're not going to be determined to achieve results 
and have leadership that drives the interagency and makes this 
a matter of urgency and criticality to the United States, then 
we're not going to get where we need to go. So, you need to, 
first, be determined to achieve results.
    Two, we need to think about some core objectives here. One, 
we can fight ISIS and still contain Iran and seek to achieve an 
independent Iraq that is not a client of Tehran. In order to do 
that, we need to support Sunni Arab engagement and political 
inclusion. Without adequate force structure on the ground, and 
commitment, you cannot get out there and engage with the Sunni 
Arabs, you can't move around the battlespace. And they won't 
believe you're serious unless you put enough skin in the game.
    And to do that, we're going to need, in my judgment, about 
15,000 or more enhancement of U.S. force structure in theater. 
And to go to what General Keane said, we need probably two 
brigades, we need aviation--a mixed aviation brigade, you need 
some artillery, you need enhanced direct-action SOF operational 
capabilities to--for direct action. Direct action brings you 
the intelligence, which you then share and allows you to go 
after those networks.
    The Islamic State has not been stressed across its large 
perimeter that it has, from the Syrian border up along the 
Kurdish green line. They have tremendous vulnerabilities. But, 
they have had the initiative, because they have not been 
pressed along that large frontal area that they have.
    Senator Ernst. Sir, so, just to be clear, you are stating 
that you believe 15,000 additional troops and aviation assets 
to directly engage ISIS as a combat----
    Colonel Harvey. No, I want them to be there to provide the 
enablers, support for the Iraqi Security Forces for direct 
action of the Special Operations Forces for indirect fires, 
advisors embedded with Iraqi Security Forces or Ministry of 
Interior elements, in a way that gets us on the ground, can 
bring in our capabilities. I'm not advising that we put troops 
on the ground in combat outposts in Ramadi, clearing streets, 
you know, and communities and neighborhoods in a direct-action 
way. But, we need to be out there enabling and providing 
support and protection for Sunni Arab tribal militias, helping 
them grow and develop, and then that gives us influence that 
can reach into the political domain in the--these provinces, 
but also in Baghdad. It's hard to have influence if you don't 
have skin in the game.
    Senator Ernst. I would agree with that. I would also state, 
though, that anytime you do engage more of those types of 
troops on the ground, you may say that it is a train-and-assist 
mission, and that may be heavier on the assist mission, but we 
are engaging in combat at that point. I don't think there's any 
way that you avoid that. And I don't want to mislead the 
American people, because certainly there is danger anytime that 
we put troops on the ground. So, I'm not saying I would 
support, or not support, that measure, but I do believe that 
you are correct, sir, in that we do need to engage if we expect 
others to engage. We know that the airstrikes are not doing it. 
So, thank you for that perspective.
    Dr. Kagan. Senator, I want to second what Derek said, and 
agree with him about the need to deploy forces. I agree with 
you, and I know that Derek also does, that it's--the purpose of 
talking about train, advise, and assist, in this context, is 
not to imply that American troops are not going to be in 
combat. Of course they are, if we're doing our job. But, I 
think the point that Derek was trying to make, which is very 
important, is that we're not anticipating putting American 
brigades in Ramadi and having them clear, house to house, the 
way we have done previously.
    Senator Ernst. Thank you.
    Dr. Kagan. That's not what we're looking at.
    I have to say, we, as a Nation, are defeated as long as we 
do not have the will to fight this war. And I would assess 
right now, we seem to be showing that we do not have the will 
to fight this war. And until and unless the--beginning with the 
President, there is a demonstration that we have the will to 
fight, we are going to lose this war. And so, what Congress has 
to do, what we all have to do, is find any way that we can to 
persuade the President to own this fight, to recognize that 
it's a war, to recognize that we must win, and to help develop 
the will among the American people to fight this.
    Senator Ernst. Thank you very much.
    General Keane. The thing--the only thing I would add is 
that you do have to look at this strategically. When you 
think--the World Trade Center in 1993 was the introduction of 
radical Islam directly against the United States, not using 
proxies that the Iranians did since 1980. That was followed by 
Embassy bombings in Africa, the USS Cole, and September 11. To 
date, we've gone through three administrations, and we've never 
developed a comprehensive strategy to deal with it. We're 
sitting here today without one, despite all of that killing, 
despite all of the aggressiveness and assertiveness that this 
enemy has showed. We have always looked at this narrowly. And 
it's tragic that we do. And we're more sophisticated than that.
    Yes, the solution is right in front of us. When you look at 
this map--look at--this is just ISIS. If I put al-Qaeda on the 
map, it would be worse. This is a regional and global problem 
that can only be solved by those countries who are being 
affected by this, either directly or indirectly. This is not 
about the United States dealing with all of this; this is about 
the United States, when we're hosting a conference, like we 
just did, as opposed to shaking hands and slapping everybody on 
the back, which we did, we should have hosted a conference that 
came out with a strategy on what to do with this, plans on what 
to do with this. What is the level of contribution that's going 
to deal with this? We don't develop that strategy. Together, we 
can design a comprehensive strategy that does undermine the 
ideology, that does take their finances away, and that does 
meet this threat, militarily, where it needs to be met.
    We cannot do this by ourselves. We have no comprehensive 
strategies to deal with radical Islam, to include ISIS. We have 
no strategy in the region to deal with the morphing of radical 
Islam, as defined by ISIS and al-Qaeda. We certainly--as we've 
all been saying, we have no strategy immediately to deal--
effective strategy to deal with this issue in Iraq and Syria.
    So, I agree with you, that is the start point that we 
should have to deal with this problem. Then you start to put 
underneath that those things that make sense. And we've got to 
bring our allies into this in a very cohesive way. Listen, 
they've--we have their attention. The Iranians are forcing 
their attention, ISIS is forcing their attention, and the 
spread of al-Qaeda. We have to help them organize to do this 
effort, and bring the means to deal with that. And not all of 
that is kinetic. And certainly most of it is not U.S. military 
power.
    Senator Ernst. Yes. Thank you very much.
    And, General Keane, you brought up Iranian influences. And 
since I have come into the Senate, I have been very, very 
concerned about the Iranian influence with the Shi'a militia. 
Here we have the Shi'a militia pushing back against ISIS, and I 
would love to hear a little bit more about that Iranian 
influence with the Shi'a militia. Where do we go from here? 
Assuming that we do take care of ISIS, the Shi'a are 
controlling areas, but their intent, I think, could easily turn 
against American influences, American soldiers that might be on 
the ground there. So, as we look at arming the Shi'a militia, 
if we talk about that, engaging with them, just remembering 
that they are being influenced heavily by the Iranians, and--
what would your thoughts be on that?
    Dr. Kagan. Senator, I'd like to say I don't think the 
Shi'a--the Iraqi Shi'a are the problem. And there are elements 
in the Popular Mobilization Forces and so forth that I think 
are not pro-Iranian and do not desire to be governed by Iran. 
We've seen this repeatedly. And, of course, this is the view of 
Grand Ayatollah Sistani and his--the people who follow him, is 
that Iraq is an Arab country, it's not a Persian country, and 
they don't want to be dominated by Persians.
    However, the most effective Shi'a militia forces are part 
of the Iranian military, de facto. The Badr Corps, run by Hadi 
al-Amiri, reports to Qassem Suleimani, the commander of the 
Quds Force. Kata'ib Hezbollah, run by Muhandis, reports to 
Qassem Suleimani, commander of the Quds Force. And we have seen 
this repeatedly. So, we have--it's not a Shi'a problem. It is a 
specific problem of Iranian--they're no longer even really 
proxies. They're now really extensions of the Iranian irregular 
military forces, and those are the elements that are now 
leading the charge into Ramadi, which is unacceptable.
    They also helped to get us off track by launching the 
attack on Tikrit on their own, spontaneously, which then 
failed, and we had to bail them out, which was an enormous 
positive turning point for us, because it demonstrated the 
limitations of the ability of those Iranian-controlled Iraqi 
militias to take this fight to the enemy. We have just not only 
undone that benefit that we gained from that, but moved many 
steps back. And if, in fact, these groups are successful in 
retaking even part of Ramadi, when the troops that we backed 
failed, it will demonstrate the viability of these elements 
within Iraq in a catastrophic way that will undermine Prime--
any independence Prime Minister Abadi might have, any 
independence the ISF might have, and be a significant extension 
of Iranian military power, not just political influence, in the 
region.
    Senator Ernst. Thank you.
    Chairman McCain. I'd just----
    Senator Ernst. Yes, I--my time is way over, Senator.
    Chairman McCain. I was going to say, I'm glad you were able 
to have----
    Senator Ernst. I could go all day.
    Chairman McCain:--this encounter. I hope you'll have them 
over to your house for dinner.
    Senator Ernst. I would love that.
    Thank you very much, gentlemen.
    Chairman McCain. Before I turn to Senator Kaine--and I 
apologize for this disjointedness of the votes on the floor--
I--maybe, General Keane and Colonel Harvey, particularly you 
two, can respond to this. I don't know if there's a real 
logical argument to the--that would counter what has been said 
here today, as far as the assessment of the overall situation 
is concerned, because I think the facts on the ground are--
would indicate that there's strong support for the argument or 
the position that you have stated. But yet, we have members of 
the military, who many years of experience, who have fought in 
Iraq and Afghanistan, and yet, as military spokesmen, or even 
military leaders, make statements that are totally divorced, if 
not--I won't say ``reality,'' but certainly is directly counter 
to the testimony that you have given here today. I do not 
understand it.
    Maybe, Colonel Harvey, could I begin with you?
    Colonel Harvey. Sir, what I find is, quite often our 
commanders and leaders are misreading the operational 
environment that they're dealing with. They don't understand 
the enemy well enough. And part of the problem there is, the 
intelligence that they get is reporting of information, it's 
not being put in context in a very insightful and deep way to 
understand how they are organized, how they really think, 
tactically, operationally, and strategically. It's reporting 
history rather than thinking about who they really are and what 
the enemy's doing.
    Chairman McCain. Does that account for statements like, 
``We're winning''?
    Colonel Harvey. Because they're looking at the wrong 
metrics. As I said in my opening statement, sir, you know, in 
order to get the context, you really need to deep--have the 
deep dives and focus in on this, and quit looking at this on a 
day-to-day basis. And you have to have an operational 
construct. You have to understand who the enemy is and how 
they're going to win. You--and probably we need better 
alternative analysis about this, and be truthful to ourselves 
about how we're doing in our lines of operation.
    Chairman McCain. So, this is an argument for Team B.
    Colonel Harvey. In part, yes, sir. We had group-think 
before, in 2005 and 2006. In May have 2006, we were being told 
that everything's on track----
    Chairman McCain. I----
    Colonel Harvey:--we're doing fine.
    Chairman McCain. I remember it well.
    Colonel Harvey. Yes, sir.
    They get built-in assumptions and they're focused in what 
their mission set is. Where is the order to actually impose our 
will and defeat the enemy? How are we going to align our force 
structure and all of our national capabilities, in partnership 
with allies and folks on the ground that we can count on, to 
build momentum, to impose our will, to establish security? We 
don't think in those terms anymore. We talk about management 
rather than breaking the will of the enemy.
    Chairman McCain. General Keane.
    General Keane. Yes, sir. I mean, it--I share your 
frustration. I know we all share it. We talk about it among 
ourselves quite a bit. We just had a spokesperson, last week--I 
think that's probably what you're referring to--who made a 
report, you know, to the American people at large, that we, in 
fact, were succeeding against ISIS, that we're pushing back 
against them, and that they're only capable of conducting small 
attacks against us.
    Chairman McCain. Right----
    General Keane. That hasn't----
    Chairman McCain.--before Ramadi fell.
    General Keane. That hasn't been true since we started, and 
certainly isn't true now. So, one, how do we--this committee 
members, when I provided testimony in 2006 and we were pushing 
against the narrative at that time by senior generals and 
Secretaries of Defense, et cetera, we were asked the same 
question. How could that be? How could capable people, well-
intentioned, be so wrong, in general sense, is the issue. And I 
think once we make up our minds that we're going to do 
something inside this military culture, we drive towards it. 
And we have a tendency, to a fault, to see those indices that 
contribute to what that mission success is, and to disregard--
not wholly, but to minimize those things that are really 
pushing against it. That's inside our culture.
    How do you fix that? One way, and one way only: competent 
leadership fixes that. You don't permit that to happen, because 
you are driving honest, tough, deep-dive assessments of what's 
taking place, ``This is what we're trying to do. These are the 
four things we said we were going to do. How are we doing 
that?''
    How could you ever come to the conclusion that ISIS is 
losing if it enjoys freedom of maneuver, a principle of 
warfare, and it can attack, at will, any place of its choosing 
at any time of its choosing? If a force has that capability to 
do that, and gets results as a--as a manifestation of that, 
then that force, in fact, by definition, is winning.
    And so, the leader should say to those subordinates below 
him, say, ``What are you talking about? You're--what you're 
telling me, none of that makes any sense. This is what this 
force is doing. This is what they're capable of. We have got 
this wrong, and how are we going to fix it?'' That is about 
competent leadership.
    Chairman McCain. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    I'm jealous of my colleague's 13 minutes, and I hope my 
other colleagues don't come back, and then I may try your 
patience and go over time.
    Dr. Kagan, you said something that I wrote down, just like 
a bolt of lightning, ``We should not just be spectators.'' You 
were going through the atrocities that ISIL is committing, and 
who they are, and how dangerous they are, ``We should not just 
be spectators.'' We are spectators. Congress--Congress has been 
a spectator. Since August 8, we've been a spectator.
    Absent the one vote, in September, that we took to arm 
Syrian moderates, there is no evidence that Congress is 
concerned at all about ISIL. None. Our allies have no evidence 
that Congress is concerned--as an institution; I'm not talking 
about individuals--our allies have no evidence that Congress is 
concerned about ISIL. ISIL has no evidence that Congress is 
concerned about ISIL. But, most tragically, the thousands of 
people--United States men and women in service who are deployed 
and fighting this battle every day, they have no evidence that 
Congress is concerned about ISIL, in the least.
    We've been at war since August 8. Everybody calls it a war. 
The President calls it a war. Within 2 weeks, the Article 2 
mission to defend the Embassy and the Consulate in Arbil were 
pretty safe. He said, ``We've got to go on the offense against 
ISIL.'' And Presidents since Jefferson have basically said that 
was the dividing line between an Article 2 power of the 
Commander in Chief and an Article 1 power, where Congress has 
got to declare war or authorize military action.
    But, now, for 9 and a half months, we have failed to do 
what is our fundamental job, what only we are supposed to do--
there's not been a declaration of war, there's not been an 
authorization for use of military force, there's been no House 
committee action, there's been no House floor debate or vote. 
There was one committee vote, in the Senate Foreign Relations 
Committee in December, but there's been no meaningful floor 
debate and no meaningful Senate floor action.
    How strange it is. We're in a Congress that loves to punch 
this President as an imperial President, and threaten lawsuits 
against him when he does stuff without congressional approval. 
In the most solemn responsibility under Article 1 that Congress 
has, we have been silent, when we've got all these people 
overseas who are risking their lives every day, we have been 
silent. It's Congress that's the spectators. We've got 
opinions. You know, we'd call the play differently. But, we're 
spectators when we ought to be decisionmakers.
    This is now a war, into the 10th month, without a clear 
legal basis. I call it extralegal or even illegal. The 
President, himself, has, in his own words, acknowledged that 
he's gone past the Article 2 power of imminent defense. The 
claim that the 2001 or 2002 authorizations cover an 
organization that didn't form until 2 years after September 11, 
that doesn't make any sense. It doesn't make any sense 
whatsoever.
    And yet, Congress has come up with one excuse after another 
to avoid taking action. The first excuse was this. The 
leaders--both parties, both houses--the four leaders went to 
the White House in June and said, ``Do not make us take action 
on this war. You do what you want. Do not make us take action 
in Congress before the midterm elections.'' And Congress 
adjourned, with an ongoing war, 6 weeks before a midterm 
election. The earliest adjournment since 1960 before a midterm 
election with an ongoing war, and we haven't done anything 
about it.
    After the mid-term election, then it was, ``Well, but now 
the Senate's going to change hands, so we shouldn't do anything 
gas a lameduck Senate, because there will be a new Senate.'' 
So, we waited til January.
    Then we came in, and a lot of folks said, ``Well, you know, 
we shouldn't do our Article 1 job, because the President hasn't 
sent us a draft authorization.'' I harshly criticize the 
administration for not sending in a draft authorization over 
right when they started this legal action. But, the fact that 
they didn't doesn't excuse Congress for not doing the job we're 
supposed to do.
    Now there's been an authorization pending before Congress 
since February 17, more than 3 months, and we still haven't 
done anything. I don't know what the excuse is now.
    I think you can only conclude that we don't want to take it 
up because we're either indifferent to this threat--and I don't 
think that's true. I think the real reason is, we don't have 
the backbone to take it up and do the job that Congress is 
supposed to do. And what that means is, while we're not doing 
our job, there are others who are doing their job. We deployed 
thousands into the theater of battle, two folks who are pilots, 
off the deck of the Theodore Roosevelt, which was--which is 
home-ported in Virginia, crashed a plane on takeoff the other 
day. We're deploying thousands, and they're risking their 
lives. We have had deaths of American servicemen in connection 
with Operation Inherent Resolve. We had--have had deaths of 
American civilians who were held hostage. ISIL didn't start 
executing American hostages until after we started bombing them 
on August 8. So, we've had American deaths as a result of this 
war. We still haven't done anything. We've had over 3,000 
airstrikes that the United States has--and we still haven't 
done anything. Now the costs passed the $2 billion mark in 
April, and we still haven't done anything.
    It's just--I never would have contemplated, before I came 
to this body, that there would be a situation in which Congress 
would tolerate an ongoing war and just stand back and say, 
``Well, I guess the President can just do whatever the 
President wants to do.'' It's just not supposed to be that way.
    And one of the reasons I'm glad that the Chair called this 
committee today, as I'm hoping that the challenging events of 
last weekend--not only the fall of Ramadi, but if you go into 
the details of that Special Forces operation in Syria--very, 
very serious. We were lucky that we didn't lose U.S. lives in 
that operation. It was very well done. But, this is complicated 
and detailed, and it's going to go on for a very long time. And 
I just wonder how much longer Congress is going to just be a 
spectator.
    I mean, we can criticize the White House and the 
administration strategy--and I'm going to, and we ought to keep 
doing it if we don't like it--but, we really haven't earned the 
right--we haven't earned the right to be critics as long as we 
stand back and don't do the one thing that Congress is supposed 
to do.
    Thank you, Mr. Chairman.
    Chairman McCain. I know there's a question in there 
somewhere.
    Senator Graham.
    Senator Graham. Well, thank you.
    Here's my question. Does the current strategy in Iraq and 
Syria have any chance to succeed?
    General Keane. Well, Senator, that's really been the basis 
of our testimony.
    Senator Graham. Well, I didn't hear it, so just----
    General Keane. I know.
    Senator Graham.--say no.
    General Keane. We'll gladly say it again.
    Senator Graham. Yes, say it again.
    General Keane. And respect you asking the question, quite 
frankly. The answer is no. It's----
    Senator Graham. Does everybody agree the answer is no? Does 
everybody agree that, in the current configuration, that the 
problems in Iraq and Syria present a direct threat to the 
homeland?
    General Keane. Yes.
    Dr. Kagan. Yes.
    Colonel Harvey. Yes.
    Senator Graham. I had a conversation with the CIA Director, 
yesterday, who echoed that sentiment. So, the average American 
needs to understand that failure in Iraq and Syria is putting 
the Homeland at risk because so many foreign fighters are 
flowing in, and they have the ability, potentially, to hit us 
here at home. Is that all correct?
    General Keane. Yes.
    Senator Graham. And I think, General Keane, you've 
described this strategy as not enough. Is that correct?
    General Keane. Yes. Absolutely. It's far from it. And we 
all, collectively, laid out some details to support that.
    Senator Graham. Do you see any way to defeat ISIL in Syria 
without a substantial Arab army involved?
    General Keane. I don't know how you get there. I mean, 
obviously, if we deployed tens of thousands of troops, 
ourselves, we could defeat ISIS in Syria. I don't think anybody 
here would recommend such an event. I think the people who have 
vested interests there should be involved, and I think they 
would get involved. I mean, you know that they've said as much, 
but we have to do something to change the momentum of the Assad 
regime.
    Senator Graham. Dr. Kagan, is it fair to say that no Arab 
army is going into Syria unless part of the--one of the 
objectives is to take Assad down?
    Dr. Kagan. Absolutely, Senator. That's going to be a 
precondition for--
    Senator Graham. Because they're not going to just fight 
ISIL and leave Assad in power, therefore giving the place to 
Syria. Is that correct?
    Dr. Kagan. On the contrary, sir.
    Senator Graham. I mean, to Iran.
    Dr. Kagan. On the contrary, sir. What we're seeing, I 
think, is increasing levels of support of various varieties to 
Jabhat al-Nusra as an alternative to the----
    Senator Graham. So, I want people to understand that our 
strategy is to empower a radical Islamic Sunni group to fight 
Assad rather than having an army on the ground that--made up of 
allies. Is that fairly accurate?
    We're choosing to work with terrorists----
    Dr. Kagan. I think----
    Senator Graham.--or somebody's--the Arabs are choosing to 
work with terrorists, because there's a vacuum created by us.
    Dr. Kagan. I think some people are choosing to work with 
terrorists because of the vacuum that we have created. I don't 
think that's the intent of our policy.
    Senator Graham. No, but that's the effect of the policy.
    Dr. Kagan. I believe it is, yes, sir.
    Senator Graham. So, we find ourselves where our allies in 
the region are supporting a terrorist group as a last-resort 
proposition because America is AWOL.
    Colonel Harvey, at the end of the day, do you see a 
scenario of dislodging ISIL, taking Assad out, that doesn't 
require a sustained commitment by the world to put Syria back 
together?
    Colonel Harvey. No, I do not see.
    Senator Graham. We're talking years, and billions of 
dollars.
    Colonel Harvey. I believe so, sir, yes.
    Senator Graham. All right. Sir, I don't want to butcher 
your last name. If this war keeps going on the way it is a year 
from now, do you worry about Jordan and Lebanon being affected?
    Mr. Katulis. I do, and especially Jordan, a country I've 
lived in and studied as a Fulbright scholar. We are doing 
important things to help strengthen that government, but it is 
feeling the force of not only the----
    Senator Graham. If we lost the King of Jordan, we'd be 
losing one of the most trustworthy allies in the region. Is 
that correct?
    Mr. Katulis. Correct.
    Senator Graham. I was told yesterday that there are more 
Syrian children in elementary school in Lebanon than Lebanese 
children. Does that surprise anybody?
    Mr. Katulis. It doesn't surprise me, but it should shock 
all of us.
    Senator Graham. Well, it should shock everybody. I've just 
made a statement that there are more kids in elementary school 
in Lebanon from Syria than Lebanese kids. So, if this war 
continues in its current fashion, it will create unending chaos 
in the Mideast that will change the map for generations to 
come. Do you all agree with that?
    Mr. Katulis. Yes.
    General Keane. Yes.
    Senator Graham. And there is no way to get Iraq right until 
you deal with Syria in a responsible manner. Is that correct?
    General Keane. That is correct.
    Colonel Harvey. Correct.
    Senator Graham. Iran is all in when it comes to Syria. 
Assad wouldn't last 15 minutes without Iran's help. Do you 
agree?
    Colonel Harvey. It's been critical to sustaining the Assad 
regime. They don't----
    Senator Graham. Do you agree that, if we gave Iranians, 
say, $50 billion as a signing bonus for their nuclear program, 
it's highly likely that some of that money would go to Assad?
    General Keane. And to the rest of his proxies that are 
seeking domination of the Middle East.
    Senator Graham. Have you seen anything to suggest the 
Iranians are changing their behavior for the better when it 
comes to the region?
    Dr. Kagan. On the contrary, sir. They're becoming more 
aggressive in many facets.
    Senator Graham. Would you say they're the most aggressive 
they've been in modern times?
    Dr. Kagan. Yes, sir.
    General Keane. Yes.
    Senator Graham. Would you say that the Iranians are 
directly responsible for topping--toppling a pro-American 
government in Yemen by supporting the Houthis?
    General Keane. They contributed to it, for sure.
    Senator Graham. Would you agree with me that, now that 
we've lost our eyes and ears in Yemen, al-Qaeda in the Arabian 
Peninsula is growing as a threat to the Homeland?
    Colonel Harvey. Yes.
    Dr. Kagan. Not only that, but ISIS is also gaining position 
in Yemen.
    Senator Graham. Do you agree with me that Syria is now a 
perfect forum to launch an attack from the United States 
because there are so many foreign fighters with Western 
passports?
    Colonel Harvey. Yes.
    Senator Graham. Do you agree with me that the Shi'a militia 
on the ground in Iraq are controlled by the Iranians?
    Colonel Harvey. Yes.
    Senator Graham. Do you agree with me that we're doing 
permanent damage to the ability of Iraq to reconstruct if we 
allow the Shi'a militia to continue to have dominance on the 
battlefield?
    General Keane. Yes.
    Colonel Harvey. Yes.
    Senator Graham. Do you see any good thing coming from this 
strategy being continued?
    General Keane. No.
    Colonel Harvey. No, sir.
    General Keane. It's destined to fail.
    Senator Graham. And there is a better way. We just have to 
choose that way.
    Colonel Harvey. Correct, sir.
    General Keane. Correct.
    Senator Graham. There is a better way. Do you all agree?
    Colonel Harvey. Yes, sir.
    General Keane. Yes, sir.
    Senator Graham. Thank you.
    Chairman McCain. Any more----
    Senator Cruz.
    Senator Cruz. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for being here. Thank you 
for your service and your leadership.
    I'd like to ask the panel, first, for your assessment of 
the current level of success we are seeing in the military 
campaign against ISIS.
    Dr. Kagan. It is failing, Senator. That's our--I think our 
assessment, generally, across the board, is that it is failing 
in Iraq, it is failing in Syria, and it is failing across the 
board in the region.
    Senator Cruz. Why is it failing?
    Dr. Kagan. In my view, it was ill-conceived to begin with, 
because it focused exclusively on Iraq. It was badly under-
resourced, and excessive restraints and constraints have been 
put on the limited resources that we were willing to deploy.
    Senator Cruz. Could you please elaborate on the excessive 
constraints that have been placed on our military?
    Dr. Kagan. Yes, sir.
    We have forces in theater that could have made a 
significant difference, I believe, in the fight for Ramadi, had 
they been allowed to embed at lower levels, had they been 
allowed to perform functions of forward air controllers and 
bring in precision air support, had the--some of the rotary-
wing aviation that we have in theater been used in direct 
support of that fight, had the forces that we have in theater 
been able to go out to the tribes and reach out to them 
directly rather than relying on the tribes to come to them. 
There were a number of things that even this limited force 
could have done, I think, that would have made a difference. 
But, the force was probably too limited to be decisive, in any 
event.
    General Keane. Yes. Now, just to add on to that, I mean--
you know, the military--these other components to the 
President's strategy, as you know--and there's huge problems 
with them, as well--but the military component is clearly 
under-resourced. There's not enough trainers, there's not 
enough advisors. And the role of the advisors is fundamentally 
flawed, itself. The advisors have to be down where the units 
are doing the fighting, at least at the battalion level. What 
reason is that? Because they help them plan, they help them 
execute, they contribute to their success, they have the 
capability to call in airstrikes, they have the capability to 
use drones in support of those ground forces to help acquire 
intelligence for them, and they can use attack helicopters, as 
well.
    And therefore, the airstrikes that we currently have, which 
are excellent in taking out command and control, other 
infrastructure, logistic infrastructures, depots--essentially, 
facilities--they get--it starts to fall off very rapidly when 
you're dealing with mobile targets. And then, Senator, the 
overwhelming amount of combat that takes place, to use military 
terms, is close combat in urban centers that are populated and 
where we get--we, our forces, Iraqi forces--get very close to 
the enemy. To be able to do that, you have to guide the bombs 
from that airplane, take control of them. And that's called 
close air support. That's what we need the forward air 
controllers for.
    So, the effectiveness of our airpower is this: 75 percent 
of the missions that are flown come back with their bombs, 
because they cannot acquire the target or properly identify the 
target so they have some assurances that they're not going to 
hit--hurt somebody with those bombs that we don't want to be 
hurt. That changes dramatically if we put those forward air 
controllers on the ground.
    I'll tell you what. If you're fighting as the fighting took 
place in Ramadi, and, as that fight unfolded, the scenario 
was--they had prepared, for weeks, to get to Ramadi. This was 
not due to a sandstorm. This is taking out supporting towns, 
other attacks, diversionary attacks, that led to, finally, an 
assault using suicide-bombers' vehicles to do that. If that 
force had antitank weapons, they could have killed those 
vehicles. If they had Apache helicopters, they could have 
killed those vehicles. Those vehicles blew up and destroyed 
almost entire blocks, and destroyed entire units, because the 
explosives were so heavy on it.
    After that came the fighting forces, themselves. If--again, 
if we had close air support, we could easily deal with those 
fighting forces before they actually closed with the Iraqi 
military. Apache helicopters, close air support, would have 
significantly impacted them. And then we have a close fight, 
and assuming the Iraqi forces could deal with that.
    But, I would tell you this. Many of those Iraqi forces--
it's not reported--did fight heroically in Ramadi. And a lot of 
them fled. But, that resolve gets stiffened very quickly when 
they watch those suicide bombers get blown up before they get 
to them, when they watch those units--those caravans coming 
down the road after them get blown up before they get to them, 
because we have proper surveillance, we have resources that can 
deal with that--antitank guided missiles and the like. We start 
to change the dimension on the battlefield very significantly 
as a result of providing them with the proper resources.
    These are the constraints that are out there that are 
manifesting itself in the behavior of the Iraqi Security 
Forces. They have their own problems--leadership, discipline, 
morale, and competence. I'm not suggesting that they don't. 
But, there's a lot we could do that could make a difference.
    Senator Cruz. Let me ask one final question, which is: The 
administration is currently declining to arm the Kurds. The 
Peshmerga are fighting ISIS. They are effective fighters. They 
have been allies of America. In my judgment, the policy of not 
arming the Kurds makes very little sense. I would be interested 
in the panel's assessment of, Should we be arming the Kurds? 
And is the current policy reasonable and effective in defeating 
ISIS?
    Dr. Kagan. Sir, we--I think it's a consensus on the panel 
that we should be helping the Kurds defend themselves, but that 
the Kurds will not be able to be effective partners in retaking 
the portions of Arab Iraq that ISIS now controls, but that 
certainly we should be helping the Kurds defend themselves, I 
think.
    Chairman McCain. Could I point out the--actually, we're not 
refusing to arm the Kurds. The problem is, it goes through 
Baghdad, and the Kurds continue to complain that there is not 
the kind of facilitation of the delivery of those weapons. But, 
the Senator's point is, for all practical purposes, I think, 
correct.
    Senator King.
    Senator King. One of the--a phrase you just used struck a 
chord with me. It--there was weeks in preparation for going to 
Ramadi--raises the question of intelligence. And, General 
Keane, would you comment? Do we have adequate intelligence? Do 
we have any intelligence? And have we become too reliant on 
signals intelligence and, therefore, don't have human beings 
giving us information?
    General Keane. Yes, I mean, that's a great question. And 
it's more appropriately put to the military leaders when they 
come in here, because they have the details of it, and--but, 
this much I do know. My sensing, from talking to my sources, is 
the intelligence function is not robust enough. And it--yes, we 
are relying on national intelligence sources and some regional 
intelligence sources. Some of that is surveillance, some of 
that is, you know, signals intelligence, as well. But, there's 
a lot more that we can do to assist them. We use surveillance a 
lot to assist the use of airpower, because it's not controlled 
by forward air controllers. We need different kinds of 
surveillance in there to assist ground forces.
    When we were fighting in Iraq, and now finishing up in 
Afghanistan, our maneuver units used different kinds of drones. 
They've much smaller. They don't stay up, necessarily, as long 
as the ones that assist the airpower function. And they assist 
the ground commanders. That kind of capability there, 
controlled by United States, would dramatically make a 
difference for the ground forces that are in the fight, because 
that would give them the ability to see the preparations the 
enemy is making, to see the execution before they--it impacts 
on them, and, most importantly, to do something about it.
    I think the entire intelligence function has got to be put 
under review. We have a tendency to focus on other things that 
are kinetic----
    Senator King. Right.
    General Keane.--but the intelligence function, in this kind 
of warfare, is significant, in terms of its enhancing ground 
forces and air forces to be able to use their capabilities to 
the fullest.
    Senator King. And it's unfortunate that we continue to--we 
seem to continue to be surprised.
    Did you----
    Colonel Harvey. Sir, if I could, on the Ramadi issue, 
just--I'm at the University of South Florida, and, you know, we 
drafted a paper outlining that Ramadi was going to fall, early 
last week, and we were looking at data that's only available to 
us through open-source information, but understanding the 
enemy, their intent, trying to get inside how they're 
orchestrating the fight. And it's not just about having the 
intelligence, it's knowing what to do with the information and 
how to think about it.
    The warnings were there, the indicators were there. If we 
could see it, at the University of South Florida, and others 
here in--like the Institute for the Study of War, I think, also 
saw that--then we shouldn't have been making public statements, 
midweek, officially saying that Ramadi was not going to fall, 
that it wasn't really under threat, because that creates 
another problem of its own, because then you have the collapse, 
and it looks like there's a real problem in our communication 
and understanding at the most--highest levels of our 
government.
    Senator King. Well, and also it makes the ISIS look 
invincible and more powerful, and that's--helps in their 
recruiting, and it becomes a self-fulfilling prophecy.
    You've made a strong case for things like close air 
support, forward controllers, all of those kinds of things. 
But, isn't one of the fundamental problems--we could have all 
of those assets, but, if the Iraqi Security Forces don't have 
the will to fight, and if the local population doesn't have 
the--any confidence in the government in Baghdad, it's still a 
very difficult, if not impossible, proposition. Can you give me 
some thoughts on that?
    Dr. Kagan. Senator, I agree with the statement that you 
made. If those two conditions are true, then it's difficult, to 
impossible. I don't think it's true that the Iraqi forces don't 
have the will to fight. I think they do have the will to fight. 
But, I think, as General Keane pointed out and as we've seen 
repeatedly, will to fight is one thing, belief in your ability 
to succeed is another critical component to will to fight. And 
that's one of the things that we have provided, historically, 
to our allies in Iraq and Afghanistan, and also to NATO allies 
and various other partners who rely on our overmatching 
military capabilities just as much as the Iraqis would. We can 
make it so that the Iraqis don't have to worry about being 
overrun. That's what we used to do. We are allowing them to be 
overrun in these circumstances. And that erodes their will to 
fight, significantly.
    Your point about the political accommodation is also 
incredibly important. We absolutely need to have an Iraqi 
Government that is prepared to reach out to Sunni effectively. 
And we haven't seen that. Unfortunately, the more that we try 
to subcontract these conflicts to local forces in preference to 
our own----
    Senator King. Then you're talking about the----
    Dr. Kagan.--you get a----
    Senator King.--Shi'a militia.
    Dr. Kagan. Exactly, sir.
    Senator King. Which only exacerbates the sectarian 
conflict, which makes ISIS look good to the Sunni chiefs in 
Anbar.
    Dr. Kagan. Or more tolerable, perhaps, than the 
alternatives.
    Senator King. Yes. I don't think they look good to anybody.
    Dr. Kagan. Yes, sir.
    Senator King. It's--but, if they don't have confidence--I 
mean, isn't that one of the fundamental problems here, is that 
ISIS has been swimming in, if not a friendly sea, at least a 
neutral sea, in terms of the Sunni provinces?
    Dr. Kagan. I think it's a very fearful sea. And I think 
that that's--you know, we shouldn't forget that terrorism works 
both ways, and these guys are incredibly brutal in dealing with 
the populations that they control. So, people are going to 
require a certain amount of assurance that, if they rise up 
against these guys, that they will win, because it--the 
alternative is that they will be completely destroyed as 
communities.
    General Keane. You know, the other thing is, the force that 
we had in Iraq, the Iraqi Security Force that took us--it took 
us a while to get them to be effective, to be frank about it. 
And one of the things that made them very effective during the 
surge period, where General Petraeus changed the dimension on 
the battlefield, and he said, ``We're not just going to provide 
them advisors, we're going to ask them to fight side by side 
with us''--platoon, side by side; company, side by side; 
battalion, side by side. That dimension exponentially increased 
the capability of the force, because they could see what right 
looked like. They could see it. It was right there. A sergeant 
could see a U.S. sergeant's performance, how he acted under 
stress. Soldiers could see it. Other leaders could see their 
counterparts' performance.
    So, that force grew rather dramatically, and we were there 
multiple weeks throughout 2007 and 2008, the three of us on 
this side of the table. And that was an effective force. And I 
can tell you for a fact, because I saw it with my own eyes, I 
saw battalion commanders, brigade commanders, and division 
commanders distinguish themselves in combat and under 
significant stress. And we felt good about that force. We were 
saying, ``Wow, they finally--they've got it together.'' What 
happened to that force? Well, so much attention has been placed 
on Maliki's malice in what he did to undermine his political 
opponents. He destroyed that force, because he saw those 
distinguished leaders, who were accomplished as a result of 
their performance on the battlefield, and their people were 
devoted to them--he saw them as threats to him, politically as 
well as his political opponents. And he undermined that force. 
He purged that force.
    So, that force is not there, the one that we used to have. 
He put in these political phonies and cranks and other people 
who didn't have the military competence. Well, that--changing 
leadership and getting that leadership back, and others who are 
willing to have that kind of commitment and competence, that 
takes a little time to fix. But, the fact that we did have it, 
Senator, at one time, and it was pretty good, tells you that 
there is something there that we can work with, and we can get 
it back there. Whether that can be done in time is another 
issue.
    Senator King. Looks around--I may be the chair now, so I'm 
going to give myself another 10 seconds.
    One simple question, though. In 2007-2008, how many 
Americans were in Iraq?
    General Keane. Certainly. I mean, we had somewhere in the 
neighborhood--correct me if I'm wrong, guys--about 130,000 in 
Iraq. And that's how that force grew to the--but, what I'm 
saying to you is that, when we finished, when we had completed 
our involvement in Iraq, the force that we'd left there was a 
capable force, the Iraqi Security Force.
    Senator King. I understand that. The question is, What do 
we have to do to rebuild it? That's the question.
    I'm out of time.
    Senator Sullivan [presiding]. Thank you, Mr. Chairman.
    Gentlemen, thank you for your testimony.
    I wanted to talk at--initially, about the issue of 
credibility. There's been a lot of discussion about how we've 
lost credibility with our allies in places like Syria. But, I 
also want to talk about the importance of the issue of 
credibility with the American people. And there has been, I 
think, a narrative in the administration that has not been 
helpful, in that there's been an emphasis on the fact that we 
are now--our combat role in the Middle East is now finished. 
Well, of course, it isn't finished. Just tell that to the 
pilots who are flying daily missions. We think of combat in 
terms of the infantry soldiers, but a lot of times we forget 
the brave men and women who are flying these missions, daily. 
And they're--that's combat. And obviously, also, with the 
recent Delta Force mission by some very brave Americans, that's 
boots on the ground. So, we're in combat. We even have boots on 
the ground, but there's still this narrative that somehow we're 
done.
    So, General Keane, what I wanted to ask you, first of all, 
is, Do you think that this narrative, which is a false one, in 
my view, has inhibited our ability to actually develop a robust 
strategy we're talking about? Do we need JTACs, do we need 
other forces on the ground? And yet, we're competing with a 
narrative from the White House that says, ``No, no, no, no, 
we're done.'' And it seems to me that would be a limiting 
factor to developing a strategy that ultimately is--would do 
what we all want it to do, which is protect America's national 
security interests.
    General Keane. Well, yes, I certainly--when I look at it 
and try to speculate about what is driving some of our 
decisions, what is driving our narrative, you know, one of the 
things I've observed since I've been closer to it in recent 
years than when I was when I was a younger officer, is that 
most administrations, Democratic or Republican, have a tendency 
to overreact to what took place in the previous administration. 
And I think this one is no exception to that, making a--making 
it a principle of the administration to have a guarantor that 
we will not be involved in any military activity in the Middle 
East or in South Asia that could lead to another protracted 
war. And I think that's probably good--a good principle. But, 
the issue is, that should not trump what's necessary to do, 
given the fact that ISIS represents a new organization----
    Senator Sullivan. Yes.
    General Keane.--with new leadership, a new vision, in terms 
of its global and regional strategy, and that it is a barbaric 
organization committing genocide, assassination, enslavement of 
women, and raping of women, as we all know, and that it is 
fully intent on conducting a religious war based on their 
ideology. And we cannot let the rearview mirror of Iraq and 
Afghanistan so disincentivize us to deal with the reality of 
what this is. And I'm convinced that the American people, when 
we inform them----
    Senator Sullivan. Yes.
    General Keane.--and we educate them, and we take them 
through this--I mean, I dealt with the Bush administration. 
They never truly explained what radical Islam is and why it was 
so dangerous. We never truly took apart the ideology.
    Senator Sullivan. Yes.
    General Keane. We never truly fashioned a strategy to deal 
with it in a comprehensive way.
    Senator Sullivan. Can I--I'd like to follow up----
    General Keane. Here we sit, with the same problem today.
    Senator Sullivan. I think that's a great point, and it's 
something that I think--my own view is that you're directly on 
point. If we level with the American people, talk about the 
threats, talk about the strategy, that--it's really important--
many of you have been raising that--I think everybody 
recognizes what we--you know, once we lay that out, what we 
would or wouldn't have to do to address it.
    So, let me ask a kind of a related question for Mr. Kagan. 
You've written on the long war, the idea of--that I think 
sometimes we look at what's going on with ISIS and other issues 
in the Middle East and think, ``Hey, we're going to have this 
done in a couple of months--18 months, 20 months, maybe a 
couple of years.'' Do you think that there is an importance to 
having the leadership, both in terms of Congress, but 
particularly the executive branch, talk more broadly--and 
again, level with the American people--about that this might be 
a generational conflict, this might be akin to the Cold War, 
where we've got to lay out a broad strategy--and, Mr. Katulis, 
I think your point, early on in your testimony, about the need 
for a strategic concept is so important--lay out a strategy 
that the executive branch, the legislative branch, and the 
American people can get behind, and then execute it. And level 
with the American people that this might not be done in 18 
months.
    So, would any of you care--Mr. Kagan, I know you've written 
about the long war. Could you--would you feel free to talk 
about that?
    And, Mr. Katulis, I'd be very interested--when you talked 
about the strategic concept. What is it? Obviously, 20 seconds 
left, that's a big topic. But, if you could point us in the 
direction of your writings or some principles that all of you 
have thought about, I think that would be very helpful.
    Mr. Kagan?
    Dr. Kagan. Senator, I mean, this is a generational struggle 
that we're in, at least. It may be longer than----
    Senator Sullivan. But, we don't talk about it that way, do 
we----
    Dr. Kagan. No, on the----
    Senator Sullivan.--very much?
    Dr. Kagan.--contrary. I think your first--the point that 
you opened with is a very important one, that when the 
administration's narrative is that we're ending the wars, it is 
impossible to develop an--a coherent strategy for fighting the 
wars. And we do need to understand that this is a war. This 
is--these are battle fronts on a common war that is going to 
last for a long time. And we don't get to end it unless we win. 
But, you don't get to decide--we may not be interested in war, 
but war is interested in us. And this is going to continue to 
be a problem. And we need to level with the American people, as 
you say, as a basis for developing any kind of strategy. I 
totally agree with you.
    Mr. Katulis. I think we need to define what we want to 
achieve. Quite often over the last 14 years, in Afghanistan, in 
Iraq, now with ISIL, we define our objectives in terms of what 
we're going to counter and defeat. That's important. But, what 
has been missing, I think, comprehensively, whether it's in a 
particular theater, like Iraq or Syria or Afghanistan, is the 
definition of what we actually need to leave behind in those 
societies, how we help others help themselves.
    I do believe, at certain points--President Bush certainly 
did this; certain points, President Obama does this--talks 
about the long-term nature of this. If you look at their 
planning documents, at least, for the anti-ISIL strategy, it 
doesn't say, ``Let's end this.'' As the administration used to 
say about Afghanistan and Iraq, ``We're going to end it at a 
particular period of time.'' It extends into who will be the 
next President.
    But, your point is terribly important, and I have written 
several articles and a book about this, too. It's important, 
because, for our own society, there is a new generation, called 
Millennials, that are actually, this year, in number, larger 
than the Baby Boomers or--I'm a Generation X-er. Our leaders 
aren't messaging in a cohesive way. And I think part of it is 
the partisanship that we have in our politics and other things. 
And I--I'm a strong centrist internationalist. I believe that 
we need to bring the American people along with us.
    And something Senator Kaine has said here earlier and 
before is that the debate that we need to be having on the 
authorization of the use of military force, and action on it--
this is a moment which has not been seized. You could criticize 
the administration or you could criticize whomever in Congress. 
There's been this muddle. And I think part of the reason, it 
goes back to, we actually haven't defined for the American 
public, in the way that Fred and others have argued here, that 
the United States has a special leadership role in the world. 
Our leadership--countries in the region are still looking to us 
to actually do more. But, we need to actually take those steps 
beyond the questions on military and security steps, which are 
terribly important. We need to actually, then, talk about, How 
do we defeat these ideologies? We've done it before, with 
Naziism or Communism. You know, they're on the margins. Our 
model is much better. Our values are better. But, what happened 
to the battle of ideas? We had that debate for a couple of 
years after September 11. We kind of rediscovered it for a 
little bit. But, I think our ADD, our attention deficit 
disorder, in our own society--and that's what I would say is, 
as thought leaders, as leaders in Congress, we all have a 
responsibility to continue to talk about this in a sustained 
way.
    Senator Sullivan. Thank you.
    Thank you, gentlemen.
    Senator Kaine [presiding]. We've all had one round, but if 
anybody has a second round--I'm just going to seize the moment, 
here, to continue for a few minutes, if we can.
    I'm interested--we've had visits in the Senate Foreign 
Relations from leaders that are our allies--King--the King of 
Jordan, in January; the Emir of Qatar, in February. We've had 
discussions with Saudi leadership, including the Saudi 
Ambassador. And every time we have these discussions, I ask 
them, ``Tell us what you think the role of the United States 
should be, vis-a-vis ISIL, the battle against ISIL.'' And, in 
particular, because this is a point of difference among some on 
the Foreign Relations Committee, I've asked about the--their 
thought about American ground troops. I want to tell you what 
they've said, but then I'm curious about your opinions about 
what they've said.
    The King of Jordan said, ``That would be a mistake. This is 
our battle, not yours. And if it gets positioned as the United 
States against ISIL, then that will not be a helpful thing. If 
it's--we stand up against the terrorist threat in our own 
region, and the United States helps us in a vigorous way, but 
clearly a supporter, not the main driver, that's the way this 
should position, and significant U.S. ground troops would--just 
like the United States is doing 90 percent of the airstrikes, 
the significant U.S. ground troops would make this the United 
States against ISIL.''
    The Emir of Qatar said, similarly, ``If there's significant 
ground troop presence from the United States, this will be 
the--a recruiting bonanza for ISIL.''
    In Saudi Arabia--and this--the meetings with the Saudis 
occurred right after the Saudis had gone in a major way into 
Yemen, but--so, they're--you know, they're willing, at least 
somewhere, to take some significant military action to deal 
with threats in their own region, but they also said, ``U.S. 
ground troops against ISIL would be problematic.''
    Now, I don't--you know, I'm not--I didn't read that to say, 
``not even one,'' or ``under no circumstances.'' But, they were 
very wary about the notion of U.S. ground troops.
    So, we're trying to work that out on the Foreign Relations 
Committee as we think about an authorization. Are they right? 
Are they wrong? Of, if they're right, how would you square that 
with what a U.S. presence, U.S. support should mean?
    Mr. Katulis. If I could start. It's why I--the thrust of my 
remarks were on this coalition.
    I actually think, for all of the criticisms of the Obama 
administration's strategy, some of which I share, this is the 
one component that simply did not exist before. It's one that 
has been underutilized, I believe. I do think that things like 
the Gulf Cooperation Council (GCC) Summit last week, though 
there were a lot of optics and news articles about it, there is 
a conversation to try to build on, What can we do in 
partnership with them?
    So, I think if there's one thing we should have learned 
from 2003 to 2010 or '11 in Iraq, is that, yes, U.S. forces can 
have an important impact on the security situation there. But, 
there's also downsides to having such a visible presence.
    I don't think anyone on the panel--unless I misheard it--
was talking about ever going back to, say, a 2006-2007 posture. 
But, I do think striking the right balance is the key question. 
I think the administration has been understandably reticent 
about what it does in Iraq, Afghanistan, Syria, and other 
places, given the unforced errors on the part of the United 
States. But, this regional dynamic has shifted quite a lot, 
which is what I was trying to emphasize.
    The region, itself, recognizes that the United States, in a 
very visible presence on the ground, does have significant 
downsides for their own legitimacy with their own populations. 
The region also is taking action in what it sees as its own 
self-interest. What I was trying to say, in terms of a 
multidimensional--it's not only security support; it's 
investment in media campaigns and different political forces 
across the region.
    Where I think the U.S. strategy right now--and again, it's 
more honed in on what my expertise and focus is--where we need 
to enhance it more is working with those reliable partners, 
from Jordan to the United Arab Emirates to Saudi Arabia to a 
number of different allies, including the Kurds we've talked 
about, and some of the Iraqis, to actually take what has been a 
significantly larger amount of resources in energy and activity 
and channel it towards more constructive purposes. I don't see 
that happening in Yemen right now. I don't see that happening 
yet in Syria. And I don't see that happening in many other 
theaters.
    So, I think the basic answer to the question--the leaders 
that you spoke with, I think, are reflecting a very popular 
view at the popular level in their countries, as well. They 
understand that, for whatever happened in the Iraq War, the 
surge, and other things, the United States is better sort of 
seen as a backbone of support behind them, as opposed to 
visibly out in the front.
    Dr. Kagan. Senator, I think we need to distinguish between 
the ideal and reality. Ideally, of course it would be better 
for regional states to take care of regional problems, and 
regional militaries to be involved, with a caveat that we do 
have a regional war going on, and the regional actors we're 
talking about are being seen as on one side of that. So, we 
need to think about what the Iranian reaction would be to Saudi 
divisions deploying into Iraq on behalf of the Iraqis. I don't 
think we would enjoy that very much. And I think it might be 
worse, actually, than the Iranian reaction to the deployment of 
U.S. forces in there. So, it's a complicated dynamic.
    But, look, in the world of reality, the Jordanians, they 
don't have the forces to do this. The Saudis don't have--the 
regional militaries are not capable of providing the kind of 
assistance to Iraq that we can provide. They don't have it in 
their force structure, they don't have it in their----
    Senator Kaine. How about the Turks?
    Dr. Kagan. The Turks might be able to provide some element 
of it, although no one provides the capability that the United 
States provides to its allies, including the Turks, and they 
would still be dependent on us.
    But, again, the--I'm really not sure that the optics of the 
return of the Ottoman Empire in force to Iraq would be better 
than the optics of having a limited number of American troops 
on the ground there. So, I think that the regional leaders 
you're talking to are expressing an ideal version of a strategy 
which we would all like to see, but it's not in accord with 
reality.
    And, as you think about an AUMF, I would say an AUMF in 
which Congress micromanages what forces can or cannot be sent, 
and thereby, in my opinion, infringes somewhat on the 
prerogative of the President to choose how to fight a war that 
Congress authorizes, but also, in this circumstances, that 
would constrain the deployment of American ground forces when 
they are so clearly necessary, would be extremely damaging.
    Colonel Harvey. Senator Kaine, if I could.
    This reminds me of the myth that I heard in Iraq about: 
United States forces were the generator of the antibodies that 
caused the insurgency. It was a real misreading of what was 
going on in Iraq in the drivers of the fight.
    We have to be focused on what are U.S. interests and how do 
we defeat this enemy. And the seeds of strategic failure are 
found in failing to define that enemy, define our interests, 
the costs, and the risks. And if we do those things, and we 
think about our interests, it will drive us to engage more 
seriously than we have, in my mind. I think it's a very similar 
situation today. We study radicalization, recruitment for the 
foreign fighter flow. The United States presence in Iraq is not 
going to dramatically increase the foreign fighter flow. It is 
being driven by a range of issues and the different types of 
recruits that are being pulled in from Tunisia and elsewhere. 
The driver within Iraq is not the United States presence, it's 
Shi'a domination, it's the fear for their future and their own 
lives and lack of political inclusion, et cetera. That's the 
issue we need to get our head around.
    General Keane. Yes, I agree with what everybody's said 
here, and I think we talk past each other a little bit on this 
issue. No one here, certainly, is advocating that we should 
have ground units that are occupying towns and villages, and 
securing them, and therefore, protecting them from ISIS attack 
that would put us right in the mainstream of defending against 
ISIS. Now, I think that's unnecessary, and it would be a 
mistake. But also, when we have a policy that says ``no boots 
on the ground,'' that doesn't make any sense, either, because 
it denies us from having advisors that have a role to play, it 
denies us with--from forward air controllers that have a role 
to play, as we pointed out, and other military capabilities 
that are unique to us. And we've elaborated on what they are. 
They are significant enablers that make--would make a 
difference in what the 60 nations have agreed to do, which is 
support the Iraqi ground forces, as imperfect as they are. But, 
let's give them a better hand to play than what we are doing. 
And I don't believe there is a single nation that would object 
to anything of what we are describing is--are enablers that 
would make a difference.
    Second, when it comes to Syria, I think this is a 
difference. And if you spoke to them about that, you know what 
their view is about Assad. We've already dealt with that in the 
regime. And they know full well that the deal with ISIS in 
Syria, this is going to take a ground force, and they would 
have to contribute to that ground force. I would think that 
they would logically ask us to participate in that with them. 
We would--I don't think we would necessarily have to be the 
largest contributor, but I think we would have to participate. 
And I think they would reasonably want us, too, because of our 
experience and our capabilities, if we would actually lead it. 
Maybe not.
    But, I think those two things would probably be on the 
table for discussion. And I think it's reasonable that that 
kind of allocation of United States capability and leadership 
to deal with ISIS in Syria is, in fact, an eventuality.
    Senator Kaine. Senator Blumenthal, do you have questions 
for the panel?
    Senator Blumenthal. I do. Thank you very much.
    Thank you all for being here and for your very thoughtful 
and eloquent remarks. I was here for the beginning remarks. 
Unfortunately, as so often happens here, I was diverted to 
another committee meeting after our vote.
    I want to come back to what Mr. Kagan was describing as the 
``evil'' of ISIS/ISIL and the absolutely horrid, unspeakable 
acts of brutality that they commit--mass rape, mass murder. And 
I agree with you that they are one of the most evil, maybe the 
most evil institution in history. We can argue about it. But, 
when I go home this weekend, most folks are going to ask me, 
What's the threat to the United States? And 50 years from now, 
others will be sitting where you are, and where I am, talking 
about probably other evil institutions that are committing mass 
brutality. Because that seems to be, unfortunately and 
tragically, the nature of the human condition. It's happened 
throughout our history. And I think the ordinary person in 
Connecticut over the Memorial Day weekend is going to wonder 
what our role should be in stopping that from occurring unless 
there is a threat to this country. So, perhaps you and others 
on the panel could tell me what I should tell the people of 
Connecticut about why the United States should be involved, 
whether it is Special Operations Forces or better air support 
or whatever the involvement is, and why that matters to our 
security.
    Dr. Kagan. Senator, I think it's a fair question. And, as a 
Connecticut native, I'm--I am concerned about what you have to 
tell the Connecticut people to get them onboard with this.
    May I start by saying--as I was driving down to Virginia 
the other day, I drove past the Holocaust Museum, and I saw, 
again, the sign that's up there that is always there, which is 
``Never Again.'' And I would submit that we need--one of the 
things we need to tell the American people is that America is 
not historically a country that watches these kinds of 
atrocities on this scale occur and does nothing. It actually is 
a core American value to take a stand against these kind of--we 
do it very late, we did--we try to talk ourselves out of it, we 
have long arguments about it, but, ultimately, we generally do 
it. And that's one of the things that makes us America. And I 
think we really shouldn't lose sight of that moral imperative 
as we talk about this.
    But, your comments are very well taken, sir. The reality 
is, ISIS poses a clear and present danger to the United States 
Homeland. It has already been encouraging, condoning, and 
applauding lone-wolf attacks here. It has made it clear that it 
has the objective of attacking America and the West, that it is 
actively recruiting cells in America and the West. And it will 
do that with the resources of a ministate behind it, which is 
something that we have never seen before with al-Qaeda. This is 
not a group of bandits hanging out in the mountains in 
Afghanistan. And that attack was devastating enough. But, if we 
reflect on the resources that ISIS has access to, controlling 
Mosul, Fallujah, Ramadi, al-Raqqa, oil infrastructure, the 
resources that were in various universities in Mosul and so 
forth, that--thousands of fighters, tens of thousands of 
recruits--this is an army, and this is an army that is very 
sophisticated and has an ability to conduct operational 
military planning and execute it that is in advance of anything 
that I've seen from any of these groups. And it has declared 
its intention to come after the United States, and shown a 
willingness to do that. That is something that I think the 
people of Connecticut need to be concerned about.
    General Keane. Yes, I would certainly agree with what Fred 
is saying, is that it should be a concern to us, in a couple of 
ways. Certainly, what they are doing to motivate and inspire 
others who are not necessarily in the region but are in other 
countries and are--can identify with this movement, and many of 
them are self-radicalized or possibly they're already 
radicalized, but they're motivated to take action, and take 
violent action. We've seen plenty of evidence of that.
    And the longer you permit the organization to succeed--can 
you imagine what has gone out on the Internet from ISIS around 
the world as a result of their success in Ramadi, and how that 
has motivated others, that ISIS, in fact, is winning, and 
they're standing up against the United States, they're standing 
up against these strong allies of the United States in the 
region and Europe, and they're actually winning? So, there's 
huge danger there. As long as you let this organization stay 
and we don't decapitate it, then they--the motivation and 
inspiration of self-radicalization continues to grow. That's 
one thing.
    The second thing is, in the region itself--and we showed on 
a map--they're moving into other countries at the same time 
they're defending what they have in Syria and Iraq, and 
expanding in those countries. This is what makes this 
organization so very different than what we've dealt with in 
the past. And they're looking at Libya as a--because of the 
social and political upheaval in Libya--and there's hardly a 
government there and anybody to push back on it--they're going 
to put huge resources in there. Why are we concerned about 
that? Our interests in the region, our interests in North 
Africa, that would be on the southern tip of NATO there, not 
too many miles away from Italy. In Afghanistan, they have 
expanded rapidly, beyond most of our expectations, I would 
assume, into eight provinces in Afghanistan. Now, we have 
interests in Afghanistan, for obvious reasons.
    So, this is a movement that we can tie directly to the 
security of the American people and to our national security 
objectives of the United States in this region and in South 
Asia.
    Senator Blumenthal. So, it--if I can put it a different 
way, just to conclude, it's more than--and, by the way, 
American values are directly and inevitably linked to stopping 
human atrocities. I agree totally with you, Mr. Kagan. But, our 
interests go beyond that--those values. And, by the way, all of 
the reasons that you've articulated are the reasons that I 
voted for the training and equipping measures that have been 
implemented. But, my frustration is that, as you also have 
observed, there is a huge gap between the goals and missions 
that we've outlined for the United States and the actual action 
that we're undertaking. The train-and-equip activities are way 
behind what we might have hoped by this point, and there's no 
clear timetable for really achieving the level of capability 
that we expected or hoped.
    So, I think this has been a very sobering morning, and I 
thank you all for being here.
    Thank you.
    Chairman McCain [presiding]. Well, I also want to thank the 
witnesses. It's been, I think, very helpful to all members. 
This is not an issue that's going away, so I'm sure we'll be 
seeing you again.
    Thank you.
    This hearing is adjourned.
    [Whereupon, at 11:59 a.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

             Questions Submitted by Senator James M. Inhofe
       united states strategy in iraq, syria, and the middle east
    1. Senator Inhofe. General Keane, what is the perception of the 
United States military and our current use of force in Iraq and Syria 
in the Middle East? Do you think we have a commitment issue?
    General Keane did not respond in time for printing. When received, 
answer will be retained in committee files.

    2. Senator Inhofe. General Keane, Dr. Kagan, Colonel Harvey, and 
Mr. Katulis, in your opinion, what should be the political objectives 
of United States policy in the Middle East, how does Iraq and Syria 
play into that strategy, and what is your assessment of how well we are 
doing at achieving them?
    General Keane did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Kagan did not respond in time for printing. When received, 
answer will be retained in committee files.
    Colonel Harvey did not respond in time for printing. When received, 
answer will be retained in committee files.
    Mr. Katulis. United States political objectives in the Middle East 
are to help foster more stable, inclusive, and pluralistic societies 
throughout the region. This task is not an easy one, and will take 
years if not decades to fully realize.
    Iraq and Syria today are the exact opposites of what the United 
States wants to see in the Middle East--violentand unstable, with 
exclusionary politics fostering deep divisions and endangering minority 
populations likeChristians and Yazidis.
    A key component of United States strategy in Iraq is to try and 
foster a more inclusive government under Prime MinisterAbadi that will 
give all Iraqis a stake in their political system. It is less clear how 
the U.S. aims to achieve amore stable, inclusive, and pluralistic Syria 
given the strategy currently in place.
    In Iraq, the United States has done fairly well given the tools at 
hand in trying to create a more inclusive andpluralistic politics. We 
played a major role in pushing Prime Minister Maliki out of power and 
putting PrimeMinister Abadi in, which remains a major step forward. But 
since then, Iraqi politics has largely stymied ourefforts to encourage 
a more pluralistic and inclusive Iraq through legislative measures like 
the Iraqi NationalGuard proposal.

    3. Senator Inhofe. Colonel Harvey, the current plan is to train and 
equip about 5,000 moderate opposition fighters in Syria a year. Do you 
believe that goal is achievable and will it make a difference?
    Colonel Harvey did not respond in time for printing. When received, 
answer will be retained in committee files.

                             fall of ramadi
    4. Senator Inhofe. General Keane, what are your thoughts on the 
Iraqi security forces retreat out of Ramadi?
    General Keane did not respond in time for printing. When received, 
answer will be retained in committee files.

                              iran in iraq
    5. Senator Inhofe. Dr. Kagan, General Petraeus said he thinks Iran 
is as big of a threat as ISIL to the long-term future of Iraq. Do you 
agree?
    Dr. Kagan did not respond in time for printing. When received, 
answer will be retained in committee files.

    6. Senator Inhofe. Dr. Kagan, what are Iranian intentions in Iraq? 
What is our leverage to counter Iranian influence in Iraq?
    Dr. Kagan did not respond in time for printing. When received, 
answer will be retained in committee files.

           u.s military mission and the iraqi security force
    7. Senator Inhofe. Colonel Harvey, has the sectarian configuration 
of the Iraqi Security Forces (ISF) changed since their collapse under 
the pressure of ISIL last year--have they become more balanced and 
inclusive or more Shia-dominated? How would you go about helping the 
Iraqi security forces become more integrated and more inclusive?
    Colonel Harvey did not respond in time for printing. When received, 
answer will be retained in committee files.

    8. Senator Inhofe. Colonel Harvey, what kind of force protection 
concerns do you have for United States forces in Iraq?
    Colonel Harvey did not respond in time for printing. When received, 
answer will be retained in committee files.



      COUNTER-ISLAMIC STATE OF IRAQ AND THE LEVANT (ISIL) STRATEGY

                              ----------                              


                         TUESDAY, JULY 7, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:35 a.m. in room 
SD-G50, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Sessions, 
Ayotte, Fischer, Cotton, Rounds, Ernst, Sullivan, Lee, Graham, 
Reed, Nelson, Manchin, Gillibrand, Donnelly, Hirono, Kaine, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Chairman McCain. Well, good morning.
    The Senate Armed Services Committee meets today, as soon as 
the media allows us to see the witnesses, to receive testimony 
on the U.S. strategy to counter the Islamic State of Iraq and 
the Levant (ISIL).
    I am grateful to our distinguished witnesses for appearing 
before us today.
    The risk posed by ISIL must be seen in the context of what 
many of America's most accomplished leaders and foreign policy 
experts have described as the most complex and uncertain 
international environment since the end of World War II. All 
across the globe, America's interests in security and stability 
are at risk.
    As part of a broader strategy to dominate eastern Europe, 
Vladimir Putin's Russia continues its onslaught in Ukraine, 
with Russian troops and equipment leading an asymmetric 
campaign to undermine Ukraine's Government and independence as 
the United States has refused the Ukrainians weapons for its 
defense.
    China's destabilizing behavior also poses a growing 
challenge to United States national interests: its reclamation 
and militarization of vast land features in the South China 
Sea, its continued military buildup, and of course, its blatant 
and undeterred cyber attacks against the United States.
    Iran is expanding its malign activities and hegemonic 
ambitions across the Middle East, as we see clearly in Lebanon, 
Syria, Iraq, Yemen, and elsewhere, and yet, some in the 
administration seem to operate under the delusion that a 
nuclear agreement could lead to a new modus vivendi with the 
Islamic Republic.
    In Syria, Bashar Assad's slaughter of his own people, which 
has been the single greatest contributor to the rise and 
continued success of ISIL, goes on and on and on, aided by 
Russia, Iran, and Hezbollah. For 4 years, the President has 
said Assad must go as a part of a political transition in 
Syria, but conditions on the ground have never allowed it. 
Tragically, that remains true today.
    What each of these growing threats has in common is a 
failure of deterrence, brought on by a dangerous perception of 
American weakness and lack of resolve, which our adversaries 
have taken as a provocative invitation for hostility.
    When it comes to ISIL, President Obama's comments yesterday 
at the Pentagon reveal the disturbing degree of self-delusion 
that characterizes the administration's thinking. It is right 
but ultimately irrelevant to point out, as the President did, 
that we have conducted thousands of airstrikes, taken out many 
ISIL fighters and much equipment, and pushed it out of some 
territory. None of the so-called progress that the President 
cited suggests that we are on a path to success.
    Since U.S. and coalition air strikes began last year, ISIL 
has continued to enjoy battlefield successes, including taking 
Ramadi and other key terrain in Iraq, holding over half the 
territory in Syria, and controlling every border post between 
Iraq and Syria. Moreover, the longer ISIL remains undefeated in 
Iraq and Syria, the more potent its message is to those around 
the world who may be radicalized and inspired to join the group 
and spread violence and mayhem on its behalf.
    It is not that we are doing nothing; it is that there is no 
compelling reason to believe that anything we are doing 
currently will be sufficient to achieve the President's long-
stated goal of degrading and ultimately destroying ISIL, either 
in the short term or the long term. Our means and our current 
level of effort are not aligned with our ends. That suggests we 
are not winning, and when you are not winning in war, you are 
losing.
    The reality today is that ISIL continues to gain territory 
in Iraq and Syria, while expanding its influence and presence 
across the Middle East, Africa, and Central Asia. There is no 
responsible ground force in either Iraq or Syria that is both 
willing and able to take territory away from ISIL and hold it, 
and none of our current training efforts of moderate Syrians, 
Sunni tribes, or Iraqi Security Forces are as yet capable of 
producing such a ground force. It is unclear why the latest 
gradual escalation of effort, the deployment of a few hundred 
additional advisors to Anbar, will make a difference that our 
previous efforts failed to achieve.
    While our coalition may own the skies, as the President 
said yesterday, our air campaign against ISIL continues to be 
limited significantly by overly restrictive rules of engagement 
and a lack of ground intelligence, which only gets worse as 
ISIL moves into urban areas to avoid coalition bombing. Any 
pilot will tell you that they are only as good as the targets 
they receive, and when three-quarters of our air missions 
against ISIL still return to base without dropping weapons, 
that is indicative of a fundamental problem with our air 
campaign.
    What is worse, none of our efforts against ISIL in Iraq can 
succeed while the conflict in Syria continues, and with it the 
conditions for ISIL's continued growth, recruitment, and 
radicalization of Muslims around the world. As published media 
reports indicate, our Syrian train and equip program is anemic 
and struggling because our stated goal does not include going 
after Assad and his regime forces, and we still do not provide 
the forces we are training with the enabling capabilities to 
succeed in any engagement they may face inside Syria.
    Given the poor numbers of recruited and trained Syrian 
fighters thus far, I am doubtful we can achieve our goal of 
training a few thousand this year. But even if the program 
achieves its goal, it is doubtful that it will make a strategic 
difference on the battlefield. Yes, we need a political 
solution in Syria. But no such solution is possible with Bashar 
Assad still in power. Unless and until the United States leads 
a coalition effort to put far greater battlefield pressure on 
Assad, a political solution will never be within reach, the 
conflict will grind on, and ISIL will thrive.
    The lack of a coherent strategy has resulted in the spread 
of ISIL around the world, to Libya, Egypt, Nigeria, and even to 
Afghanistan, where I visited last weekend. Afghanistan is 
certainly not Iraq, but the parallels are eerily familiar. As 
in Iraq, the United States is contemplating a drastic reduction 
in force presence that places at risk the hard-won gains of the 
last decade. While Afghanistan's security forces are improving 
in quality, they are still missing the same set of key 
capabilities the Iraqis were missing when the United States 
withdrew in 2011, including intelligence, aviation, special 
operations, and logistics capabilities. At the current pace, 
our military commanders know these capabilities will remain 
critically underdeveloped at the end of 2016, when President 
Obama has announced that United States and coalition forces 
will dramatically downsize to a presence solely in Kabul.
    We have seen this movie before. If we make the same 
mistakes, we should expect similarly tragic results. I do not 
want to attend another hearing like this with your successors 
trying to figure out a strategy to clean up after avoidable 
mistakes. What that means is that the President must provide 
our commanders on the ground with necessary forces, 
capabilities, and the authorities to help our Afghan partners 
in continuing to secure their country and defeat our terrorist 
enemies together.
    ISIL is not 10 feet tall. It can be and must be defeated. 
But that will never happen if we continue to delude ourselves 
about our current campaign. The President is fond of the truism 
that there is no military solution to ISIL or any other 
problem. What he has so often failed to realize is that there 
is sometimes a major military dimension to achieving a 
political solution. This was the critical lesson that the 
United States learned in the Iraq surge. We must learn again. 
Security on the ground is a precondition to political 
reconciliation, not the other way around.
    The unfortunate irony is that a President elected in 
opposition to the war in Iraq is repeating some of its worst 
strategic mistakes. What is worse, despite obvious indications 
that the current strategy against ISIL is failing, he has yet 
to find the courage of his predecessor to admit mistakes and 
choose a new direction. This needs to happen sooner rather than 
later, or the disaster the next President will inherit in the 
Middle East but also far beyond it will be overwhelming.
    It is clear we are living in a time of unprecedented 
turmoil. We see it on our television screens every day: ISIL's 
spread across the Middle East, Russia's invasion of Ukraine, 
and China's maritime expansion in Asia.
    Once again, I thank our witnesses and look forward to their 
testimony.
    Senator Reed?

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Welcome, Secretary Carter, General Dempsey. Thank you.
    This morning's hearing is an important opportunity for this 
committee to hear from the administration regarding its 
strategy to counter the Islamic State of Iraq and the Levant, 
or ISIL. It follows up on the committee's hearing in May with 
outside witnesses regarding the counter-ISIL strategy.
    ISIL, with its violent, extremist ideology and brutal 
military capabilities, poses a clear threat to the stability of 
the Middle East, Africa, and beyond, and a threat to the United 
States and our partners' interests in those regions and, 
indeed, even in the Homeland. ISIL's campaign to establish a 
caliphate threatens to create a breeding ground for training 
extremist fighters, attracting foreign fighters intent on 
returning to Western countries to carry out attacks, and 
inspiring others in the United States and elsewhere to commit 
violence. The American people recognize the threat posed by 
ISIL but, at the same time, are appropriately wary, after 
nearly a decade and a half of United States military 
involvement overseas, about being drawn deeper into a seemingly 
intractable Middle East conflict.
    As part of the administration's whole-of-government 
strategy, the Department of Defense (DOD) has the lead for two 
of the nine lines of effort against ISIL and plays a supporting 
role for the efforts of a number of other departments and 
agencies. This committee has provided essential resources to 
the Department to implement the strategy through funding of the 
overseas contingency operations fund, including the President's 
request for both the Iraq and Syria train and equip funds and 
$1 billion for the Counterterrorism Partnership Fund. However, 
the severe cuts mandated by sequestration puts at risk the 
ability of the civilian departments of our Government, 
including the State Department, the United States Agency for 
International Aid and Development, and the Department of 
Homeland Security, and Treasury Department to carry out fully 
the other seven lines of effort that comprise our counter-ISIL 
strategy. The effect of sequestration could be that the United 
States Government is having to fight ISIL literally with one 
hand tied behind its back. The success of the strategy depends 
on getting both our military and civilian departments the 
necessary resources to confront ISIL.
    At this committee's hearing in May, several witnesses 
called for expanding the United States military involvement in 
Iraq and Syria in response to ISIL's seizure of the Anbar 
provincial capital of Ramadi and ISIL's gains in Syria. The 
President's announcement last month of an additional 450 United 
States troops to be deployed to Iraq to train and assist Iraqi 
Security Forces begins to address the critical need to bring 
local Sunni tribes into the fight against ISIL. We will be 
interested in hearing from our witnesses what additional steps 
they would recommend for expanding the presence of Sunni 
fighters in the Iraqi Security Forces and to ensure that 
Kurdish Peshmerga receive expeditiously the weapons they need 
to counter ISIL in the fight.
    In many respects, the current challenges in Iraq result 
from two intersecting forces: the rise of ISIL and the 
deterioration of the Iraqi security forces and complementary 
governmental capacities. Many of the factors and personalities 
forming ISIL can be traced to the invasion and occupation of 
Iraq. Planning for that war failed to account for deep-seated 
sectarian divisions between Sunni and Shia within the region, 
which gave rise to grievances that fueled the rise of ISIL. In 
addition, many of the factors contributing to the deterioration 
of Iraq Security Forces can be traced to the actions of Prime 
Minister Maliki, in particular his replacement of competent 
leaders in the military with cronies loyal to himself.
    Iran's role in Iraq and the broader region must never be 
forgotten either. Many of the aforementioned actions by Maliki 
were at the behest of Iran or certainly with their 
acquiescence. Iran's influence on Iraq's political 
decisionmaking can be seen even prior to the 2008 visit of the 
Iranian President Ahmadinejad to Baghdad. Today, Iran has its 
own military boots on the ground in both Iraq and Syria, and it 
continues to support its proxies. We must keep a close eye on 
Iran and assess carefully their interests at the tactical and 
strategic level.
    As we work with the coalition to counter the threat of 
ISIL, it will be useful to obtain your perspective on these and 
other factors as we endeavor to reshape our policies and our 
strategy.
    Ultimately, though, one of the key lessons from the Iraq 
war is that no amount of United States or coalition military 
assistance or boots on the ground will lead to the lasting 
defeat of violent extremism if the underlying political causes 
that allow such extremism to arise and thrive are not 
addressed. In Iraq, the Abadi Government must continue to take 
substantive steps to govern in a more inclusive manner, address 
longstanding grievances of Iraq's sectarian and ethnic 
minorities, expand the integration of Sunnis and Kurds into 
Iraq's military and political structures, and disarm Iranian-
backed Shia militias.
    In Syria, moderate and extreme elements to the opposition 
have made tactical gains against ISIL and the regime, but ISIL 
remains the dominant force in western Syria. Absent a moderate 
opposition that is willing to and capable of taking territory 
from ISIL and holding it, any change in the status quo is 
unlikely. Bolstered by critical outside assistance, the Assad 
regime remains in the seat of power in Damascus, but has ceded 
territory in recent months. Despite these territorial shifts in 
the ground battle in Syria, a defeat on the battlefield is not 
the most likely end to the battle in Syria. A political 
solution that addresses grievances and a broad range of 
constituencies in Syria is the only pathway to a sustainable 
solution.
    When I met with military and political leaders in Iraq 
earlier this year, they emphasized that United States and 
coalition forces are at the beginning of a multiyear campaign 
against ISIL. They stressed the need for strategic patience. I 
hope our witnesses today will provide their perspective on just 
where we are in the long fight and what to expect in the coming 
months and years ahead.
    I look forward to your testimony.
    Thank you, Mr. Chairman.
    Chairman McCain. Thank you.
    I welcome the witnesses. Secretary Carter?

    STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE

    Secretary Carter. Thank you, Mr. Chairman, Ranking Member 
Reed, and members of this committee. Thank you for the 
opportunity to come before you to address your questions and 
concerns about this campaign.
    I want to especially thank the chairman for going to 
Afghanistan over his Fourth of July weekend, which I 
appreciate. Visiting the troops means a lot to us, sir.
    As all of you know from your travels around the world, 
there is a high demand everywhere in the world for American 
leadership, from Asia, where I saw some of you in May, to 
Europe, where I was 2 weeks ago. The Obama administration and 
the members of this committee have helped ensure that we meet 
that demand, and I thank you for that.
    The same is true in the Middle East where we are standing 
by our friends like Israel, working to prevent Iran from 
acquiring a nuclear weapon and otherwise exercising malign 
influence and confronting ISIL, which is the subject of this 
hearing.
    It was also the subject of a meeting yesterday at the 
Pentagon where President Obama and Chairman Dempsey and I 
discussed our counter-ISIL campaign with senior defense and 
interagency leaders. We all agreed that ISIL represents a grave 
threat and that it must be and will be dealt a lasting defeat. 
That is our objective, which is shared by a global coalition 
that reflects both the worldwide consensus on the need to 
counter ISIL and the practical requirement for others to do 
their part. The administration's strategy to achieve that 
objective, as the Joint Chiefs' doctrinal definition of 
strategy puts it, integrates all the Nation's strengths and 
instruments of power, as has been noted. It is executed through 
nine synchronized lines of effort.
    The first and arguably the most critical line of effort is 
the political one, as has also been noted, which is led by the 
State Department. This line involves building more effective, 
inclusive, and multi-sectarian governance in Iraq.
    At the same time, the United States continues to work 
diplomatically to bring about a political transition from 
Bashar al-Assad to a more inclusive government with which we 
can also work to defeat ISIL.
    The next two lines of effort are interconnected: to deny 
ISIL safe haven and to build partner capacity in Iraq and 
Syria. Both are led by DOD which, alongside coalition partners, 
is conducting an air campaign, advising, and assisting Iraqi 
security forces on the ground, and training and equipping 
vetted local forces in Iraq and for Syria.
    Before I go on, let me say that these first three political 
and military lines of effort have to be in sync, a point that 
has been made already. That is a challenge but one we are 
working through with our partners in the coalition, on the 
ground, and around our Government.
    The fourth line of effort is enhancing intelligence 
collection on ISIL, which is led by the National 
Counterterrorism Center.
    The fifth line of effort, disrupting ISIL's finances, is 
co-led by Treasury and State.
    Lines of effort six and seven, both co-led by State and the 
National Counterterrorism Center, are to counter ISIL's 
messaging and disrupt the flow of foreign fighters to and from 
ISIL, both of which are critical in today's connected and 
networked world.
    The eighth line of effort, providing humanitarian support 
to those affected by the conflicts in Iraq and Syria, is led by 
State and AID.
    Finally, the Department of Homeland Security, the Federal 
Bureau of Investigation (FBI), and the Department of Justice 
work together to protect the homeland, the ninth line of 
effort, by disrupting terrorist threats. In addition to our 
full-spectrum cooperative relationship with Department of 
Homeland Security and other law enforcement agencies, DOD 
personnel continue to strike ISIL elements in Iraq and Syria.
    The effective execution of all nine lines of effort by the 
United States and its coalition partners is necessary to ensure 
ISIL's lasting defeat.
    I want to add briefly that there are important classified 
dimensions to our approach to ISIL and to the Middle East more 
broadly, Mr. Chairman, that we will not be able to discuss in 
this meeting but can discuss separately.
    Let me turn to the execution of the two lines of effort on 
which DOD leads, which our personnel have been performing with 
the excellence we all expect of the finest fighting force the 
world has ever known.
    American servicemembers and their coalition partners have 
conducted over 5,000 airstrikes. That air campaign has produced 
some clear tactical results: limiting ISIL's freedom of 
movement, constraining its ability to reinforce its fighters, 
and degrading its command and control. Coalition air support 
has also enabled gains by local forces in Iraq and Syria, 
including Syrian Kurdish and Arab forces who recently took the 
key border town of Tal Abyad from ISIL, cut off one of its key 
lines of communication and supply, and put ISIL on the 
defensive and its stronghold Raqqah under pressure.
    Those examples demonstrate again that where we have a 
credible ground force, working in a coordinated way with the 
coalition air campaign, ISIL has suffered. That is what makes 
the third line of effort, developing the capacity and 
capabilities of local forces, so important. Indeed, we know 
from recent experience that success against ISIL requires 
capable local ground forces. We know from our history in the 
region that putting U.S. combat troops on the ground as a 
substitute for local forces will not produce enduring results.
    That is why we are bolstering Iraq's security forces and 
building moderate, vetted Syrian opposition forces. But both of 
these efforts need strengthening.
    In Iraq, the Iraqi security forces were severely degraded 
after four divisions dissolved and Mosul fell a year ago this 
June. Our efforts to build partner capacity and advise and 
assist ongoing operations involve around 3,550 American 
personnel at 6 locations around the country. Their training 
work has been slowed, however, by a lack of trainees. As of 
June 30th, we have only received enough trainees to be able to 
train about 8,800 Iraqi army soldiers and Peshmerga forces, in 
addition to some 2,000 CTS personnel. Another 4,000 soldiers, 
including 600 CTS personnel, are in training. I have told Iraqi 
leaders that while the United States is open to supporting Iraq 
more than we already are, we must also see a greater commitment 
from all parts of the Iraqi Government.
    We are also in the early stages of our train and equip 
mission in Syria. 3 months into our program, training is 
underway, and we are working to screen and vet almost 7,000 
volunteers to ensure that they are committed to fighting ISIL, 
pass a counterintelligence screening, and meet standards 
prescribed by U.S. law regarding the law of armed conflict and 
necessitated by operations. As of July 3rd, we are currently 
training about 60 fighters. This number is much smaller than we 
had hoped for at this point, partly because of the vetting 
standards I just described.
    But we know this program is essential. We need a partner on 
the ground in Syria to assure ISIL's lasting defeat. As 
training progresses, we are learning more about the opposition 
groups and building important relationships, which increases 
our ability to attract recruits and provides valuable 
intelligence for counter-ISIL operations.
    We are also working to equip vetted local forces. In Iraq, 
after earlier delays, we are expediting delivery of essential 
equipment and materiel to the Iraqi Security Forces and working 
with the Government of Iraq to ensure this equipment is quickly 
passed to Kurdish Peshmerga and Sunni tribal forces. In Syria, 
we will begin equipping forces as soon as they complete 
training.
    We are constantly assessing this approach. We did so after 
the fall of Ramadi, continued through yesterday with President 
Obama at the Pentagon. The strategy is the right one, but its 
execution can and will be strengthened, especially on the 
ground.
    In Iraq, we are focused on increasing participation in and 
throughput of our training facilities. An example of this is 
our effort at Taqaddum, which has been noted, in Anbar 
Province, where we recently deployed approximately 350 of the 
additional 450 American personnel authorized.
    We assessed our presence at this military base would 
provide access to thousands of previously unreachable Sunni 
tribesmen. This is in support of the Iraqi Government's own 
initiative to increase outreach to the Anbar tribes. As of mid-
June, the Iraqi Government has enrolled and armed an initial 
group of 800 Sunni fighters at Taqaddum, and we are supporting 
the Iraqi training of 500 additional fighters now at Taqaddum. 
The Iraqis have already identified 500 more trainees that will 
follow the current group, and we will continue to work to 
ensure that these Sunni fighters, which are critical to the 
success of our campaign, have the training and equipment needed 
to effectively fight ISIL. I should also note that the Anbar 
operations center is located at Taqaddum, which is another 
reason for that particular geography, so that we can advise and 
assist the Iraqi commanders there commanding Sunni forces.
    In Syria, we seek to capitalize on the recent successes in 
Kobani and Tal Abyad and continue to strike ISIL's nerve center 
in Raqqah. At the same time, we are looking for ways to 
streamline our train and equip program's vetting process, which 
I noted earlier, to get more recruits into the training 
pipeline. We are also refining our curriculum, expanding our 
outreach to the moderate opposition, and incorporating lessons 
learned from the first training class. I am happy to speak 
about that more.
    In conclusion, I sought to describe to you clearly the 
strategy, DOD's execution of its critical lines of effort, and 
where our execution can and will and must be strengthened.
    Achieving ISIL's lasting defeat will require continued 
commitment, steady leadership from the United States and our 
global coalition, hard work by our men and women in uniform, 
essential complementary and synchronized efforts along the 
other seven lines of effort and, most importantly, commitment 
and sacrifice by Iraqis and Syrians. Together and with your 
continuing support for the men and women of DOD, for which we 
are ever grateful, we will achieve ISIL's lasting defeat.
    Thank you.
    [The prepared statement of Secretary Carter follows:]

         Prepared statement by Secretary of Defense Ash Carter
    Chairman McCain, Ranking Member Reed, Members of the Committee: 
thank you for the invitation and for the opportunity to speak with you 
this morning.
    As all of you know, there is high demand for American leadership in 
the world--from Asia, where I saw some of you in May, to Europe, where 
I was two weeks ago. The Obama Administration and the members of this 
committee have helped ensure the United States meets that demand. Thank 
you.
                      counter-isil lines of effort
    The same is true in the Middle East, where we are standing by our 
friends, like Israel, working to prevent Iran from acquiring a nuclear 
weapon, and confronting ISIL, which is the subject of this hearing. It 
was also the subject of a meeting yesterday at the Pentagon where 
President Obama, Chairman Dempsey, and I discussed our counter-ISIL 
campaign with senior defense and interagency leaders. We all agreed 
that ISIL presents a grave threat. And that it must be--and will be--
dealt a lasting defeat.
    That is our objective, which is shared by a global coalition that 
reflects both the world-wide consensus on the need to counter ISIL and 
the practical requirement for others to do their part. The 
administration's strategy to achieve that objective--as the Joint 
Chiefs' doctrinal definition of strategy puts it--integrates all our 
nation's strengths and instruments of power. And it is executed through 
nine, synchronized lines of effort.
    The first, and arguably most, critical line of effort is the 
political one, which is led by the State Department. This line involves 
building more effective, inclusive, and multi-sectarian governance in 
Iraq.
    At the same time, the United States continues to work 
diplomatically to bring about a political transition from Bashar al-
Assad to a more inclusive government with which we can also work to 
defeat ISIL.
    The next two lines of effort are interconnected--to deny ISIL safe 
haven, and to build partner capacity in Iraq and Syria. Both are led by 
DOD, which, alongside coalition partners, is conducting an air 
campaign, advising and assisting Iraqi Security Forces on the ground, 
and training and equipping vetted local forces in Iraq and for Syria.
    Before I go on, let me say that these first three political and 
military lines of effort must be in sync. That's a challenge, but one 
that we are working through with our partners in the interagency, in 
the coalition, and on the ground.
    The fourth line of effort is enhancing intelligence collection on 
ISIL, led by the National Counterterrorism Center. The fifth line of 
effort, disrupting ISIL's finances, is co-led by Treasury and State.
    Lines of effort six and seven, both co-led by State and the 
National Counterterrorism Center, are to counter ISIL's messaging and 
disrupt the flow of foreign fighters to and from ISIL, both of which 
are critical in today's connected and networked world. The eighth line 
of effort, providing humanitarian support to those affected by the 
conflicts in Iraq and Syria, is led by State and USAID.
    Finally, the Department of Homeland Security, the FBI, and the 
Department of Justice are working together to protect the homeland--the 
ninth line of effort--by disrupting terrorist threats. In addition to 
our full-spectrum cooperative relationship with DHS and other law 
enforcement agencies, DOD personnel continue to strike ISIL elements in 
Iraq and Syria.
    The effective execution of all nine of these lines of effort by the 
United States and its coalition partners is necessary to ensure ISIL's 
lasting defeat.
    I want to briefly add that there are important classified 
dimensions to our approach to ISIL and to the Middle East more broadly, 
Mr. Chairman, that we won't be able to discuss in this setting.
                   execution of dod's lines of effort
    Let me turn to the execution of the two lines of effort on which 
DOD leads, which our personnel have been performing with the excellence 
we all expect of the finest fighting force the world has ever known.
    American service members, and their coalition partners, have 
conducted over 5,000 airstrikes. That air campaign has produced some 
clear tactical results: limiting ISIL's freedom of movement, 
constraining its ability to reinforce its fighters, and degrading its 
command and control. Coalition air support has also enabled gains by 
local forces in Iraq and Syria, including Syrian Kurdish and Arab 
forces, who recently took the key border town of Tal Abyad from ISIL, 
cut one of its key lines of communication and supply, and put ISIL on 
the defensive and its stronghold in Raqqah under pressure.
    Those examples demonstrate, again, that where we have had a 
credible ground force working in a coordinated way with the coalition 
air campaign, ISIL has suffered. That is what makes the third line of 
effort--developing the capacity and capabilities of local ground 
forces--so important. Indeed, we know from recent experience that 
success against ISIL requires capable local ground forces. And we know 
from our history in the region that putting U.S. combat troops on the 
ground as a substitute for local forces will not produce enduring 
results.
    That's why we're bolstering Iraq's security forces and building 
moderate, vetted Syrian opposition forces. But both of these efforts 
need strengthening.
    In Iraq, the Iraqi security forces were severely degraded after 
four divisions dissolved and Mosul fell a year ago this June. Our 
efforts to build partner capacity and advise and assist ongoing 
operations involve around 3,550 American personnel at six locations 
around the country. Their training work has been slowed, however, by a 
lack of trainees: as of June 30, we've only received enough trainees to 
be able to train about 8,800 Iraqi Army soldiers and Peshmerga forces, 
in addition to some 2,000 CTS personnel. Another 4,000 soldiers, 
including 600 CTS personnel, were in training. I've told Iraqi leaders 
that while the United States is open to supporting Iraq more than we 
already are, we must see a greater commitment from all parts of the 
Iraqi government.
    We're also in the early stages of our train-and-equip mission in 
Syria. Three months into our program, training is underway, and we are 
working to screen and vet almost 7,000 volunteers to ensure they are 
committed to fighting ISIL, pass a counterintelligence screening, and 
meet standards prescribed by U.S. law and necessitated by operations. 
As of July 3, we are currently training about 60 fighters. This number 
is much smaller than we hoped for at this point, partly because of the 
vetting standards I just described.
    But we know this program is essential: we need a partner on the 
ground in Syria to assure ISIL's lasting defeat. And, as training 
progresses, we are learning more about the opposition groups and 
building important relationships, which increases our ability to 
attract recruits and provides valuable intelligence for counter-ISIL 
operations.
    We are also working to equip vetted local forces. In Iraq, after 
earlier delays, we're expediting delivery of essential equipment and 
materiel to the Iraqi Security Forces--and working with the Government 
of Iraq to ensure this equipment is quickly passed to Kurdish Peshmerga 
and Sunni tribal forces. In Syria, we will begin equipping forces as 
they complete training.
                        strengthening execution
    We are constantly assessing our approach--we did so after the fall 
of Ramadi, and continued through yesterday with President Obama at the 
Pentagon. The strategy is the right one, but its execution can and will 
be strengthened . . . especially on the ground.
    In Iraq, we're focused on increasing participation in and 
throughput of our training facilities. An example of this is our effort 
at Taqqadum in Anbar Province, where we recently deployed approximately 
350 of the additional 450 American personnel authorized.
    While not yet at full operating capacity, we assessed our presence 
at this Iraqi military base would provide access to thousands of 
previously unreachable Sunni tribesmen. This is in support of the Iraqi 
government's own initiative to increase outreach to the Anbar tribes. 
As of mid-June, the Iraqi government has enrolled and armed an initial 
group of 800 Sunni fighters at Taqaddum, and we are supporting the 
Iraqi training of 500 additional fighters now at Taqaddum. The Iraqis 
have already identified 500 more trainees that will follow the current 
group, so we are pleased with our early efforts. We will continue to 
work to ensure that these Sunni fighters, which are critical to the 
success of our campaign, have the training and equipment needed to 
effectively fight ISIL.
    In Syria, we seek to capitalize on recent successes in Kobane and 
Tal Abyad and continue to strike ISIL's nerve center in Raqqah. At the 
same time, we are looking for ways to streamline our train and equip 
program's vetting process to get more recruits into the training 
pipeline. We are also refining our curriculum, expanding our outreach 
to the moderate opposition, and incorporating lessons learned from the 
first training class.
                               conclusion
    In conclusion, I have sought to describe to you clearly our 
strategy, the Department of Defense's execution of its critical lines 
of effort, and where our execution can--and will--be strengthened.
    Achieving ISIL's lasting defeat will require continued commitment . 
. . steady leadership--from the United States and our global coalition 
. . . hard work by our men and women in uniform . . . essential 
complementary and synchronized efforts along the other seven lines of 
effort . . . and, most importantly, commitment and sacrifice by brave 
Iraqis and Syrians. Together, and with your continuing support for the 
men and women of the Department of Defense, for which we are ever 
grateful, we will achieve ISIL's lasting defeat.
    Thank you.

    Chairman McCain. General Dempsey?

STATEMENT OF GEN MARTIN E. DEMPSEY, USA, CHAIRMAN, JOINT CHIEFS 
                            OF STAFF

    General Dempsey. Thank you, Mr. Chairman and Ranking Member 
Reed and members of the committee. I appreciate the opportunity 
to come back and to chat with you today about the military 
component of our strategy against ISIL.
    Our starting point has to be the strategic picture in 
context. I have said before that the global security 
environment is as uncertain as I have ever seen it. The world 
is rapidly changing everywhere, and we are seeing significant 
shifts in an already complex strategic landscape. ISIL is one 
of many concerns. As the chairman mentioned, we are contending 
with Russia's revanchism in eastern Europe, China's 
assertiveness in the South China Sea, Iran's malign activities 
in the Middle East, technical advancements by North Korea, 
rising aggression of non-state networks, and a rapidly leveling 
playing field in cyber and in space. While our potential 
adversaries grow stronger, many of our allies are becoming 
increasingly dependent on the United States and on our 
assistance, and some of our comparative military advantages 
have begun to erode. What makes this uniquely complicated is 
that these trends are manifesting themselves simultaneously.
    Within the Middle East, I characterize three converging 
sets of complexity.
    First, several governments are struggling for political 
legitimacy because they are not sufficiently pluralistic or 
they are not sufficiently accountable to their citizens.
    Second, the centuries old Sunni/Shia struggle is very 
evident. Weak states are less able to assert independence amid 
the tug of war between sectarian regional powers.
    Third, we are seeing rising competition between moderate 
and radical elements of Islam, and ISIL and others are taking 
advantage of that competition.
    Within this evolving global context, the role the U.S. 
military is taking against the trans-regional threat of ISIL is 
appropriately matched to the complexity of the environment and 
is at a level of effort that is sustainable over time.
    Military power alone, as we have said, will not solve ISIL. 
I do not think anyone here would disagree with that. All nine 
lines of effort need to be considered in the aggregate. This 
campaign focuses on actively reinforcing and hardening our 
partners in the region who must and in most cases are taking 
responsibility for their own security, and that is an important 
point. Enduring stability cannot be imposed in the Middle East 
from the outside in. The fight is enabled by the coalition, but 
it must be owned by those regional stakeholders.
    It bears repeating that this is the beginning of a complex, 
nonlinear campaign that will require a sustained effort over an 
extended period of time. We have to be just as agile as the 
network of terrorists we face. We are constantly evaluating our 
approach and making sure we are resourcing it appropriately, 
balanced with our other global commitments.
    But 4 years and counting of budget uncertainty have made 
this balance distinctly harder.
    Thank you and I welcome your questions.
    Chairman McCain. Thank you, General.
    Mr. Secretary, let me clear up a couple of points before we 
get into the strategy. You have stated before you would 
recommend a veto of the National Defense Authorization Act 
(NDAA) to the President. Is that your position?
    Secretary Carter. He restated his position yesterday, and I 
support it. I am happy to give the reasons for that, if you 
would like, Mr. Chairman.
    Chairman McCain. Sure, but you might answer also when you 
answer, do you choose between fully funding the President's 
defense budget request with Overseas Contingency Operations 
(OCO) funding or funding defense at sequestration levels?
    Secretary Carter. Well, the short answer is I am hoping we 
can do better than that.
    My view has not changed since I came up here a few months 
ago on this issue. The chairman alluded to the problem. I very 
much hope that a way will be found to come together and get 
beyond the gridlock that we have and to give us a budget, a 
normal budget process, that provides a stable runway for the 
Department. I will explain why that is so important.
    We have been going 1 year at a time budgetarily now for 
several years straight, and it is extremely disruptive to the 
operations of the Department. It is managerially inefficient 
because we are doing this herky-jerky process. It is difficult 
to have a multiyear national defense strategy, which we must 
have, with a 1-year-at-a-time perspective. It is difficult to 
run large programs, shipbuilding programs, aircraft programs 
efficiently in a 1-year-at-a-time budget.
    I also believe, Mr. Chairman, that our people deserve 
better. That is, they need a horizon in front of them--our 
military people and their families.
    Last, I travel around the world, as you all do, and it is 
embarrassing that we cannot in successive years now pull 
ourselves together before an overall budget approach that 
allows us to do what we need to do, which is we program in a 
multiyear manner, not in a 1-year-at-a-time manner.
    So for all those reasons, Mr. Chairman, I just appeal. It 
is not something that I have any particular expertise in, and 
it is obviously much bigger than defense because, as noted, the 
success of this campaign and the success of our National 
security hinges importantly, very importantly on this 
Department, the Department that I lead, but also on law 
enforcement and homeland security and diplomacy.
    Chairman McCain. I understand.
    Secretary Carter. So I am hoping, Mr. Chairman, that we can 
do better than that choice and that we do not continue down 
what I have called a road to nowhere.
    Chairman McCain. Well, you may be presented with that 
choice, and I would also add this is an authorizing bill. The 
Appropriations Committee is where the money is.
    But just very quickly, in your confirmation hearing, you 
stated in response to my question about whether we should arm 
the Ukrainians, quote, I am very much inclined in that 
direction, Mr. Chairman, because I think we need to support the 
Ukrainians in defending themselves. The nature of those arms I 
cannot say right now. I have not confirmed with--but I am 
inclined in the direction providing with arms, including to get 
to what your question is, lethal arms. Do you still have that 
position?
    Secretary Carter. I have not changed my thinking in those 
months, and I had the occasion to talk to the Ukrainian 
Minister of Defense just the other week----
    Chairman McCain. Fine. I am just asking whether you still 
want to support them--arming them or not. That is a pretty 
straightforward question.
    Secretary Carter. We are considering that. We have not made 
a decision in that regard.
    Chairman McCain. Are you still----
    Secretary Carter. We are providing----
    Chairman McCain. Are you still inclined to providing arms 
to the Ukrainians? Please, Mr. Secretary.
    Secretary Carter. Yes. I have not changed my view.
    Chairman McCain. Thank you. That was it. That was a simple 
answer to a simple question.
    Secretary Carter. But if I can just----
    Chairman McCain. No, because I have only got 2 minutes 
left. Thank you.
    Five thousand airstrikes have been conducted, 75 percent of 
the airstrikes return without having dropped a weapon. If there 
was ever a compelling argument for forward air controllers, it 
seems to me that is the case.
    You mentioned we are currently training about 60 fighters. 
I got to tell you after 4 years, Mr. Secretary, that is not a 
very impressive number. Is it true that with these people that 
you are training and equipping to fight in Syria--is it true 
that you are telling them they are only there to fight ISIS and 
not Bashar Assad? Is that true?
    Secretary Carter. Yes. We are telling them that we are 
arming and training them in the first instance to go after ISIL 
and not the Assad regime. That is our priority and these are 
people who are inclined in that direction and come from areas 
that have been overrun by ISIL----
    Chairman McCain. So in other words, if they are barrel-
bombed by Bashar Assad, they are not----
    Secretary Carter. I think we have some obligation to them 
once they are inserted in the field.
    Chairman McCain. Is that to defend them against barrel-
bombing?
    Secretary Carter. Well, that decision will be made when we 
introduce fighters into the field.
    Chairman McCain. That is of small comfort to those people 
you are recruiting right now that that decision will be made 
later on. Is that fair to these young men to say we are sending 
you in to fight ISIS only, and by the way, we will decide on 
the policy whether to defend you if you are barrel-bombed?
    Secretary Carter. They know that we will provide support to 
them. Exactly what kind of support----
    Chairman McCain. Does that mean you will defend them 
against Bashar Assad's barrel-bombing? Mr. Secretary, this is 
not a very pleasant exchange. I would like to have answers to 
questions. Will we tell them that we will defend them against 
Bashar Assad's barrel-bombing?
    Secretary Carter. I think we have an obligation to help 
them----
    Chairman McCain. Will we tell them that?
    Secretary Carter. We have not told them that.
    Chairman McCain. You have not told them that. So you are 
recruiting people and not telling them that they are going to 
defend them because you have not made the decision yet. Yet, 
you want to train them quickly and send them in.
    Now, there is success on the part of an outfit called the 
Army of Conquest, which is funded and trained and equipped 
mostly by Saudi Arabia, Qatar, and perhaps others. They are 
succeeding. If there are battlefield games, they are achieving 
them. Does the United States have any relationship with that 
outfit? Because they are fighting against Bashar Assad as well 
as ISIS.
    Secretary Carter. I will have to get back to you on the 
answer to that question because who has that contact is 
something that we would have to discuss separately, Mr. 
Chairman.
    [The information referred to follows:]

    The Department of Defense does not maintain a relationship with the 
Army of Conquest, which is an extremist-led alliance that includes 
Ahrar al-Sham and the al-Qaeda-affiliated al-Nusrah Front. The 
Department is open to training a variety of Syrian oppositionist groups 
as long as they meet United States vetting standards and are willing to 
work within the Department's training, equipping, and support program, 
consistent with Section 1209 of the National Defense Authorization Act 
for Fiscal Year 2015.

    Chairman McCain. The answer is----
    Secretary Carter. Can I go back----
    Chairman McCain. Go ahead.
    Secretary Carter. Can I go back, Mr. Chairman? You 
mentioned the question of air sorties and which fraction of 
them result in strikes, and I would like to explain those 
numbers to you a bit.
    In the case where the airstrikes are mounted--and I will 
ask the Chairman to elaborate further on this. In the case 
where the airstrikes are conducted in a deliberate manner, that 
is, one knows at the time the aircraft embarks on the sortie 
what the target will be--in those cases, 93 percent of the time 
they are concluding the sortie.
    When it comes to dynamic targeting, the fraction is much 
lower. It is about 37 percent. The reason for that is that in 
the case of dynamic targeting, by its nature the aircraft is 
deployed with the expectation that a target of opportunity--let 
us say something that is moving on the ground or a developing 
tactical situation will provide the opportunity for a strike. 
That does not happen all the time, but it does happen about 37 
percent of the time, a fraction, I should note, that is much 
higher than it was in Afghanistan where we did the same thing. 
We routinely flew sorties in order to capitalize upon fleeting 
opportunities or developing opportunities. So our experience 
here is, in fact, better than it is in Afghanistan. But anyway, 
that is what explains----
    Chairman McCain. Any experienced pilot will tell you that 
if you have a forward air controller on the ground to identify 
those targets, then the number of targets hit is dramatically 
increased. We have no forward air controllers on the ground, 
and that, I can tell you, is incredibly frustrating to the 
young pilots who are flying these 6\1/2\ hour sorties who feel 
that they are not achieving anything, Mr. Secretary. You might 
want to talk to them as well since they are the ones that are 
doing the fighting.
    Secretary Carter. If I can address the question of JTACS, I 
think that is a fundamental one, Mr. Chairman, and since you 
have raised it, let me go back to the fundamentals of the 
strategy which are to support capable and motivated ground 
forces while we fight when we find them. We are supporting such 
capable and effective ground forces. For example, just to give 
one example, the Kurds in northern Syria now.
    Chairman McCain. Mr. Secretary, my time is way up. But that 
has nothing to do with not having forward air controllers on 
the ground. I hate to cut you short but we are 3 minutes----
    Secretary Carter. I am just saying we do not rule that out 
and our strategy does not----
    Chairman McCain. You never rule it out. It has not 
happened.
    Senator Reed?
    Senator Reed. Thank you very much, Mr. Chairman.
    Mr. Secretary, I was struck by your statement. You said 
that the first and most critical line with our efforts is a 
political one led by the State Department. In your colloquy 
with the chairman, you pointed out that there are challenges 
with respect to year-to-year OCO funding that is being 
proposed. But State does not even have an option to that source 
of funding.
    So are you concerned that they might be so resource-
deprived under the Budget Control Act that they could not be 
the primary--
    Secretary Carter. I am. The State Department, the 
Department of Homeland Security, other agencies that are 
critical to protecting us against ISIL and other threats--they 
need resources too. So that is another reason why I appeal for 
an overall budget perspective. I realize it involves lots of 
moving parts and would require a major coming together to 
release the gridlock of the last few years, but I really appeal 
for that not just for my own Department, but for the rest of 
the national security establishment. I think it is critical.
    Senator Reed. Shifting now to the training effort in Iraq, 
one of the first issues was the composition of the provisional 
forces that rallied a year ago to try to defend Baghdad. It is 
overwhelming Shia. Now we are beginning to see Sunnis appear.
    First, is that the deliberate cooperation of the government 
in Baghdad? Are they finally getting the message that they have 
to have the support of the Sunni community? Second, are you 
beginning to see a trend that is a positive one in the sense of 
the overall participation of Sunnis?
    Secretary Carter. We see the commitment of Prime Minister 
Abadi, so different from the behavior of his predecessor, to 
engage in a multi-sectarian way in the fight against ISIL. That 
includes the Kurds and it includes Sunnis. Now, that has gone 
slowly, which explains why the numbers are small. We expect 
them to grow. We hope they grow. But what we need from the 
Iraqi Government is the enrollment of Sunnis in the Iraqi 
Security Forces and the commitment of the Iraqi Government to 
pay them, to equip them with our help which we provide.
    Then to get back to the chairman's question about direct 
support to them, when we have effective ground forces under the 
control of the Iraqi Government, we are prepared to do more to 
support them, but we need to have those effective ground forces 
because local forces on the ground, we know from experience, is 
the only way to create a lasting defeat of ISIL. That is what 
the strategy is all about.
    Senator Reed. General Dempsey, can you comment on your 
perception of the situation in terms of Sunni forces in Anbar 
Province particularly and the government in Baghdad's 
relationship with them, expediting weapons, providing support 
more than rhetorically but actually?
    General Dempsey. I can, Senator. Thanks.
    As the Secretary mentioned, the good intentions of Prime 
Minister Abadi have not always been met with activity at 
echelons or levels of bureaucracy beneath him. So there was a 
period of time when, frankly, we had the capability to bring 
them in but we could not generate the recruits. That situation 
has improved I think probably as a result of their failure in 
Ramadi, and what we see now is a renewed effort by the prime 
minister to empower his ISF, his Iraqi Security Force, leaders 
to reach out to the Sunni tribes and to arm them. It is our 
policy to do that through the central government, not directly 
because our objective is a unified Iraq. If it became clear 
that that was not going to happen, we would have to reconsider 
the campaign.
    Senator Reed. One of the observations is the leadership at 
the tactical level all the way up to brigade and division of 
the Iraqi Security Forces continually seems to be unimpressive. 
Are there active changes going on right now to ensure that the 
leadership at the brigade/division level is competent? In fact, 
it is just startling because it appears that ISIL--in fact, 
there was some indication there were former Ba'athist officers 
operating with them--are much more operationally and tactically 
capable than the Iraqi Security Forces. Your comments.
    General Dempsey. I do, sir. You know, we tend to look at 
the tactical shifting and who owns how much territory and how 
many airstrikes, for example. But we also need to watch Iraqi 
leadership changes. Recently we received an open source report 
that their chief of defense would be retired. We consider that 
to be a very positive thing. There are issues up and down the 
chain of command.
    We also watch carefully the distribution of their budget, 
how much money is going into the ministry of defense, how much 
is going into the popular mobilization force, how oil is being 
generated and the revenues shared. We watch the influence of 
the ministry of defense, whether the ISF is the dominant force 
for the Government of Iraq or whether that dominance is 
shifting to the popular mobilization forces, the relationship 
of the Iraqi army and the Iraqi police, and we watch the 
activities of the Shia militia. In every case, there are 
positive indications, and in every case there are indications 
that concern us.
    Senator Reed. Quickly, Mr. Secretary, because there is just 
a moment left. The issues come up about the training and 
equipping of forces going into Syria--I would presume the 
General might want to comment also--that part of the plan to 
insert these forces would be to protect them as much as 
possible from any type of response, to focus them on ISIL but 
also to put them in places in the country where they would be 
much less likely to be engaged. But if they were engaged, they 
would not only have the right to defend themselves, but my 
presumption would be we would assist them in defending 
themselves from attack. Is that a fair estimate?
    Secretary Carter. That is my feeling. That is what I said, 
that I think we have an obligation to do so. You are right. I 
do not expect that occasion to arise anytime soon.
    To get to the chairman's point earlier, in the very first 
vetting, the thing, Mr. Chairman, that made the numbers so 
small--and I said the number is 60, and I can look out at your 
faces and you have the same reaction I do, which is that that 
is an awfully small number. Why is that number so small, this 
in the first class? The reason for that has to do with the 
criteria we apply--and some of this is the law--to these 
recruits. We do counterintelligence screening. We make sure 
that they, for example, are not going to pose a green on blue 
threat to their trainers, that they do not have any history of 
atrocities. These are all things that are required of us, and 
that they are willing to engage in the campaign in a way that 
is compliant with the law of armed conflict. All of this is the 
legal and I would say principled--I am not arguing with it--
policies of the United States as far as those fighters are 
concerned. That is why 60 of them got out the other end of the 
process.
    Now, General Nagata, who is doing the training--I indicated 
he has got 7,000 more--expects that we will do better as we get 
better, and that number 60, which is not impressive, will get 
larger over time as he learns more, to get to the chairman's 
earlier point, about the groups that are willing to cooperate 
with us. But when we do get them, they will deserve our support 
and we will give our support to them. It is going to take some 
time, obviously, to get the numbers up to the point where they 
can really have an effect.
    Senator Reed. Thank you.
    Secretary Carter. I should point out, by the way, while we 
are talking about fighting in Syria, while these numbers are 
small, this particular train and equip--I just need to point 
out that there are other capable ground forces fighting both 
the regime and Islamic State of Iraq and the Levant (ISIL), 
some of which we can support and do support with intelligence, 
surveillance, and reconnaissance (ISR), airstrikes, and so 
forth. I gave the example of the Syrian Kurds. But we would 
like to see more, and we are trying to get better at training 
them because the number 60, as you all recognize, is not an 
impressive number.
    Senator Reed. Thank you.
    Chairman McCain. Senator Sessions?
    Senator Sessions. Thank you, Mr. Chairman.
    Mr. Secretary, this is a tough job you have undertaken, but 
as my wife reminds me when I complain, do not blame me. You 
asked for the job. But I am not sure you asked for it. You were 
asked to take the job.
    But at any rate, Senator McCain's opening comment is 
exceedingly important. It goes to the key of what we are here 
for. The whole purpose of this hearing is how to confront and 
stop ISIS and the Levant. So we want to talk about that, not 
all these other strategies, General Dempsey, other threats 
around the world. We need a strategy on this problem and I am 
deeply disappointed. I do not see the confidence in your 
testimony or General Dempsey's testimony. I believe we are 
carrying out a strategy that the President has, and I do not 
believe it has sufficient respect for the use of military force 
necessary to be successful. I mean, I hate to be a critic about 
this. This is important.
    Senator McCain warned in 2011 we should not pull out all 
our troops and we needed to remain engaged in that country. He 
has also warned you if we do it in Afghanistan, the same thing 
is liable to happen there, both of which would be tragedies of 
monumental proportions considering how much we have invested, 
the soldiers General Dempsey led in Iraq.
    So I am not happy about this. I think ``delusion'' is a 
word that is too accurate. So I just wanted to say that here at 
the beginning. I hope we will get into more details about what 
you plan to do to reverse this action. At some point, the 
President is going to have to change his mind, it seems to me. 
He cannot just function based on a campaign promise when the 
reality is different.
    Secretary Carter. Would you like me to address that? It is 
a very fair question. Let me just go back to the issue of the 
strategy, and then I will say something about Afghanistan.
    The strategy for defeating ISIL on the ground in Syria and 
Iraq is to train and then enable local forces. That takes some 
time.
    Senator Sessions. Well, I am aware of that. General Dempsey 
was training the Iraqi forces 8 years ago. I visited him in 
Iraq. That was his primary responsibility. We have been 
training them for nearly a decade and that is not the problem 
right now. I think the problem is confidence within the Iraqi 
Government and the Iraqi soldiers that they are going to be 
supported and that they are going to be victorious. If they had 
that confidence, you would get more recruits.
    Secretary Carter. I agree with that, and that is what was 
lacking under Maliki. You are absolutely right.
    Senator Sessions. Well, you just said the strategy--I 
believe you used the word ``strategy''--is to support capable 
and motivated ground forces where we find them. Well, I think 
General Stewart a few months ago testified, the new Defense 
Intelligence Agency head, who was there in the al Anbar region 
and led the effort that the forces--when they turned it around 
in Iraq. General Dempsey, you remember that effort. He said, 
when pressed--I felt that he was reluctant because it was not 
the administration policy. But he acknowledged that when you 
have embedded soldiers, forward observers, the United States 
forces embedded with troops moving out into combat situations, 
that those Iraqi troops will perform better. Do you agree with 
that, General Dempsey?
    General Dempsey. I agree that there are points on the 
battlefield where the presence of forward observers, JTACS, 
embedded, SOF forces, would make them more capable.
    Senator Sessions. So is our strategy now--does it remain 
that we will not do that?
    General Dempsey. I can tell you that I have not recommended 
it. Whether we do it or not, I am telling you that I have not 
recommended it, Senator. I can explain why, if you would like.
    Senator Sessions. Well, I would like to know why.
    General Dempsey. Okay. Let us take the issue of airpower 
because it seems to be the most prominent one. At a similar 
period in the Afghanistan conflict in 2012, the number of 
aircraft that returned with their ordnance because there were 
not targets available on the ground was 83 percent. It is 65 
percent in Iraq right now.
    The JTACS and the special force observers are not a silver 
bullet to the destruction of ISIL. The silver bullet is getting 
the Iraqis to fight.
    Senator Sessions. Well, I totally agree with that. I just 
believe that if we had a few forces, a thousand forces, in 
Mosul, Mosul never would have fallen. So now our policy is to 
try to take back this territory? What is the reluctance to use 
our special forces here?
    This is what bothers me. I understand the problem in Syria 
and I am dubious about what we ought to do about Syria. I do 
not know. We probably should not have involved ourselves in 
Libya. But we committed our Nation in Iraq, General. We have 
been deeply committed for over a decade there. So is it now our 
policy that you are refusing to even allow special forces to be 
embedded with, say, two special forces with 600 Iraqi troops in 
a battalion? You are rejecting that idea?
    General Dempsey. What I have recommended is that if we find 
a unit which is led and is responsive and has an offensive 
mission where we can enable them or increase their likelihood 
of success, then I will make that recommendation. But to 
restore or to put embedded advisors in on a habitual basis, the 
environment is just not simply set to do that. By the way, it 
is not reluctance. We have 1,600 pilots flying over Iraq and 
Syria today. We have 3,500 boots-on-the-ground doing train, 
advise, and assist.
    Senator Sessions. So if we had a few advisors in the Iraqi 
battalions, you are saying that that would not make a positive 
impact on their morale and their capabilities to actually win?
    General Dempsey. What I am saying, Senator, is that for a 
brief, temporal tactical gain, we should wait until we see a 
strategic opportunity to do that.
    Senator Sessions. Well, I would think if we started having 
some wins, ISIS would have fewer recruits and we would have 
better morale with the Iraqi recruits too and they would fight 
better. It is the chicken and egg perhaps, but I think it is 
very important. I hope you will reevaluate that and recommend 
to the President we do that because I think without that, we 
are not going to be effective.
    Thank you very much.
    Chairman McCain. Senator Manchin?
    Senator Manchin. Thank you, Mr. Chairman.
    Thanks to both of you for being here and the service to our 
country. I appreciate it very much.
    As you can tell, this is a pretty sensitive subject and it 
is a very concerning subject to all of us.
    As I go around the State of West Virginia, my little 
State--it is a very hawkish State and a very patriotic State 
and a lot of veterans--I speak to all of them. They are 
confused right now. They really are and you heard the 
frustration coming out.
    But basically Iraq is not a united country. You have the 
Sunnis, the Shiites, and the Kurds. I think, Secretary Carter, 
you have said that until they have the will--and I think, 
General Dempsey, you have said the same thing--until Iraq has 
the will to fight. But which group has the will to fight to 
defend the other group? That is what we are having a problem. I 
think it has been said, well, if you have a group that is 
fighting--and the Kurds want to fight--why do we still have to 
make them go through the Baghdad centralized government in 
order for them to get the weapons they need to defend 
themselves and be aggressive? So they are confused about that.
    They are confused about in Syria trying to spend the money 
to find people to train, when you acknowledge that we only had 
60 of them successful right now and the amount of effort we are 
spending there. But yet, I think you said you had the Syrian 
Kurds that were fighting and some things of that sort.
    I do not know and then I am asked the question. They said 
we continue to keep trying to train and arm the Iraqis, and it 
seems like all they are doing is supplying ISIL with the 
equipment that the Americans are giving them. When are we ever 
going to stop giving equipment to the people that will not 
defend it and fight for it?
    So I guess talking at your level, are you talking to the 
White House about rethinking the whole Iraqi position as far as 
one centralized government, one Iraq, or maybe a separated 
Iraq?
    Secretary Carter. I think we are all aware that it is very 
difficult to govern Iraq in a multi-sectarian manner. We 
thought about all the alternatives to that. I think we all have 
actually for years, and I am sure all of you have as well. We 
are trying to assist Prime Minister Abadi in governing in a 
different way from the way Maliki governed which, as Senator 
Sessions noted, led to the disintegration of the Iraqi Security 
Forces, the sectarian coloration of them, and that is what 
ultimately led to their collapse in Sunni territory.
    Senator Manchin. Secretary Carter, if I can ask this 
question also along those lines. I have been asked the 
question. You just reminded me. They said did we not see signs 
that Maliki was incompetent, that he would have gone strictly 
to a sectarian position, as he did, not for a strong, united 
Iraq. With all the people we have had there, did we not see 
that coming and could not have averted that from happening?
    Secretary Carter. I can only speak for myself in that 
regard. I was not closely involved in it at the time. I 
certainly had that concern about Mr. Maliki, and I know that 
many of you met with him. I met with him several times, and it 
was quite apparent to me.
    Now, Prime Minister Abadi says he has a different 
intention, which is to govern Iraq from the center but in a 
decentralized enough way that the Kurds, the Sunnis, and the 
Shia each have enough space to carry on their own welfare in 
the way that they wish, but there is a single, integral Iraqi 
state. That is what he says he is working towards, and we are 
supporting him in that regard. That is why, for example, when 
we provide arms to the Kurds, we do it with the consent of the 
Iraqi Government in order to indicate that we support the idea 
of a single Iraqi Government in Baghdad but we also want the 
Kurds in the fight and armed. That has not delayed our arming 
of the Kurds.
    Senator Manchin. It seems like the biggest problem we have 
is with the Sunnis and the Shiites.
    Secretary Carter. Then the Sunnis and the Shiites, and this 
is why it is so important to take the time to train a truly 
multi-sectarian Iraqi force. There are elements of the Iraqi 
forces that have that right character, for example, their CTS.
    So our strategy, just to go to the beginning, is to train 
and equip those local forces. They are essential. Then we can 
help them. It is a chicken and egg thing except that you need 
to have the capable and motivated ground force. Then we can 
enable it rather than to substitute for it, which does not lead 
to a lasting result.
    Senator Manchin. I would think, General Dempsey, it has 
been pointed out here that we have spent multiple years, 10 
years plus, a trillion dollars, lost a lot of lives in Iraq, 
and we had 100,000 troops there at one time trying to train and 
defend and get them motivated. That did not work. So that is 
the hard question. I mean, how do you go home and answer that? 
How do I go home and answer that we are going to try this over 
again? Maybe we will do a better job of retraining. I think 
that was the frustration you have seen coming out of Senator 
Sessions.
    General Dempsey. Well, sure, but I think it is probably 
worth mentioning that my judgment about how this will evolve 
over time is that it is a generational issue. It is trans-
regional, Senator. There are elements of it in Afghanistan. We 
see it in Iraq and Syria. We see it in the Sinai. We see it in 
Libya and we cannot just focus like a laser beam on one part of 
it. There has to be pressure to cross it. So what we are trying 
to do is achieve an enduring defeat, which means we have to 
work it through partners because they have more to gain and 
more to lose. Finally, we have to find a sustainable level of 
effort since I do believe this is a generational challenge.
    Senator Manchin. I just think that basically my question 
would be, overall are we trying to defend the British lines 
that were drawn 100 years ago and putting people in a territory 
that they do not believe that that is their country? I mean, 
why are we forcing something upon people that do not want to 
accept it?
    General Dempsey. I will just follow up with you. I also 
share that concern, that the Mideast will never be the Mideast 
again. So everything that I recommend to the Secretary and to 
the President is recommended with the intention of being 
flexible enough that we can build upon it if we do find that 
inclusive national unity government in Iraq or not.
    Senator Manchin. Thank you.
    Chairman McCain. I cannot help but mention the situation 
was stabilized after the surge and we had won. We predicted if 
everybody was pulled out, that the situation would descend into 
chaos. It is a fact that thanks to General Petraeus and the 
surge and great sacrifice, the Iraq war was won. To ignore that 
in that conversation, General Dempsey, is to me intellectually 
dishonest.
    Senator Ayotte?
    Senator Reed. Mr. Chairman, just for the record, President 
George W. Bush signed an agreement with the Maliki Government 
to withdraw all forces.
    Chairman McCain. We will have this debate later on, but it 
was clear that we could have and everybody knows they could 
have and the people who were there know they could have.
    Senator Ayotte?
    Senator Ayotte. I want to thank both of you for being here, 
for your service to the country. We appreciate it.
    I wanted to ask you, Secretary Carter. You had said in 
answer to Senator Manchin that, in fact, the arms that we are 
providing to the Kurds, we are doing so with the consent of the 
Iraqi Central Government. Does that mean we are doing it 
directly or are we going still through the Iraqi Central 
Government?
    Secretary Carter. First of all, we are not the only ones. 
But we and others basically convey the weapons directly to the 
Kurds, but we inform the Iraqi Government and get their formal 
consent to it. So it does not delay the arming of the Kurds. We 
are trying to stick up for basically the central government.
    Senator Ayotte. Because previously we had heard complaints 
about it originally going through the Iraqi Central Government 
and then to the Kurds. So I am glad to hear that we are 
directly providing it to the Kurds, letting the Iraqi Central 
Government know what we are providing.
    Secretary Carter. Mr. Barzhani was here in town. You may 
have met with him a few weeks ago. He was grateful for what was 
being provided, and he noted that the delays, which was the 
principal problem that were experienced early on, are not being 
experienced now either in the shipment of our equipment or that 
of others, for example, the Germans providing anti-tank 
munitions, which they value very much.
    But we are trying to stick up for the principle that Iraq 
is a single, unitary, multi-sectarian state, and difficult as 
that may be, that is much preferred to the alternative, which 
is the sectarian disintegration of Iraq.
    Senator Ayotte. Let me follow up. So clearly the Kurds are 
capable and motivated. At this point, are they receiving all of 
the weapons that they have asked for? Because as I understood 
it, ISIS unfortunately has captured some of the armaments that 
we left in Iraq and some of them heavy armaments. The Kurds are 
quite effective, but it is hard if you are out-armed. Are they 
now receiving--what have they requested that we are not 
providing? If so, why?
    Secretary Carter. I will let Chairman Dempsey answer that.
    Again, just to say it is not just us. I think there are 
more than 12 nations overall arming the Kurds. I noted I was 
with the German defense minister over in Germany last week, and 
she was providing to the Kurds these critical anti-tank weapons 
of a kind the Germans make that is especially effective. So it 
is not just us. The Kurds are an example of what we are looking 
for, which is an effective ground force that will stick up for 
itself, hold together, take and hold territory. That is why we 
are providing them with support.
    Senator Ayotte. So we agree with that. I think that there 
has been broad agreement on that, and so we just want to make 
sure that they have what they need.
    General Dempsey. Senator, I am not aware of anything that 
they have asked for that we have not provided. We probably have 
not provided in the quantity that they may have desired, MRAPs 
for example, and we are working to address those quantity 
issues.
    Senator Ayotte. I wanted to follow up on a different topic 
because, General Dempsey, you mentioned in your testimony some 
of the other challenges we face around the world, including the 
malign influence of Iran. Recently--I read it today in the 
press that, in fact, Iran was actually pushing for the lifting 
of the arms embargo at the UN and also the resolution that bans 
Iran from developing ballistic missiles. So I wanted to get 
both of your thoughts on those two issues. As we look at Iran's 
malign influence in the region, as far as I can tell, we still 
see Iran not only supporting the Assad regime, Hezbollah, the 
Huthi rebels, and also we have heard reports on the Taliban 
undermining our interests. So your thoughts on those two 
issues?
    Secretary Carter. I will start, Marty, if it is okay.
    You are right. I cannot speak to what is going on in the 
negotiations. Secretary Kerry is conducting those negotiations. 
But I agree with your perspective, namely that we have serious 
concerns with Iranian malign activities outside of the nuclear 
issue, which is the focus of those talks. It is in several 
different locations around the region. Whatever happens as far 
as an agreement over the nuclear program with respect to Iran 
is concerned, I think we--and certainly I feel this--have a 
clear duty in DOD, first of all, to defend our friends and 
allies, keep a robust posture in the Gulf--our friends and 
allies, to include especially Israel--maintain our robust 
posture, and continue to maintain the military means to strike 
Iran's nuclear program if we were ordered to do so. We work on 
all three of those things, and we will work on them whether or 
not an agreement is reached in Geneva.
    Senator Ayotte. So just to be clear, Mr. Secretary, it does 
not sound like, based on what you are saying, given their 
malign activities in the region, that it would be a good idea 
to lift the arms embargo right now on what Iran receives. Would 
you agree with me on that?
    Secretary Carter. No. We want them to continue to be 
isolated as a military and limited in terms of the kind of 
equipment and materiel they are able to get.
    Senator Ayotte. Also, can you explain to us why is it 
important that we also continue to stop them from having an 
ICBM program? Because we know they have one.
    Secretary Carter. Yes. Well, the reason that we want to 
stop Iran from having an ICBM program is that the ``I'' in ICBM 
stands for ``intercontinental,'' which means having the 
capability to fly from Iran to the United States, and we do not 
want that. That is why we oppose ICBMs.
    Mr. Chairman, do you want to add anything on any of those 
points?
    General Dempsey. Just to answer your question because you 
posed it to both of us. Under no circumstances should we 
relieve pressure on Iran relative to ballistic missile 
capabilities and arms trafficking.
    Senator Ayotte. Thank you.
    I also just wanted to point out something, Secretary 
Carter, when the chairman had asked you about the defense 
authorization. One thing that I think needs to be pointed out, 
the President has said he will veto it. The defense 
authorization received 71 votes in the Senate. I would describe 
that as very bipartisan. So it troubles me that he would seek 
to veto something that received 71 votes.
    Chairman McCain. Senator Donnelly?
    Senator Donnelly. Thank you, Mr. Chairman.
    General, thank you. Mr. Secretary, thank you.
    I just got back from Iraq with Senator Kaine, who led our 
trip. One of the meetings we had was with a number of the Sunni 
tribal leaders, and some of them were from the Haditha area. In 
talking to them, they said, we have stood with you. We have 
faith with you, but we have people who are now eating grass in 
our town. We have no food. We have no supplies, and we have 
been told the only airlifts that can come in would be on 
military transport. Is there anything you can do to help feed 
our people? So I wanted to put that before you to see if there 
is something we can do to be of aid to these individuals.
    Secretary Carter. I will say something about that and then 
ask the chairman if he wants to add.
    First of all, I want to thank you, Senator Donnelly, also 
Senator Kaine, for traveling there. We appreciate it. On behalf 
of the 3,550 members of our Armed Forces that are in Iraq and 
conducting this fight, thank you for taking the time to go 
visit them this Fourth of July weekend.
    The humanitarian situation is yet another tragic 
consequence of what has gone on in ISIL. It remains one of the 
coalition's efforts, as I indicated in my opening statement, to 
relieve the humanitarian situation. That is very difficult to 
do when there is not order and control on the ground. So this 
is why we need to get a security situation that is stable, 
ground forces that are capable of seizing territory, holding 
territory, and governing. That is the only way to get the 
humanitarian situation turned around either in Iraq or in 
Syria. It is very sad and it is tragic. In the case of Iraq, as 
has been noted, something brought about by the reemergence of 
sectarianism in a really tragic way.
    Chairman, do you want to add anything?
    General Dempsey. One of the reasons we went to Taqaddum Air 
Base, also locally called Habineyeh, is to advise and assist in 
the Anbar operations center, which is where these kind of 
issues should actually migrate through. You should be 
interested to know the Iraqis have the capability to address 
that. They have C-130J, state-of-the-art----
    Senator Donnelly. I know they do but they are not.
    General Dempsey. Yes. Well, we will pass it to the guy who 
is embedded.
    Senator Donnelly. When you are hungry, your stomach does 
not tell you want Iraqi food or United States food. You just 
want help. One of the bonds created with these tribal leaders 
is they said, we have always felt we could count on you.
    To follow up on that, as we look at Ramadi and other areas 
in the Iraqi armed forces, one of the great tragedies of this 
whole thing was that the number of ISIS fighters in Ramadi was 
extraordinarily insignificant in terms of the overall number, 
but the Iraqi forces headed the other way. So I wanted to hear 
your thoughts on making sure that the Iraqi forces know that 
there is no back door anymore. There is only one way through 
Ramadi and that is forward.
    Secretary Carter. I will say something about that, and 
then, Chairman, you may want to add.
    The way you recount the fall of Ramadi is exactly correct. 
Ramadi needs to be retaken, and the way to do it is to have a 
force under the competent command and control of Iraqi Security 
Forces commanders, which has been a challenge, and a plan and 
the means to, as you say, make sure that they do not bog down 
and they are able to take Ramadi and move through Ramadi. This 
will be a test of the competence of the Iraqi Security Forces, 
and it is a test that they must pass. Therefore, our and the 
coalition's involvement is to try to train and equip and 
support them to be successful, and we are going to take the 
time and encourage them to take the time so that the operation, 
when they do conduct it, is successful.
    Senator Donnelly. One of the side spin-offs, when it is 
successful and Ramadi is taken back, is that ISIS will then 
look for a quick PR claim somewhere else. So I just want to 
make sure that we are ready in surrounding towns and in 
surrounding areas, that when Ramadi falls, we know they are 
going to step somewhere else and that we have a plan in place 
to protect those other towns as well.
    General Dempsey. The Ramadi campaign which about a month 
ago was about to be executed precipitously, actually with our 
help, is now a very deliberate campaign, first to isolate it 
and then to go back and recapture it with a supporting effort 
in Fallujah. So our presence in the Anbar operations center is 
allowing the Iraqi Security Forces to take a more deliberate 
campaign approach and to avoid the very toothpaste aspect of 
the way ISIL squirts around the battlefield when you squeeze it 
in one place and it turns up in another. But this is very much 
us helping them understand the threat and formulate a campaign 
to address it so that they get credit for it and that they 
become credible to the people of Al Anbar Province.
    Senator Donnelly. Well, as I am sure you know, the Sunni 
tribal leaders--they have a tremendous value for the 
relationship they have established over the years with the 
United States, established in blood and treasure. So what gives 
them confidence more than anything is knowing that not that our 
soldiers are in the front, not that our soldiers are in the 
combat, but that we are there to help guide and help provide 
advice and help provide a plan and help provide air cover is 
the other thing that they talked to us about. They said, you 
have no idea how our spirits soar when we see your air assets. 
So they want to make sure that all of that is going to be in 
place as we move forward. Then they are willing to buy in. If 
not, they feel their families are exposed.
    One last thing I wanted to ask you--I see my time is 
running short--and that is in Syria. You do not have to answer 
this. I will ask it on a second round. The question comes up so 
when Assad goes, if Assad goes, how does the space get filled 
with people who we think can be of help as opposed to Nusra or 
ISIS? I know that is the tremendous challenge you have too. It 
seems like we are getting further behind the curve as opposed 
to in front of the curve on that question.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton?
    Senator Cotton. Thank you, Mr. Chairman.
    Mr. Secretary, Mr. Chairman, thank you for appearing today, 
for your testimony.
    I would like to associate myself with the remarks that 
Chairman McCain made earlier today about arming the Ukrainian 
Government. He and I traveled there last month, as far as east 
as we could go to Dnipopetrovsk. We saw very brave and skilled 
soldiers. We saw them doing things like constructing unmanned 
aerial vehicles out of Styrofoam to meet their needs. In 
addition to the lethal aid they need, they also still need a 
substantial amount of nonlethal aid. Some soldiers have the 
improved first aid kits that our soldiers have been carrying 
overseas. Some soldiers have first aid kits that look like they 
came out of the prop scenes in MASH, in addition to radar 
systems and radios and so forth.
    But moving on to the Islamic State, one point that I do not 
think has been discussed here today is the Islamic State in 
Egypt. There have been a series of spectacular terrorist 
attacks in the Sinai peninsula. The Islamic State takes credit 
for those attacks. We still have the multinational force and 
observers in the Sinai peninsula, almost 1,800 soldiers, 1,200 
of which are American personnel.
    Secretary Carter, General Dempsey, can you explain to us 
what steps we have taken to ensure that our troops in the Sinai 
peninsula are adequately protected and are working with the 
Egyptian security forces to not just defend themselves, to try 
to defeat the Islamic State in the Sinai peninsula?
    Secretary Carter. Thank you. Let me address the Ukraine 
part first, and then the Chairman can address Sinai.
    First of all, thank you for going to Ukraine. I have been 
there many times. The government there and the people there, 
particularly in the western part of Ukraine--Vladimir Putin's 
conduct there has had the opposite of whatever effect he 
thought it might have in terms of attracting Ukraine in the 
direction of Russia. He has strengthened the feeling among 
Ukrainians, particularly in the western part of the country, 
that they want to have a future that they determine, that is 
not determined from outside.
    To get to your point, we are constantly assessing--and this 
gets back to the chairman's earlier point--the kind of 
assistance that we provide to the Ukrainians. The principal 
kind of assistance, however--I will come back to the military 
part in a moment, but I cannot emphasize the importance of 
economic assistance to Ukraine, and that is largely in the 
hands of the Europeans and so also are the sanctions against 
Russia. That is really the main event, and I cannot emphasize 
enough the importance of that because that is mostly a matter 
for the European Union (EU) rather than the United States. We 
are less directly involved, but we certainly support the 
European Union (EU) both in its sanctions against Russia, which 
we share, but theirs are more important because their volume of 
trade is greater, and also their efforts to strengthen the 
Ukrainian Government and economy, support reform there and the 
independence of Ukraine.
    I did talk to, as I mentioned, the defense minister there 
about what he needed, and his principal focus was on training. 
So as I said, we will constantly reassess that, but we are 
assessing that. I am open to what we do in the future. I have 
indicated that. I continue to indicate that. But his emphasis 
was on training, and we have trainers now in Yavoriv, which is 
the principal training range there. That is much appreciated. 
He was asking me and us for more of that kind of training. I 
think we will continue to do that and to support the Ukrainian 
military.
    I should say that the defense minister of Ukraine used to 
be the interior minister, which is a very good combination 
because the Russian and separatist threat is a hybrid kind of 
threat, hybrid in the sense that it is signified by the little 
green men phenomenon, a combination of the exercise of malign 
influence through sort of KGB-type tactics on the one hand and 
battlefield operations on the other. He is somebody who really 
understands that kind of hybrid warfare. That is really where 
he wants our help.
    Senator Cotton. Thank you, Mr. Secretary. I do not mean to 
cut you off, but I do have other questions.
    General Dempsey. On the MFO, about 9 months ago, 
anticipating and watching the intel stream about the 
radicalization of the Sinai and the fact that the Egyptian 
armed forces had moved resources to their western border, we 
actually did a joint staff integrated vulnerability assessment. 
As a result of that, we introduced Blue Force Tracker raid 
towers, changed movement techniques, enhanced their 
communications, put in some counter-mortar radars, things that 
you are very familiar with.
    We also have been in touch with our Egyptian armed forces 
colleagues. They have increased the number of Egyptian--they 
have brought back Egyptian armed forces into the Sinai. They 
accompany us on our movements when we make them. Of course, we 
recently released some of the capabilities that have been 
withheld from them so that they could address their terrorist 
threat in the Sinai.
    Senator Cotton. You are confident that American personnel 
in the Sinai currently has adequate protection against 
terrorist there?
    General Dempsey. I am confident that they are adequately 
protected today, but I fully expect that threat to increase. In 
fact, I recently had a conversation with the Secretary about 
the future of the MFO mission which really has not changed in 
the last 50 years.
    Senator Cotton. Thank you.
    I would now like to move to the heart of the Middle East 
and the Islamic State. For the record, I think the Islamic 
State is a grave and growing threat. But until they develop 
their own ballistic missile program and until they have 
thousands of centrifuges and tons of uranium, I believe the 
Islamic Republic will be a graver threat than the Islamic 
State, that is, the Islamic Republic of Iran. My objections to 
the course we have taken in the nuclear negotiations are well 
known, and I will not repeat them here. But I will note that 
Iran remains an anti-American, terror-sponsoring outlaw regime 
that is responsible for the deaths of hundreds of Americans 
from Lebanon to Iraq, Afghanistan.
    General Dempsey, you served three different tours in or 
associated with Iraq. How many American soldiers died at the 
hands of Iranian militias or explosively formed projectiles 
during your command?
    General Dempsey. Yes. I recently heard both the Chief of 
Staff of the Army and the current U.S. Central Command 
(CENTCOM) Commander put that number at about 500.
    Senator Cotton. Hundreds of Americans died and probably 
thousands were wounded or suspected of being wounded. What 
should we say to their families, the families who lost soldiers 
at the hands of Iranian militias or Iranian roadside bombs, 
once we reach a deal that is going to give Iran tens of 
billions of dollars in sanctions relief and international 
legitimacy without them changing their behavior?
    General Dempsey. I would tell you what I have told them, is 
that solving the nuclear issue diplomatically is a positive 
outcome. But make no mistake about it. There are at least five 
other malign activities in which Iran is engaged that cause me 
grave security concerns, and we will not take our eye off those 
five. You know what they are: ballistic missiles, sea-based 
mines, cyber activities, arms trafficking, and surrogates and 
proxies.
    Senator Cotton. Thank you.
    Chairman McCain. Senator Hirono?
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, Secretary Carter and General Dempsey, for being 
here and for your commitment.
    General Dempsey, you testified before the House Armed 
Services Committee that--I quote--I would not recommend we put 
United States forces in harm's way--where you were talking 
about Iraq--simply to stiffen the spine of local forces. You 
continued, if their spine is not stiffened by the threat of 
ISIL on their way of life, nothing we do is going to stiffen 
their spine.
    So, General Dempsey, what is it going to take to stiffen 
the spines of the local forces?
    General Dempsey. Actually, Senator, what I said was that if 
it takes us to stiffen their spine in the face of a threat that 
is existential to them, then it does not seem to me that they 
are going to be stiffened.
    But I do think--you asked me what--the things that we are 
doing--and I mentioned a few of them earlier about expanding 
our network of points where we touch them, help them train, and 
help them target, and help them understand how they integrate 
with each other, army and police--I think those things have had 
the effect of giving them greater confidence. I just made the 
point that I do not think the added step of accompanying them 
into combat would make a strategic difference except if we get 
to the point where there is a major offensive that we think 
could be increased in terms of its probability of success by 
our presence.
    Senator Hirono. So as far as you are concerned, we are 
doing those--taking those steps that will enable them to be 
able to fight for themselves because I agree with you that 
there is no number of our troops that we can send there that 
will result in a lasting kind of situation.
    You also talked about your recent trip to Israel where you 
discussed various scenarios involving Assad's departure. I do 
not know whether Assad's departure is anywhere in the near 
future, but let us assume that there is a departure. How would 
his departure affect the dynamics of what happens in Syria? 
Would ISIL step in to fill the power vacuum? How would Assad's 
departure change our strategy regarding ISIL?
    General Dempsey. So let me tell you about our military 
planning efforts. our Israeli counterparts and our Jordanian 
counterparts very much believe that the possibility of either 
the regime collapsing or enclaving itself in Tardis, Latakia, 
Homs, and Hama is possible. So they were very eager to have 
consultations with us about what that would precipitate. Your 
description of it is one that at least our regional partners 
express, which is to say we do not want this to be a foot race, 
if it occurs, between Al Nusra and ISIL and Ansara, all of 
these other groups converging on Damascus.
    I will not sit here today and tell you that I have the 
answer to that, but I will tell you that we are in 
consultations, even as I sit here, with the Turks, the 
Israelis, and the Jordanians about that scenario.
    Senator Hirono. So what you are doing is to prepare for 
that possible eventuality and to ensure that these other groups 
do not just step in and take over. But let us say that--well, 
let me put it this way. If Assad departs, does that somehow 
make our mission against ISIL simpler, easier to target? Is 
that a way to think about it?
    General Dempsey. I am on a roll. That is a subject of great 
debate actually. The debate is framed somewhat this way. Is the 
presence of Assad the catalyst for these issues, these radical 
ideologies, and violent extremist organizations? Or did they 
emanate somehow else and they simply use the presence of the 
Assad regime as a recruiting tool? Depending on how you answer 
that question will largely shape how you think about solving 
the problems.
    The situation militarily is such that what we are trying to 
provide with partners is options, that is to say, we are trying 
to form a network of partners, partners that we may not have 
conceived before like the YPG, the Syrian Kurds in and around 
Kobani and over to the east bank of the Euphrates River. We are 
trying to provide options that will allow us to shape and to 
react, depending on what the internal situation--how it 
evolves, and we are working most closely with those who border 
Syria who have, again, the most to gain and the most to lose.
    Senator Hirono. Turning to the training that we are doing 
with the moderate Syrian forces, we recognize that you are 
having great difficulty while training not only the Syrians but 
also in Iraq. You have described this as a generational 
challenge. So while we are slowly training the local forces to 
fight for themselves, what are some of the other things that we 
need to be doing contemporaneously? Is it those nine action 
items that need to be occurring at the same time as----
    Secretary Carter. It is. For example, Senator, if I may, in 
recognition of the fact that it is going to take some time to 
build the forces that defeat ISIL in the territory of Syria and 
Iraq, that is a fact. We are going to do that. I am sure we 
will be successful at that, but it is going to take some time. 
We need to defend ourselves in the meantime because there are 
parts of ISIL that would like to attack us and our friends 
around the world. That is where Homeland Security and the FBI 
and the rest of our efforts to protect ourselves come in. So on 
the one hand, we need to go to the territory where ISIL arose 
and defeat it there, and we will do that. But at the same time 
and in the meantime, we need to continue to defend our people 
and our country against these guys. Some of them have the 
ambition to go to Syria, train, and come back to the United 
States. You see that already in Europe. We see some signs of 
that in the United States.
    That is why I was so laborious in describing the nine lines 
of effort. The ones we are talking about that we have principal 
responsibility are two of those nine. But the others really are 
critical as well because, as Senator Cotton said a moment ago, 
ISIL is a grave threat. These guys do want to do us harm and 
our friends and allies in the region.
    If I can say something about this. You asked about the 
Assad regime and the Chairman answered that. Obviously, what we 
would like to see occur is for Assad to leave the scene but for 
the state of Syria not to disintegrate completely because we 
know what is down that road: sectarian disintegration. Now, 
that is a diplomatic task that is underway, as the Chairman 
indicated, and that is the outcome that would be by far 
preferable I think not only for the United States and our 
National security interests, but for the people of Syria who 
are suffering so terribly now. There are so many refugees and 
it is really a tragic situation in the human sense. But Assad 
needs to go, but the structures of governance need to stay or 
we hope they will stay because we know what life is like 
without structures of governance in the Middle East.
    Senator Hirono. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Rounds?
    Senator Rounds. Thank you, Mr. Chairman.
    Gentlemen, first of all, let me just say thank you for your 
service to the country.
    We find ourselves, as you have stated, in a very precarious 
position in a number of areas. General Dempsey, as I sat here 
and listened to your assessment of the world today from your 
point of view, it was alarming to find at location after 
location we find ourselves being challenged and we find 
ourselves being pressured into positions that perhaps 10 years 
ago we would not have found ourselves in, whether it be with 
regard to the Pacific Rim areas or whether we find ourselves in 
the Ukraine area and so forth. Our challenges are many. Yet, at 
the same time, it does not appear that this has come in as a 
surprise.
    As you moved farther along and specifically into the area 
that we had today, which was in terms of our challenges with 
ISIL and defeating ISIL, it seems to me that we have found 
ourselves once again in a position where there really were not 
surprises. But I am just curious. The Secretary stated that in 
Iraq, the Iraqi Security Forces were severely degraded after 
four divisions dissolved and Mosul fell a year ago this June. 
The Secretary was not in his position at the time. You were, 
sir. Was that a surprise to you?
    General Dempsey. Well, they collapsed because of poor 
governance and sectarianism. I was surprised at the rapidity of 
it. I suppose I would suggest to you that the degree to which 
the leadership had been changed out for all the wrong reasons 
by the Maliki government were the conditions under which that 
occurred.
    Senator Rounds. If the four divisions that were lost 
there--if they were there today, would four divisions--does 
that make a difference between us moving forward with the 
defeat of ISIS, or is that not the right number? What is the 
right number that it is going to take in terms of boots on the 
ground, not American boots on the ground, but literally allied 
forces on the ground? What is the number that it takes in order 
to move forward with whatever strategies are in place if there 
are strategies in place? I am assuming that we will get into 
that. What is the number that we want to see on the ground?
    General Dempsey. The Commander of CENTCOM has testified 
that to recapture Mosul eventually, he believes he will need 
approximately nine brigades worth of security forces, six from 
the Government of Iraq and three from the Kurdish region. That 
would be for Mosul. Then, of course, restoration of the border, 
which would be the ultimate step, restoration of their 
sovereign territory defined as the border between Syria and 
Iraq, that would be largely a Federal police or border issue, 
and I am not aware that that number has been identified. But 
the initial goal is to form or re-green, re-equip nine 
brigades.
    Senator Rounds. What is the timeframe that that can be 
accomplished in?
    General Dempsey. Putting a temporal dimension on this is 
risky at best. Because the campaign is dependent on a coalition 
and it is dependent on the network of actors that include the 
Sunni tribes, the Iraqi Security Forces themselves, the 
counter-terrorist service, and the Kurds, the act of describing 
when those groups could all come together to establish the 
conditions to do this is just difficult to pin down. Even if I 
knew the answer to that question, I would be loathe to report 
it to you in an open hearing. But I have said from the 
beginning that it was probably a 3-year effort to restore 
sovereignty to Iraq, and we are 8 months into that.
    Senator Rounds. General, we pride ourselves and then we 
point out the fact that we truly do have the greatest fighting 
force the world has ever seen. Yet, right now we find 
ourselves, as the President stated some time ago--he called 
ISIS the Jayvee team. Clearly that is not the position that I 
think the administration would take today. We have identified 
that they are clearly a threat.
    We have identified a nine-point plan here, Mr. Secretary, 
in which you have identified all of the things that have to 
happen, including the defense of our country from these 
individuals. At what point during this 3-year timeframe--or 
what is the possibility during this 3-year timeframe that the 
patience that you have shown, General, and that the Secretary 
has alluded to here to build this up--what is the probability 
that this timeframe gets away from us? Are we in the position 
to make this thing last for 3 years without literally upping on 
our own point in order to defend ourselves? At what point does 
it look like we are going to have to amp this thing up using 
our own resources to a greater degree than what we have today?
    General Dempsey. I said 3 years for Iraq, and I have also 
described ISIL in general as a generational problem because of 
its allure in, notably, the Sunni sect of Islam. Look, we just 
have to have a Sunni partner in order to address this challenge 
of ISIL. So although I have said 3 years for Iraq, it is more 
like a generation, which I suppose is loosely defined as 20 
years, to address the violent extremist allure of ISIL in the 
Sunni world, and that allure will only be stripped away when 
someone actually takes care of them and governs them.
    But to your question, are there points at which we should 
and would consider the introduction of additional U.S. military 
combat capabilities? The answer is yes. I think you have seen 
us do that in the raid that we conducted into Syria to capture 
and kill the group affiliated with Abu Sayyaf, the financial 
network of ISIL. I think that we are always on the alert or 
always on the lookout for those opportunities and can use our 
capabilities as necessary to deal with those.
    Senator Rounds. You feel that you are in a politically 
appropriate position and that you would have the backing to 
step in when needed to take care of the problem when the time 
is right?
    General Dempsey. I cannot answer what answer I would 
receive. I have the confidence that my recommendation would be 
accepted and debated in the context of everything else we are 
doing.
    General Dempsey. Let me out here if I may, Senator. I think 
that part of our strategy is to look for opportunities to do 
more in the sense of creating capable ground forces that we can 
support. So we kind of welcome those opportunities. We are 
taking those opportunities in the case of Syria. So I do not 
want to speak for the Chairman, but in terms of is the 
opportunity to do more in that sense, not as a substitute for 
local people, but as a way of enabling them and assisting them, 
that really is the strategy. So I think we welcome those 
opportunities when we find them. We are trying to create those 
opportunities in the Sunni areas, as was noted earlier. We are 
taking some opportunities in the Kurdish area, and we hope that 
we have more, including in Syria.
    Senator Rounds. Mr. Chairman, my time has expired, but I 
would make one comment, and that is it appears to me that if 
our strategy is waiting on other people to get their stuff in 
order, it does not seem to be as practical as taking advantage 
of and literally going out and proactively taking care of the 
problem, if need be. We have the greatest fighting force in the 
world, and the last thing in the world I want to see is to have 
them engage boots-on-the-ground. But if it means boots on the 
ground or additional folks there fighting there, as opposed to 
having a successful attack on this Homeland, then I think we 
all agree on what we ought to be doing. I just hope that the 
strategy includes that as a possibility.
    Chairman McCain. Senator Heinrich?
    Senator Heinrich. Secretary, Chairman, welcome to you both. 
Thank you very much for your service.
    Let me start by saying that surge or no surge, I think it 
is pretty clear, at least to my constituents, that the Iraq war 
remains one of the greatest United States foreign policy 
mistakes of the last century and one that I hope we have 
learned a few lessons from.
    I want to follow up, Secretary, on what Senator Hirono 
raised. One lesson that I believe we should have learned by now 
is that eliminating one terrible Middle Eastern dictator can 
too often lead to even more brutal influences filling the 
leadership vacuum. We have seen that play out too many times. 
We have seen it to some extent in both Iraq and Libya.
    Should we be concerned that Syria post-Assad reality could 
create a vacuum that ISIL is in a far better position to fill 
than any of the other regional forces? I think we should be 
almost as concerned with forces like Al-Nusra Front. If Assad 
does fall, should we not have more than discussions on the 
table? Should we not have a plan to make sure that some amount 
of governance remains particularly in Damascus?
    Secretary Carter. Well, yes, we should and we do. That is 
our strategy with respect to the political transition. Now, for 
reasons that are easy to understand, our influence with Bashar 
Assad--ours, that is, United States influence--is not great. So 
we are trying to influence those who would influence him to 
remove himself from the Government of Damascus while keeping 
intact the structures of governance for the very reason you 
adduce, which is we know what happens in these Middle Eastern 
countries when the structures of government disintegrate. We 
would like to not see that happen in Syria, even though we know 
that the persistence of Assad at the helm in Damascus is in 
fact a fuel for ISIS and others who are fighting him. So he 
needs to go to remove that fuel, but we do not want to see the 
structures of governance go at the same time. That is the 
challenge, but that is what we are trying to achieve.
    Senator Heinrich. Well, I think that is certainly the right 
goal. I just want to make sure we are prepared for that because 
we have sort of missed that ball in the past. Syria is an 
enormous country, and if we saw Damascus lose its governance 
capability, the implications for the entire region and the 
world would be enormous.
    Secretary Carter, as you mentioned as well, to be 
successful on the ground against ISIL, the fight needs to be 
led by local capable ground forces. I do not think we should 
give in to impatience. These should not be Western forces. 
These should not be American forces. We have certainly heard 
that from our partners in places like Jordan. This means that 
we have to place a great deal of emphasis on training motivated 
and reliable partners, and you have gone a little bit over the 
small number of Iraqi Security Forces recruited, what some of 
those challenges are, the bottleneck related to the vetting 
process.
    But are there other factors that you would attribute for 
the lack of trainees? I guess one of the questions I have 
related to that is what steps, in addition to the steps that 
you are taking, is the Iraqi Government taking to address the 
shortfall in order to meet those kind of training targets we 
would like to see?
    Secretary Carter. Thank you, Senator.
    I think in Iraq the principal limiting factor on Sunni 
trainees, which is one of our focuses, has been their belief 
that the government in Baghdad was not fully supportive of 
them. That is the challenge before Prime Minister Abadi. He 
says he wants to do that, and that is critical because only 
Sunnis can take back Anbar. Only Sunnis can govern Anbar when 
it is all over. So if we are going to wrest Anbar from the 
likes of ISIL, which we must do, we must have Sunnis on our 
side. So Abadi is saying all the right things. As the chairman 
noted, we are trying to support him in doing all the right 
things.
    Senator Heinrich. Mr. Secretary, I agree with you 
wholeheartedly in your analysis. I guess my concern is, is 
Abadi doing enough to begin to generate confidence in the Sunni 
population in that region?
    Secretary Carter. I think he is doing everything he 
personally can. I think he is challenged in Baghdad by others 
who would have it the old way, the sectarian way. So he is not 
able to make everything happen when and as he said. We have had 
some delays and some frustration as a result of that. I think 
things are getting better. We are getting more trainees. It was 
noted earlier that there is some confidence among Sunni tribes 
that we will help them train, equip them, support them, and get 
them back in the fight, and that there is a future for them not 
even withstanding the difficulties of multi-sectarian 
governance in Iraq. That is the path we are on.
    In the meantime, just to get back to something that Senator 
Rounds said, I think--and I said this before. I just want to 
restate it--we need to take action to defend ourselves against 
ISIL not just in Iraq and Syria but elsewhere, particularly 
foreign fighters, even as we defeat them in the place from 
which they arose. They have metastasized now. They aspire to be 
a global network. We have to fight them where they are, and we 
cannot wait for that. We need to do that, and by the way, we do 
that every day, even this past weekend.
    Senator Heinrich. Secretary, I want to leave you with one 
last question. It is a very general one. You may have seen the 
``Politico'' article from a couple of days ago that examined 
what it called the Daesh effect, and it is sort of a modern 
example of the ancient proverb that the enemy of my enemy is my 
friend. Whether it is Hamas or Al Nusra or Iran, there are a 
number of entities that may be enemies of the United States, 
certainly enemies of our allies, that currently share the same 
opposition to ISIL, or Daesh. What are your thoughts on that 
observation generally, and would you not agree that it is that 
reality that is part of the reason why this is such a 
complicated nut to crack?
    Secretary Carter. It is a reason why it is complicated. 
Again, sectarianism is what brought us to this point. So we are 
willing to and we are and have supported elements of the Iraqi 
Security Forces that have a very large Shia composition to 
them, but if and only if they are under the direction and 
control of the Government of Iraq. There are Shia forces in 
Iraq that are not under the direction and control, and we will 
not support them because that is sectarianism. That is 
sectarian civil war. We know it leads down that road, and we 
are trying to stop Iraq from going down that road.
    Chairman McCain. Senator Ernst?
    Senator Ernst. Thank you, Mr. Chair.
    Thank you, Secretary and Chairman, for being with us today. 
I appreciate your efforts in this area.
    Secretary Carter, I would like to start with you because 
right now I am very confused. You had stated earlier and then 
you affirmed to Senator Ayotte that we are directly arming the 
Kurds in consultation with the Iraqi Government. Would you 
state that again, please, sir?
    Secretary Carter. Yes. You are using the word ``directly,'' 
and she used the word ``directly'' and I did too. But let me 
just be clear about that, which is that we do it in a way that 
does not delay the shipments and does not narrow down the 
shipments at all but is by, through, and with the Government of 
Iraq. We are sticking with that principle not because we do not 
want to help the Kurds and we do not want to help them in a 
timely way, but because we also want to stick up for the 
principle of multi-sectarianism. So that is the reason. But we 
are insistent that it not lead to delays.
    As I said, I spoke to Mr. Barzhani when he was over here 
and I made sure that he is getting the right kind of equipment 
not just from us but the Germans and all the others who are 
arming him in a timely manner. They are getting that equipment 
and they are performing extremely well with it.
    Let me see if the Chair wants to add anything about the 
method of arming.
    Senator Ernst. So we are arming the Kurds. It is not being 
delayed. I know that was stated earlier that there are no 
significant delays because I do want to emphasize that over the 
last several months, a number of my colleagues and I have been 
working on legislation to directly arm the Kurds in 
consultation with the Iraqi Government.
    I know that you and Secretary Kerry also had very strongly 
worded letters to the chairman of this committee emphasizing 
that we should not be directly arming the Kurds in consultation 
with the Iraqi Government because there were no delays. Yet, 
the President now has come out and said that we will be arming 
them in an expedited manner. Well, if there were no delays, I 
do not understand why now we need an additional several hundred 
members of our armed services on the ground in Iraq and that we 
are expediting the process. If there were no delays, we do not 
need to be expediting the process.
    So I just needed to clarify that because it was stated a 
number of times that we were directly arming the Kurds, which 
Secretary Kerry had said last year he does not have the 
authority, the President does not have the authority to do. I 
still believe we need to be directly arming them in 
consultation with the Iraqi Government.
    Following the fall of Ramadi, General Dempsey, you stated 
that if the Kurds fail to take measures to be more inclusive 
with Sunnis, Kurds, or other groups, U.S. support for the 
central government could be curtailed. Sir, considering the 
fall of the most western part of Iraq to ISIS, that did not 
trigger a decision point on the part of the Iraqi Government 
and its commitment to Iraq. I am just not sure what else the 
Iraqi Government needs to fail at before the administration 
changes its strategy and how we support our willing partners in 
Iraq, the Kurdish Peshmerga. They are willing partners and I 
think we need to do more for them.
    We cannot defeat ISIS in Iraq by continuing to beg, hope, 
and pray that the sectarian Iraqi Government, which is still 
overshadowed--we have heard it a number of times--by previous 
Prime Minister Maliki and Iran. We do not think they would 
vigorously defend the Iraqi people equally. I do not believe 
they will.
    But we have talked also about being more inclusive. That 
was mentioned again. ``More inclusive.'' I hear this time and 
time again. But I would like a definition of what does ``more 
inclusive'' look like and how do we measure ``more inclusive.'' 
Gentlemen, if you would address that please.
    Secretary Carter. I would begin by noting the words of 
Prime Minister Abadi when he was here. I think he used the word 
``decentralized'' Iraq, and that is one in which there is a 
central government in Baghdad and an integral state of Iraq, 
but there is substantial opportunity for self-determination 
around the country among Sunnis, among Shias, and among Kurds. 
It seems to me that is a wise way of approaching what multi-
sectarianism means. I think a government in Baghdad that allows 
the different parties there a degree of self-determination to 
maintain security within their own territory and to govern 
themselves, share in things like the oil wealth in the country 
and so forth, that is what he says he is for, and that is the 
way he described it when he was here in Washington to all of 
that.
    That is in my judgment certainly better than the 
alternative, which is sectarian disintegration, which could 
still occur in Iraq. But I think we all, looking into that 
abyss, know what resides there. It is further violence for the 
citizens of Iraq and further opportunity for groups like ISIL 
that are not preoccupied with the long-term welfare of the 
territories they occupy. They want to use them for further 
violence.
    So that is Prime Minister Abadi's definition, and I think 
we are trying support him in his aspiration to make good on 
that definition.
    Senator Ernst. Thank you.
    General, anything to add there?
    General Dempsey. Just militarily what we will be watching 
for in terms of the intentions of the Government of Iraq and 
its control over groups that are not directly responsive to the 
Ministry of Defense is whether there is retribution, whether 
they allow--it was Tikrit I was speaking about I think, 
Senator. As these families come back to Tikrit after it was 
recaptured, I think we are watching and it is worth watching on 
whether they are able to return to their homes or not. I think 
the same will be true once Ramadi is recaptured, and we will 
probably be watching how the campaign in Fallujah unfolds to 
ensure that the popular mobilization forces propagate a 
campaign that is not characterized by retribution and dramatic 
collateral damage. Those are all things to watch carefully.
    Senator Ernst. I think we have willing partners there. I 
think we need to assist those willing partners.
    One further comment, too, just very briefly. You had stated 
you have not seen a request list from the Kurds on the type of 
equipment and arms that they need. Is that correct?
    Secretary Carter. No. I have seen such requests. We have 
honored such requests. We have shipped a lot of equipment. I 
should once again repeat. It is not just the United States. 
There are a number of countries that are equipping the Kurds, 
and in some cases, they prefer the equipment of other 
countries, for example, German anti-tank weapons. That is 
absolutely fine with us, and the Germans are providing those.
    Senator Ernst. That is one thing I know that President 
Barzhani had also presented to us during his visit with the 
members of the Senate Armed Services Committee. I just wanted 
to make sure that we were clear on that and that they have 
provided a list of equipment.
    Secretary Carter. They did. We discussed exactly the same 
list, and I have discussed it with others, for example, the 
German defense minister. I mentioned, when I was in Germany a 
couple of weeks ago, her commitment to do exactly the same, and 
they have done a great job of equipping the Kurds. That is an 
example of a competent ground force that also governs within 
the territory that it controls, and that is really what we are 
looking for in that entire region. It is going to be hard to 
get but that is what we are looking for.
    Senator Ernst. Well, they are there and I know they are 
willing.
    So thank you, gentlemen, very much.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Kaine?
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you to our witnesses today.
    I have a number of questions and concerns about the ongoing 
mission against ISIL which I will address, but I have to begin 
by just saying my concerns about the administration's strategy 
pale--pale--next to my concerns about Congress and what 
Congress is doing.
    What Congress is supposed to do is to provide a budget to 
you to defend the Nation and win this battle, and Congress is 
supposed to authorize a war that is now 11 months in. We have 
not done either. We are not giving you a budget. We are using a 
gimmick, and whether the gimmick is the gimmicks of the past, 
continuing resolutions, or the current gimmick du jour, which 
is a use of non-recurring OCO funding, we are not giving you 
the budget. We are not doing it because--let us just be blunt--
Congress to this point has decided that the budget caps enacted 
in August 2011 is a higher national priority than defeating 
ISIL. As long as we view that as a higher national priority 
than defeating ISIL, we are not going to give you the budget 
that you need.
    It is my hope, as you testified, Secretary Carter, that we 
will find a better path, something like a Murray-Ryan budget 
deal. I know the chair has been significant in speaking out for 
this as well. But we are not doing what we ought to be doing on 
the budget side.
    We are also not doing what we ought to be doing under 
Article 1, Section 8, which is declaring war. Tomorrow is the 
11-month anniversary of the initiation of the bombing campaign 
in Sinjar and Irbil. We have spent $3 billion. We have 3,500 
people deployed away from their families risking their lives. 
Aside from a single vote in the Senate Foreign Relations 
Committee in December, there has not been House committee 
action or floor debate of any significance. There has not been 
any meaningful debate on the Senate floor about whether or not 
we should be engaged in this war, even though three-quarters of 
the Members of Congress, by my estimation, believe that there 
should be U.S. military action against ISIL with some 
differences in detail. But we do not want to have a debate and 
vote because we do not want to put our names on it. We do not 
want to be held accountable for a vote.
    So we can criticize all we want, and I will get into some 
criticisms. But bottom line, Congress is not doing either of 
the two things we are uniquely supposed to do: provide your 
budget to win and authorize war. I think we can make our 
criticisms have a much greater legitimacy if as an institution 
we would do what we are supposed to do.
    I just returned from the region, and just some quick 
summaries. Senator Donnelly mentioned it. We are achieving some 
significant successes against ISIL in some parts of the 
battlefield in Iraq and Syria largely in the areas where we are 
relying on partners with the Kurds, the KRG regional government 
in Iraq and then Kurds in the north of Syria.
    President Barzhani. We met him on Sunday in Irbil. I guess 
two Sundays ago. He said this, and this is very important, 
especially for any who would say the United States does not 
have a strategy. He said thank you to the United States of 
America. If the President had not started a bombing campaign on 
August 8th near Irbil, we might not be here today. That bombing 
campaign likely helped save the existence of the KRG, which has 
been a good partner. They lead with that. They do not lead with 
we are not getting weapons. They do not lead with we do not 
like working with Baghdad. They lead with thank you to the 
United States for helping save us, save our region, save our 
way of life. That is important for us to acknowledge because 
that was not by accident. That is a strategy. We helped save an 
important ally by acting, the President acting when he did.
    There are challenges too. The Iraqi unification challenge 
was very patent as we met with Prime Minister Abadi. There are 
mixed reviews. Positive on the intent but mixed on the follow-
through. In the Sunni area in particular, a lot of criticism. 
Some support the Anbar governor, supports what Prime Minister 
Abadi is doing but a lot of the tribal leaders do not, and a 
lot of the tribal leaders do not think we are doing what we can 
do. When they look at what we are doing with the Kurds and they 
compare with what we are not doing with them, it sticks in 
their craw.
    Finally, the challenges in Syria are significant.
    Let me ask you this question. Today, front page article in 
the ``Washington Post'' dealing with the routing of ISIL in 
northern Syria. Quote: The unexpected route of Islamic State 
forces across a wide arc of territory in the northeastern Syria 
heartland has exposed vulnerabilities in the ranks of the 
militants and also the limits of the United States-led strategy 
devised to confront them. Islamic State fighters had been 
driven out of a third of their flagship province of Raqqah in 
recent weeks by a Kurdish-led force that has emerged as one of 
the most effective American partners in the war. The offensive, 
backed by United States airstrikes, has deprived the militants 
of control of their most important border crossing with Turkey 
and forced them onto the defensive in their self-proclaimed 
capital of Raqqah City, something that would have been 
unthinkable as recently as a month ago. That is what is 
happening right now.
    But every success has a challenge, and there is a worm in 
this apple and the worm is this. As we have succeeded in our 
partnership with the Kurds in northern Syria, it has caused 
grave concern by the Turkish Government. It has caused grave 
concern by a number of the other Sunni forces in Syria that we 
are partnering with. How do we continue to manage the Kurds to 
be successful in the battle against ISIL and partner with them 
to be successful without causing additional undue challenges in 
our effort to also help Sunnis be successful against ISIL?
    Secretary Carter. Thank you. By the way, thank you once 
again for traveling there. I know it is much appreciated.
    Let me start with the Turks. Turkey has a long common 
border with both Syria and Iraq, which has remained 
disturbingly permeable to foreign fighters and to resupply 
throughout the course of this conflict. We have some people 
actually talking to the Turks just today, as the Chairman 
alluded to a while ago, in order to try to get the Turks to up 
their game. They are a North Atlantic Treaty Organization 
(NATO) ally. They have a strong stake in things, in stability 
to their south. I believe they could do more along the border.
    In the meantime, it is true. The Kurds are acting and 
because the Kurds are capable of acting, we are supporting 
them. That is successful and it does threaten Raqqah.
    I think the tension with respect to the Sunnis is best 
managed in the way that we are hoping Prime Minister Abadi will 
manage it, namely by letting them each succeed within their own 
territory, defeat ISIL, and have substantial--his word is 
``decentralization'' of governance in Iraq that allows them a 
substantial opportunity to determine their own destiny within 
the territory that they control. That is what multi-
sectarianism in Iraq would mean. As you indicated, it is a lot 
tougher in Syria, but that is the objective that we have, to 
have Sunnis--I would like to see the Sunni tribal leaders that 
you met with be as successful as the Kurds are. We would 
welcome that. That is what we are trying to stimulate in al 
Taqaddum and so forth, and we are willing to do more, as the 
Chairman indicated and I indicated, when we have a capable 
ground force that we can support the way we did support over 
the weekend the Kurds in the north with air power.
    Senator Kaine. Thank you, Mr. Chairman. Mr. Chairman, I 
also want to just agree with a line of your questioning 
earlier. I think it would be absolutely foolish for us to not 
clarify the rules of engagement for the Syrian trained folks 
inserted back in the field to make clear that the United States 
will support them if they come under attack by the Assad 
regime. For them to go back in without a guarantee on that 
score, we would lose all credibility if we do not provide that. 
I just would encourage the administration to clarify that 
aspect of the rules of engagement. Thank you, Mr. Chairman.
    Chairman McCain. I thank you, Senator. I have been asking 
that question for a long time, and I keep getting the answer, 
well, we have not made that policy decision. It is shameful--
shameful--to send people in and not assure them that we will 
defend them against attacks by barrel bombs.
    Senator Graham?
    Senator Graham. Thank you.
    To build on what we were just talking about, do we have the 
legal authority to assist the Free Syrian Army that we train 
against Assad? Is there a doubt about that?
    Secretary Carter. I am not sure about the legalities of it, 
Senator, to be quite honest.
    Senator Graham. Let us just put it this way. If there is 
any doubt about whether or not we have the legal authority to 
protect the troops we train against Assad, please let the 
committee know. You do not have to answer right now, but that 
is a big decision. If there is a lack of legal authority, I 
want to know why and what can we do to fix it.
    Secretary Carter. I appreciate it, and I will take that 
back. I appreciate that thought.
    [The information referred to follows:]

    Although we would have to evaluate the facts and circumstances 
present at the time, we have concluded that we have sufficient legal 
authority to provide combat support to Syrian fighters that DOD has 
vetted, or vetted and trained, who come under attack by Syrian 
government forces, consistent with the right of United States self-
defense, if the United States action is necessary to effectively 
address the threat posed by ISIL to the United States and Iraq and 
meets the international law requirements of necessity and 
proportionality.

    Senator Graham. General Dempsey, thank you for decades of 
service. I really appreciate that.
    General Dempsey, would you agree that there are more 
terrorist organizations with more safe havens, with more 
weapons, with more capability, with more men to strike the 
homeland than any time since September 11?
    General Dempsey. Thank you for your service. I know you 
retired recently.
    Yes.
    Senator Graham. Do you believe that ISIL is expanding in 
other countries as we speak?
    General Dempsey. Yes.
    Senator Graham. When it comes to Iraq, do you both agree 
that partitioning Iraq into three separate countries is 
probably not a viable strategy?
    Secretary Carter. I certainly agree with that, yes.
    Senator Graham. Do you agree that the Sunni world would 
object to giving the southern part of Iraq to Iran? That is 
what would happen--right--if we partitioned the south. Do you 
all agree with that?
    Secretary Carter. That sounds like sectarianism to me, and 
we know what lies down that road.
    Senator Graham. An independent Kurdistan is going to create 
a lot of upheaval with Turkey and the region at large. Do you 
agree with that? A separate, independent state.
    Secretary Carter. For the Turks, a separate, independent 
state would be very problematic, and within Iraq, I think a 
substantial autonomy within a decentralized but integral Iraq 
is still possible. That is what Abadi is trying to do.
    Senator Graham. I agree. Do you agree with that, General?
    General Dempsey. I do, sir.
    Senator Graham. So partitioning I think is not a viable 
strategy.
    As to the Kurds, do you either one of you believe that the 
Kurds have the ability, will to go into liberate Ramadi?
    Secretary Carter. I will start that. I think they may have 
the ability, and we are, obviously, trying to facilitate their 
movement south. Whether they have the will is another matter. 
The only reason that I say that is that they are getting, at 
that point, to the edge of the territory that is Kurdish.
    Senator Graham. That is my point. For anybody to suggest 
that the Kurds are the answer to all of our problems, they do 
not, quite frankly, know the Mideast. I mean, the Kurds are not 
going to liberate Syria. Do you all agree with that? They will 
be part of the component, but they are not going to be the 
liberating force.
    Secretary Carter. Right, part of the component, absolutely.
    Senator Graham. As to Assad, what is more likely? President 
Obama leaves office in 2017 or Assad goes first?
    Secretary Carter. Well, it is certain that President Obama 
will leave office.
    Senator Graham. No, I know that.
    Secretary Carter. So that is an easy question. But turning 
to whether Assad will be in power then----
    Senator Graham. Who leaves first? Obama or Assad?
    Secretary Carter. Well, I certainly hope it is Assad.
    Senator Graham. Yes, I do but I do not think so.
    So the bottom line, if Assad stays in power, do you worry 
about Jordan and Lebanon being a victim of the war in Syria if 
it continues the way it is going, that Jordan and Lebanon will 
become a casualty of the war in Syria?
    Secretary Carter. Well, I think Jordan and Lebanon are 
already suffering from the effects of war in Syria. They are 
hosting refugees.
    Senator Graham. Right. It could even get worse.
    Secretary Carter. That is exactly the concern we should all 
have. One of the concerns we should have about what is going on 
in Syria--it is not just the Syrian people, it is the neighbors 
as well.
    Senator Graham. Do you agree with me that no Arab force is 
going to go in and fight ISIL alone unless you put Assad on the 
table?
    Secretary Carter. I see what you are getting at and it gets 
back to our train and equip program. We are finding people 
whose principal security fear for their own people--and this is 
really for their own villages--is ISIL. So they are willing to 
go and fight against ISIL. There are others who want to fight 
against Assad, and that is another matter entirely.
    Senator Graham. Here is my point. They are recruiting more 
foreign fighters than we are training Free Syrian Army. The 
math does not work. This is never going to result in Assad or 
ISIL being degraded or destroyed. The only way I see ISIL to be 
degraded or destroyed is for a ground force, regional in 
nature, to go into Syria. Do you agree with me that no ground 
force made up of Turks, Saudis, Egyptians, you name it are 
going into Syria to fight ISIL unless one of the goals is to 
replace Assad? They are not going to give half of Syria to 
Iran.
    Secretary Carter. That sounds sensible to me, and I 
certainly wish that such a force would be created. One of the 
great disappointments in all of this is that the Sunni world 
more broadly is not more involved in this fight.
    Senator Graham. Let us dig into that for a moment. If we 
went to Turkey, Egypt, Saudi Arabia tomorrow and said we would 
like to use your armies, we will be integrated, would you agree 
with me for them to say yes, that we would have to make Assad a 
target of that army? Are we willing to do that?
    Secretary Carter. Let us see. I would guess that--it is 
very hypothetical because, sadly, none of them has indicated 
their willingness to do anything of that kind under any 
circumstances.
    But I see what you are driving at, which is will the rest 
of the Sunni Middle East participate in this conflict. I 
certainly wish they would. The one answer I know, Senator, is 
for the Turks. The Turks have stated their position, which is 
that they definitely want Assad to go, and the conditions for 
any other participation so far have been that they want to 
fight against Assad.
    Senator Graham. Well, I would suggest you do the following. 
You travel a lot. We went to Qatar. We went to Saudi Arabia. We 
went all over the Mideast. They told us to a person we would 
gladly join forces with you upon the condition that Assad is 
part of the target set. Nobody in the United States will tell 
them whether or not we are willing to take Assad on militarily 
as part of the ground force.
    So I would suggest instead of being upset with the Sunni 
Arab world, that our problems lie within ourselves, that we are 
not putting Assad on the table militarily. Do you agree with 
that? Do you think Assad is on the table militarily?
    Secretary Carter. Senator, as I am sure you know, his 
position on the battlefield is more tenuous today than it has 
been for a long time.
    Senator Graham. But the point is, is our efforts designed 
to take Assad out militarily, or are we focusing just on ISIL?
    Secretary Carter. No. Our approach has been, as I think has 
been stated clearly for some time, to try to find a political 
exit for Bashar Assad rather than a United States-led military 
exit. That is the approach.
    Senator Graham. Thank you.
    Chairman McCain. Senator Nelson?
    Senator Nelson. Thank you, and thank you both of you for 
your decades of service, and that includes you, Mr. Secretary, 
because you have given decades.
    I want to follow up on that line of questioning. So if 
Assad exited tomorrow, what would be the likely strategy that 
we would use going forward?
    Secretary Carter. Our strategy would be to encourage the 
moderate opposition to partner with the structures of the 
government of Damascus not directly associated with Assad or 
with his deplorable behavior--and I think we can determine what 
that is--keep the structures of government in place, unify with 
the moderate Syrian opposition, and create a new government 
which is more reflective of the aspirations of the populace 
than Assad's is. Then they would, in turn, need to go and 
reclaim their territory from ISIL. I think the United States 
and the rest of the international coalition would be pleased to 
support them in that.
    Senator Nelson. Does Assad exiting sooner rather than later 
create conditions that are so chaotic for the interest of the 
United States or is the interest of the United States in him 
leaving sooner than later?
    Secretary Carter. I think sooner and in a way, as I 
indicated. The reason, to get back to the earlier line of 
questioning, for a political rather than a military 
transition--for us to support and seek that--is that it is less 
disruptive, less chaotic, less sparks, sectarianism, and 
therefore violence. That is why it is much to be preferred over 
a simple toppling of Assad because you do not know what is on 
the other side of a simple toppling of Assad. So I know it is 
unsatisfying to talk about a political transition when he 
himself gives very little indication of wanting to do that, but 
that is much to be preferred if we can have that. Otherwise, we 
know what happens when these countries disintegrate.
    Senator Nelson. Were a political solution to be found for 
his exit which, of course, is going to be difficult with Iran 
being his mentor, but Vladimir Putin could be instrumental in 
arranging some kind of exit strategy--but were it to be a 
political solution, do you think it reasonable that there would 
be some accommodation so that the Alawite minority would not be 
slaughtered?
    Secretary Carter. I think there has to be that ingredient. 
I mean, first of all, the Alawite community will fight for the 
territory in the northwest. But once again, that is just 
further conflict, further civil war. Ethnic cleansing of any 
kind is the kind of thing you could see on the other side of a 
collapse there. We know how tragic that is for people.
    Senator Nelson. What would his arranged exit do with regard 
to Hezbollah, and will they resist it the whole way?
    Secretary Carter. Hezbollah has been one of the principal 
supporters of the Assad regime. So they do not give any 
indication of welcoming the path that we are discussing here.
    The Russians perhaps. I know that we have been in contact 
with the Russians about that over the years, and certainly I 
think that they would, if they threw their weight behind such a 
transition, be influential with Assad. So I certainly hope they 
would but I have no confidence, as I sit here right now, that 
they will.
    Senator Nelson. Mr. Secretary, when you look at a map like 
this, a map of Syria that I assume you handed out--somebody 
did--that is a mess. Maybe it is the only solution is the 
solution of a political exit for Assad so that we can go after 
these extremist elements.
    By the way, I had to leave the committee to do an interview 
on CNN, and the whole focus that they wanted to jump on was 
your statement earlier in the hearing that we had only trained 
up 60. But I pointed out to them what you said was the vetting 
is very difficult, and in fact, we are vetting some several 
thousands additional and the vetting is a lot more tortuous 
because you certainly do not want to have a guy trained up and 
then he turns around and aims his gun back at us.
    In Iraq, do you think that this new prime minister has the 
capability of getting out of his Shiite mold, and does he have 
the capability of bringing in all Shiites with all of the 
Iranian influence in his government in order to reach out with 
an olive branch to the Sunnis?
    Secretary Carter. Thank you.
    With respect to the first part of your remarks, I am always 
going to be truthful with you, and the number is 60. I think we 
have conceded that number before, but I said it today and I 
will always tell the truth. That is a small class. It results 
from the fact that that is the number that got through the very 
rigorous vetting and selection process we have. General Nagata, 
who runs that program, believes that he has learned a lot. He 
has 7,000 behind that. So I expect those numbers to increase. 
But I wanted to tell the truth and I did tell the truth. We 
expect that number to improve, but you deserve to know where 
things stand and I am telling you where things stand.
    With respect to Abadi, there I would say also that he has 
indicated to us--and he was here in Washington. I believe he 
spoke to many of you as well--his intention to proceed in a way 
that is distinctly different from the way his predecessor 
proceeded and which led to the situation we now have in Iraq. 
We are certainly supporting him in that regard, but one can see 
that his intentions are contested in Baghdad. So we continue to 
support him. We continue to think, to get back to the earlier 
line of questions, that a multi-sectarian future for Iraq is 
the best for stability and peace and the best for the defeat of 
ISIL. But he will have some substantial influence over that, 
but it is clear he does not have absolute control in Baghdad. 
We are supporting him.
    Chairman McCain. Senator Lee?
    Senator Lee. Thank you, Mr. Chairman.
    Thank you, Secretary Carter and General Dempsey, for being 
here today.
    General Dempsey, I especially want to thank you for your 
decades of service to your country and to the cause of freedom. 
We wish you the best of luck in your future endeavors. I am not 
sure whether this will be the last time we are privileged to 
speak with you in a hearing, but regardless, please know how 
much we appreciate all you have done for our country.
    I want to thank the men and women who are deployed in Iraq 
and in so many other places in the Middle East and for their 
service to our country. Although they have not been labeled 
``combat troops,'' they are still operating under dangerous and 
uncertain circumstances and are far removed from their families 
and from the people they love.
    I want to follow up on the discussion between Senator 
McCain and Secretary Carter on how we might support Syrian 
rebels once they return from training. Mr. Secretary, you 
stated that you believe we have an obligation to those we train 
to provide them with protection. I agree with that, and I also 
believe we have an obligation to let the American people know 
and that you have an obligation to let Congress know and help 
us to fully understand what this strategy entails, what that 
means, and the funding, the time, and the effort that providing 
any such protection might entail and what it will necessitate.
    So can you tell us when will DOD fully explain to the 
American people and to Congress what the strategy will involve, 
what it is going to cost our Government? I have said this 
before, but this is something that should have been made clear 
last year when the President came up with this plan. But 
regardless, it is better late than never. It is good that we do 
it now rather than not at all. Can you tell us when that might 
occur?
    Secretary Carter. I will continuously tell you what is 
going on over there with respect to what we are doing in Iraq 
and what we are doing with respect to Syria. We are going to 
have to--as I said, I think we have an obligation to support 
those fighters when they go in. We are going to have to decide 
exactly under what conditions and what way we will make that 
tactical decision when we introduce them.
    But I think the main thing is that we increase that number 
from what is now a very small number--and I am not surprised 
that it is running on television--into a much larger number. I 
think we can do that. The officer who runs this program 
believes that he will be able to do that. We will keep you 
apprised of our progress, and I will tell you every day what I 
know, as I have done here today.
    Senator Lee. Thank you. I appreciate that and look forward 
to that.
    Now, United States strategy in Syria is to empower the, 
quote/unquote, moderate opposition to defeat ISIS and to put 
enough pressure on the Assad regime to achieve some type of 
negotiated peace settlement. For the sake of discussion, let us 
say these moderates are successful in degrading ISIS to the 
point that they are no longer a factor in Syria. What does 
pressuring Assad or his supporters into a negotiated settlement 
look like at that point, especially given the military support 
from Iran and Hezbollah that they currently enjoy? 
Specifically, what role will the United States play in bringing 
about the pressure and support to achieve this kind of 
settlement?
    Secretary Carter. I think the way it would look, the 
outcome that we are aiming for is one in which Bashar al Assad 
and those who have been associated with his atrocities in Syria 
are removed, but the structures of government in Damascus and 
in Iraq that remain continue on in an inclusively governed way 
that is multi-sectarian, to include Alawites and others, and 
that can then turn to the task of regaining its sovereign 
territory from ISIL to the east in a project that would look 
like what we are working with Baghdad to accomplish to its west 
in Iraq. That is the post-Assad transition that would be the 
best for the Syrian people and the best for our counter-ISIL 
strategy.
    Senator Lee. By the way, do you believe the 2001 
authorization for the use of military force gives authority 
necessary to engage the Assad regime forces that may come into 
conflict with any rebels we may train?
    Secretary Carter. I am going to be very careful about how I 
answer a legal question in that regard, and I would prefer to 
get back to you in that regard.
    Senator Lee. Okay.
    [The information follows:]

    The Administration's position is that the 2001 Authorization for 
the Use of Military Force (AUMF) would provide authority to conduct 
military operations in defense of U.S.--or coalition-trained forces 
against ISIL, the Nusrah Front, and other groups that are either part 
of or associated forces of al-Qaeda in the same manner as it does for 
ongoing U.S. operations against those groups. The Administration has 
not interpreted the 2001 AUMF to provide authority to engage Syrian 
government forces to defend DOD-trained Syrian fighters.
    However, we have concluded that we have sufficient legal authority 
to provide combat support to Syrian fighters that DOD has vetted, or 
vetted and trained, who come under attack by Syrian government forces, 
consistent with the right of United States self-defense, if the United 
States action is necessary to effectively address the threat posed by 
ISIL to the United States and Iraq and meets the international law 
requirements of necessity and proportionality.

    Senator Lee. Now, Mr. Secretary, what level of command and 
control in your opinion does ISIS leadership have over these 
various affiliate groups across the Middle East and northern 
Africa, as well as lone wolf individuals or groups in Europe 
and the western hemisphere?
    Secretary Carter. It is mixed. But in the main--not 
entirely, but in the main--what one sees is a mixture of groups 
that were already radicalized and already intent upon attacking 
the West or attacking Western interests or destabilizing places 
in the Middle East rebranding themselves as ISIL because of 
this seeming success it had. Then to get to the lone wolf part, 
you see people who have had no training, no association with 
it, including Americans, who go on the Internet and find 
themselves enthralled because whatever lost souls they are, 
enthralled by the violence or whatever associated with ISIL and 
self-radicalized and unfortunately undertake to do violence. So 
you see that spectrum there. You do see some effort by ISIL, 
meaning ISIL in Syria and Iraq, to command and control but it 
is not exclusively that way.
    I say all this because that is very distinctly different 
from the al Qaeda model. The al Qaeda model was a very 
hierarchical, very clear command and control type terrorist 
enemy. That meant they had discipline, and it meant they could 
take on big things like September 11. But it also meant that 
when we started to go after them, they were vulnerable to 
attacks on the command and control structure and on their 
logistics structure. ISIL is more resilient because it is more 
decentralized and informal in that sense. It takes a different 
kind of campaign. We are highly aware of that, as is law 
enforcement, by the way.
    Senator Lee. Thank you. I see my time has expired. Thank 
you, Mr. Chairman.
    Senator Reed [presiding]: Chairman McCain asked that I 
recognize Senator Fischer.
    Senator Fischer. Thank you, Senator Reed.
    Thank you, gentlemen, for your service to this country. I 
especially want to thank you, General Dempsey, for the many, 
many years that you have served the people of this country and 
the military families that have been under you. Thank you, sir.
    Mr. Carter, earlier Senator Rounds had a conversation with 
General Dempsey about the act of patience and time. I know the 
General has counseled patience and he has discussed time. What 
role do you see time playing in our strategy? You know, do you 
we have a strategy on forces, on containing ISIL? Are we going 
to allow them to be able to maintain control of territory for 
the next 3 to 5 years? Is that going to be acceptable to us? Do 
you see risks with that type of strategy?
    Secretary Carter. Well, I think we are going to continue to 
strike and apply pressure to ISIL throughout this period. We 
are doing it now. We do it every day. It has had some effect. 
We are going to continue every single day, as we did over this 
past weekend, to defend ourselves against ISIL, including these 
homegrown people. All that will go on and has to go on because 
we have to protect ourselves in the meantime.
    What takes the time--and I think this is what the Chairman 
was getting at--is--and this is just in the nature of things--
getting a lasting result. A lasting result is one where not 
only is ISIL defeated but they stay defeated. In order for them 
to stay defeated, there has to be somebody on that territory 
who is keeping the peace and governing and replacing ISIL in 
the territory. That takes some time. We are working with the 
Kurds to do that. We are working with Sunni tribes. But that is 
in the nature of things. We want that to go as quickly as 
possible and we are hastening that to the best of our ability, 
as are other members of the coalition. But that is the thing 
that takes the time to build.
    But in the meantime, we have to protect ourselves and we 
have to keep pressure on ISIL. We will be doing that 
constantly.
    Senator Fischer. I agree with you on that.
    Oh, General.
    General Dempsey. Would you mind?
    Senator Fischer. Certainly.
    General Dempsey. Because I have thought about this a lot. 
Your question is really whether patience increases risk. That 
is really your question. I think patience probably does 
increase risk to the mission somewhat because it extends the 
time when other things could happen. Right? But I think were we 
to take more responsibility directly and unilaterally, that 
would certainly increase risk in another way. It increases risk 
to our force and increases risk to the other missions that we 
are held accountable to accomplish globally.
    What I get paid for is to give advice to the Secretary of 
Defense with the Joint Chiefs of Staff (JCS) and the President 
on managing risk. So to your question, does risk increase due 
to patience, of course. But the alternative increases risk in 
other ways, and it is our job to manage that risk.
    Senator Fischer. As you look at managing that risk and you 
look at balancing it, how do you reach a decision where you can 
maintain that patience when you know that when ISIL controls 
that territory that they have now and they continue to advance 
in other areas, whether it would be in the region or in Russia, 
that that is a recruitment item for them, that it will inspire 
attacks, whether it is in that region or elsewhere around the 
world? How do you balance that and have the risk that we face 
in our homeland continue what I think would continue to grow 
because of possibly an overabundance of patience?
    General Dempsey. Yes, I will keep at it because, as I said, 
this is the issue on which the campaign turns. Correct?
    So what you have to be assured of is that as we manage 
risk, we look at those things which could threaten U.S. persons 
and facilities around the globe and the Homeland. Where we see 
risk accruing that could have threatened that national security 
interest, there is no hesitance for us to act unilaterally and 
decisively.
    On the other hand, this campaign is built on the premise 
that it relies upon other actors. That necessarily requires a 
degree of patience that we need to nurture, we need to 
reinforce, and we need to understand in the context of the 
other things we are trying to accomplish not only in the Middle 
East but globally.
    So if you are suggesting that ISIL's threat to the homeland 
could increase because of this patience, I concede that risk. 
We take on board the responsibility to manage it. But I would 
also suggest to you that we would contribute mightily to ISIL's 
message as a movement were we to confront them directly on the 
ground in Iraq and Syria.
    Senator Fischer. If we look at patience, if we look at 
restraint, do you not think that with our restraint we are in 
many ways encouraging the Iraqis to look elsewhere and to 
especially look to Iran and invite them into Iraq where they 
are because they know that Iran will be there fighting a common 
enemy that they both face at this point? Are we not opening 
that door to Iran with this what I kind of view as an 
overabundance of patience, which to me is the greatest risk?
    General Dempsey. When you look at what we are doing--by the 
way, the Government of Iraq has been reaching out to Iran since 
roughly 2004. They have probably increased their outreach to 
Iran, but it has very little to do with what we are doing or 
not doing. It has everything to do with the fact that they 
believe that their future is--that it is their turn and that 
their particular form of governance, which is not yet inclusive 
as it needs to be, is the right form of governance. So they 
were going to do this whether we are there or not and whatever 
manner in which we exert our influence.
    Senator Fischer. So they have boots on the ground in Iraq 
through no action of the United States or inaction by the 
United States.
    General Dempsey. I would say the advisors that have been 
sent, the ISR that they are flying, and some of the other 
capabilities they provided to the Government of Iraq--I would 
agree with you, that they would have provided that whether we 
were there----
    Senator Fischer. It was a question. It was not a statement 
on my part.
    General Dempsey. Oh. The answer is yes, they would have 
been there regardless of our actions.
    Senator Fischer. Thank you, Mr. Chairman.
    Senator Reed. Senator Sullivan, please.
    Senator Sullivan. Thank you, Mr. Chairman.
    Thank you, gentlemen, for the testimony today.
    General Dempsey, I want to join my colleagues in commending 
you for your decades of service.
    Secretary Carter, it was good getting caught up last week. 
I appreciate your outstanding service as well to our country.
    There has been a lot of criticism of the President when he, 
in August 2014 and then just a couple of weeks ago at the G7 
meeting, talked about how we do not have a strategy yet with 
regard to ISIS. He said that in 2014 and he said it again just 
a couple weeks ago.
    What he really has not been criticized for and I think is 
something that I would like to get your view on is each time he 
has talked about the lack of a strategy, he has essentially 
kind of put it on your plate. Each time he said, well, the guys 
at DOD are kind of coming up with options. We still have not 
gotten them yet. DOD is working this. He literally said that, a 
version of that, in August 2014 and in June 2015. Did it take 
DOD a year to come up with a strategy to defeat ISIS?
    Secretary Carter. First of all, thank you for your 
conversation. Thanks for everything you are doing, especially 
with respect to our Asia-Pacific strategy, Senator. I am very 
grateful for that and your travels there and your leadership.
    We just spoke yesterday at the Pentagon with the President 
about his strategy. The strategy is the one that----
    Senator Sullivan. That you laid out.
    Secretary Carter.--I described today.
    Senator Sullivan. Okay. So he----
    Secretary Carter. By the way, he described 8 or 9 months 
ago and that does not--and this is important. It involves us, 
and we have an important role.
    Senator Sullivan. Right.
    Secretary Carter. But it involves other parts of the 
Government as well. That is one of the reasons to keep 
laboriously citing nine lines of effort. There really are nine 
lines of effort. We do not directly, for example, try to 
interdict self-radicalized Americans. The FBI does that. We do 
not do that. But we have to do that while we are working on 
these difficult problems of Iraq.
    Senator Sullivan. No, Mr. Secretary, I agree 100 percent 
with that, and that is why to me, again, it was a little bit--
and maybe you just cannot answer the question directly. I wish 
you would. It just goes to some of the process here. The fact 
that the President for years has essentially been saying we do 
not have a strategy and it is because the guys over at DOD 
still have not given me one to me is not--A, it is not how we 
develop strategy. As you just mentioned, this strategy needs to 
be all instruments of American power. The military is clearly 
one, but we need economic, energy, finance, diplomatic, the 
whole list. That, of course, has to be developed by the White 
House, not by DOD.
    So I do not think it took a year for the Pentagon to come 
up with a strategy, despite the fact that the President, each 
time he said we do not have a strategy, said that it was 
essentially your fault. I do not think it was your fault. I 
think it was the White House's fault. You know, I just want to 
be on record saying that I think that is unfair criticism to be 
put on the Chairman or the Secretary to say we do not have a 
strategy yet and it is because DOD--but I guess he now can say 
we do have a strategy. Is this his strategy?
    Secretary Carter. This is the strategy, and it is devised 
by the President and the White House. We play a role in it. So 
I did not observe any waiting for us to come up with a 
strategy.
    Senator Sullivan. Well, he actually said it twice.
    Secretary Carter. The strategy that I have described, the 
nine lines of effort, was I think first described the end of 
last summer. It makes common sense that our strategy has all 
the parts that the nine lines of effort describe. Yesterday's 
meeting was to give him an update and to get his guidance on 
how we go forward. We did that. It happened to be at the 
Pentagon, and the focus was on the two of the nine lines of 
effort that we are responsible for, but there were other 
members of the national security community, which is essential 
to this, who were present and participated in that discussion.
    Senator Sullivan. Thank you.
    Mr. Chairman, you do not to have to answer this, but I do 
not want to assume it took a year for the military to come up 
with options for the President.
    General Dempsey. Well, no, I would be happy to answer it 
because we are frequently and constantly adapting options. But 
the context of when he said that was he had asked us is there 
something more we need to be doing with the Sunni tribes. That 
is the context of the question. So the real issue is whether we 
should be doing more with the Sunni tribes, and the outcome of 
that conversation and the planning that went into it was the 
Taqaddum Air Base train, advise, and assist platform.
    Senator Sullivan. Thank you.
    I know there has been some discussion with regard to the 
NDAA, and I think it is a good bill, a very bipartisan bill. 
Senator Reed and Chairman McCain should be commended for the 
great work they did.
    One of the things that we try and do in the bill in a 
number of areas is bolster the credibility where the United 
States is seen as having a strategy both supported by the 
executive branch and the legislative branch. Some of us think 
that our credibility in certain areas of the world has been 
weak, and it has been one of the weaknesses of our national 
security and foreign policy strategy.
    But we tried to do that in a number of areas, and I just 
want to provide two examples. You kind of hinted at one, Mr. 
Secretary, the rebalance to the Asia-Pacific. There is some 
strong language in there about the support for that from 
Congress, very bipartisan, and how we need to be increasing 
troops in the Asia-Pacific.
    Also very much a focus that I think is an area that, Mr. 
Secretary, you have said we are late in the game in the Arctic. 
You may have seen--if you have not, I would recommend you take 
a look at it. ``Newsweek'' this week talks about a cover story 
on the Arctic. The title is actually ``In the Race to Control 
the Arctic, the United States Lags Behind.'' It talks about how 
this is developing as the new great game and Kipling's famous 
phrase about a critical strategic area, how the Russians are 
very, very involved in the Arctic. Mr. Chairman, you actually 
in testimony in front of this committee talked about the four 
new combat brigades that they are standing up, a new Arctic 
brigade, their exercise in the last couple months. Then the 
Commandant of the Coast Guard is essentially saying it is a new 
geopolitical cold war the United States is in danger of 
loosing. We are not even playing in this game at all.
    So I just wanted to ask a final comment, Mr. Chairman. You 
talked about managing risks, Mr. Chairman. Would removing our 
only airborne brigade, BCT, in the Arctic, our only BCT in the 
Asia-Pacific--what would that do to our credibility? Would that 
bolster our credibility in the Arctic or Asia-Pacific with 
regard to the rebalance?
    You talked about managing risk. It certainly seems to me, 
as Vladimir Putin is militarizing this part of the world, if we 
are actually removing forces--removing forces--our only Arctic-
trained forces, that is a way to increase risk because we know 
he views weakness as being provocative. They are making a move 
in the Arctic. If we start withdrawing troops, the 425 in 
particular, I think that heightens risk.
    Would either of you care to comment on that?
    General Dempsey. Yes. I think it increases risk, but some 
of the decisions--and you are talking about the Army in this 
case, but some of the choices that the Service Chiefs are going 
to have to make, as we continue to go down in terms of 
resources--you know, the Army is tasked with going from 490,000 
active where they are today to 450,000 in the next 2 years. 
They have to come from some place.
    Senator Sullivan. But to put that BCT on the block first to 
me is inviting--A, Congress is saying do not do it in the NDAA. 
But, second, that is going to undermine our credibility not 
only in the Arctic. It is going to undermine our rebalance to 
the Asia-Pacific strategy. Those are PACOM forces.
    General Dempsey. I am not going to predispose the Army's 
decision, although it sounds like you may already have some 
insight.
    Senator Sullivan. No, I do not. I am just making sure the 
Army does not make a strategic blunder.
    General Dempsey. Right. Although I will tell you this, 
Senator, we are familiar with Congress telling us no on the 
reforms that we are making not because we are trying to cut 
ourselves apart, but because we have $1 trillion--that is a 
``T'' not a ``B''--$1 trillion less in budget authority over 10 
years. We have some from the beginning it is a disaster.
    Senator Sullivan. Thank you, Mr. Chairman.
    I just do want to mention that if we are looking at BCTs 
going to the area where Congress has actually said we need to 
increase forces, having our only Asia-Pacific Arctic capability 
which, as you know, General, you cannot develop overnight, and 
our only airborne capability in the entire Asia-Pacific--to me 
that would be a strategic blunder. I think Congress sometimes 
comes in and has broader strategic insights than the military 
has on occasion, not always. But in my view, this time is one 
of them.
    Senator Reed. On behalf of Chairman McCain, let me thank 
you for your testimony. I personally want to thank you for your 
service to the Nation, both of you, particularly, General 
Dempsey, as you conclude your uniformed service.
    Again with Chairman McCain's direction, I will adjourn the 
hearing.
    [Whereupon, at 12:30 p.m., the committee adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Kelly Ayotte
       reliance on shia militias an iran threatens future of iraq
    1. Senator Ayotte. Secretary Carter and General Dempsey, do you 
agree that Baghdad's reliance on Shia militias and Iran represents a 
threat to the viability of a unified, stable, multi-sectarian Iraq?
    Secretary Carter. Yes, I have concerns about the sectarian nature 
of Iran's approach in Iraq. It stands in contrast to the Department's 
approach to work by, with, and through a unified, multi-sectarian 
government in Baghdad. I also believe that Prime Minister Abadi is 
committed to a decentralized, federalized, but multi-sectarian single 
state which would not be beholden to Iranian interests. I have seen 
some progress, but more time is needed for him to implement his agenda 
of political reform.
    The Popular Mobilization Forces (PMF)--which includes some Iranian-
backed militias, have played a role in stemming the Islamic State in 
Iraq and the Levant's advance but are not envisioned to remain part of 
the forces the Government of Iraq (GOI) relies on in the future. It is 
important to distinguish between the PMF and Iranian-backed/controlled 
elements. Many of the fighters in the PMF are Iraqi nationalists who 
have volunteered to defend their country in response to Grand Ayatollah 
Sistani's fatwa last summer, are working within the Iraqi chain of 
command, and are conducting operations in Anbar at the request of local 
officials. The GOI envisions that many of the militia forces who 
responded to the emergency will return home and be demobilized or 
formally recruited into the Iraqi security forces or integrated into 
the National Guard, once the necessary legislation is passed.
    General Dempsey. Reliance on a quasi-government paramilitary 
undermines public confidence in the legitimate armed forces and the 
government of Iraq and increases the risk of battlefield atrocities 
that serve to enflame sectarian tensions.

    2. Senator Ayotte. Secretary Carter and General Dempsey, why is 
Baghdad so reliant on Shiite militias?
    Secretary Carter. Baghdad does leverage the Shiite militias' 
capabilities to wage the counter-Islamic State in Iraq and the Levant 
(ISIL) fight. Baghdad also uses the Iraqi Army, the Counterterrorism 
Service, the Kurdish Peshmerga, and the Popular Mobilization Forces 
(PMF) to counter ISIL. The PMF is a predominantly Shia force but also 
includes some Sunni fighters. The PMF has seen some success as a ground 
force in preventing ISIL's continued advance, and in reclaiming some 
territory. Prime Minister Abadi has made progress in recent months in 
expanding the number of Sunni fighters, including from the contested 
Anbar province, enrolled in the PMF.
    Each of these groups is critical to success in the counter-ISIL 
fight. The United States continues to advocate that the Government of 
Iraq pursue an inclusive, multi-sectarian approach, including in its 
security forces.
    General Dempsey. In some situations, the Shia militias have 
demonstrated great tenacity in their fights against ISIL, leading them 
to have success against ISIL in situations where a better-equipped ISF 
did not. But Iraq's future cannot run through militias so we must 
continue to assist the ISF in becoming and remaining the credible 
security force of the Government of Iraq.

    3. Senator Ayotte. Secretary Carter and General Dempsey, what 
additional steps can we take to more effectively and quickly reduce 
Baghdad's reliance on Shiite militias?
    Secretary Carter. Two important additional steps need to be taken 
to reduce Baghdad's reliance on Shiite militias. First, Sunni fighters 
need to be trained and equipped more quickly. Prime Minister Abadi has 
made progress in recent months in expanding the number of Sunni 
fighters enrolled as part of the Popular Mobilization Forces (PMF). The 
Department is pressing the Government of Iraq to ensure that the 
Ministry of Defense is equipping Sunni tribal fighters appropriately. 
Second, establishing an Iraqi National Guard would be a key mechanism 
to integrate Shia and Sunni PMF forces and incorporate federal and 
provincial leadership. The Government of Iraq is considering 
establishment of a National Guard, which I believe will achieve the 
Prime Minister's overall goal of bolstering a federal state in Iraq 
with multi-sectarian security forces. The Department is encouraging the 
Iraqi government to accelerate approval of a National Guard.
    General Dempsey. Two important additional steps need to be taken to 
reduce Baghdad's reliance on Shiite militias. First, we need to 
continue to push the GOI to accelerate training and equipping of Sunni 
fighters. Prime Minister Abadi has made progress in recent months in 
expanding the number of Sunni fighters enrolled as part of the Popular 
Mobilization Forces (PMF). We are also pressing the Iraqi government to 
ensure that the Ministry of Defense is appropriately equipping Sunni 
tribal fighters. Second, we believe the establishment of an Iraqi 
National Guard is a key mechanism needed to integrate Shia and Sunni 
PMF forces into an Iraqi organization that has both federal and 
provincial leadership. The Government of Iraq is considering the 
establishment of a National Guard, which is a critical piece of 
legislation that would help achieve the Prime Minister's overall goal 
of bolstering a federal state in Iraq with multi-sectarian security 
forces. We are pushing the Iraqi government to accelerate approval of a 
National Guard.
              effectiveness and intensity of air campaign
    4. Senator Ayotte. General Dempsey, what percentage of United 
States sorties over Iraq and Syria return without engaging the enemy? 
What explains that number? How has that percentage changed over time?
    General Dempsey. US sorties are flown to conduct both deliberate 
strikes with pre-planned targets and dynamic strikes where the aircraft 
engages targets only if they are presented. From the commencement of 
airstrikes on 8 August 14 to 1 July 15, only 7 percent of aircraft 
flying deliberate strike sorties returned without expending their 
ordnance. Approximately 63 percent of aircraft flying dynamic strike 
missions returned without expending munitions. This percentage has 
stayed relatively constant since combat operations commenced. Of note, 
during a comparable timeframe in Afghanistan, 83 percent of aircraft 
flying dynamic strike missions returned with their munitions.
    Targeting and dynamic engagements are by nature fluid processes. 
Aircraft conducting dynamic targeting missions are present to deliver 
ordnance on targets should the opportunity arise--targets are not 
programmed prior to the mission so employment of ordnance is not 
guaranteed. Beyond the type of mission flown, other factors reduce the 
number of munitions employed, such as adverse weather, lack of positive 
identifications, not having the right type of weapons for the target 
type and the ever present collateral damage concerns.
    Strike aircraft can and do supports ground forces even without 
dropping ordnance. Aircraft are able to conduct should of presence 
missions and provide valuable armed over watch in support of ground 
forces. Aircraft flying dynamic targeting mission are often able to 
achieve desired outcomes without dropping ordnance.
          russian violation of the inf-united states responses
    5. Senator Ayotte. Secretary Carter and General Dempsey, what 
specific steps is the United States taking in response to Russia's 
Intermediate-Range Nuclear Forces violation?
    Secretary Carter. The Administration is pursuing a three-pronged 
approach, including continuing diplomatic efforts, economic 
countermeasures, and military countermeasures. A wide range of 
potential military response options are being considered.
    All the options under consideration are designed to ensure that 
Russia gains no significant military advantage from its Intermediate-
Range Nuclear Forces (INF) Treaty violation. In terms of military 
responses, those options that are compliant with the INF Treaty are 
under consideration, as I continue to believe that the INF Treaty 
serves our interests and those of our allies. The United States will 
not take any action inconsistent with our obligations under the INF 
Treaty as long as those obligations remain in force.
    However the INF Treaty is a two-way street. As I have said 
repeatedly, we will not allow the Russian Federation to gain a 
significant military advantage through its violation of an arms control 
treaty.
    Russia remains in violation of its obligations under the INF Treaty 
while, despite Russian claims to the contrary, the United States 
remains in full compliance with its obligations.
    General Dempsey. We are considering a wide range of potential 
military response options, but no decisions have been made.
    All the military options under consideration are designed to ensure 
that Russia gains no significant military advantage from its violation 
of the Intermediate-Range Nuclear Forces (INF) Treaty. We are currently 
considering those options that are compliant with the INF Treaty, as we 
continue to believe the Treaty serves our interests and those of our 
allies and Russia. The United States will not take any action 
inconsistent with our obligations under the INF Treaty, as long as 
those obligations remain in force.
    Military options we are considering fall into three broad 
categories: Active defenses to counter intermediate- range ground-
launched cruise missiles; counterforce capabilities to prevent 
intermediate-range ground-launched cruise missile attacks; and 
countervailing strike capabilities to enhance U.S. or allied forces.
                              afghanistan
    6. Senator Ayotte. Secretary Carter and General Dempsey, do you 
believe the United States transition in Afghanistan should be calendar 
or conditions-based?
    Secretary Carter. I have seen that calendar-based timelines have 
had a focusing effect in Afghanistan and have led to positive outcomes. 
As part of the current plan, the Department continually assesses the 
conditions on the ground and the capabilities of the Afghan National 
Defense and Security Forces (ANDSF) to ensure the strategy enhances 
security and stability in Afghanistan and to be able to recommend 
adjustments if necessary.
    General Dempsey. Time is in fact a condition; in Afghanistan it has 
enabled ownership of the tactical fight by the ANDSF. We have seen that 
calendar-based timelines have had a focusing effect in Afghanistan and 
have led to positive outcomes. Yet as I have said before, a plan is 
something you adjust over time. As part of our current plan, we 
continually assess the conditions on the ground and the capabilities of 
the Afghan National Defense and Security Forces (ANDSF) to maintain 
security and stability in Afghanistan.

    7. Senator Ayotte. Secretary Carter and General Dempsey, would you 
describe the current withdrawal plan as calendar or condition-based?
    Secretary Carter. The current drawdown plan uses a time-phased 
approach for the withdrawal of United States forces to achieve a more 
normalized relationship with the Afghan government now that the combat 
mission has ended. The approach also factors in changing conditions on 
the ground, allowing for adjustments if necessary. I have seen that 
calendar-based timelines have helped the Afghan government, the Afghan 
National Defense and Security Forces (ANDSF), and the United States 
focus on what is needed to continue to progress. As part of this plan 
and the ongoing train, advise, and assist mission, the Department 
continues to assess ANDSF progress and remaining capability gaps to 
ensure that they can make progress stick.
    General Dempsey. We use calendar-based timelines to focus our 
assessment of Afghanistan government's progress. Our decisions have 
seen that calendar-based timelines have helped the Afghan government 
and the Afghan National Defense and Security Forces (ANDSF) focus on 
what they need to achieve. As part of this plan and the ongoing train, 
advise, and assist mission, we continue to assess ANDSF progress and 
remaining capability gaps to ensure that the process is sustainable and 
make recommended changes to current plans as warranted.
                               __________
               Questions Submitted by Senator Joni Ernst
        united states counter-isil strategy and iraqi governance
    8. Senator Ernst. Secretary Carter and General Dempsey, how are the 
President's nine lines of effort against ISIL being measured for 
success?
    Secretary Carter. The Department measures the effectiveness of our 
efforts to degrade and destroy ISIL by our ability to train and equip--
in quantity and quality--effective partner forces and the ability of 
these forces to engage and defeat ISIL and retake territory. Similarly 
the success of the air campaign against ISIL is measured through the 
Coalition's ability to identify and destroy ISIL targets that degrade 
the capacity of the organization to wage the current fight and to 
eliminate threats to the homeland. The nine lines of effort are 
complementary and require constant synchronization, which is led by the 
National Security Council and in close coordination between Secretary 
Kerry and myself. Secretary Kerry and I also constantly work with our 
colleagues in the Intelligence Community to assess the impact of these 
actions on ISIL, and to recalibrate our efforts as appropriate to have 
maximum effect.
    General Dempsey. The National Security Council is responsible for 
the coordination and synchronization of the nine lines of effort to 
degrade and destroy ISIL. The Department of Defense is responsible for 
two of the nine lines: to deny ISIL safe haven and to build partner 
capacity in Iraq and Syria. Alongside our coalition partners, we 
measure the effectiveness of our efforts by our ability to train and 
equip partner forces and their ability to engage and defeat ISIL; 
limiting ISIL's freedom of movement; constraining its ability to 
reinforce its fighters; and degrading its command and control.

    9. Senator Ernst. Secretary Carter, how do the Departments 
coordinate (amongst themselves and with foreign partners) to avoid 
unnecessary duplication of activities under the nine lines of effort?
    Secretary Carter. United States departments and agencies with 
equities in the counter-ISIL effort are in constant communication 
concerning actions taken in support of the lines of effort (LOEs) to 
ensure we maximize the effect of our efforts and avoid duplication. 
Each LOE has a designated lead, and the lead department or agency 
coordinates actions it plans to undertake to accomplish the goals 
associated with that LOE. The lead department or agency for each LOE is 
responsible for marshalling the relevant expertise and resources from 
within the United States Government and implementing the LOE. The 
interagency conducts frequent coordination and synchronization meetings 
to ensure relevant parties have insight into actions taken to execute 
individual LOEs and the broader strategy.
    The activities of our foreign partners are coordinated through 
Ambassador McGurk in his role as the Special Presidential Envoy for the 
Global Coalition to Counter ISIL. He is tasked with coordinating the 
complementary activities of the more than 60 coalition countries that 
participate in five efforts: 1) providing military support to our 
partners; 2) impeding the flow of foreign fighters; 3) stopping ISIL's 
financing and funding; 4) addressing humanitarian crises in the region; 
and 5) exposing ISIL's true nature. Ambassador McGurk convenes regular 
meetings around the world to help ensure that coalition countries are 
undertaking activities in a methodical fashion that synchronizes with 
United States efforts to degrade and ultimately defeat ISIL.

    10. Senator Ernst. Secretary Carter, what is the United States 
strategy to address ISIL attacks outside of Syria/Iraq (e.g. Libya, 
Tunisia, Egypt and Yemen)?
    Secretary Carter. The whole-of-government counter-Islamic State in 
Iraq and the Levant (ISIL) strategy consists of nine lines of effort. 
This is a global strategy that applies wherever there is a threat from 
ISIL, not just Iraq and Syria. The nature of our specific actions will 
vary according to the situation and it will take time to fully 
implement the strategy.
    The current focus of the counter-ISIL coalition's efforts is Iraq 
and Syria. The Administration also continues to assess the threat posed 
by ISIL in other places, to consult with allies and other partners, and 
to develop options to address ISIL's expansion.
    The only way to achieve a lasting victory against ISIL is to work 
with local forces and partners in the region. In Libya, for example, 
the Department will be far better positioned to assist the Libyans in 
their fight against terrorists nationwide once they come together to 
form an inclusive unity government that is a willing and capable 
partner. The Administration is working hard, along with many other 
members of the international community, to get the warring factions in 
Libya to come to an agreement on a unity government.
    In Tunisia, in the wake of the attacks at the Bardo Museum and 
hotels in Sousse, the Department is reinforcing its support of the 
Tunisian military's efforts to counter violent extremism within its 
borders. The Department is partnering with Tunisia to enhance its 
security sector development and build its internal capacity, with a 
focus on border security programs that augment current efforts by the 
Tunisians and international community to reduce trans-national 
trafficking and provide increased situational awareness.
    Although implementing the strategy will take time, the 
Administration will assess and monitor the threat to the United States 
and its allies posed by ISIL, wherever its elements might be found. The 
Administration will not hesitate to take action when necessary. The 
recent strike against an al Qaeda-associated militant in Libya 
demonstrates the commitment to confronting threats to the United States 
wherever they are found, and Libya is no exception, despite the current 
turmoil there.

    11. Senator Ernst. Secretary Carter, you testified ``I've told 
Iraqi leaders that while the United States is open to supporting Iraq 
more than we already are, we must see a greater commitment from all 
parts of the Iraqi Government''. What specific area of the Iraqi 
Government is a greater commitment required?
    Secretary Carter. Additional progress is needed on the inclusion of 
all ethno-sectarian groups into the Iraqi political process. 
Specifically, Prime Minister Abadi is committed to political inclusion, 
but his biggest challenge is getting the rest of the government, 
including the Iraqi Council of Representatives, to pass critical 
legislation that would engender greater stability in Iraq. Most 
importantly, this includes passage of a National Guard law, which is 
currently pending in Iraq's Council of Representatives after completing 
two readings on the floor. This legislation would be a key tool to help 
integrate Shia and Sunni Popular Mobilization Forces into an Iraqi 
organization that has both federal and provincial leadership as well as 
an important step towards a stable, multi-sectarian Iraqi state.
    Additionally, although there has been some progress in generating 
capacity in the Iraqi Security Forces through the building partner 
capacity (BPC) efforts in Iraq, these BPC activities have the capacity 
to train more Iraq Security Forces personnel. The Government of Iraq, 
specifically the Ministry of Defense and the Iraqi Security Forces, 
need to commit to sending additional personnel to these sites.

    12. Senator Ernst. Secretary Carter and General Dempsey, does the 
battlefield situation on the ground dictate the circumstances to where 
you would recommend to the President he should directly arm the Iraqi 
Kurds and Sunni tribes?
    Secretary Carter. The battlefield situation informs the efforts to 
train and equip the Iraqi Kurds and Sunni tribes. The United States is 
assisting all of the Iraqi Security Forces to deny Islamic State in 
Iraq and the Levant (ISIL) safe haven. This effort allows space for the 
Iraqis to generate forces to go on the offensive against ISIL. The best 
way to defeat ISIL and enable a stable, multi-sectarian Iraqi state is 
to work by, with, and through the Government of Iraq to deliver arms to 
the Iraqi Security Forces, including the Kurdish forces and Sunni 
tribes.
    General Dempsey. The battlefield situation informs the focus of our 
efforts to train and equip the Iraqi Kurds and Sunni tribes. The United 
States is broadly assisting Iraqi Security Forces in efforts to deny 
Islamic State in Iraq and the Levant (ISIL) safe haven, and this is 
allowing space for the Iraqis to generate forces to go on the offensive 
against ISIL. We continue to believe that the best way to defeat the 
ISIL and enable a stable, multi-sectarian Iraqi state is to work by, 
with, and through the Government of Iraq to deliver arms to the Iraqi 
Security Forces, including the Kurdish forces and Sunni tribes.

    13. Senator Ernst. Secretary Carter and General Dempsey, under what 
battlefield situation would you recommend to the President he should 
directly arm the Iraqi Kurds and Sunni tribes?
    Secretary Carter. The most effective means of delivering the 
Islamic State of Iraq and the Levant (ISIL) a lasting defeat is to work 
by, with, and through the Iraqi government. The current battlefield 
situation and outlook for the campaign against ISIL are not cause to 
change this approach.
    The Government of Iraq has supported the arming of the Kurdish 
Peshmerga to combat ISIL. A significant amount of military assistance 
has been provided to the Kurdish Regional Government. The Government of 
Iraq has also made progress in recent months to incorporate more Sunni 
tribal fighters into the Popular Mobilization Forces. The Government of 
Iraq has also provided weapons to tribal elements in Anbar operating 
with the Iraqi Security Forces. These actions demonstrate the 
Government of Iraq's intent to allow weapons to go to both the Kurds 
and Sunni tribes in the collective effort to defeat ISIL.
    General Dempsey. We continue to believe that the most effective 
means of providing United States support to Kurdish security forces and 
Sunni tribes is to work by, with, and through the Iraqi government.
    As evidenced by the significant sums of military assistance 
provided to the Kurdish Regional Government, the Government of Iraq has 
supported the arming of the Kurdish Peshmerga to combat ISIL. The 
Government of Iraq has also made progress in recent months to 
incorporate more Sunni tribal fighters into the Popular Mobilization 
Forces (PMF), including by providing weapons to tribal elements in 
Anbar operating with the Iraqi Security Forces. These actions 
demonstrate the Government of Iraq's intent to allow weapons to go to 
both the Kurds and Sunni tribes in the collective effort to defeat 
ISIL.

    14. Senator Ernst. Secretary Carter, can Prime Minister Abadi 
executive order the creation of the Sunni National Guard?
    Secretary Carter. Prime Minister Abadi has used his executive 
authority to restructure Iraq's security forces over the past year. He 
has created the Popular Mobilization Forces and recruited a significant 
number of Sunnis to this effort. I would defer to the State Department 
on the question of whether, under the Iraqi constitution, Prime 
Minister Abadi could create the National Guard by executive order.

    15. Senator Ernst. Secretary Carter and General Dempsey, have you 
recommended to Prime Minister Abadi or to the President that Prime 
Minister Abadi executive order the creation of the Sunni National 
Guard?
    Secretary Carter. I defer this answer to the State Department which 
is responsible for making recommendations on this and other diplomatic 
issues. I would note that the Prime Minister has used his executive 
authority to re-structure Iraq's security forces over the past year--
for example, the creation of the Popular Mobilization Forces, for which 
a significant number of Sunnis have been recruited. The National Guard 
proposal in Iraq is one of several legislative reforms aimed at 
decentralizing Iraqi governance. It is envisioned that the National 
Guard will represent each of Iraq's 18 provinces and the proposal 
should ultimately take shape through action from Iraq's legislative 
branch, the Council of Representatives.
    General Dempsey. We would refer you to the State Department who has 
the lead for making political recommendations on this and other 
diplomatic issues.
    However, we would note that the Prime Minister has used his 
executive authority to re-structure Iraq's Security Forces (ISF) over 
the past year--for example, the creation of the Popular Mobilization 
Forces, for which a significant number of Sunnis have been recruited. 
Additionally, since it is envisioned that the National Guard will 
represent each of Iraq's 18 provinces, which makes it one of several 
proposed legislative reforms aimed at decentralizing Iraq's governance, 
we believe that it should ultimately take full shape through action 
from Iraq's legislative branch, the Council of Representatives.

    16. Senator Ernst. Secretary Carter, does Hadi al-Amiri's growing 
influence within the Iraqi Government improve inclusiveness or reduce 
sectarian tension for the Iraqi people?
    Secretary Carter. [Deleted.]

    17. Senator Ernst. Secretary Carter, do you believe Hadi al-Amiri 
has the greatest influence in the Iraqi Ministry of Interior?
    Secretary Carter. [Deleted.]
                          iraq train and equip
    18. Senator Ernst. Secretary Carter, is the Department directly 
arming the Kurdistan Regional Government or any other units associated 
with the Iraqi Government?
    Secretary Carter. United States policy is to work in coordination 
with the Government of Iraq on assistance to the Kurdish Regional 
Government. Elements of the Kurdistan Regional Government are among the 
recipients of support provided by the Department of Defense. Such 
support included arms and ammunition.

    19. Senator Ernst. Secretary Carter, what is the step-by-step 
process from United States custody to Iraqi Government and Kurdistan 
Regional Government custody of weapons and equipment provided through 
the Iraq Train and Equip program or any other program in which the 
United States provides weapons and equipment to the Kurdistan Regional 
Government or associated forces?
    Secretary Carter. There are several mechanisms for delivery of 
equipment to Kurdish forces; however, regardless of the mechanism, all 
equipment is coordinated by, with, and through the Government of Iraq 
(GOI).
    First, we purchase weapons and equipment using the Iraq Train and 
Equip Fund (ITEF). Items are delivered first to Kuwait for inventory 
and packaging; they are then moved forward into Iraq under the control 
of Combined Joint Task Force-Iraq (CJTF-I), Combined Joint Forces Land 
Component Command-Iraq (CJFLCC-I), and the Office of Security 
Cooperation-Iraq (OSC-I); and finally they are signed over to Peshmerga 
units through the GOI. To date, United States Government, GOI, and 
Peshmerga representatives have all been present in Erbil to accept 
transfers.
    Second, weapons and equipment have been provided to Kurdish forces 
under Presidential Drawdown, Excess Defense Article, and Foreign 
Military Financing authorities. The GOI submits a Letter of Request 
(LOR) and signs a letter of offer and acceptance (LOA). United States 
Central Command and CJTF-I facilitate delivery of those items to Erbil, 
where United States Government, GOI, and Peshmerga representatives 
transfer deliveries through the GOI to the Kurdish forces.
    Finally, weapons and equipment have been provided to Kurdish forces 
through the Kurdish Resupply Task Force, for which the United States 
coordinates donations and arranges for transportation of donated items.
    Regardless of their origin, a diplomatic clearance request must be 
submitted to the GOI for the incoming defense articles. The next step 
is to fly the equipment to Baghdad for customs inspection, which may 
last 24 hours, but it only averages 2-4 hours. Finally, the equipment 
is flown to Erbil, where it is received by a logistics representative 
from the Kurdish Regional Government.

    20. Senator Ernst. Secretary Carter and General Dempsey, on June 
10, 2015, the President announced that he was ``expediting'' the 
delivery of weapons and equipment to the Kurdistan Regional Government. 
How has the process of delivering weapons, equipment, and training to 
the Kurdistan Regional Government changed since he made this 
announcement?
    Secretary Carter. The process of delivering equipment has not 
changed, but the Department has worked to accelerate delivery under the 
existing process in two ways since the President's announcement. First, 
the United States has worked with the Government of Iraq (GOI) and the 
Kurdistan Regional Government (KRG) to accelerate the transfer of items 
to the KRG. Second, when production lines are not current or the type 
of equipment needed is not in stock, the President has directed, as he 
has at certain junctures in the past, the Department to expedite and 
prioritize production for counter-Islamic State needs or to look to 
other countries to provide weapons expeditiously.
    General Dempsey. The process of delivering equipment has not 
changed, but we have worked to accelerate delivery under the existing 
process in two ways since the President's announcement. First, the 
United States has worked with the Government of Iraq (GOI) and the 
Kurdistan Regional Government (KRG) to accelerate the transfer of items 
to the KRG. Second, when production lines are not current or we do not 
possess in our stocks the type of equipment needed, the President has 
directed, as he has at certain junctures in the past, us to expedite 
and prioritize production for counter-ISIL needs or to look to other 
countries to provide weapons expeditiously to the counter-ISIL fight.

    21. Senator Ernst. Secretary Carter and General Dempsey, what 
delays or inefficiencies were resolved as a result of expediting 
weapons and equipment to the Kurdistan Regional Government?
    Secretary Carter. Putting pressure on both US and Government of 
Iraq (GOI) systems to accelerate or simply put more focus on items 
intended for delivery to the Kurdistan Regional Government (KRG) helped 
synchronize activities within the US and Coalition side of the process. 
The synchronized activities helped streamline processes on the Iraqi 
side so that these items were still delivered ``by, with, and through'' 
the GoI. These deliveries were then synchronized with other demands 
from within Iraq and USG.
    The challenges are equally due to the need to develop Iraqi and KRG 
operational (predictive) planning capability as it is the shortage of 
stock pertaining to the demands of the day. In that context, these 
items were delivered in relatively short order from the time the 
request had been officially received through Iraq and/or Combined Joint 
Task Force representation. Items may not be immediately available as 
every requirement is identified. Production lines may not be current 
and we have to turn them back on. The Department may not possess in the 
stocks the type of equipment used by a foreign entity. The President 
has directed, as he has at certain junctures in the past, to expedite 
production or to look to other countries to provide weapons 
expeditiously.
    General Dempsey. Putting pressure on both United States and 
Government of Iraq (GOI) systems to accelerate delivery, or simply to 
put more focus on timely delivery of weapons and equipment to the 
Kurdistan Regional Government (KRG), helped synchronize activities 
within the United States and Coalition side of the process. Iraqi 
processes were also streamlined in that the weapons and equipment were 
still delivered ``by, with, and through'' the GOI--and were 
synchronized with other demands from within Iraq and the United States. 
In addition, the status of production lines can affect delivery times. 
Sometimes, production lines are not current and we have to turn them 
back on, or we do not possess in U.S. stocks the type of equipment used 
by a particular foreign country. The President has directed, as he has 
at certain junctures in the past, to expedite production or look to 
other countries to provide weapons expeditiously in the counter-ISIL 
fight. Moreover, because not all requirements can be filled as soon as 
they are identified, we continue to work with the GOI and the KRG to 
develop operational (predictive) planning capabilities. In that 
context, weapons and equipment have been delivered in relatively short 
order from the time the requests were received.

    22. Senator Ernst. Secretary Carter and General Dempsey, do you 
support directly arming the Sunni tribal forces?
    Secretary Carter. No. Directly arming specific groups without 
coordinating with the Government of Iraq (GOI) would undermine United 
States efforts to foster a unified, multi-sectarian government, which I 
view as a necessary step in the overall effort to deliver a lasting 
defeat to the Islamic State of Iraq and the Levant (ISIL). At this 
time, direct arming of Sunni tribal forces or any sub-group of Iraqi 
Security Forces would be counter-productive to the overall goal of 
countering the ISIL. In order to achieve lasting effects against ISIL, 
all elements of the GOI must work together.
    General Dempsey. No. Directly arming specific groups without 
coordinating with the Government of Iraq (GOI) would undermine United 
States efforts to foster a unified, multi-sectarian government, which 
we view as a necessary step in the overall effort to counter ISIL. At 
this time, direct arming of Sunni tribal forces or any sub-group of 
Iraqi Security Forces would be counter-productive to the overall goal 
of countering the Islamic State of Iraq and the Levant (ISIL). In order 
to achieve lasting effects against ISIL, all elements of the GOI must 
work together.

    23. Senator Ernst. Secretary Carter and General Dempsey, is it a 
requirement Iraqi Sunni tribal forces are provided with weapons and 
equipment in a sufficient quantity and in a timely manner to ultimately 
defeat ISIL?
    Secretary Carter. Yes, the inclusion of Sunni tribal forces in the 
Iraqi Security Forces (ISF) and their training and equipping in a 
timely manner is critical to reaching the overall goal of defeating the 
Islamic State in Iraq and the Levant (ISIL).
    United States policy remains that the Government of Iraq (GOI) must 
concur with provision of all equipment and weapons to the Sunni tribal 
forces. Despite a slow start on GOI arming of Sunni tribes, trends are 
moving in the right direction--the number of armed Sunni tribal 
fighters in Anbar has tripled since April, and the United States 
presence at Taqaddum Air Base is helping to foster greater GOI support 
to the Sunni tribal forces. In fact, the GOI has distributed weapons to 
more than 800 Sunni forces in recent weeks, and several hundred Sunni 
forces are currently receiving training at Taqaddum.
    General Dempsey. Yes, the inclusion of Sunni tribal forces in the 
Iraqi Security Forces (ISF) and their training and equipping in a 
timely manner is critical to reaching the overall goal of defeating the 
Islamic State in Iraq and the Levant (ISIL).
    United States policy remains that the Government of Iraq (GOI) must 
concur with all equipment and weapons that DOD provides to the Sunni 
tribal forces. Despite a slow start on GOI arming of Sunni tribes, 
trends are moving in the right direction--the number of armed Sunni 
tribal fighters in Anbar has tripled since April--and our presence at 
Taqaddum Air Base is helping to foster greater GOI support to the Sunni 
tribal forces. In fact, the GOI has distributed weapons to more than 
800 Sunni forces in recent weeks, and several hundred Sunni forces are 
currently receiving training at Taqaddum.

    24. Senator Ernst. Secretary Carter and General Dempsey, what 
confidence do you have that the Iraqi Government can provide Sunni 
tribal forces with weapons and equipment in a sufficient quantity and 
in a timely manner to ultimately defeat ISIL?
    Secretary Carter. I have confidence that Prime Minister Abadi and 
his government are working to provide sufficient weapons and equipment 
to the Sunni tribes in a timely manner. Despite a slow start on GOI 
arming of Sunni tribes, trends are moving in the right direction--the 
number of armed Sunni forces in Anbar has tripled since April--and 
United States forces presence at Taqaddum Air Base is helping. In fact, 
the GOI has distributed weapons to more than 800 Sunni forces in recent 
weeks, and several hundred Sunni forces are currently receiving 
training at Taqaddum. The Department will continue to evaluate whether 
this initiative moves forward at a sufficient pace to ultimately defeat 
the Islamic State in Iraq and the Levant (ISIL). It is also important 
to note that the pace of equipping is not the only variable that will 
determine success against ISIL.
    General Dempsey. We have confidence that Prime Minister Abadi and 
his government are working to provide sufficient weapons and equipment 
to the Sunni tribes in a timely manner. Despite a slow start on GOI 
arming of Sunni tribes, trends are moving in the right direction--the 
number of armed Sunni forces in Anbar has tripled since April--and 
United States forces presence at Taqaddum Air Base is helping. In fact, 
the GOI has distributed weapons to more than 800 Sunni forces in recent 
weeks, and several hundred Sunni forces are currently receiving 
training at Taqaddum. We will continue to evaluate whether this 
initiative moves forward at a sufficient pace to make the necessary 
progress to ultimately defeat ISIL. It is also important to note that 
the pace of equipping is not the only variable that will determine 
success against ISIL.

    25. Senator Ernst. Secretary Carter, would the Department require 
congressional authorization to directly arm the Sunni tribal forces in 
consultation with the Iraqi Government?
    Secretary Carter. No, the Department has sufficient authorities 
under the Iraq Train and Equip Fund authority to provide assistance to 
military and other security forces of or associated with the Government 
of Iraq, including Kurdish and tribal security forces or other local 
security forces, with a national security mission. No additional 
authorities are needed.

    26. Senator Ernst. Secretary Carter, what coalition nations are 
directly arming the Kurdistan Regional Government?
    Secretary Carter. Coalition partners have provided weapons and/or 
equipment to the Peshmerga through the Government of Iraq (GOI) using 
either the United States-directed resupply task force or by 
coordinating directly with the GOI in Baghdad. The donating countries 
to date are: Albania, Bulgaria, Croatia, Czech Republic, Estonia, 
Germany, Hungary, Jordan, Macedonia, and the United Kingdom.

    27. Senator Ernst. General Dempsey, does the wide variety in types 
of ammunition, weapons, and equipment provided to the Kurdistan 
Regional Government have a negative impact on combat operations or 
coalition training of Peshmerga?
    General Dempsey. The ammunition, weapons, and equipment provided to 
the Peshmerga has been in direct response to specific requests for 
those items by the Kurdistan Regional Government. In addition, the 
United States has provided ``train the trainer'' capabilities to 
Coalition partners training Peshmerga forces on the employment of 
delivered arms, ammunition, and materiel (AAM). Our assessment is the 
various AAM that the United States and partner-nations have donated and 
delivered to Kurdish/Peshmerga forces have directly contributed to the 
combat effectiveness of the Peshmerga against ISIL.
     iraqi shia militias also known as popular mobilization forces
    28. Senator Ernst. Secretary Carter and General Dempsey, what is 
the impact of Shia militia recruiting on the ability of the Iraqi 
Government to recruit Iraqis for the Iraqi Security Force?
    Secretary Carter. The Department does not have a clear picture of 
Shia militia recruiting and the impact of Shia militia recruiting on 
the ability of the Iraqi Government to recruit Iraqis for the Iraqi 
Security Force (ISF). In part, this is because the United States is not 
involved in ISF recruiting. The Department is training, equipping, 
advising, and assisting forces that have been properly vetted after 
being recruited by the Government of Iraq. The Department does know 
that, in some instances, salary payments from Shia groups have been a 
significant inducement for recruits.
    General Dempsey. These is a little evidence that PMF recruitment 
efforts have severely altered the Iraqi Government's ability to acquire 
recruits for Iraqi Security Forces, but if ISF losses mount alongside 
PMF successes or large pay and equipment gaps between the two groups 
arise, it may have a significant impact in the future.

    29. Senator Ernst. General Dempsey, outside of Baghdad, where do 
Shia militias have greater numerical strength and/or greater combat 
capability, than the ISF?
    General Dempsey. [Deleted.]

    30. Senator Ernst. General Dempsey, at what point do you assess 
Shia militias and Popular Mobilization Forces will have numerical 
superiority or greater combat power over the Iraqi Security Forces?
    General Dempsey. We do not assess this scenario is likely in the 
near future.

    31. Senator Ernst. General Dempsey, what is the fastest growing 
military organization in Iraq--ISIL, Shia militias/Popular Mobilization 
Forces, Peshmerga, or Iraqi Security Forces?
    General Dempsey. The PMF has been the fastest growing force since 
June 2014 as they have gone from nothing to having tens of thousands of 
fighters. However, recruitment has leveled off. None of the groups are 
currently experiencing rapid growth.

    32. Senator Ernst. Secretary Carter, approximately how much funding 
does Iran provide the Iraqi Security Forces to fight ISIL?
    Secretary Carter. [Deleted.]

    33. Senator Ernst. Secretary Carter and General Dempsey, please 
describe the influence Iran has in deciding who is provided with 
weapons and equipment provided by the Iraqi Government?
    Secretary Carter. [Deleted.]
    General Dempsey. [Deleted.]

    34. Senator Ernst. Secretary Carter and General Dempsey, what types 
of heavy weapons and equipment are provided by the Iraqi Government to 
the Popular Mobilization Forces?
    Secretary Carter. [Deleted.]
    General Dempsey. [Deleted.]

    35. Senator Ernst. Secretary Carter and General Dempsey, does the 
Iraqi Government provide certain types of weapons and equipment to the 
Popular Mobilization Forces which they do not provide to the Peshmerga?
    Secretary Carter. [Deleted.]
    General Dempsey. No, Baghdad has provided similar weapons and 
equipment to both the PMF and Peshmerga forces in the past, but 
provides them more consistently to PMF engaged in current operations.

    36. Senator Ernst. Secretary Carter and General Dempsey, in what 
ways are the combat power of the Popular Mobilization Forces greater 
than the combat power of the Peshmerga?
    Secretary Carter. [Deleted.]
    General Dempsey. The PMF has more consistent access to armored 
vehicles, tanks and anti-tanks weapons. It also enjoys better access to 
Iraqi ammunition supplies.

    37. Senator Ernst. Secretary Carter, would the seizure of Kirkuk 
Province by Shia militias be a positive development for United States 
interests?
    Secretary Carter. No. An internal struggle for control of Kirkuk 
between Shia and Kurdish forces would run counter to United States 
interests in Iraq and the region. I believe that a stable, multi-
sectarian Iraq is the only way to ensure the long-term defeat of the 
Islamic State in Iraq and the Levant (ISIL). In keeping with this, I 
believe that a coordinated effort by all of Iraq's security forces, to 
include Kurdish and Popular Mobilization Forces, working together and 
with the central government to drive out ISIL forces, would affirm the 
Government of Iraq's efforts toward inclusivity and be consistent with 
United States interests.

    38. Senator Ernst. Secretary Carter and General Dempsey, how would 
using Iraqi Kurdistan as a coalition base of operations to support 
Operation Inherent Resolve enhance the coalition's ability to degrade 
and defeat ISIL?
    Secretary Carter. The United States and Coalition already use the 
Iraqi Kurdistan Region as a base of operations to support Operation 
Inherent Resolve (OIR). This access is integral to the success of OIR. 
Current efforts include, but are not limited to, the train and equip 
site in Erbil, which supports the training and equipping of Kurdish 
forces, and Coalition advise and assist activities throughout Kurdish 
areas in Iraq support operations against the Islamic State in Iraq and 
the Levant (ISIL). The Department continues to evaluate whether basing 
other activities in this region would enhance the coalition's ability 
to degrade and defeat ISIL in the future, but no additional 
determinations have been made at this time.
    General Dempsey. Areas of Iraq populated by the Kurdish people have 
been used by Coalition forces, since the outset of Operations INHERENT 
RESOLVE, to support counter-ISIL operations. We are constantly 
evaluating our forward basing strategy to provide the President the 
best military advice for effective operations to degrade and ultimately 
destroy ISIL.
                             centcom basing
    39. Senator Ernst. Secretary Carter and General Dempsey, how would 
expanding the use of Iraqi Kurdistan as a base of operations to support 
United States operations in the Middle East enhance our ability to 
defeat ISIL and check Iran's influence in the Middle East?
    Secretary Carter. I do not believe that expanding the use of Iraqi 
Kurdistan as a base of operations is necessary at this time to defeat 
the Islamic State and check malign Iranian influence in the region. The 
Department is providing a significant amount of support to the Iraqi 
Kurdistan Region. I believe our advise and assist as well as our train 
and equip efforts throughout the Iraqi Kurdistan Region are currently 
aligned appropriately to combat the Islamic State in Iraq and the 
Levant. The Department is constantly evaluating the implementation of 
the campaign to ensure it is meeting the campaign's objectives.
    General Dempsey. We are confident that we have arrayed out forces 
and capabilities in the region in the most effective manner to enable 
counter-ISIL operations and reduce Iran's malign influence throughout 
the Middle East. Moving forward, we continue to evaluate our forward 
basing strategy to provide the President the best military advice for 
effective operations to degrade and ultimately destroy ISIL, as well as 
to check Iran's influence in the region.

    40. Senator Ernst. Secretary Carter and General Dempsey, have you 
recommended to the President he should expand basing and support 
operations in Iraqi Kurdistan to enhance operations against ISIL?
    Secretary Carter. At this time, I have not recommended expanding 
our current posture in the Iraqi Kurdistan Region. The Department is 
providing a significant amount of support to the Iraqi Kurdistan 
Region. I believe our advise and assist as well as our train and equip 
efforts throughout the Iraqi Kurdistan Region are currently aligned 
appropriately to combat the Islamic State in Iraq and the Levant. The 
Department is constantly evaluating the implementation of the campaign 
to ensure it is meeting the campaign's objectives.
    General Dempsey. Iraqi Kurdistan is a critical basing area in DOD's 
strategy to degrade and ultimately destroy ISIL. We are confident that 
we have arrayed our forces and capabilities in the region in the most 
effective manner to enable counter-ISIL operations. Moving forward, we 
will continue to evaluate our forward basing strategy to provide the 
President the best military advice to degrade and ultimately destroy 
ISIL.
                               __________
            Questions Submitted by Senator Senator Ted Cruz
                         isis center of gravity
    41. Senator Cruz. General Dempsey, has the Joint Staff determined 
the Center of Gravity to meet the President's directive to ``ultimately 
defeat'' ISIS? If so, what do you assess as the ISIS Center of Gravity? 
Is the United States military properly positioned to target the Center 
of Gravity, or will the effort be led by one of the directors of the 
seven other lines of operations?
    General Dempsey. We assess ISIL's has two interconnected centers of 
gravity to achieve its strategic goal of restoring the Islamic 
Caliphate. The first CoG is ISIL's territorial control in Iraq and 
Syria whereby ISIL governs by forces and where it has active, passive, 
and tacit support of the population. The second CoG is ISIL's extremist 
ideology and its ability to promote it within Iraq and Syria as well as 
externally to aspiring jihadists.
   acquisition of united states equipment by iranian backed militias
    42. Senator Cruz. General Dempsey, how much United States equipment 
has been provided by Baghdad to Iranian-backed Shia militias?
    General Dempsey. [Deleted.]

    43. Senator Cruz. General Dempsey, how much United States equipment 
has Iranian-backed Shia militias obtained from other means?
    General Dempsey. [Deleted.]
                  support to iraqi governmental forces
    44. Senator Cruz. Secretary Carter, in May, you stated that Iraqi 
Security Forces ``just showed no will to fight'' in explaining the 
Islamic State's victory at Ramadi. You added, ``They withdrew from the 
site, and that says to me, and I think to most of us, that we have an 
issue with the will of the Iraqis to fight ISIS and defend 
themselves.'' Is it conceivable that those you identified as Iraqi 
Security Forces in Anbar province did not fight because the Central 
Government in Baghdad did not provide those forces the military 
equipment and support to do so effectively, or do you attribute their 
failure primarily to a lack of will?
    Secretary Carter. The withdrawal from Ramadi in May by the Iraqi 
Security Force (ISF) was due to a combination of lack of proper support 
and eroded will to fight after eight months of grinding, continuous 
battle with the Islamic State in Iraq and the Levant (ISIL). This 
incident illustrates the importance of a capable and motivated Iraqi 
ground force that is adequately resourced and supported by the central 
government. The forces that fled Ramadi were led poorly, did not 
receive regular supplies of weapons or equipment, and did not have 
valuable intelligence information about their adversaries. ISIL also 
continues to show that it is an adaptive and tenacious adversary. It 
has used a variety of tactics in Ramadi, such as suicide vehicle borne 
improvised explosive devices, to great effect. Overall, I believe that 
these issues, combined with the general problem of a hollow ISF, 
contributed to the ISF's decision to retreat from Ramadi.
                lack of partners in the iraqi government
    45. Senator Cruz. Secretary Carter, Sunni tribes in Iraq can be 
fickle; after years of disenfranchisement under former Prime Minister 
Maliki, they seem very unlikely to side with the increasingly sectarian 
and Shiite Iraqi Security Forces against ISIS. In fact, we have seen 
Sunni tribes in Anbar and other parts of Western Iraq pledging their 
loyalty to ISIS. \1\ Not only must this flow of Sunni tribes to our 
adversary be stemmed inside Iraq, true gains against ISIS might require 
an external, designated Sunni Arab partner to stabilize western Iraq.
---------------------------------------------------------------------------
    \1\ ``Sunni Tribes in Iraq's Anbar Province Pledge Support to 
ISIL'', Al Jazeera America Staff, 04 June 2015, http://
america.aljazeera.com/articles/2015/6/4/sunni-tribes-in-anbar-iraq-
pledge-support-to-isil.html
---------------------------------------------------------------------------
    Meanwhile, the Kurds have proven time and again that they are the 
most reliable and effective anti-ISIS fighting force on the ground in 
Iraq. They have held their lines against thousands of ISIS jihadists, 
and have made significant counter-attacks, reducing the territorial 
gains of ISIS. Yet, as you confirmed in the hearing, the United States 
does not provide direct armament to the Iraqi Kurds, and everything 
flows through Baghdad. We do not embed forward observers to coordinate 
air strikes against ISIS. We do not truly partner with this fighting 
force which has stood beside us resolutely and steadfastly, from the 
ouster of Saddam Hussein until now.
    Would you agree that we need a Sunni Arab force that we can partner 
with to stabilize the Sunni Arab portions of Iraq?
    Secretary Carter. Yes, a Sunni force that is part of a multi-
sectarian military security force controlled and supported by the 
Government of Iraq is a necessary component of our campaign to repel 
the Islamic State in Iraq and the Levant (ISIL) and stabilize Sunni 
portions of Iraq. This is why the Department of Defense is working by, 
with, and through the Government of Iraq to train and equip Sunni 
tribal fighters in Iraq. At al Asad and Taqaddum air bases in Anbar 
province, United States and Coalition advisors are working with Iraqi 
Security Forces to recruit, train, and equip fighters in the fight 
against ISIL.

    46. Senator Cruz. Secretary Carter, do you think a Sunni Arab force 
has a real chance of stabilizing Iraq while a civil war continues in 
Syria? How will that Sunni Arab force interact and coordinate with Kurd 
forces?
    Secretary Carter. Continued conflict and instability in Syria will 
present challenges to the Iraqi government even after ISIL is dislodged 
from Iraq. However, a Government of Iraq that effectively controls and 
supports the multi-sectarian security forces of Iraq--to include Sunni 
and Shia Popular Mobilization Forces, the Iraqi Army, the 
Counterterrorism Service, Kurdish forces, and other local forces such 
as police--has the capability to repel ISIL and hold Iraqi territory 
despite a continuing civil war in Syria. Our efforts in Iraq and Syria 
are complementary. Our Syria strategy has three major components: 
airstrikes against ISIL, building a ground force, and pushing for a 
negotiated political transition. Iraqi and Kurdish forces on both sides 
of the border continue to demonstrate a willingness to work together 
through coordinated planning and operations in the fight against ISIL.

    47. Senator Cruz. General Dempsey, do you think there is any 
scenario where relative peace returns to the region while Assad holds 
on to power?
    General Dempsey. Such a scenario is highly unlikely.
                    countering the jihadi narrative
    48. Senator Cruz. General Dempsey, it seems that ISIS is just one 
franchise of the global jihadist movement, and that there is a more 
decisive battlefield than the physical ground in Raqqa, Mosul, and 
Ramadi that ISIS currently controls. Like the Cold War, this true 
battlefield is the war of ideas between the Western ideals of peaceful 
self-determination, individual dignity, and freedom of religion against 
a totalitarian ideology espoused by violent Islamic extremists who kill 
anyone who opposes them or takes part in any activity they deem un-
Islamic.
    We can't counter the global jihadi narrative because we won't 
acknowledge its theological and ideological roots. We have seen a 
steady stream of foreign fighters pour into Iraq and Syria, and despite 
the fact that we have killed about 13,000 fighters, ISIS has recruited 
over 4,000 westerners and continues to recruit about 1,000 fighters a 
month. We have utterly failed to discredit the global jihadi narrative. 
We have failed to highlight and discredit the charlatans who stitch 
together these interpretations of the Koran and the Hadith to sanction 
morally repugnant actions against unbelievers in name of Islam.
    What are you doing to deconstruct, understand, and counter this 
narrative?
    General Dempsey. The Department works directly in conjunction with 
Department of State, who has been tasked as the lead to counter ISIL's 
narrative through the Information Coordination Cell (ICC). In addition 
to our work within the ICC construct, the Department participates in 
multiple forums and works with both inter-agency partners and academia 
to analyze ISIL's propaganda network. The main challenge today is the 
size and pace of communications in social media. The information 
environment has moved beyond largely non-interactive television and 
static websites to social media that can be accessed almost 
instantaneously, by anyone, at almost any time. Our ability to assess 
the social media environment is extremely challenging because of its 
global scale and dynamic, continuously-evolving nature. USCENTCOM 
serves as the Department's operational lead across multiple efforts to 
blunt ISIL's narrative. Based upon the diffuse nature of the 
information environment, which does not respect geographic boundaries, 
the Joint Staff looks to synchronize Counter-ISIL efforts with other 
Combatant Commands.
        providing support to internally displaced persons (idps)
    49. Senator Cruz. Secretary Carter, reportedly, there are now 
nearly 1.8 million refugees/IDPs in northern Iraq, under the purview of 
the KRG (which itself only has a population of approximately 5 
million). If those refugees (of which the overwhelming majority are 
Iraqi IDPs) are not properly cared for, they will become a ripe 
terrorist recruiting pool for generations.
    Do you feel that you have complete transparency as to what, if 
anything, the central government in Baghdad is doing to assist their 
fellow Kurdish Iraqis in managing this crisis? Is that process 
completely transparent? Is the burden of assisting these refugees and 
IDP's being equitably distributed between the central government in 
Iraq and the KRG?
    Secretary Carter. The Government of Iraq (GOI) provides a 
significant level of transparency regarding its humanitarian assistance 
efforts. GOI has provided humanitarian assistance to Iraqi internally 
displaced persons located in northern Iraq and has coordinated on 
multiple occasions with Kurdish forces and the Coalition to airlift 
life-saving humanitarian supplies to civilians located in northern 
Iraq. I would also note that the GOI is experiencing a severe financial 
crisis due to low oil prices, diminished capacity, and the ongoing 
counter-ISIL fight.

    50. Senator Cruz. Secretary Carter, what are we doing to assist the 
Governments of Jordan and Turkey with the enormous numbers of IDPs they 
have absorbed in this conflict?
    Secretary Carter. I remain concerned by the refugee crisis facing 
our partners in the Middle East, including Turkey, where nearly 2 
million refugees from Syria and Iraq are living, and Jordan, where 
627,000 Syrian refugees have registered through the United Nations High 
Commissioner for Refugees in addition to the hundreds of thousands of 
additional refugees who have not registered. The Department of State 
and the United States Agency for International Development are best 
postured, however, to provide details about the funding and assistance 
provided to these partners to support their response to the refugee 
crisis.
    The Department of Defense closely coordinates with and provides 
support to many of these interagency efforts. In Jordan, for example, 
the Department engages with the Jordan Armed Forces, through the United 
States Embassy in Amman, to ensure United States humanitarian 
assistance is able to flow into southern Syria in order to meet the 
needs of Syrians who might otherwise choose to seek refuge in Jordan, 
thereby lessening the burden that additional refugees would pose on our 
regional partners.
              approval process for weapons going to kurds
    51. Senator Cruz. Secretary Carter, what is the process of 
approving which weapons get to the KRG? Who decides which weapons 
requested by the Kurds should go to them? Is it the White House, the 
Pentagon, or Baghdad? Please describe the efforts to ensure accurate 
and transparent accountability of weapons requested, approved, and then 
actually delivered to the KRG. How much time is required for each of 
the phases, from request, through to final delivery?
    Secretary Carter. The process for approving weapons for Kurdish 
forces starts with a request for equipment from the Kurdish Regional 
Government (KRG). Department of Defense experts on the ground, 
including representatives from the Combined Joint Task Force-Operation 
Inherent Resolve (CJTF-OIR), the Combined Joint Forces Land Component 
Command-Iraq (CJFLCC-I), and the Office of Security Cooperation-Iraq 
(OSC-I) then validate the request by ensuring it aligns with 
operational requirements, and then the consent of the Government of 
Iraq (GOI) is obtained with regard to the validated list. This process 
typically takes one-to-two weeks from receipt of a new list until GOI 
consent.
    There are several mechanisms by which the Department facilitates 
the delivery of defense equipment to Kurdish forces; regardless of the 
mechanism, all equipment is coordinated by, with, and through the GOI.
    First, the Department purchases weapons and equipment using the 
Iraq Train and Equip Funds. Items are delivered first to Kuwait for 
inventory and packaging; they are then moved forward into Iraq under 
the control of CJTF-OIR,CFLCC-I, and OSC-I; and finally they are signed 
over to Peshmerga units through the GOI. United States Government, GOI, 
and Peshmerga representatives are all present in Erbil to accept 
transfers.
    Second, for weapons and equipment being provided to Kurdish forces 
under Presidential Drawdown, Excess Defense Article, and Foreign 
Military Financing authorities, the GOI submits a Letter of Request 
(LOR) and signs a letter of offer and acceptance (LOA). United States 
Central Command and CJTF-OIR facilitate delivery of those items to 
Erbil, where United States Government, GOI, and Peshmerga 
representatives transfer deliveries through the GOI to the Kurdish 
forces.
    Finally, some weapons and equipment are provided to Kurdish forces 
through the Kurdish Resupply Task Force, for which the United States 
coordinates donations and arranges for transportation of donated items. 
Once a coalition partner has committed to donate defense equipment, and 
transportation has been arranged, a diplomatic clearance request is 
submitted to the GOI for the incoming flight. That process can take up 
to 10 days but usually takes a week. The next step is to fly the 
equipment to Baghdad for a customs inspection, which can take up to 24 
hours, but it takes only 2-4 hours, on average. Finally, the equipment 
is flown to Erbil, where it is received by a logistics representative 
from the Kurdish Regional Government.
      krg representation at future counter-isis coalition meetings
    52. Senator Cruz. Secretary Carter, despite numerous requests from 
all levels of the Kurdistan Regional Government to participate as part 
of the Iraqi delegation to meetings of the Counter-ISIS Coalition, 
their requests have been denied. President Obama has ``commended the 
bravery of the Kurdish Peshmerga forces'' for the critical role they 
play, and yet, it is understood that Baghdad has refused this access. 
How can the administration claim that support for an inclusive Iraqi 
Government is paramount to the success of the campaign, unless it also 
supports KRG inclusion in all aspects of the discussions? What can you 
do to ensure that the Kurds are included in the Iraqi delegation?
    Secretary Carter. The United States Government is not in a position 
to prescribe who the Government of Iraq (GOI) includes in its own 
diplomatic delegations. The GOI, like any sovereign government, is 
responsible for representing Iraq in meetings with other sovereign 
governments. The United States Government does, however, encourage the 
GOI to continue building inclusive governance that represents and is 
responsive to all of its citizens. The current GOI is led by a Council 
of Ministers that includes ministers from each of Iraq's major societal 
components. Senior leaders representing the major Kurdish political 
parties are included in this group. These leaders also govern the Iraqi 
Kurdistan Region. Coordinating closely with the GOI, the United States 
Government, including the Department of Defense, also maintains a 
direct relationship with Kurdish Regional Government (KRG) leadership, 
both through the KRG mission in Washington and through President 
Barzani in Erbil.
long-range anti-tank weapons to counter armored vehicle born improvised 
                        explosive device (vbied)
    53. Senator Cruz. General Dempsey, ISIS has captured over 1,000 
armored vehicles. ISIS is also making make-shift armored vehicles with 
after-market armor. The Kurds report that they cannot repel attacks by 
these vehicles with light arms like AK-47s, or even with RPGs. The 
Kurds report the Milan rocket provided by Germany and Italy is the best 
defense but they do not have enough of them. While we have supplied AT-
4s to help Kurdish forces counter this threat, those handheld anti-tank 
missiles are too short-ranged to provide adequate standoff from these 
large, heavily armored VBIEDs. Are you considering giving them longer 
range anti-tank systems such as the Javelin, or is there anything else 
the United States can provide to counter this significant threat?
    General Dempsey. We have gone to great lengths to address the 
priority needs of the KSF. We are providing the Iraqi and Kurdish 
forces a variety of anti-tank VBIED systems such as 40 mine-resistant 
ambush-protected vehicles, 1,000 AT-4 anti-tank systems, and anti-tank 
ammunition. Furthermore, we continue to seek effective coalition 
donations for the Kurdish forces by engaging our coalition partners 
(like Germany and Italy) to provide defensive systems such as the Milan 
rocket that have sufficient range to counter the threats posed by make-
shift armored vehicles. To date, the KSF have received approximately 80 
percent of more than 6 million pounds of weapons (over 55,000 weapons) 
and ammunition (over 48 million rounds) donated by the coalition. This 
support has helped the KSF to regain virtually all of the territory 
that had been lost to ISIL.
                 non-lethal enablers for kurdish forces
    54. Senator Cruz. Secretary Carter, the Kurds report significant 
shortages in non-lethal defense items that are nevertheless critical to 
their success. This includes helmets, body armor, and night vision 
goggles. Due to limitations on their ability to buy such equipment on 
the open market and the fact that their budget is severely strained, 
they are hoping to receive these from the coalition. What have you told 
them you plan to do to help them correct these critical shortages?
    Secretary Carter. The Department plans to provide adequate defense 
equipment, including non-lethal items, to Kurdish forces through the 
Iraq Train and Equip Fund authority, coalition donations, or other 
authorities, in coordination with the Government of Iraq.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                         counter-isis strategy
    55. Senator Shaheen. Secretary Carter, I understand DOD is the lead 
for two of the nine lines of effort in the fight against ISIS. How will 
the reimposition of the Budget Control Act caps affect the overall 
counterterrorism strategy against ISIS, whether or not DOD is provided 
with additional OCO funding? How important is the whole-of-government 
approach to the ISIS strategy, to include the efforts of DOD, State, 
Treasury, Homeland Security, and the Intelligence Community?
    Secretary Carter. Allowing sequestration to return would deprive 
U.S. forces of what they need to accomplish their missions around the 
world, including current operations in the Middle East. The short-term 
impacts of a return to the Budget Control Act caps would affect all 
aspects of the Department. The President's Budget for fiscal year 2016 
is roughly $35 billion above sequestration-level caps. More than one-
third of the cuts in fiscal year 2016 would have to come from the 
Operation and Maintenance accounts, with unavoidable reductions in 
readiness and our ability to shape world events in the interests of the 
United States. The longer-term impact of sequestration would damage our 
national security, ultimately resulting in a military that is too small 
and insufficiently equipped to implement our defense strategy fully. 
The Department would be forced to make trade-offs between forward 
presence and readiness, as well as between the capability and capacity 
of the Joint Force--these trade-offs would have consequences for United 
States missions across the globe, including in the Middle East.
    The President's whole-of-government approach to the counter-Islamic 
State in Iraq and the Levant (ISIL) strategy is critical to its 
success. The contributions of other Departments and Agencies include 
diplomatic action, humanitarian assistance, financial measures to 
undermine ISIL, initiatives to stem the flow of foreign fighters, and 
expanded intelligence collection against ISIL. This mission of 
defeating ISIL cannot be achieved without all these efforts. There is 
an enduring connection between our nation's military efforts and those 
non-military instruments of national power, and it is essential to 
resource our interagency partners at the levels requested in the 
President's Budget.

    56. Senator Shaheen. Secretary Carter and General Dempsey, what is 
your assessment of United States efforts to counter ISIS propaganda 
campaigns and to delegitimize ISIS in the eyes of those who might 
otherwise be drawn to their message? Do you believe there is sufficient 
cooperation between the State Department and the Department of Defense 
as well as coordination with our allies?
    Secretary Carter. The Department has worked closely with the 
Information Coordination Cell within the State Department Center for 
Strategic Counterterrorism Communications, and with other United States 
Government communicators including the Broadcasting Board of Governors, 
to ensure Department of Defense counter-propaganda efforts both nest 
within and support broader interagency strategies. The modern 
information environment offers unique challenges to the United States 
Government--information operations have moved beyond largely non-
interactive television and static websites to social media that can be 
accessed almost instantaneously, by anyone, at almost any time. The 
ability to assess the social media environment is extremely challenging 
because of its global scale and dynamic, continuously evolving nature. 
The Department is working both to ensure counter-propaganda efforts are 
agile and responsive to emerging technologies, and to develop 
innovative ways to assess their effectiveness in this constantly 
changing environment.
    General Dempsey. The Department of Defense continues to seek ways 
we can support Department of State in countering ISIS propaganda 
campaigns and delegitimize ISIS through our unique authorities and 
resources. ISIS continues to successfully leverage the information 
environment to its advantage. The online space, in particular, is 
dynamic and its global span is challenging. Adversary efforts in the 
information environment are unencumbered by legal or policy concerns, 
very cheap to execute, efforts and policies need to evolve in order to 
combat this threat. We continue to made strides in learning more about 
the social media environment, and from a whole of government 
perspective, how we can collectively assess the effectiveness of our 
efforts.
                               __________
                Questions Submitted by Senator Tim Kaine
                          rules of engagement
    57. Senator Kaine. Secretary Carter, during my recent trip to the 
Iraq and Turkey, my staff was briefed on details regarding support for 
the Syrian militia forces we are training. Specifically, we discussed 
the issue surrounding the Rules of Engagement prohibiting the use of 
United States airpower to assist in defending United States-trained 
Syrian militias against attack by forces from the Assad regime. The 
Special Operations Forces charged with this training explained that the 
prohibition was severely damaging the credibility of U.S. commitment to 
the trainees and likely hampering our recruitment efforts.
    Can you confirm whether such a restriction on supporting U.S.-
trained Syrian forces with defensive fires against the Assad regime's 
forces exists within the current Rules of Engagement? Will the DOD 
change this rule? If so, when? If not, what steps should the Senate 
Armed Service Committee take to remove the restriction and ultimately 
provide the full spectrum of support and protection to the forces we 
train and put in harm's way?
    Secretary Carter. The current Operation INHERENT RESOLVE rules of 
engagement (ROE) are classified. My staff can provide additional 
information regarding those ROE in a classified setting. No action by 
the Committee is necessary. The Administration has concluded that there 
is sufficient legal authority to provide combat support to Syrian 
fighters that DOD has vetted, or vetted and trained, who come under 
attack by Syrian government forces, consistent with the right of U.S. 
self-defense, if the U.S. action is necessary to effectively address 
the threat posed by the Islamic State in Iraq and the Levant to the 
United States and Iraq and meets the international law requirements of 
necessity and proportionality.


UNITED STATES MILITARY OPERATIONS TO COUNTER THE ISLAMIC STATE IN IRAQ 
                             AND THE LEVANT

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 9:53 a.m. in Room 
SD-106, Dirksen Senate Office Building, Senator John McCain 
(chairman) presiding.
    Committee Members Present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Lee, Reed, Nelson, McCaskill, Manchin, Shaheen, 
Gillibrand, Blumenthal, Donnelly, Hirono, Kaine, King, and 
Heinrich.

       OPENING STATEMENT OF SENATOR JOHN McCAIN, CHAIRMAN

    Senator McCain. Well, good morning, all. The Senate Armed 
Services Committee meets today to receive testimony on the 
United States strategy and military operations to counter the 
Islamic State of Iraq in the Levant, or ISIL.
    I want to thank our witnesses, Under Secretary Wormuth and 
General Austin, for appearing before us today, and their 
continued service to our Nation.
    It's been 1 year--it's been 1 year since President Obama 
spoke to the Nation about the threat posed by ISIL and 
increased United States military operations against us. Many of 
us believe that the goal the President laid out, quote, ``to 
degrade and ultimately destroy ISIL'' is right. Many of us 
agree with a military strategy that seeks to empower local 
forces in Iraq and Syria to combat ISIL with United States and 
coalition training, equipment, assistance, and airpower. One 
year into this campaign, it seems impossible to assert that 
ISIL is losing and that we are winning. If you're not winning 
in this kind of warfare, you are losing. Stalemate is not 
success.
    It is accurate that we have conducted thousands of 
airstrikes against ISIL, trucks and fighters, bunkers and 
buildings. This conjures the illusion of progress, but what 
effect has that had? ISIL has lost some territory on the 
margin, mainly to Kurdish and Shiite forces, but ISIL has 
consolidated control of its core territories and expanded its 
control in Syria. It continues to dominate Sunni Arab areas in 
both Iraq and Syria. It maintains control of key cities, like 
Mosul, Fallujah, and Ramadi. Efforts to retake those 
territories appear to have stalled entirely.
    Meanwhile, ISIL is expanding globally. It's now operating 
in Afghanistan, Yemen, Libya, and Egypt. Other radical Islamic 
groups, like Boko Haram in Nigeria and al-Shabaab in Somalia, 
have pledged allegiance to ISIL. This appearance of success 
only enhances ISIL's ability to radicalize, recruit, and grow.
    Published media reports suggest that the CIA's [Central 
Intelligence Agency] estimates of ISIL's manpower has remained 
constant, despite United States airstrikes, which suggests that 
either they were wrong, to begin with, or that ISIL is 
replacing its losses in real time. Neither is good. Indeed, 
this committee is disturbed by recent whistleblower allegations 
that officials at Central Command skewed intelligence 
assessments to paint an overly positive picture of conditions 
on the ground. We are currently investigating these 
allegations, which we take with the utmost seriousness. The 
Department of Defense should, as well. If true, these--those 
responsible must be held accountable.
    Ultimately, it's not--ultimately, it's not that we are 
doing nothing to counter ISIL, it is that there is no 
compelling reason to believe that anything we are currently 
doing will be sufficient to achieve our strategic objective of 
degrading and ultimately destroying ISIL. The United States and 
our partners do not have the initiative. Our enemies do. 
They're capitalizing on our inadequate policy to maintain and 
enhance their initiative, as they have for the past 4 years. 
Indeed, the situation on the ground is now taking yet another 
dramatic turn for the worst, as several recent events make 
clear.
    Recent published reports state that United States officials 
believe that ISIL is using mustard gas and may even be 
manufacturing these chemical weapons by themselves. Whether 
ISIL is manufacturing chemical weapons themselves or acquired 
from former or current stocks maintained by Bashar Assad, this 
is a potential nightmare scenario for our partners in the 
Middle East and for us. At the same time, the United States 
effort to train and equip Syrian rebels to fight ISIL is 
clearly and unfortunately failing. The goal was 3,000 fighters 
in the first year. Instead, this program has trained and 
equipped only 54 fighters, some of whom were killed or captured 
by al-Qaeda as soon as they returned to Syria. This program the 
administration promised would result in a viable indigenous 
ground force in Syria has yet to produce any significant 
effects on the battlefield. To be sure, the fixation with 
perfect vetting, both in the Congress and the administration, 
is contributing to this failure. But, far worse has been the 
administration's requirement that this new Syrian force could 
only fight ISIL, not the Assad regime, which has killed far 
more Syrians than ISIL, and the President's refusal, until just 
week's ago, to authorize the close air support and other 
military assistance to ensure our Syrian partners would be 
successful.
    Unfortunately, these contradictions were clear from the 
beginning, and many members of this committee warned the 
administration to change course. Their failure to do so has 
squandered a lot of time, money, and, worst of all, 
credibility. For this committee to continue supporting this 
program, we need some major changes.
    Into this vacuum has now stepped Vladimir Putin. As in 
Ukraine and elsewhere, he perceives the administration's 
inaction and caution as weakness, and he is taking advantage. 
According to media reports, Putin has deployed strike aircraft, 
T-90 tanks, Howitzers, armored personnel carriers, Russian 
marines, and housing for up to 1,500 personnel in military 
bases in western Syria. This is an expansion of Russian power 
in the Middle East that we have not seen in 4 decades, and it 
will allow Putin to further prop up Assad, fuel his 
indiscriminate killing machine, play kingmaker in any 
transition, undermine United States goals, policy, and 
operations, and ultimately prolong this horrific conflict. The 
main beneficiary will be ISIL.
    Many of us have said from the beginning--from the 
beginning--that the conflict in Syria would not be contained. 
For 4 years, we have seen evidence of that: the hundreds of 
thousands dead, the millions of driven and displaced people, 
the use of chemical weapons, and the rise of the worst 
terrorist army in the world. Now we are seeing the latest 
manifestation of this failed policy--the flood of people 
pouring out of the Middle East--that has led to the worst 
refugee crisis in Europe since World War II.
    The administration has promised to accept 10,000 refugees 
in the coming year. That's a noble gesture. But, unless we 
address the cause of this crisis, which is the continued 
grinding conflict in Syria, the refugees will keep coming, ISIL 
will grow stronger, the Middle East will descend further into 
chaos, and United States national security interests will be 
put at greater risk.
    For 4 years, we have been told that there is no military 
solution to this conflict, as if anyone believes there is; and 
there are no good options, if anybody--as if anybody believes 
there are; that our influence is limited, as if that has not 
always been the case; that we will not succeed overnight, as if 
our problem is one of time, not policy; and that we cannot 
solve every problem in the Middle East, as if that absolves us 
of our responsibility to make the situation better, where we 
can.
    This is not a question of our capacity or our capabilities 
or our options. We have options between doing nothing and 
invading Iraq and Syria. Many members of this committee have 
suggested such options, for years now, and they are still 
relevant. We need to put an end to Assad's ability to use 
airpower against his people, especially the use of horrific 
barrel bombs. Shoot down planes that drop barrel bombs that 
slaughter innocent civilians. It's one of the leading killers 
of innocent civilians. We need to help establish safe zones, 
inside Syria, where refugees and displaced people can be 
secure. We need forward air controllers to add precision and 
lethality to our air campaign. We need to make significant 
changes in order to improve and rapidly expand our training of 
Syrian and Iraqi forces. While no one believes that we need to 
invade Iraq or Syria, the fact is that we will likely need 
additional United States Special Forces and military advisors 
to be successful.
    I hope our witnesses will not repeat our desired policy 
goals and a list of tactical achievements and talk about, 
quote, ``nine lines of effort.'' We have heard all of that 
before, but we have yet to hear a theory of victory. I hope to 
hear one today.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Secretary Wormuth and General Austin, welcome.
    This morning's hearing continues the committee's review of 
United States military operations to counter ISIL in Iraq and 
Syria, and its growth in the broader Middle East, Africa, and 
South Asia. Through its extreme ideological and brutal tactics, 
including the reported development and use of chemical weapons, 
ISIL has gained control over portions of Syria and Iraq 
effectively erasing the border between these countries. This 
violent extremist group has slaughtered civilians, enslaved 
women and girls, and carried out horrific attacks in ethnic and 
religious minorities, and broadcast its barbaric acts on social 
media. To escape the violence of ISIL, the Assad regime, and 
multiple other armed elements, millions have been displaced or 
fled outside Iraq and Syria. The crush of fleeing refugees into 
Europe has only added to the sense of urgency regarding the 
need to restore security in the region.
    The military campaign against ISIL remains complex, with no 
easy answers. While the coalition has had success in pushing 
ISIL out of some territory, including gains by the Kurdish 
Peshmerga in the north, the retaking of Tikrit by Iraqi 
Security Forces, and the Syrian Kurds' removal of ISIL along 
sections of the border with Turkey, the self-described Islamic 
State continues to hold key cities, including al-Raqqa in Syria 
and Mosul in Iraq. The Iraq Security Forces' counteroffensive 
to take back Ramadi has struggled over the last few months, and 
Bashir remains contested. At the same time, Iranian-backed 
Shi'a militias have stalled in operations near Fallujah. 
Despite its recent setbacks, ISIL is consolidating its control 
over the local populations in the areas that it holds in both 
Syria and Iraq.
    The agreement between the United States and Turkey, 
expanding access to land and use of Turkish airbases and 
seeking to create an ISIL-free zone on the Syrian side of the 
border, is an important step forward. However, the provocative 
deployment by Russia of additional military forces to bases in 
Syria, under the guise of assisting in countering ISIL efforts, 
appears to be an effort by Putin to prop up the Assad regime, 
further complicating efforts to restore security in Syria.
    These events have raised concerns over whether the current 
level of our efforts against ISIL is sufficient. A critical 
issue for the military lines of effort within the counter-ISIL 
strategy is the progress of the United States Train and Equip 
Programs for coalition-backed forces in both Iraq and Syria. 
While the United States-led air campaign has had an effect in 
degrading ISIL, effective local forces that can take full 
advantage of coalition airpower, seize ground from ISIL, and 
then hold it, are essential to success.
    In Iraq, operations to take Anbar require recruiting 
significant numbers of Sunnis into the Iraqi Security Forces 
and equipping them to resist the ISIL threat. I am concerned by 
reports that Sunni recruitment has fallen short of its targets 
and that the Government of Iraq has been slow in delivering 
equipment for arming Sunni forces.
    In Syria, the DOD [Department of Defense] Syria Train and 
Equip Program, according to public reports, has experienced a 
variety of setbacks. We'll be interested in your assessment of 
this effort. Quite interested.
    General, I also hope you will address what you believe 
might be done to intensify military operations to counter the 
ISIL threat. For example, would you support a more active role 
for United States military personnel in facilitating the 
engagement with Sunni tribes, or providing advisors within the 
Iraqi Ministry of Defense to build institutional capacity, or 
accompanying Iraqi Security Forces, on a limited basis, when 
direct contact with the enemy is not anticipated?
    The ISIL problem is not geographically bounded by Syria and 
Iraq. indeed, as the Chairman has pointed out, ISIL-inspired or 
-directed groups have appeared in Yemen, Afghanistan, Egypt, 
Libya, Nigeria, the Horn of Africa, and the Caucasus, and 
elsewhere. General, I am interested in your assessment of the 
group's growth in the region and how CENTCOM [United States 
Central Command] is contributing to transregional efforts to 
combat the group.
    Ultimately, the success of the counter-ISIL effort will 
depend on a number of nonmilitary factors also, including 
whether the reforms Prime Minister Abadi has initiated are 
implemented and result in an Iraqi government that is more 
inclusive and responsive to the concerns of the Sunnis, Kurds, 
religious minorities, and other factions in Iraq society; 
whether the international coalition, including states in the 
region, can effectively counter ISIL's propaganda, financing, 
and the spread of its extreme ideology; and whether a political 
solution can be found for the crisis in Syria. These issues are 
the primary responsibility of departments other than Department 
of Defense, but I assume our witnesses would agree that these 
issues are integral to our comprehensive approach to countering 
the ISIL threat.
    General Austin, I hope that you will also, to the extent 
possible, given the ongoing review by the Inspector General, 
address questions involving intelligence assessments with 
respect to ISIL. It is important that we wait for the Inspector 
General's investigation before--complete it--before making a 
judgment, but I have no doubt that you will take such 
allegations as seriously as we do in Congress. We take them 
very seriously. Like Senator McCain, I expect the committee 
will be kept apprised of this investigation as it continues, 
and be active, in terms of the recommendations.
    Let me thank both witnesses for their testimony this 
morning.
    Thank you, Mr. Chairman.
    Chairman McCain. Ms. Wormuth.

  STATEMENT OF HON. CHRISTINE E. WORMUTH, UNDER SECRETARY OF 
                       DEFENSE FOR POLICY

    Ms. Wormuth. Thank you, Chairman McCain and Ranking Member 
Reed, as well as members of this committee. Thank you for the 
opportunity to be here today to give you an update on the 
military aspects of our counter-ISIL campaign.
    It's also a pleasure, as always, to be here with General 
Austin. We work very closely together every day on a range of 
issues, so it's nice to be here with him today.
    As the Chairman said, it's been just over a year since the 
United States and a coalition of nations began the military 
campaign against ISIL. When we began that campaign about a year 
ago, ISIL was pushing into Kurdish territory in northern Iraq 
and pushing towards Baghdad. Over the past 12 months, ISIL has 
lost territory in both Syria and Iraq, despite advances it's 
made in Ramadi and Palmyra. Progress has been slow, but steady.
    There have definitely been setbacks in the past year. While 
not 10 feet tall, ISIL remains a thinking enemy that adapts to 
evolving conditions on the battlefield. Our Train and Equip 
Programs in Iraq and Syria have faced challenges. In Iraq, the 
pace of our program has moved more slowly than we'd like, and, 
in Syria, the stringent vetting criteria we're using at the 
outset of the program has contributed to smaller numbers than 
we'd hoped for. As the military campaign continues in both 
countries, we expect there will continue to be challenges 
clearing and holding territory.
    But, we've also seen progress in the past year. You're all 
familiar with the successful operations to take back Kurdish 
territory in Iraq, to defeat ISIL in Khobani, and to, more 
recently, retake Tikrit, as well as other successful 
engagements.
    On the political front, Prime Minister Abadi continues to 
demonstrate the resolve necessary to confront ISIL, and he is 
striving to manage what is a very difficult political landscape 
in Baghdad.
    In Syria, we've seen some opportunities emerge that we 
didn't envision a year ago, particularly in the northern part 
of the country, where Syrian Kurds, working with Syrian Arabs, 
have successfully pressured ISIL along the Turkish border.
    Over a year ago, the President outlined a whole-of-
government strategy to degrade and ultimately defeat ISIL, and 
he emphasized it would be a multiyear campaign. When Secretary 
Carter was here in July, he outlined the nine lines of effort 
that comprise our strategy, so I won't go over them again in 
detail, but I would emphasize it will take more than the 
military campaign to be successful. We also need to dry up 
ISIL's finances, we need to stop the flow of foreign fighters 
into Iraq and Syria, in particular, protect the United States 
from potential attacks from ISIL, provide humanitarian 
assistance in areas that we are taking back from ISIL, and find 
a way to more effectively counter ISIL's very successful 
messaging campaign.
    As Secretary Carter said to the committee in July, the 
administration believes we have the right strategy in place. 
We're now focused on implementing the strategy as effectively 
as possible. This is very much an interagency effort, with 
increasingly better synchronization against all of--across all 
of the departments and agencies that are involved. In fact, 
Secretary Carter and Secretary Kerry have been meeting together 
with their senior staffs to monitor and identify issues in the 
campaign. They're meeting tomorrow with NCTC [National 
Counterterrorism Center] to focus in particular on foreign 
fighters.
    DOD, as you know, is responsible for two of the lines of 
effort inside the strategy: denying ISIL safe haven and 
building partner capacity. So, I'd like to speak briefly to 
those areas, and General Austin will also elaborate.
    The coalition campaign has degraded ISIL's military 
capacity, has removed some of its key leaders and enabled gains 
by local forces in Iraq and Syria. The ISF [Iraqi Security 
Forces] has regained control of Tikrit from ISIL earlier this 
year. Syrian Kurds and Sunni Arab partners have recently taken 
the key border town in Syria of Tal Abyad, which severed one of 
ISIL's key lines of communication and supply, and put ISIL on 
the defensive, and also put more pressure on its stronghold, 
Raqqa, in Syria. These examples demonstrate how, when we have 
credible ground forces and we support them with our airpower, 
ISIL can suffer.
    We're also working hard to build the capacity of our 
partner forces on the ground. Since we began our efforts, we've 
now trained and equipped more than six brigades and provided 
training to more than 13,000 Iraqi personnel--Iraqi army, 
Kurdish Peshmerga, and counterterrorism service personnel--and 
we have more in the pipeline. As Secretary Carter said in July, 
however, training for the Iraqi army has been slowed by a lack 
of trainees coming into the training sites.
    Over the last several weeks, we've had better participation 
from Iraqi units at the training sites, and Iraq has actually 
expanded the pool of units that are eligible for training. Some 
of the units we have trained are now participating more 
directly in the fight in areas such as Ramadi, and early 
indications are that they are performing well in combat 
missions. But, as you all know, they face a difficult fight 
ahead, and strong leadership of these forces is going to be 
essential.
    Our forces on the ground at al-Assad and Taqqatum Airbases, 
are involved in advising and training Sunni tribal fighters in 
Anbar Province, both through providing direct training and also 
through train-the-trainer type of assistance with the Iraqi 
Security Forces. In terms of equipping these Sunni tribal 
fighters, we've recently delivered a battalion's worth of 
equipment to Iraqi officials working with us there on those two 
airbases to distribute the equipment to fighters. We're also 
now overseeing the distribution of the Government of Iraq's 
equipment to these Sunni tribal fighters from these bases. So, 
through these kinds of efforts, we now have more than 4,000 
Sunni tribal fighters in Anbar Province.
    We're also still in the early stages of our Train and Equip 
Program in Syria. This effort, I think it's important to 
highlight, is just one element of what we're trying to do in 
the larger campaign in Syria, which includes an increasing 
number of airstrikes as well as supporting partner forces on 
the ground, like the Syrian Kurds, the YPG [People's Protection 
Units], Sunni Arabs, and other local forces, such as Turkomans, 
for example, to try to put pressure on ISIL in northeastern 
Syria. These efforts have substantially rolled ISIL back in 
this area, and have had significant impacts on ISIL's freedom 
of movement and supply lines.
    As of September 15th, our Train and Equip Program, the 
specific program we have, we're now currently training more 
than 100 fighters, and we have additional recruits in the 
pipeline. This number is definitely smaller than we had hoped 
for, in part because, as the Chairman and others have noted, we 
put our trainees through a very rigorous screening process to 
meet standards that are very appropriately laid out in U.S. 
law. We've closely aligned all of our efforts in all of these 
areas with our 62-country coalition. As an example of how we're 
doing that, Turkey's recent decision to provide us access to 
bases at Incirlik and elsewhere has enabled us to expand the 
fight and is strengthening the cohesion of our efforts in 
Syria.
    Before turning to General Austin, I want to address 
Russia's involvement in Syria. We're closely tracking Russia's 
recent efforts to deploy additional military equipment and 
personnel to Syria, and we're in close touch with our allies 
and partners about these developments. Both Russia and Iran 
have continued to support, politically and militarily, the 
Assad regime, which has systemically murdered its own people 
and helped create the conditions of the current conflict and 
the rise of ISIL. What we need in Syria urgently is a political 
solution to the conflict through a transition away from Assad. 
Any actions that empower the regime to escalate the conflict 
are unwelcome and would be destabilizing and counterproductive.
    This is clearly a very difficult challenge that we face. 
We're not going to solve it quickly, but we have the right 
components in place to advance our objectives, and we're 
dynamically adjusting our campaign to a rapidly changing 
battlefield. Achieving a lasting defeat against ISIL is going 
to require continued commitment, strong leadership from us and 
the global coalition, as well as commitment and sacrifice from 
local forces in Iraq and Syria.
    Thank you.
    [The prepared statement of Ms. Wormuth follows:]

          The Prepared Statement by Hon. Christine E. Wormuth
    Chairman McCain, Ranking Member Reed, Members of the Committee: 
thank you for the opportunity to appear in front of the Committee today 
to provide an update on our counter-ISIL campaign.
    It has been just over a year since the United States and a 
coalition of nations began the military campaign against the Islamic 
State of Iraq and the Levant (ISIL). When we began the campaign, ISIL 
was pushing into Kurdish territory in northern Iraq and toward Baghdad. 
Over the past 12 months, ISIL has lost territory in both Syria and Iraq 
despite advances in Ramadi and Palmyra. Progress has been slow but 
steady. The 62-member international coalition to defeat ISIL in Iraq 
and Syria--galvanized by the threat ISIL poses to all of our nations--
remains strong.
    There have been setbacks along the way. While not 10 feet tall, 
ISIL remains an adaptive adversary that can still conduct offensive 
operations--as we saw in Ramadi. ISIL is a thinking enemy that adapts 
to evolving conditions on the battlefield. Our train and equip programs 
in Iraq and Syria have faced challenges--in Iraq the pace of the 
program has moved more slowly than we would like, and in Syria we use 
stringent vetting criteria that at the outset of the program have 
contributed to smaller numbers than we hoped for. As the campaign 
continues in both countries, we expect there to be continued challenges 
in clearing and holding territory.
    We have also seen progress during the past year. You all are 
familiar with the successful operations to take back Kurdish territory 
in Iraq, defeat ISIL in Kobane, and retake Tikrit--as well as other 
successful engagements. On the political front, Prime Minister Abadi in 
Iraq continues to demonstrate the resolve necessary to confront ISIL 
and is striving to manage the challenging political landscape in 
Baghdad. In Syria, we have seen opportunities emerge that we did not 
envision a year ago, particularly in the northern tier of the country, 
where Syrian Kurds have successfully pressured ISIL along the Turkish 
border and, working with Syrian Arabs, have also applied pressure 
southward toward Raqqa.
    Over a year ago the President outlined a whole of government 
strategy to degrade and ultimately defeat ISIL, and he emphasized it 
would be a multi-year campaign. Secretary Carter outlined the nine 
lines of effort that comprise our strategy in detail for you in July, 
so I won't go over them again except to emphasize that it will take 
more than just the military campaign to be successful. We also will 
need to dry up ISIL's finances, stop the flows of foreign fighters into 
Iraq and Syria in particular, protect the United States from potential 
ISIL attacks, provide humanitarian assistance to rebuild areas cleared 
of ISIL forces, and find ways to more effectively counter ISIL's very 
successful messaging campaign.
    As Secretary Carter told this committee in July, the Administration 
believes it has the right strategy in place. We are now focused on ways 
to improve the implementation of the strategy--this means constantly 
evaluating our approach and adapting it as conditions evolve, 
opportunities arise, and challenges emerge. This is truly an 
interagency effort, with increasingly better synchronization across 
departments and agencies to improve the execution of the strategy. 
Secretary Carter and Secretary Kerry have been regularly reviewing the 
implementation of the counter-ISIL campaign, including a meeting 
tomorrow with NCTC on foreign fighters.
    The Department of Defense, as you know, is responsible for two 
lines of effort inside that strategy--denying ISIL safe haven in Iraq 
and Syria, and building partner capacity so that local forces can 
defeat ISIL on the ground. I'd like to briefly update you on our 
activities in both of these areas.
    The coalition air campaign has degraded ISIL's military capacity, 
removed some key leaders, and enabled gains by local forces in Iraq and 
Syria. Iraqi Security Forces regained control of Tikrit from ISIL 
earlier this year, and Syrian Kurds and their Sunni Arab partners 
recently took the key border town of Tal Abyad from ISIL, severing one 
of its key lines of communication and supply, and putting ISIL on the 
defensive and its stronghold in Raqqah under pressure. Those examples 
demonstrate, again, that where we have had a credible ground force 
supported by coalition air power, ISIL has suffered.
    We are also working hard to build the capacity of partner forces on 
the ground. Since we began our efforts, we have equipped more than six 
brigades and provided training to nearly 13,000 Iraqi personnel, 
including Kurds--with more currently in the pipeline. Training for the 
Iraqi Army, however, has been slowed by a lack of trainees as the 
Secretary of Defense made clear in his July testimony before this 
committee.
    Over the last several weeks we have had better participation from 
Iraqi units at BPC sites and Iraq has expanded the training pool to a 
wider set of existing units. The Iraqis are also being more aggressive 
about planning ahead to put additional units in training, which should 
increase the efficiency of the training effort. Some of the units we 
have trained are now participating more directly in the fight in areas 
such as Ramadi. Initial indications are that they are performing well 
in combat missions, but they face a difficult fight ahead and strong 
leadership will be essential.
    United States forces on the ground at al Asad and Taqaddum airbases 
are involved in advising and training of Sunni tribal fighters in Anbar 
province--both through direct training and ``train-the-trainer'' 
efforts with the Iraqi Security Forces. In terms of equipping these 
forces, we've recently delivered a battalion's worth of equipment to 
Iraqi officials working with us there to distribute to Sunni tribal 
fighters. We are also overseeing distribution of the Government of 
Iraq's equipment to tribal fighters from these bases. Through efforts 
like this, there are now more than four thousand equipped Sunni tribal 
fighters in Anbar.
    We are also still in the early stages of our Train and Equip 
mission in Syria. This effort is just one element of our larger 
campaign in Syria, which includes an increasing number of airstrikes as 
well as efforts on the ground with the Syrian Kurds, Sunni Arab, and 
other local forces to put pressure on ISIL in northeastern Syria. These 
efforts have substantially rolled ISIL back in this area and had 
significant impacts on ISIL's freedom of movement and lines of 
communication. As of September 15, through our T&E program we are 
currently training more than 100 fighters with additional recruits in 
the pipeline. This number is much smaller than we hoped for at this 
point, partly because we put our volunteers through a very vigorous 
screening process to meet standards very appropriately set by U.S. law. 
We are closely aligned with the coalition on all of these efforts. As 
an example, Turkey's recent decision to provide access and basing at 
Incirlik has enabled us to expand our fight against ISIL and further 
strengthen the cohesion of our efforts in Syria.
    Before turning to General Austin, I also want to address Russia's 
involvement in Syria.
    We are closely tracking Russia's recent efforts to deploy 
additional military equipment and personnel to Syria, and we are in 
close touch with our allies and partners about these developments. 
Russian and Iranian support to Asad and his regime has prolonged the 
conflict in Syria. Both have continued to support, politically and 
militarily, a regime that has systematically murdered its own people, 
creating the conditions for the current conflict and the rise of ISIL. 
What is needed in Syria, urgently, is a political solution to the 
conflict through a political transition away from Asad. Any actions 
that empower the regime to escalate the conflict are unwelcome, as they 
would be destabilizing and counterproductive.
    In closing, let me state the obvious: this is a difficult problem. 
We will not solve it quickly, but we have the right components in place 
to advance our objectives, and we are dynamically adjusting our 
campaign to deal with a rapidly changing battlefield. Achieving a 
lasting defeat against ISIL is going to require continued commitment 
and steady leadership from the United States and the global coalition, 
as well as commitment and sacrifice on the part of local forces on the 
ground in Iraq and Syria. Thank you.

    Chairman McCain. General Austin.

STATEMENT OF GENERAL LLOYD J. AUSTIN III, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Austin. Good morning, Chairman McCain, Senator 
Reed, and distinguished members of the committee. I want to 
thank you for the opportunity to appear here today to provide a 
current update on the progress achieved over the past year in 
support of the ongoing campaign to counter ISIL, or Daesh, in 
Iraq and Syria.
    I'm pleased to appear here this morning alongside Ms. 
Christine Wormuth. Ms. Wormuth is widely respected throughout 
the Department of Defense, and we are most grateful to her for 
her continued and strong support of our efforts at CENTCOM. 
I'll join Christine in making a few brief opening comments, and 
then we're prepared to answer your questions.
    Before providing a brief update on the counter-ISIL 
campaign, I did want to quickly address an important issue. As 
the Chairman mentioned, there is an ongoing DOD IG [Inspector 
General] investigation looking into allegations concerning the 
processing of intelligence information by CENTCOM's 
Intelligence Director. Because the allegations are currently 
under investigation, it would be premature and inappropriate 
for me to discuss this matter. What I will say is, I welcome 
the DOD IG's oversight, and, once the investigation is 
complete, based upon the findings, you can be assured that I 
will take appropriate actions.
    Again, I cannot speak to the specifics of the allegations; 
however, I would like to take this opportunity to provide some 
clarity with respect to how we use intelligence products in the 
critical work that we do.
    Because of the nature of our mission at CENTCOM, we do 
have, and rely on, a robust intelligence enterprise to support 
the Command. There are over 1,200 seasoned intelligence 
professionals that make up that enterprise, and they do 
exceptional work. As a commander, I greatly value and seek 
their input and insights. I use the assessments that they 
provide me to--together with the inputs that I receive from a 
variety of sources that include my commanders on the ground who 
I talk to almost every single day, and I consider this broad 
range of inputs when making my decisions.
    You know, there's been a lot of speculation in the media 
about the allegations made to the DOD IG; and one in 
particular, I believe, should be addressed and corrected for 
the record. Some have expressed concern that CENTCOM 
intelligence reports are sent directly to the President. This 
is not accurate. As the Office of the Director of National 
Intelligence put out to the media last week, and I quote, 
``None of the combatant commands are permitted to engage 
directly in the President's daily brief process. Rather, 
reports are produced by the combatant commands and funneled 
through the DIA [Defense Intelligence Agency] to ensure that 
all substantive deliberations and final contributions are 
appropriately coordinated,'' end quote.
    Again, I cannot comment on the specific allegations. We 
will need to wait for the DOD IG to complete its investigation. 
But, I did want to provide this additional clarification.
    Ladies and gentlemen, with respect to the ongoing 
operations in Iraq and Syria today, despite some slow movement 
at the tactical level, we continue to make progress across the 
battlespace in support of the broader United States Government 
strategy to degrade and ultimately defeat ISIL. Key to the 
enduring success of the military campaign is sustained pressure 
on ISIL, both from the air and on the ground. The approach that 
we adopted relies on indigenous forces to create and sustain 
this pressure while also curbing the flow of foreign fighters 
and cutting off the enemy's ability to resource himself.
    In recent months, Iraq's Security Forces have experienced 
some setbacks. This is to be expected in the early stages of a 
fight as complex as this one. But, overall, enabled by 
coalition airstrikes and our advise-and-assist in building 
partner capacity efforts, the Iraqis continue to make progress.
    In northern Iraq, the Kurdish Peshmerga have performed 
exceptionally well, and the Kurdish-Arab coalition in northeast 
Syria is also achieving substantial effects. In fact, over the 
past several months, they've retaken more than 17,000 square 
kilometers of terrain from the enemy. The effects that they 
have achieved serve to create significant opportunities that, 
if pursued, could prove devastating for the enemy. The intent 
of the military campaign is to degrade and ultimately defeat 
the enemy through our own actions and by enabling and 
supporting the efforts of our coalition partners and the 
indigenous forces in Iraq and Syria. Again, progress is being 
made, and this is evidenced by what we see happening in the air 
and on the ground in both countries.
    I would also point out that the progress reflects, in large 
part, the many contributions made by our coalition partners. 
The 60-plus-nation coalition represents the strength of this 
campaign, and we remain grateful for their strong support. 
Success in this campaign will require the continued support of 
our coalition partners along with the support of other elements 
of the U.S. Government and the international community. More 
importantly, it will require that the Iraqis do what is 
necessary to address their political challenges. National 
reconciliation is absolutely essential to the success in the 
counter-ISIL campaign.
    We said at the outset that the military campaign to counter 
ISIL would take time. It will take time. We should expect that 
there will be occasional setbacks along the way, particularly 
in the early stages. We also need to keep in mind that we are 
supporting and enabling this effort. Our partners, not us, are 
in the lead. It is taking a bit longer to get things done, but 
it must be this way if we are to achieve lasting and positive 
effects.
    Fortunately, amidst all the--amidst the many challenges 
that exist in Iraq and Syria, we find opportunities and we 
remain confident that our actions in pursuit of these 
opportunities will continue to produce positive results in the 
coming days.
    Mr. Chairman, Senator Reed, members of the committee, I 
want to thank you once again for the strong support that you 
show to our servicemembers, our civilians, and their families. 
They are truly exceptional, and they are making important and 
lasting contributions to the overall effort.
    Again, we appreciate your support. I look forward to 
answering your questions.
    [The prepared statement of General Austin follows:]

     The Prepared Opening Statement by General Lloyd J. Austin III
                              introduction
    We have completed the first year of a multi-year campaign designed 
to counter and militarily defeat the self-proclaimed Islamic State 
(ISIL), which is commonly referred to by our partners in the region as 
``Daesh.'' This terrorist organization presents a very real threat to 
stability and security in Iraq and Syria and other parts of the Central 
Region and beyond; and, it also poses a potential threat to the United 
States homeland and our core national interests in the region. Today, 
despite some slow movement at the tactical level, we continue to make 
progress across the battlespace in Iraq and Syria in support of the 
broader USG strategy to degrade and ultimately defeat ISIL. We have 
achieved measurable effects against this enemy; and, looking ahead, we 
are postured to continue to make progress on multiple fronts across the 
combined joint operations area. Key to the enduring success of the 
military campaign is sustained pressure on ISIL, both from the air and 
on the ground; and, using indigenous forces to help create and sustain 
that pressure, while also curbing the flow of foreign fighters and 
cutting off the enemy's ability to resource himself.
    Today, although ISIL is still able to conduct attacks and incite 
terror, the organization's overall capability has been disrupted. While 
Iraq's security forces have experienced some setbacks, they continue to 
make progress, enabled by Coalition airstrikes and our advise and 
assist and building partner capacity efforts. They have executed a 
number of Coalition-enabled operations against the enemy. In northern 
Iraq, the Kurdish Peshmerga have performed exceptionally well. The 
Kurdish-Arab Coalition in northeast Syria also is achieving substantial 
effects.
    Of course, the military piece is just one component of the broader 
Counter-ISIL Strategy which consists of nine lines of effort (LOE), to 
be executed by all elements of the U.S. Government and with the support 
of our Coalition partners. The military is responsible for two of the 
nine lines of effort. We are responsible for LOE #2--``Denying ISIL 
Safe Haven,'' and that is being accomplished through our support to 
indigenous ground forces in Iraq and Syria, primarily through our 
precision airstrikes, employment of available Intelligence, 
Surveillance, and Reconnaissance (ISR) assets, and our advise and 
assist efforts at operational headquarters. We also are responsible for 
LOE #3--``Building Partner Capacity,'' which includes our train and 
equip programs for both Iraq and Syria and ongoing advise and assist 
efforts for Iraq. We must succeed at both in order to set conditions 
for the military defeat of ISIL. However, a lasting defeat of this 
enemy will require a `whole of government' effort across all nine LOEs. 
Most notably, we will need to see stable and inclusive governments in 
place in Iraq and Syria; and, we will have to curb the flow of foreign 
fighters, cut off ISIL's resourcing and financing, and effectively 
counter the enemy's information operations.
    We are still in the early stages of this campaign and there is 
tough work ahead, and success will require strategic patience. But, the 
60-plus nation Counter-ISIL Coalition remains strong and the indigenous 
ground forces, with the support of Coalition air operations and our 
advise and assist and building partner capacity efforts, continue to 
make progress across the battlespace in Iraq and Syria.
                      the road to mosul, june 2014
    On June 10th, 2014, the city of Mosul, Iraq fell to the terrorist 
organization, ISIL or ``Daesh.'' Within days, most of Iraq's security 
forces had withdrawn from northern Iraq, ISIL was making a strong push 
towards Erbil and Baghdad, and the country was in crisis. The U.S., 
with the support of partner nations, responded quickly and decisively 
to address the burgeoning crisis.
    Key also was understanding the root causes of the instability that 
enabled ISIL's rapid push south and west towards the capital city. ISIL 
was not a monolith, as it has sometimes been described. What we saw 
unfold in the initial stages of the conflict in Iraq was less a 
reflection of ISIL's military might and more the result of the Sunnis 
simply refusing to stop the organization's advance through the country. 
Over a period of years, the Iraqi government under Prime Minister 
Maliki had alienated the Sunni and Kurdish populations. This led to 
growing unrest and security seams. ISIL saw the opportunity and 
launched their attack into Iraq absent resistance from the Sunnis who 
viewed ISIL as a means for bringing about a change in their government. 
The majority of the Sunnis simply refused to fight for Prime Minister 
Maliki. They allowed--and in some cases facilitated--ISIL's push 
through the country.
    Unfortunately, the security forces were largely incapable of 
mounting a credible defense against ISIL. After we departed in 2011, 
their skills quickly atrophied. The leadership of the country made a 
series of poor decisions; among them was the decision to stop training 
the Iraqi security forces and to stop maintaining their equipment. 
They, in turn, suffered a number of defeats early on in ISIL's push 
towards Baghdad.
              the regional campaign plan to counter isil:
    One year ago, in September 2014, President Obama announced to the 
American people that the United States, with the support of a broad 
Coalition, would take action to degrade, dismantle, and ultimately 
defeat ISIL through a comprehensive and sustained whole-of-government 
strategy. The military effort represents one element of this broader 
strategy; and, we are currently in the early stages of our counter-ISIL 
military campaign, Operation Inherent Resolve (OIR). The objective of 
the military campaign is to defeat the enemy through our own actions 
and by enabling the efforts of our Coalition partners and the 
indigenous forces on the ground in Iraq and Syria. The plan consists of 
a framework with five key elements: COUNTER (HALT), CONTAIN, ENABLE, 
ELIMINATE, DEFEAT. Many of the efforts are occurring simultaneously or 
near-simultaneously; and, progress is being achieved in all areas.
                         halting isil's advance
    We said that we would first have to halt ISIL's advance; and, we 
have done this in Iraq. The enemy is no longer able to conduct large-
scale operations and to seize and hold large swaths of new terrain. 
While ISIL is still capable of exploiting weaknesses in counter-ISIL 
forces and they can and do operate freely in uncontested terrain, the 
enemy's focus has shifted primarily to defending territory in Iraq. 
Even in areas where we see increased ISIL activity, like at Ramadi and 
Bayji, we assess that the intent of these operations is simply to hold 
the terrain and occupy the Iraqi security forces.
    A key element of the ongoing effort to degrade ISIL's capability is 
our Coalition-led air operations, which have been extraordinarily 
effective. Since commencing airstrikes on 8 August 2014 and 23 
September 2014 in Iraq and Syria, respectively, Coalition air crews 
from 14 partner nations have conducted more than 6,900 total strikes. 
They are taking the fight to the enemy in a significant way, and have 
greatly enhanced the reach and effectiveness of the indigenous ground 
forces.
    Coalition airstrikes in support of OIR have proven to be some of 
the most precise and disciplined in the history of warfare [>95% 
effectiveness rating]. The high level of precision seeks to minimize 
collateral damage, even as we preserve an unprecedented tempo in 
targeting ISIL's warfighting capability. This is especially important 
given the highly-charged sectarian undercurrents at play in the region. 
We also are taking advantage of our access to the airbase in Incirlik, 
Turkey, and maximizing the additional assets of our partners in Syria. 
Turkey is now conducting strikes in Syria, along with a number of other 
Coalition partners; and, there are a few countries that are 
contemplating joining them.
    ISIL is a terrorist organization that, in the early stages of this 
fight, was attempting to behave like a conventional military. As the 
Coalition increased pressure on the enemy, ISIL reverted back to 
operating like an irregular force in many ways, just as we anticipated. 
Given the nature of the enemy and the nature of this fight, our air 
crews are required to maintain near-constant overhead coverage as they 
pursue dynamic targeting opportunities. Their contribution to the 
campaign cannot be overstated. The combination of the increasingly 
effective air campaign and the growing numbers of indigenous ground 
forces affords us more opportunities to pressure ISIL.
    Over the past year, Coalition airstrikes have effectively disrupted 
ISIL's command and control, interrupted the resourcing of their 
operations, and attrited their forces and senior leadership. ISIL's 
leadership network has been impacted; and, though the organization has 
demonstrated the ability to replace leaders killed or wounded in 
action, the replacements are likely to be less skilled and less 
experienced. Moreover, reflections of recent strikes indicate a growing 
level of distrust, fear of spies, and paranoia across ISIL's 
leadership.
    Though degrading the enemy will remain a key task throughout the 
full duration of the military campaign, our efforts to date have 
effectively halted ISIL's advance in Iraq and forced the enemy to fight 
mainly defensive operations to prevent further loss of territory and 
access to critical lines of communication.
                            containing isil
    In addition to halting ISIL's advance in Iraq, it is imperative 
that we continue to help to protect our regional partners' borders and 
sovereign spaces. ISIL has eroded stability in the region, placing 
neighboring countries, including Jordan and Lebanon, at risk. We 
continue to provide critical support to our partners in an effort to 
bolster their defenses and enable their activities and operations aimed 
at countering ISIL.
    Ultimately, we also want to gain control over the remaining border 
crossing sites inside of Syria in order to reduce the flow of foreign 
fighters. To date, Coalition-enabled efforts by anti-ISIL forces have 
disrupted some key lines of communication between Turkey and Syria and 
Syria and Iraq. These critical efforts must continue in earnest.
                     enabling the indigenous forces
    We said that we would have to enable the efforts of the indigenous 
forces; and, we are doing so in a number of ways. The pace of the 
campaign will be dictated by these indigenous forces. We are teaching, 
coaching and mentoring them through our Advise and Assist efforts. Our 
advisors are co-located with the Iraqi leadership at the Baghdad 
Operations Center and the Anbar
    Operations Center and they have helped the Iraqis to plan and 
oversee multiple ground operations. We also are assisting the Iraqis in 
their efforts to regenerate and restructure their security forces 
through our Building Partner Capacity (BPC) program. To date, nearly 
13,000 Iraqi soldiers have been trained at multiple BPC sites in Iraq, 
and more than 3,000 are currently undergoing training, which includes 
training to maintain their equipment. Coalition-trained Iraqi Army 
forces are currently involved in ongoing operations and holding their 
ground. That said, the Iraqis' decision to not accept any risk around 
Baghdad by repositioning forces to fight ISIL will continue to limit 
their ability to generate sufficient combat power. The Iraqis must 
recruit and train new forces. Our BPC and advise and assist efforts are 
making a difference, but until the Iraqis commit to a more rapid force 
generation, gains will likely remain limited.
    We also are in the process of assisting with the training and 
equipping of Sunni tribal fighters. More than 3,100 fighters have 
successfully completed training; and, 750 additional fighters are 
scheduled to undergo training in the coming weeks. This effort 
represents a potential `game-changer,' if coupled with meaningful 
reconciliation by the Government of Iraq, as the GoI cannot be 
successful long-term without the support of its Sunni citizens.
    We also are in the process of training and equipping vetted 
moderate Syrian opposition forces through our Syria Train & Equip 
program. Although the program got off to a slow start, in large part 
due to the complex nature of the undertaking, we remain confident that 
it will pay dividends going forward. The forces trained will be 
additive to and may enable efforts already underway by Syrian Kurds, 
Syrian Arabs, and other anti-ISIL forces. At the same time, we are 
seeing a shift in momentum in Syria; and, we are looking for ways to 
build upon the gains achieved thus far.
    Of note, over the past several months, the Syrian Kurds, have 
performed exceptionally well in northeast Syria. They, along with 
associated Arab elements, have retaken some 17,000 square kilometers 
from the enemy. This presents a significant opportunity and potential 
inflection point in the Counter-ISIL Campaign. There is the potential 
to isolate the capital and remove ISIL from the remaining stretch of 
border between Syria and Turkey that it still controls. Counter-ISIL 
operations in this stretch of territory could deal a strategic and 
ideological blow to ISIL.
                      eliminating ungoverned space
    Through our own actions and by enabling the efforts of our 
Coalition partners and the indigenous forces on the ground in Iraq and 
Syria, we have disrupted ISIL's capability and eliminating the enemy's 
access to ungoverned spaces and to key border crossings and supply 
routes in both countries. These efforts will continue to prove 
essential to the overall success of the Counter-ISIL Campaign.
                             defeating isil
    We are seeing progress being made in our pursuit of our stated 
objectives. Last year, we saw ISIL moving in large convoys unimpeded 
throughout Iraq with black flags flying. Iraq's security forces were in 
tatters and the troops either refused or were incapable of defending 
against the onslaught by ISIL. Since then, with the help of the United 
States-led Coalition, the Iraqis have taken some steps towards 
rebuilding their forces. The introduction of new commanders has been 
particularly helpful. The Iraqis also sent a portion of their forces 
through training at our BPC sites; although, they are not filling the 
classes to capacity and they do need to do a better job of recruitment 
and force generation. In terms of progress achieved, the Iraqis have 
planned and executed a number Coalition-enabled military operations, 
and they have retaken terrain previously lost to ISIL. Meanwhile, 
ISIL's movement is more restricted, and they are adjusting their 
patterns of activity to avoid being targeted by Coalition aircraft and 
anti-ISIL forces. There is still a great deal of work to be done and a 
long road ahead, but at the one-year mark, we are seeing signs of 
progress in our military campaign.
                       the counter-isil coalition
    Of course, the United States is not doing this alone. The 
contributions being made by our Coalition partners are essential to our 
success. Indeed, the 60-plus nation Counter-ISIL Coalition represents 
the strength and cohesion of our campaign. In particular, the active 
and public involvement of our regional partners, along with a large 
number of international partner nations, has greatly enhanced the fight 
and sends a clear message to ISIL and other violent extremist 
organizations that their actions will not be tolerated.
                     existing political challenges
    We have made measurable progress over the past year. Indeed, we 
have set conditions for further progress across all nine lines of 
effort. We must build upon the successes achieved to date and take 
definitive action in key areas. These areas include the disruption of 
the flow of foreign fighters, improved counter-messaging, and 
government reforms and reconciliation.
    Most notably, the effects of our military efforts will be short-
lived if the Iraqis do not address their political problems. Prime 
Minister Haider al-Abadi has vowed to be more inclusive of the Sunnis 
and Kurds and other minority groups. We are encouraged by the early 
steps he has taken to reach out to the Sunnis and Kurds and we are 
urging him to follow through on pledges made in the near-term. We also 
are encouraged by his efforts to enact much-needed reforms in the 
government. If effectively implemented, these reforms will address 
endemic problems in Iraq's political and economic sectors over the 
long-term. Enacting the reforms will not be an easy undertaking. 
However, these efforts are very important. National reconciliation 
remains critical to the success of the counter-ISIL campaign.
            our collective goal: the ultimate defeat of isil
    We said that the military campaign would take time, and it will 
take time. We should expect there will be occasional setbacks along the 
way, and particularly in these early stages as we coach and mentor a 
force that is actively working to regenerate capability after years of 
neglect and poor leadership. We also need to keep in mind that we are 
supporting and enabling this effort. We are executing this campaign by, 
with, and through the indigenous forces; and, our partners are in the 
lead. It must be this way if we are to achieve lasting positive 
effects. It is taking a bit longer to get things done as a result; but, 
the indigenous forces are making progress, and they continue to build 
capability.
    Our mission is clear and that is to degrade and militarily defeat 
ISIL. In the process, we want to help to change the conditions inside 
of Iraq and Syria, so that what we see happening there now, does not 
happen again in the future. We have the right strategy and the right 
approach to achieve this desired endstate; but, it will take time. 
Despite the challenges that exist, we do see progress being made, along 
with many opportunities. We are confident that our actions in pursuit 
of these opportunities will continue to produce positive results in the 
coming months.

    Chairman McCain. Well, thank you, General Austin and Ms. 
Wormuth.
    I must say, I've been a member of this committee for nearly 
30 years, and I have never heard testimony like this. Never.
    General Austin, on September 9th, 1 week ago, Chairman 
Dempsey, Chairman of the Joint Chiefs of Staff, said the fight 
against ISIL was, quote, ``tactically stalemated'' with no, 
quote, ``dramatic gains on either side.'' So, obviously, you 
and the outgoing Chairman of the Joint Chiefs of Staff have a 
very different view of what the situation is.
    So, with all this progress that you're citing and--how long 
do you think it's going to take for us to defeat ISIL and to 
restore stability in Iraq and Syria?
    General Austin. Sir, it will take years. If I may----
    Chairman McCain. Take years. Okay.
    General Austin.--if I may comment on the Chairman's 
comments?
    As I spoke to the Chairman yesterday--and we did talk about 
this issue, and I--when I took--went back and took a look at 
what he said, he also said ISIL's future is increasingly dim as 
more nations join the anti-ISIL effort. Although it is 
tactically stalemated, with no dramatic gains on either side, 
ISIL will move at the speed of its governance, not at the speed 
of its military capability. I agree with the Chairman, sir, on 
the issue of--there haven't been any dramatic gains on either 
side.
    Chairman McCain. Dramatic? Yeah, that's different from, 
quote, ``tactically stalemated,'' please, General. That's 
what--Chairman Dempsey. Chairman Dunford said exactly the same 
thing. So, there's clearly a disconnect between your view and 
that of our outgoing and incoming Chairman of the Joint Chiefs 
of Staff.
    So, really, in your view, everything should remain as it 
is. For example, do you think we should have a no-fly zone in 
Syria?
    General Austin. That's a policy decision, and----
    Chairman McCain. Would you recommend a no-fly zone in 
Syria?
    General Austin. I would not recommend that at this point, 
sir.
    Chairman McCain. Would you--not at this point, 4 years 
later--would you recommend telling--setting up a buffer zone in 
Syria, where these refugees might be able to come and be 
protected from the attacks and slaughter of Bashar Assad?
    General Austin. It will take a ground force to be able to 
protect refugees if we do that, sir.
    Chairman McCain. Would you support a buffer zone, which 
would then protect some of these refugees who are being barrel-
bombed and slaughtered by Bashar Assad?
    General Austin. I don't see the force available to be able 
to protect them, currently, sir, so I would not recommend that 
at this point in time.
    Chairman McCain. So, we wouldn't be able to shoot down 
Bashar Assad's aircraft as they barrel bomb and slaughter 
innocent men, women, and children. Is that correct? We don't 
have the capability to protect them.
    General Austin. We clearly have capability, yes, sir. We 
do.
    Chairman McCain. But, you wouldn't recommend such action.
    General Austin. I would not recommend a buffer zone, at 
this point, sir.
    Chairman McCain. I see. So, basically, General, what you're 
telling us is that everything's fine, as we see hundreds of 
thousands of refugees leave and flood Europe, as we're seeing, 
now, 250,000 Syrians slaughtered, as you see more and more 
Iranian control of the Shiite militia that are the only ones 
that are really doing the fighting besides the Peshmerga. As I 
say, I have never seen a hearing that is as divorced from the 
reality of every outside expert and what you are saying.
    Does the massive flow of refugees from Syria have any 
effect on what you think we should be doing in Syria?
    General Austin. Sir, I want to be clear that I believe that 
this is a horrible tragedy, and this is a thing that the entire 
international community is going to have to continue to work 
together on. So, there's always--we would hope that, as these 
refugees continue to be disadvantaged, that we see more 
countries joining in to assist in the----
    Chairman McCain. So, you would not--you would not support a 
policy that would help protect these refugees from being 
slaughtered by Bashar Assad with his barrel bombs?
    General Austin. Sir, I--it's always in the best--our best 
interest to help protect civilians. But, again, I would not 
recommend a buffer zone, at this point in time.
    Chairman McCain. So, everything is really going well.
    General Austin. No, sir, that's not----
    Chairman McCain. Well, then if things aren't going well, 
and we have had, quote, ``setbacks,'' and the Chairman of the 
Joint Chiefs of Staff says it's tactically stalemated, and you 
think everything is going well as--pursuing the strategy and 
tactics on the ground that we are----
    General Austin, I respectfully disagree. I respectfully, 
fundamentally disagree. This is an abject failure. The refugees 
are the result of it. This is a result of leaving Iraq. You 
were there at the meeting when Maliki told Senator Graham and I 
that, if the others agreed, he would agree to keep a residual 
force there. We never gave him the forces that we wanted to 
leave behind, which then set in place the departure of United 
States completely from Iraq and set the table for the 
catastrophe that we are seeing.
    This is--as I say, I have not attended a hearing that is so 
grossly distorted as the view of a terrible and tragic 
situation as I have seen from the witnesses. By the way, 
Senator Graham and I predicted every single thing that is 
happening now. I predict that, unless we do something 
different, it will remain, as General Dempsey said, stalemated, 
which means tragedy.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Both Madam Secretary and General Austin, about a year ago 
or more, there was real concern that, essentially, Baghdad 
could fall into--to ISIL, that they were virtually unstoppable. 
At this point, your assessment of the security, at least at 
Baghdad, has that been improved?
    General Austin. Sir, it has been greatly improved.
    Senator Reed. Going forward now to one of the fundamental 
issues is--and I think it's related to the comments that both 
you and General Dempsey have made--is--who is--who will have 
the advantage, going forward, in terms of the use of time? ISIL 
or Iraqi forces supported by the United States? What's your 
view on that?
    General Austin. Sir, I think, clearly, it's the Iraqi 
forces supported by not only the United States, but the 60-
plus-nation coalition.
    Senator Reed. Now, one of the things that has been 
suggested at--but--not only suggested, but recommended strongly 
to the Iraqi government is they create a--national guard units, 
Sunni units as well as others, but formally allied with the 
government; and that legislation is bogged down in their 
parliament. Is that accurate?
    General Austin. That's correct, sir.
    Senator Reed. So, we are--you know, we could do more, 
essentially, if the Iraqis were willing to make some changes, 
in terms of their policies. For example, we could at least 
contemplate the use of advisors with these National Guard--
Iraqi National Guard units--to be brokers, in terms of 
distributing equipment, as well as tactical advice. Is that 
something that's possible if we get cooperation?
    General Austin. It's clearly possible. Yes, sir.
    Senator Reed. Is it something you would consider if it----
    General Austin. Yes, sir, it is.
    Senator Reed. Yeah. One of the factors, too--and it's--this 
is a constant source of inquiry--is that, in fact, recently the 
Iraqi parliament, I think, rendered a scathing report about 
Prime Minister Maliki's leadership, or lack of leadership, 
effectively sort of suggesting that whatever he said couldn't 
be trusted. Is that, you know, your estimate of his role of 
leading up to this crisis, in fact over many years?
    General Austin. Sir, what we saw from the former Prime 
Minister was increasingly sectarian behavior and a number of 
bad decisions that led to the atrophy of his security forces. 
So.
    Senator Reed. In fact, according to this report, as I've 
seen in the media, that they attribute most of the blame for 
the disintegration of the Iraqi Security Forces at Maliki's 
doorstep, at no one else. Is that at least accurate for their--
the feeling in Iraq?
    General Austin. I'd say it's primarily his responsibility. 
Those who he appointed in key leader positions enabled that, as 
well.
    Senator Reed. In terms of your campaign plan, the sense I 
have is that you have tried to exploit the area where we have 
the most interest against ISIL, and that's Iraq, while 
maintaining as much pressure as possible in Syria. Is that the 
general outlines of the campaign plan? So that we would 
expect--and, frankly, of us--agree--we--I don't think anyone's 
seen the progress they'd like to see, but the first progress 
would essentially come in Iraq, and then would lead to a better 
position against ISIL in Syria. Is that accurate?
    General Austin. It is, sir. In Iraq, there is a government 
for us to work with initially. There were some forces for us to 
begin--to begin to work with. Of course, we had access to 
things that could enable us to get our--to get the work done. 
Our shaping operations in Syria enabled our work in Iraq, and 
are still enabling it.
    As we get increasing resources, we're able to increase the 
tempo in Syria. So, I think we'll have greater effects, going 
forward.
    Senator Reed. Just, finally, any general comments. Because 
one of the recent developments is the fact that Turkey now is 
allowing operations out of Incirlik. They also seem to be much 
more cooperative, in an operational sense. What do you expect, 
in the next, say, 6 months, that will translate to on the 
ground?
    General Austin. I think it'll translate to a lot more 
pressure on key areas in Syria, sir, like the city of Raqqa, 
which has long been a--an ISIL stronghold. So, because of that 
access, we'll have the ability to increase the pace and focus 
on key places in Syria. So, that'll certainly shape things in 
Iraq.
    Senator Reed. Thank you very much, Madam Secretary and 
General.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    General Austin, when Senator Carter was here before this 
committee in July, he testified that there were only about 60 
Syrian fighters that had been trained in our Train and Equip 
Program, and reinserted. We've heard reports about the attacks 
on those individuals when they were reinserted back into Syria. 
Can you tell us what the total number of trained fighters 
remains?
    General Austin. It's a small number. The ones that are in 
the fight is--we're talking four or five.
    Senator Fischer. A New York Times report on September 6 
indicated that, among the lessons learned from that experience, 
was that these fighters should be returned to Syria in larger 
numbers than the 60, obviously larger than the four or five 
that are there. Do you agree with that?
    General Austin. I agree with that, Senator. Whenever that's 
possible, it is in our best interest to make sure that we have 
an element that can protect itself. Also, it can go in and 
combine efforts with other elements that are on the ground.
    Senator Fischer. How do you plan to achieve that? How are 
you going to increase the number of fighters when we're looking 
at the really tough security screening processes that are in 
place now? How are we going to achieve that? How long will that 
take? You mentioned earlier about increasing resources. I took 
that to mean increasing the number of fighters that you would 
place in Syria, and the effect they would have. So, what's the 
time period we're looking at, here, and how are you going to do 
it? Because I don't think it's been at all successful yet.
    General Austin. I--and I certainly agree with you that this 
is--this--the new Syrian force program has gotten off to a slow 
start. But, I think it's important to remember that this 
element is designed to be a complement to all the other things 
that we're doing. So, we're going to use, and we are using, 
every tool that we have available to us in our inventory. Our 
strategy is--or our approach is to utilize indigenous forces to 
complement our work from the air on the ground. As we----
    Senator Fischer. It's--if I can interrupt you on that 
point, I'd--and I'd like to get back to your answer. When you 
say to ``complement the work on the ground with airstrikes''--
did I hear--did I just hear you say that?
    General Austin. That--the--they have to work in tandem. 
The----
    Senator Fischer. So, if they're going to work in tandem--
there's a new article out today. Are we going to change 
strategy? Because--I think it's in Foreign Policy today that--
it says the United States is drawing up a new plan that's going 
to send these trained fighters into Syria that are going to 
help direct airstrikes. Is that report correct?
    General Austin. I would just say that--ma'am, we'll 
continue to look at the best ways to--the best means to employ 
these forces as we go forward. We'll capitalize on lessons 
learned.
    Again, it is really about the full complement of indigenous 
forces that we have available to work with. As we mentioned 
earlier, the YPG, or the Syrian Kurds, and some Arabs and 
Turkomen, have done tremendous work in northeast Syria, and 
they have pushed ISIL back from the border. They're currently 
somewhere around 40 kilometers or so north of the capital--
the--ISIL's capital city of Raqqa. They'll continue to pressure 
ISIL. So, the new Syrian force is additive to that effort.
    Senator Fischer. So, with the fighters that we're training 
and equipping, is it still the goal to have about 12,000 of 
them there? Is that still the goal? What's the expectation, 
then, for them?
    General Austin. Well, we certainly won't--at the pace we're 
going, we won't reach the goal that we had initially 
established for ourselves, but the--the overall goal is to make 
sure that we have enough mass to be able to get work done on 
the ground. Whether it's YPG elements or other elements that 
are able to help us, you know, we can still achieve, and are 
achieving, the same effects. It's not aspirational. We're 
actually doing this today. I think that's lost on a lot of 
people.
    Senator Fischer. Is the strategy changing for the work on 
the ground that you're asking for these fighters?
    General Austin. We continue to look at the best means to 
employ them. We will do what--ma'am, what you would expect us 
to do, and make adjustments as opportunities present 
themselves.
    Senator Fischer. Okay. Thank you, sir.
    Chairman McCain. General, I'd--just to follow up, there's 
an--Foreign Policy says, ``Anxious to avoid another damaging 
setback for the training effort, the White House and the 
Pentagon are looking at attaching small numbers of fighters to 
larger established forces in northern Syria to ensure the 
rebels are better protected on the battlefield by more numerous 
experienced troops.'' Can you confirm or deny that that option 
is being looked at?
    Ms. Wormuth. Senator----
    Chairman McCain. Okay.
    Ms. Wormuth.--we are reviewing the way forward with----
    Chairman McCain. I'm asking if that option is being 
considered.
    Ms. Wormuth. We are looking at a range of options. One of 
the options is----
    Chairman McCain. I am asking--look, I'm not asking you to 
come before this committee and obfuscate. I'm asking you a 
direct question. Is the Pentagon looking at that option? Yes or 
no?
    Ms. Wormuth. We are looking at that option as----
    Chairman McCain. Thank you very much.
    Ms. Wormuth.--well as others.
    Chairman McCain. Thank you very much.
    Senator Nelson.
    Senator Nelson. General, it's my understanding that General 
Dempsey recently said that if the United States really seized 
control of the campaign against ISIS [Islamic State of Iraq and 
Syria], we can speed up ISIS defeat, but that it would come at 
a great cost to our servicemembers, and that another group with 
another name and ideology would just be back in a couple of 
years. Isn't that what you and--understand General Dempsey to 
have said, and that you have reaffirmed that here today?
    General Austin. Yes, sir, it is. I think it's important 
that the people in the country and in the region take ownership 
and work to put in place lasting solutions. If we don't do 
that, we will be back in another 2 or 3 years.
    Senator Nelson. Because of that campaign against ISIS, it 
must be won by our coalition partners and the Iraqis, not just 
us.
    General Austin. That's correct, sir.
    Senator Nelson. Would you care to read that statement again 
for clarity in your response to the Chairman's question that 
General Dempsey had said, in its full context?
    General Austin. Yes, sir.
    [Pause.]
    General Austin. Sir, what the Chairman said was: ISIL's 
future is increasingly dim as more nations join the anti-ISIL 
effort. He further stated that, although the fight right now is 
tactically stalemated, with no dramatic gains on either side, 
Iraq will move at the speed of its governance and not at the 
speed of its military capability.
    Senator Nelson. Mr. Chairman, I have the transcript here in 
front of the committee. I would like to reinsert this transmit 
of General Dempsey, with your permission.
    Chairman McCain. Absolutely. Along with that, we will 
include the assessments by General Keane, General Petraeus, the 
architect of the surge, and all others who observed this 
debacle.
    Senator Nelson. Of course.
    Chairman McCain. Of course.
    [The information referred to follows:]

Statement of General Martin E. Dempsey, USA, Chairman, Joint Chiefs of 
   Staff before the Senate Committee on Armed Services at hearing to 
   receive testimony on Counter-ISIL (Islamic State of Iraq and the 
                   Levant) strategy on July 7, 2015.
    Thank you, Chairman and Ranking Member Reed and members of the 
committee. I appreciate the opportunity to come back and to chat with 
you today about the military component of our strategy against ISIL.
    Our starting point has to be the strategic picture in context. I 
have said before that the global security environment is as uncertain 
as I have ever seen it. The world is rapidly changing everywhere, and 
we are seeing significant shifts in an already complex strategic 
landscape. ISIL is one of many concerns. As the chairman mentioned, we 
are contending with Russia's revanchism in eastern Europe, China's 
assertiveness in the South China Sea, Iran's malign activities in the 
Middle East, technical advancements by North Korea, rising aggression 
of non-state networks, and a rapidly leveling playing field in cyber 
and in space. While our potential adversaries grow stronger, many of 
our allies are becoming increasingly dependent on the United States and 
on our assistance, and some of our comparative military advantages have 
begun to erode. What makes this uniquely complicated is that these 
trends are manifesting themselves simultaneously.
    Within the Middle East, I characterize three converging sets of 
complexity.
    First, several governments are struggling for political legitimacy 
because they are not sufficiently pluralistic or they are not 
sufficiently accountable to their citizens.
    Second, the centuries old Sunni/Shiite struggle is very evident. 
Weak states are less able to assert independence amid the tug of war 
between sectarian regional powers.
    Third, we are seeing rising competition between moderate and 
radical elements of Islam, and ISIL and others are taking advantage of 
that competition.
    Within this evolving global context, the role the United States 
military is taking against the trans-regional threat of ISIL is 
appropriately matched to the complexity of the environment and is at a 
level of effort that is sustainable over time.
    Military power alone, as we have said, will not solve ISIL. I do 
not think anyone here would disagree with that. All nine lines of 
effort need to be considered in the aggregate. This campaign focuses on 
actively reinforcing and hardening our partners in the region who must 
and in most cases are taking responsibility for their own security. 
That is an important point. Enduring stability cannot be imposed in the 
Middle East from the outside in. The fight is enabled by the coalition, 
but it must be owned by those regional stakeholders.
    It bears repeating that this is the beginning of a complex, 
nonlinear campaign that will require a sustained effort over an 
extended period of time. We have to be just as agile as the network of 
terrorists we face. We are constantly evaluating our approach and 
making sure we are resourcing it appropriately, balanced with our other 
global commitments.
    But 4 years and counting of budget uncertainty have made this 
balance distinctly harder.
    Thank you and I welcome your questions.

    Senator Nelson. General, give us your assessment that 
Russia is building up the military base and sending soldiers 
and weapons into Syria to prop up Assad--under, I might say, 
the guise of fighting ISIS.
    General Austin. Sir, we are witnessing a buildup of forces 
in Syria by Russia. As you know, they have been there all 
along, but they are increasing their footprint. What they've 
stated is that they're--they want to focus on helping to 
counter ISIL, as I understand it. That's left to be seen. As 
you know, Russia is not very transparent. So, we really don't 
know what their true intentions are. But, the introduction of--
potential introduction of additional capability and operations 
utilizing that capability could increase the friction in that 
battlespace significantly.
    Senator Nelson. General, the Senate Defense Authorization 
bill calls for 30-percent reduction in headquarters staff 
across the Department of Defense, starting with a 7-and-a-half-
percent cut in fiscal year 2016. What impact will that cut have 
on your ability to conduct operations? What is CENTCOM [United 
States Central Command], if you want to submit for the record, 
planning to do to make that cut?
    General Austin. Sir, if you take a look at what's going on 
in our region currently, you know, from Pakistan, Afghanistan, 
to Yemen, to Iraq and Syria, and to increased tensions in other 
places throughout the region, it's clear that we have a very 
active region. So, in order to manage the things that we need 
to manage and work with our partner nations in the region, we 
need an appropriate staff to be able to do that. I fully 
understand and appreciate, you know, the pressure that the 
departments--Department is under, in terms of, you know, the 
reduction of the top line on the budget. So, we have to do what 
we can do and need to do to tighten our belts. I appreciate 
that. But, it makes it increasingly difficult to get things 
done.
    Senator Nelson. Thank you, General.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. I want to thank the Chairman.
    I want to thank both of you for being here today, and for 
your service.
    I wanted to follow up and ask about--General, I believe you 
testified about the effectiveness of the Syrian Kurds right now 
in Syria, in pushing back ISIL. Are we providing support and 
weapons to the Syrian Kurds? What assistance are we giving 
them, given that, as I heard your testimony--when Senator 
Fischer asked me--we only have, as I understand it, four or 
five of United States-trained Syrian fighters in this fight. 
So, what are we doing to support the Syrian Kurds if they are 
effectively pushing back ISIL on the ground?
    General Austin. We are providing them a tremendous amount 
of air support, which is what they wanted most. As you will 
recall, ma'am, these--this is the element--well, a portion of 
this element were the folks that hung on at Khobani--valiantly. 
It was doubtful, at that point, as to whether or not they would 
be able to survive in that environment and continue to do 
things. Well, they continued on, and they increased their size 
and activity, and they've made a significant difference in the 
northeast part of the country.
    So, what they've asked from us over time is sustained 
airpower, sustained strikes. They have benefited from those 
strikes. Because of their aggressiveness, they've made a 
tremendous difference in the northeast.
    Senator Ayotte. So, just to be clear, they haven't asked 
for arms? How does Turkey--how is Turkey acting on the ground, 
here, in terms of, obviously--first of all, I want to know: 
What have the Syrian Kurds asked for that we haven't given 
them? I understand the air support. But, also, how do you view 
Turkey's role in all of this? Because, as I see it right now, 
this four or five United States-trained fighters--let's not kid 
ourselves, that's a joke. So, if they're the only force on the 
ground doing something right now, what more can we do to help 
them?
    General Austin. They--up to this point, they have not asked 
us for arms, but it doesn't mean that they won't, ma'am. I 
think--and, of course, you know, as we go forward, there are 
things that we can do to continue to help--as they try to get 
supplies into northern Syria, work with the Kurds in the--in 
northern Iraq to help make sure that we have lines of 
communication that facilitate that. We're doing that.
    They will also need to partner with Syrian Arabs in the 
area. They're doing that. We are working with Syrian Arabs, 
developing relationships, as well. So, I think it's a 
combination of all of these forces that's going--that are going 
to make a difference, going forward.
    Again, we expect our footprint with the new Syrian forces 
to grow over time. And----
    Senator Ayotte. So, can you help me on Turkey, what role 
Turkey is playing, or not playing, here, that we would like to 
see Turkey play?
    General Austin. As you know, Senator, Turkey has just 
recently come onboard and given us access to their bases, which 
is a tremendous capability. It shortens the legs of flights 
that our fighter pilots will have to fly. It allows us to be 
more responsive. they also are flying strikes in our 
formations, and focused on elements--ISIL elements in Syria, 
thus far. So, they are adding value. What we've asked them to 
do, as well, is to continue to tighten up, or abate, the flow 
of foreign fighters and lethal accelerants coming across the 
border.
    Senator Ayotte. So, I want to ask, before we leave, what 
role is Iran playing right now in Syria? How much support are 
they providing for the Assad regime? How do we evaluate their 
significance in fueling this conflict? Also, their support for 
Hezbollah, what has--what role is Hezbollah playing, in terms 
of supporting the Assad regime?
    General Austin. Well, we know that Iran has been 
instrumental in providing support to Syria throughout. We see, 
increasingly, that they would like to provide--they want to 
provide more support. What that will mean in the future, I 
don't know. But, they are active in Syria.
    Senator Ayotte. So, perhaps if they had more cash and 
money, they might--they would like to provide more support to 
the Assad regime.
    General Austin. That would be--my assumption would be that 
that would be the case.
    Senator Ayotte. I wanted to also ask with--as--are issues 
with these trained fighters--are we going to provide--if 
they're under attack--I guess we've got four or five of them, 
but if, for some reason, we were able to get more of them 
trained, what are we going to do to support them or protect 
them?
    General Austin. Oh, we will provide air support and ISR 
[intelligence, surveillance, reconnaissance] to--overwatch and 
air support to protect them. With the first class that we put 
in, we did--we have done that already. So, we are committed to 
doing that, going forward.
    Senator Ayotte. Thank you.
    Chairman McCain. Senator McCaskill.
    Senator McCaskill. I'm worried, like the rest of my 
colleagues--and there have been a number of questions on this 
already--about the Train and Equip mission. You know, there's 
good news and there's bad news about America's military. The 
good news is, is if you give them a job, they figure out a way 
to get it done. The bad news is, sometimes you give them a job 
and they are not willing to say when it's not going to work. At 
what point in time, General Austin, do you envision us 
admitting that, while all good intentions and on paper all of 
the work was done, but the job of finding willing fighters that 
can be screened appropriately when you have the vast majority, 
who feel victimized by the current situation in Syria, are 
running for the exits? At what point in time, and what is the 
discussion ongoing, about the $600 million you're requesting 
for next year? That seems very unrealistic to me, in terms of a 
request. If, at this juncture, we've successfully completed 
five to six, and I believe you said--I--the last information I 
had, Ms. Wormuth, was 100--you said ``more than 100.'' What is 
the number?
    Ms. Wormuth. Senator McCaskill, it's between 100 and 120--
--
    Senator McCaskill. Okay.
    Ms. Wormuth.--basically.
    Senator McCaskill. So, we're counting, on our fingers and 
toes at this point, when we had envisioned 5,400 by the end of 
the year. I--I'm just worried that this is one of those 
instances where the good news about our military is dominating, 
``We can do this. We can do this,'' and the practical realities 
of this strategy aren't being fully embraced.
    General Austin. Thank you, Senator. You know, I absolutely 
agree with you, we have the finest troops in the world, and 
they will figure out a way to get the job done, one way or the 
other. Again, what our Special Operations Forces have done in 
northern Syria is--they didn't wait for the new Syrian force 
program, or Train and Equip Program, to fully develop. At the 
very outset, they began to engage elements like the YPG, and 
enable those elements. They are making a difference on the 
battlefield. So--and there are tens of thousands of the YPG out 
there that are, right now, fighting ISIL. So, because the new--
the Syria Train and Equip Program is slower getting started 
than we'd like for it to be, that doesn't mean that we're not 
creating effects on the battlefield.
    Senator McCaskill. I just want to make sure, General 
Austin--I mean, I know the Chairman feels strongly about the 
success of the surge, and there was a lot of incredible 
American heroes that were part of that surge. But, the other 
part of the surge we don't talk about as frequently is that we 
paid a lot of people. We paid a lot of people to help us during 
the surge. Is this money that we're setting aside for Train and 
Equip, would it be better off in direct compensation to some of 
that YPG force?
    Ms. Wormuth. Senator McCaskill, can I try to address this a 
little bit?
    As General Austin said, we are reviewing the program, and 
we're looking at a range of options. Our Train and Equip 
Program is part of a broader effort that we're prosecuting with 
the YPG, with the Syrian Arab coalition, and so on. We're 
looking at how to have our train and equip program effectively 
enable those other efforts. I think, as we go forward and look 
at what our options are, we'll absolutely want to look at the 
resources we've requested for the next year, and how that fits 
in.
    But, the forces that we are training, while right now are 
small in number and clearly are not going to reach the numbers 
that we had planned for, are nevertheless getting terrific 
training and very good equipment, and, as such, will be able to 
really be force multipliers of those other groups on the ground 
that have been very effective, like the Syrian Arab coalition--
--
    Senator McCaskill. I just----
    Ms. Wormuth.--for example.
    Senator McCaskill. If we end up at the end of the year with 
us bragging about the difference between 100 and 120, it's time 
for a new plan.
    Ms. Wormuth. I certainly do not mean to be bragging. We--
the program is much smaller than we hoped.
    Senator McCaskill. Yeah.
    Ms. Wormuth. We're not bragging.
    Senator McCaskill. I don't have much time left, but I want 
to just--I know--understand from your testimony, General 
Austin, you can't comment about the IG investigation into this 
accusation that people are putting pressure on intelligence 
analysts to change the tenor of their reports. It's a serious 
allegation that strikes at the core of our government, in terms 
of our ability to oversee and make decisions around the use of 
our military.
    I want to say--at the end of this investigation, when you 
can discuss it, I want to just put on the record that I, for 
one, am going to be watching very carefully about any potential 
retaliation against any of the men or women that may have come 
forward with allegations. They're--it is incredibly important 
that whistleblowers be protected in this space. Depending on 
what the investigation finds, I understand that maybe there--
you know, there are other factors I'm not aware of, but I just 
wanted to put on the record that I will be paying very close 
attention to how these whistleblowers are treated in the 
aftermath of this investigation.
    General Austin. I absolutely share your concern, Senator. 
You have my--I will assure you that we will do everything 
within our power to ensure that the whistleblowers remain 
protected and that there is no retaliation. This is absolutely 
important.
    Again, you know, we need oversight by organizations like 
the IG, and so we welcome that, and we're going to cooperate 
fully, and we'll make sure that we abide by the spirit of this 
investigation.
    Senator McCaskill. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you, Chairman McCain. I think the 
grim nature of your remarks are justified.
    Ms. Wormuth, how long has it been since we've had this 
Train and Equip Program in effect?
    Ms. Wormuth. Senator, we started--we started the actual 
training earlier this spring.
    Senator Sessions. Well----
    Ms. Wormuth. So, we started the program in December, when 
we got authority from Congress.
    Senator Sessions. Right.
    Ms. Wormuth. We spent time putting together----
    Senator Sessions. So, you have to----
    Ms. Wormuth.--the training----
    Senator Sessions.--say we started in December. That's when 
it was authorized and funding----
    Ms. Wormuth. Yes, sir.
    Senator Sessions.--is provided. We have to acknowledge, 
this is a total failure. It's just a failure. I wish it weren't 
so, but that's the fact. So, it is time to--way past time to 
react to that failure.
    I just would say, the whole idea that we've got to wait for 
the locals to take ownership and to take the lead and do this 
kind of activity without any leadership support sufficient from 
the United States or our allies is also a failure. They're not 
able to organize well. Mosul has fallen. There's a--divisions 
within Iraq that make it very difficult. So, I just wish it 
weren't so, but I'm afraid that's the reality we are dealing 
with.
    We now have, I believe the U.N. says, 4 million refugees, 7 
million displaced persons. It's obvious to me that this is a 
humanitarian catastrophe. We need to deal with it in an honest 
way. The most effective and honest way is to keep people as 
close to home as possible. If they can't stay in their homes 
because of violence and war, then they ought to be kept as 
close to home as possible.
    I talked to a senior European official recently, and he 
told me that this refugee crisis is the greatest threat to 
Europe since World War II. I don't see any plan to make it any 
better.
    General Austin, we've got to consider creating safe zones 
within Syria. I understand there are some places in Syria now 
that refugees can stay. we're going to have to keep--we can't 
have millions and millions of people walking into Europe. This 
goes without--it's hardly worth discussing.
    So, I am really worried about this, and wish that we 
could--we'd already done much better. By being so slow to act 
initially, this is what has resulted. Now the situation is far 
more grim than it should be, in my opinion.
    General Austin, I do tend to agree with you that a defeat 
of ISIL is not the end of the problems in the Middle East. 
We've gotten a spasm of extremism that witnesses have told us 
may be going on for 50 years. Would you agree with that?
    General Austin. I absolutely agree, Senator.
    Senator Sessions. One victory here doesn't mean it's a 
total victory. There'll be another problem somewhere else as 
long as this ideology is out there.
    General Austin. Yes, sir.
    Senator Sessions. I just believe, Ms. Wormuth, that we need 
a strategy, an understood strategy, bipartisan, in this 
Congress, with our allies around the world, to confront this 
long-term, multi-decade threat to the western democratic order 
and to try to help protect people in the Middle East from this 
disaster.
    So, I want to ask you, Do we have a strategy of that kind 
that our allies and the United States and Congress and 
Republicans and Democrats understand and agree on?
    Ms. Wormuth. Senator, I think--we have a strategy to defeat 
ISIL, ultimately, in the Middle East, where--it's largely in 
the Middle East, but it's obviously spreading to other areas. 
There are other dynamics in the Middle East, obviously, that 
are a part of this. There's the broader Sunni/Shi'a sectarian 
conflict that has gone on for decades. There are the fact that 
many of the governments in that region are not very 
representative and have internal policies that don't give much 
freedoms to their people, so they're--part of--that's part of 
what's creating----
    Senator Sessions. Well----
    Ms. Wormuth.--the problem in the Middle East----
    Senator Sessions. I know.
    Ms. Wormuth.--as well. A big part of our relationships with 
these countries is talking to them about the importance of more 
democratic approaches.
    Senator Sessions. Well said, in one sense. However, does 
that mean that we don't support the King of Jordan?
    Ms. Wormuth. Jordan is----
    Senator Sessions. No, I'm just asking rhetorically, okay?
    Ms. Wormuth. Uh-huh.
    Senator Sessions. No, we've got to have a more realistic 
policy than that.
    I was just reading Henry Kissinger's book on order, and he, 
just last night, hit the part about George Kennan and the 
containment strategy that maintained Western unity, free world 
against the communist totalitarians. It went on for 50 years 
almost, ended up when he was successful. This is the way it was 
expressed. Soviet expansionism, according to Kennan, was real 
and inherent. The conflict was inherent in the two ideologies. 
It's incompatible, totalitarian communism and constitutional 
democracy. I--and he said it--but it could be, quote, 
``contained by an adroit and vigilant application of 
counterforce at a series of constantly shifting geographical 
and political points,'' close quote. I don't sense that we have 
any such strategy. I'm sorry we don't. I think, also, that 
radical Islam, Shari'ah Law, is part--essential component--is 
incompatible with constitutional democracy, and we need to work 
better.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you both for being here.
    Since Senator Sessions' comment about communism and 
containment is a good segue into my first question, which is 
for Ms. Wormuth. Why do you believe that, 4 years into this 
conflict, that Russia is deploying materiel and increased 
shipments to the Assad regime and really setting up shop in 
Syria in a way that they haven't over the last 4 years?
    Ms. Wormuth. Well, Russia has certainly been a supporter of 
the Assad regime for some time. I think Putin has spoken more 
publicly about the role Russia has played to date. I think part 
of what may be happening, part of Putin's calculus may be, that 
Assad's regime has been under greater threat in the last 
several months, as ISIL has advanced in places like Padmorf--or 
Palmyra, excuse me--and Tadmor. So, Putin may be nervous about 
the stability of the Assad regime, and may be trying to shore 
it up.
    Senator Shaheen. Well, given that, how do we assess the 
possibility that the Assad regime might fall?
    Ms. Wormuth. I think, at this point, the--the assessments 
I've read are that the regime actually still has considerable 
strength, in terms of its military forces. It's still the most 
powerful military force on the ground. The support it receives 
from Iran and Russia remains significant. So, there have 
certainly been battlefield losses that are concerning, but--and 
we are looking at, obviously, how to deal with--we are planning 
and thinking about the potential for a significant 
retrenchment. But, I think the assessment right now is that the 
regime is not in imminent danger of falling
    Senator Shaheen. So, if Russia deploys air defense systems 
in Syria--maybe this is a question for you, General Austin--are 
we concerned that they'll threaten our coalition aircraft?
    General Austin. That--if they're trying to operate in the 
same space, Senator, that possibility is clearly there.
    Senator Shaheen. How are we thinking about responding to 
that?
    General Austin. Well----
    Senator Shaheen. For either of you.
    Ms. Wormuth. I think we're still in the early stages of 
what exactly Russia is doing. But, one--at the diplomatic 
level, we're making very clear that deployments that are going 
to shore up the regime and draw out the conflict, are 
counterproductive and destabilizing, and that if this is really 
about Russia trying to join the fight against ISIL, then we 
would expect the kinds of military capabilities they deploy to 
be consistent with that.
    Senator Shaheen. So, how are we making that clear to 
Russia?
    Ms. Wormuth. Well, there are a number of channels, but, in 
particular, Secretary Kerry speaks to his counterpart very 
regularly and has been making that point very clear. Then I 
would say, on the military side--and I'm sure General Austin 
can elaborate on this--if, in fact, it gets to a point where we 
see Russian aircraft operating in that area, we would, I would 
imagine, need to set up some sort of deconfliction mechanism so 
that we can continue our counter-ISIL campaign there.
    Senator Shaheen. General Austin?
    General Austin. We know how to do that, Senator. You know, 
my utmost concern is protection of my--of our troops. We're 
going to make sure that we have the ability to protect 
ourselves at all time. You know, there are, on occasion, Syrian 
aircraft that are flying in, you know, spaces that are not too 
distant from where we're operating, but we're able to make sure 
that, number one, we maintain vigilance and, number two, we 
keep the--you know, the battlespace--we work in the battlespace 
in such a way that we avoid conflict, avoid encounter, if at 
all possible.
    Senator Shaheen. So, I appreciate that that has been our 
policy, to date. Given the total failure of our ability to 
influence the outcome of the Syrian Civil War, are we assessing 
whether we should take a different response with respect to 
Assad? Engaging with the Syrian troops?
    Ms. Wormuth. I think we continue to look--we continue to 
believe that what would be the best solution is to get a 
political transition and get Assad out of the government while 
retaining the governance structure so that you don't have a 
situation of chaos on the ground.
    Russia, with its relationship with the regime, could 
potentially contribute to helping find that solution. That 
would be a valuable contribution from Russia, as opposed to----
    Senator Shaheen. Well, it would be, but there's no 
incentive, at this point, for Russia to do that----
    Ms. Wormuth. I think----
    Senator Shaheen.--is there?
    Ms. Wormuth. I think they----
    Senator Shaheen. What's the incentive?
    Ms. Wormuth. I think their incentive would be to have--they 
want, more than anything, a more stable Syria, and they are 
quite fearful of ISIL, as well. I mean, they have many, many 
Chechens in Russia. They are just as concerned about foreign 
fighter flows from ISIL as we are. So, I think Russia does have 
an interest in having a more stable Syria. A constructive way 
for them to engage would be to work with us, and other 
countries who would like to see a transition there, to try to 
come up with a diplomatic way to make that transition happen.
    Senator Shaheen. Well, I certainly think that would be a 
positive outcome, but it's not clear to me that we've seen any 
action, in the last 4 and a half years, to suggest that 
Russia's going to play a more positive role.
    Thank you.
    Chairman McCain. Senator Rounds.
    Senator Rounds. Thank you, Mr. Chairman.
    General Austin, thank you for your service.
    In both Syria and in Iraq, we have displaced individuals 
that clearly are part of the discussion on the worldwide stage, 
individuals moving into Europe. I'm curious, in terms of the 
numbers right now--and this would be a question for either of 
you--but, do we have an update on the total number of 
individuals who are displaced between Syria and Iraq that you 
can share with us this morning?
    Ms. Wormuth. I believe, Senator, that it's around 4 
million. It's a very large number. I mean, there are more than 
a million----
    Senator Rounds. No, that would be in--from Syria.
    Ms. Wormuth. I thought it was from Syria and Iraq. But, for 
example, there's more than a million refugees in Turkey right 
now. There are many hundreds of thousands, if not a million, 
refugees in Jordan. So, the neighboring countries are already 
hosting very large numbers of refugees: Lebanon, Jordan, and 
Turkey.
    Senator Rounds. Before we're done, could you maybe just 
check and see if the numbers that you're providing are----
    Ms. Wormuth. Happy to do that.
    Senator Rounds.--are up to date? What I'm curious about are 
the number of individuals displaced both in Syria and the 
number of individuals who are displaced in Iraq, but still 
perhaps in Iraq.
    Ms. Wormuth. We can get you that right now.
    [The information referred to follows:]

    The number of Syrian refugees is approximately 4 million. There are 
an estimated additional 7.6 million Syrian internally displaced persons 
(IDPs). The number of Iraqi IDPs is nearly 3.2 million.

    Senator Rounds. Thank you. I would appreciate that.
    General, the reason for my question is that the--it would 
appear that, as this number is a significant number, most 
certainly they are part of any concern with regard to military 
operations, regardless of where you're at, and our desire not 
to do more harm than good in what we provide. Yet, at the same 
time, one of our expectations is that we're doing ongoing air 
operations throughout the area. We don't want to get into areas 
where we're going to actually cause more damage. Yet, right now 
you're challenged because you really don't have the forward air 
observers that would make it more efficient than what you've 
got today. Can you share with us a little bit about what you're 
doing to try to improve that situation, and how you would like 
to see that handled?
    General Austin. Sir, we routinely use all of our 
intelligence, surveillance, and reconnaissance assets, UAVs 
[unmanned aerial vehicles] and manned aircraft, to make sure 
that we understand what's going on on the ground before we 
employ weapons. We are diligent in our efforts there--not 
overly cautious, to the point where we--we're not able to take 
advantage of opportunities to engage the enemy, but we are 
very, very mindful of, you know, the possibility of committing 
civilian casualties there.
    Senator Rounds. But, at this time, sir, it's fair to say 
that we're not using any of our own forward air observers yet 
at all. We don't have any forward air observers on the ground 
at all.
    General Austin. That's correct, sir. Our JTACS [Joint 
Terminal Attack Controllers] are operating in the command 
centers. Now, what that does is, it allows the JTACs to have 
visibility over, you know, what's going on in the target area, 
but it also enables him to gain visibility of where the 
friendly troops are. This is one of the biggest challenges that 
we encounter throughout this battlespace. In a lot of cases, 
the folks we're trying to help don't have a good handle on 
where their people are, and that slows down the--you know, our 
ability to engage.
    Senator Rounds. Currently, when you are training 
individuals in Iraq, and those who want to fight, back in 
Syria--we understand, and I think there's--I don't think 
there's anybody out here that's disagreeing with the fact that 
we're not on schedule for getting the number that we want to 
have trained. Is that--that is a fair assessment yet, in terms 
of the number of individuals that we want to have trained that 
are both Iraqi nations and Syrian nationals?
    General Austin. I'm sorry, sir. I'm struggling with my 
sign, there.
    But, you're right, sir. We would like to see a lot more 
forces available to be trained. We're encouraging the 
Government of Iraq to recruit those forces, bring them onboard 
so we can get them into training centers. What we've 
discovered--not discovered, but we knew this, going in--is that 
those forces that have been trained by us are doing pretty well 
on the battlefield.
    Senator Rounds. Fair to say, though, General, that one of 
the problems we've got, particularly with Syrian fighters is--
is that, in our ability to actually discern which ones we can 
use and which ones we're not using, based upon our review of 
their background and what they intend to do--if they want to go 
in and fight Assad, basically it's eliminating them from being 
part of our team. Fair to say, at this point?
    General Austin. That's correct, sir. We're focused on 
countering ISIL.
    Senator Rounds. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Both of you have testified that our very strict vetting 
process has resulted in far fewer fighters to--for us to train. 
Does this mean that we're turning away thousands of potential 
fighters?
    Ms. Wormuth. Senator, I would say two things. One, because 
the authority we have focuses our program on fighting ISIL, 
there are a number of individuals who might like to receive 
training from the United States--or equipment, for that 
matter--but, they want to fight the regime. That's not the 
focus of our program. Then, in the other--the other way the 
standards affect the recruiting pool is, obviously we want to 
make sure that we have confidence in the people we bring into 
our program, and that we can give them equipment and trust them 
to use that appropriately, trust them to fight on the 
battlefield in a way that's consistent with the laws of armed 
conflict. In many cases, people who might be interested in 
volunteering don't meet those standards or are younger than--
young--you know, are under the age of 18, for example, or who 
are otherwise not medically qualified.
    Senator Hirono. So, is one of the assessments that you're 
doing is to review whether or not we're being unrealistic and--
regarding the kinds of factors that we want you to take into 
consideration before you will train a particular individual? Is 
that one of the areas that you are looking to, which may 
require congressional action?
    Ms. Wormuth. We certainly are looking at our recruiting and 
screening process all of the time. Even before, frankly, the 
first class was reinserted, we were looking at how to speed up 
our recruiting process and speed up the screening process. We 
are looking at the kinds of criteria that we have in place, but 
I think our view is that, right now, our criteria are very 
consistent with the requirements that Congress gave us. If we 
were to loosen them, for example, I think we would absolutely 
have to come back to you all and ask for----
    Senator Hirono. Well, and that is my question, whether or 
not you're seriously considering asking us to reevaluate the 
criteria that Congress established.
    Now, I know we're talking today a lot about what's going on 
on the ground, but our concern is also--and you mentioned this 
in your testimony, that you're looking for more effective ways 
to counter ISIL's very effective messaging campaign. There are 
concerns about ISIL's ability to motivate lone wolves who will 
take action without ever having direct contact with ISIL. So--
taking actions in our country as well as elsewhere--so, what 
are some of the effective ways that you are countering ISIL's 
messaging strategy?
    Ms. Wormuth. I think we are taking some steps that are 
effective, but we need to do more. Part of what--we have been 
working, for example, closely with a number of countries in the 
coalition to identify communicators inside of those communities 
who have credibility with Muslim populations and who will be 
able to lay out a compelling--compelling reasons why ISIL's 
theology is completely bankrupt. So, we've been working with 
governments to counter violent extremism, we have been working 
to get our messages out about military successes that we have 
more effectively. But, a lot of it is working with the 
private--sort of the private sector and civil society to try to 
get the right kinds of messengers to speak to these kinds of 
groups. It's a very challenging part of our effort, and I think 
we need to do more there.
    Senator Hirono. I completely agree with that, because--I do 
think that the lone-wolf phenomenon and the problem is one that 
we really don't have a very good handle on.
    General, I think you mentioned that you thought that there 
were signs that Iran would like to be more active in supporting 
Syria, and possibly that, because of the agreement and their 
getting their hands on more money as the sanctions get lifted, 
you said you saw some signs of that, that Iran would like to do 
more. So, what are these signs that you were referring to? 
Because we know that Iran is already supporting Syria. So, you 
know, are you expecting that they're going to put billions more 
into their support of Assad?
    General Austin. They are already supporting Syria. So----
    Senator Hirono. Yes.
    General Austin.--you're exactly right.
    As things become more dynamic in Syria, and the regime is 
increasingly challenged, it's my assessment that Iran will want 
to continue to try to shore them up in a greater way.
    Senator Hirono. It's not as though our country is going to 
just stand by idly while Iran proceeds with that kind of a 
program, correct? We're not going to just sit there----
    Ms. Wormuth. No, certainly----
    Senator Hirono.--while they do that.
    Ms. Wormuth.--not. I mean, we absolutely are very focused 
on countering Iran's malign activities in Syria as well as the 
broader region. We have sanctions of our own that are in place 
to try to block arms, for example, going to countries. We have 
interdicted, or worked with folks in the coalition to 
interdict, weapons going from Iran to the Houthis, for example. 
We would continue to try to use those kinds of tools to limit 
Iran's ability to support the Syrians.
    Senator Hirono. Thank you.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman, for calling this 
important hearing.
    Thank you, Secretary Wormuth and General Austin, for taking 
the time today to answer our questions. It's deeply 
appreciated.
    It's been 1 year since President Obama announced to the 
world that the United States would undertake a strategy to 
degrade and defeat ISIS in order to return some semblance of 
stability to Iraq and create an environment that could lead to 
a negotiated end to the civil war in Syria.
    It was my belief that President Obama's overall goal and 
the strategy he outlined to achieve that goal may have been 
beset from the outset by some flawed assumptions, some 
contradictions, and perhaps an excessive reliance on political 
forecasting in a region of the world that is anything but easy 
to predict. Now this, compounded by a string of recent events, 
is why I think it may be time for us to reassess the way the 
United States views this conflict and chooses to respond to it. 
I think we need to start by making clear-eyed threat 
assessments and prioritizing U.S. national security interests.
    General Austin, what's your assessment of the most 
significant threats that the conflict in Syria and Iraq pose to 
the security of United States citizens and our freedoms? In 
other words, at the end of the day, what needs to be 
accomplished for the U.S. Government to fulfill and to perform 
its constitutional duty to protect the people of the United 
States and our interests?
    General Austin. This is--thank you, Senator--this is a 
transnational threat. If left unchecked, it will continue to 
expand and to try to take up or occupy territory and governing. 
In doing so, it will try to erase international boundaries, it 
will try to do a number of things that will cause tremendous 
pain and suffering throughout the region. It will also export 
terror--my belief, it will export terror to other parts of the 
world, and particularly to places like our homeland. We see the 
beginnings of this in this lone-wolf activity that we talk 
about. We also see what--we are concerned about individuals who 
go into Iraq and Syria and fight as a part of this effort, and 
return--or potentially return back to our homeland, and bring 
those skills back with them.
    So, this is a--it is a threat to us, and I think the threat 
will continue to increase.
    Senator Lee. Now, the administration's strategy is to 
create an environment in Syria that will be likely to lead to a 
negotiated settlement of the Civil War, and result in the 
removal of Bashar al-Assad from power in Damascus. In your 
professional military opinion, General Austin, and given your 
knowledge of the region, what level of pressure would need to 
be leveraged against Mr. Assad and his supporters in order for 
them to capitulate, especially as many Alawites and other 
minority groups view some opposition groups as a threat to 
their survival? How much investment would need--would be needed 
from the coalition countries in order to provide security and 
stability in a hypothetical post-Assad Syria?
    General Austin. I think that Assad would only be willing, 
as you have stated, Senator, to come to the table to negotiate 
a settlement if he feels like he is threatened. As things 
continue to develop in the country, you know, we see a number 
of elements--al-Nusra Front, others that are fighting the 
regime, ISIL--you know, their efforts come together and place 
increasing pressure on Assad. He is losing--he still has 
significant capability, but he's losing capability every day.
    Now, the wildcard is when countries like Iran, or 
potentially Russia, would--could possibly move in and shore him 
up. It could extend things for a bit of time.
    Now, in a post-Assad environment, we have to consider that 
there are a number of elements there that will continue to be 
there and will continue to fight. Al-Nusra is one of those 
elements. If there are remnants of ISIL there, they'll continue 
to fight. So, it will require some sort of stability force to 
go in and make sure that, whatever the transition government 
looks like, it has the ability to do its job. So.
    Senator Lee. Thank you, General Austin.
    I see my time's expired. Thank you, Chairman.
    Senator Reed [presiding]. Thank you.
    On behalf of Chairman McCain, let me recognize Senator 
Kaine.
    Senator Kaine. Great. Thank you, Senator Reed.
    Thanks, to our witnesses.
    I'm going to start with a compliment, but then I'm going to 
revert to form of everybody else on the committee and express 
some major concerns.
    The complement was, I was in Irbil, Baghdad, Kuwait, 
Jordan, and Turkey in late June and early July, and I was in 
President Barzani's office, in Irbil, and he said, ``If 
President Obama had not started the bombing campaign on Mount 
Sinjar on August 8th, we would not be here today.'' He meant 
``we,'' the Kurdish people in Kurdistan. He wanted us to extend 
our thanks back to the administration and Congress. I also saw 
a joint operations command at the airport in Irbil with a very 
close coordination between United States forces and the Kurdish 
Peshmerga that was very impressive.
    However, everywhere else I traveled--to Baghdad and to the 
other parts of the region--it seems like there's major 
problems. The effort to retake Ramadi that was begun in mid-
July is apparently not going that well, and in Syria, absent 
some successes in the Kurdish area near Khobani, has been very, 
very disastrous.
    I was not an original supporter when Senator McCain raised 
the idea of a no-fly humanitarian zone, in the fall of 2013. I 
listened to General Dempsey tell us why that was not a good 
idea, and I generally agreed with him. But, by the time Senator 
King and I went to Lebanon, in February of 2014, and saw a 
million refugees already into Lebanon, I became converted. When 
Senator McCain pushed the idea of a humanitarian zone first, 
there was only about 750,000 Syrian refugees in Turkey. There's 
now 1.8 million. It will be 2 million soon. There's 4 million--
the number is 4 million Syrians have fled outside the country, 
and there are 7.8 million internally displaced Syrians in the 
country. They could easily leave the country, as well. A 
humanitarian zone in northern Syria would be very difficult to 
do, but I think the benefit of that, compared with 4 million 
and then climbing to--it could be 6, it could be 7, it could be 
8 million refugees, some of whom could be very, very dangerous, 
leaving the country--I think we would have been wise to do it 
when Senator McCain suggested it, and I think we would be still 
be wise to do it. From having met with a number of Syrian 
refugees in Gaziantep, Turkey, an awful lot of those who fled 
the country would go back if they felt that there was a place 
where basic needs would be met and they would be safe. So, I 
would encourage that. That's not your decision to make. I would 
encourage that--the administration.
    Let me talk about the--General Austin, you said, a second 
ago, in response, I think, to Senator McCain's question, that 
you thought the war would--the war against ISIL would go on for 
years. Is that correct?
    General Austin. Yes, sir, it is.
    Senator Kaine. Just editorial comment. I don't think ``go 
on for years'' and ``the chances of success of ISIL are 
dimmed,'' I don't think those are compatible statements. That 
was a quote from Chairman Dempsey, that ISIL's chances of 
success are dimming, the war is going to go on for years. I 
don't think those are really compatible statements.
    It seems like the ISIL threat is expanding geographically. 
We're talking heavily about Iraq and Syria here, but there is 
ISIL presence in Libya that we're paying attention to. There's 
ISIL presence in Afghanistan, largely disaffected Taliban who 
are moving over and claiming allegiance to ISIL. Boko Haram has 
pledged allegiance to ISIL, not yet threatening the United 
States, as far as I know. There may be some ISIL presence in 
Yemen. Is that correct?
    General Austin. That is correct, sir, there is.
    Senator Kaine. So, the potential battlefield against ISIL 
is expanding. We're actually, maybe, engaging in some new 
activity. My understanding--General Austin, you indicated we 
have undertaken airstrikes to support trained Syrians in Syria, 
when they have been threatened by al-Nusra, correct?
    General Austin. That's correct, sir.
    Senator Kaine. We are also prepared, as of a change in 
policy from early August, to undertake airstrikes to protect 
those Syrian fighters if they fall under threat and attack by 
the Assad regime?
    General Austin. That's correct, sir.
    Senator Kaine. Now, I tactically completely agree with 
that, but I've got to ask, What is the legal precedent for the 
United States undertaking military action against forces of the 
Assad regime?
    Ms. Wormuth. Senator, our determination is that, as you 
know very well, we can defend against ISIL and al-Nusra under 
the 2001 AUMF [the Authorization for Use of Military Force], 
and, if our forces are attacked by the regime in a--particular 
circumstances, we could--the President could exercise his 
Article 2 rights under the Constitution.
    Senator Kaine. If our forces--if the U.S. is attacked----
    Ms. Wormuth. I'm sorry. If----
    Senator Kaine.--Article 2 comes into play.
    Ms. Wormuth. I meant our forces, meaning the T&E [Train and 
Equip Program] forces that we've trained.
    Senator Kaine. Yeah. I will just say, I have not seen an 
interpretation of Article 2--ever--that would allow the United 
States to undertake action under Article 2 to protect others' 
fighters. I just--you can take action under Article 2 to 
protect the U.S. The President doesn't need to ask anybody's 
permission for that. But, to undertake action to protect 
others' fighters, I've never seen an interpretation of Article 
2 that would do this.
    The last thing I'll say, Mr. Chair, and set aside, there's 
a lot more criticism that I would get into here and that a lot 
of us have, but I worry that Congress is criticizing you as if 
we were editorial writers. We've got a lot of opinions. We're 
acting like fans in the stands. We still have not authorized 
this war. We still have not authorized this war. I believe it 
is being carried out in violation of basic legal principles, 
because Congress has not done what Congress is supposed to do. 
We can be fans in the stands and throw all the criticisms we 
want, but we are in the 14th month of an undeclared war that is 
based upon a legal justification that's specious, in my view. 
But, Congress has allowed it to happen, completely giving up 
their Article 1 responsibilities. Now that we've been told that 
the war is going to go on for years, my question is, just to my 
colleagues, How long are we going to allow a President to wage 
an executive war without a congressional authorization? I think 
we're afraid to touch this.
    So, we can criticize this all we want. We'll have many more 
hearings like this over the course of a number of years. I'm 
sure we'll have critical things to say. But, if we're not 
willing to do our constitutional duty, I mean, why are we here? 
We're not fans. We're supposed to be the owners of this team.
    Thank you, Mr. Chair.
    Senator Reed. Thank you, Senator Kaine.
    On behalf of the Chairman, I would recognize Senator 
Cotton.
    Senator Cotton. If that's the question, I will say the 
answer is: Wars are not won with paper resolutions, they are 
won with iron resolution. That is clearly lacking in our 
strategy right now against the Islamic State.
    General Austin, Ms. Wormuth, thank you for coming. General 
Austin, in particular, for all the thousands of troopers you 
represent, for your service and their service.
    I want to speak briefly about the reports that there may 
have been some efforts to cook the books about our performance 
in the campaign against the Islamic State. I know in your 
opening statement you acknowledged this, acknowledged the 
problem. There is ongoing investigations, to include with the 
IG. But, you have an ongoing challenge in your intelligence 
reporting and the way that affects your operations as well as 
the command climate. So, putting aside the IG investigation, 
could you just tell us what steps you're taking to confront 
those challenges that you face on a daily basis?
    General Austin. I have recently and continue to emphasize, 
Senator, to all of my subordinates, that my expectation is that 
I get candid and accurate intelligence assessments, you know, 
from my staff. I've also emphasized to my entire command, as I 
have in every command that I've had, that the welfare of my 
people is extremely important to me. So, you know, I care about 
my people. My expectation is that they have a climate that's 
conducive to providing for a good, healthy, sound work 
environment for them.
    Senator Cotton. Thank you. I mean, I would have to say, 
too, as someone who regularly consumes intelligence community 
products on the Islamic State and our campaign against them as 
a member of this committee and a member of the Intelligence 
Committee, I was very surprised to hear allegations that books 
are being cooked, because those products are not painting a 
very pretty picture of how this campaign is going.
    General Austin, I want to move now to events in Syria, and, 
in particular, Russia's military buildup. Published reports 
have said, in the last couple of weeks, to include admissions 
of senior Russian officials, that Russia is sending aircraft 
there, air defense systems, armored personnel carriers, main 
battle tanks now, in addition to life support systems, like 
modular housing, that are clearly designed for a large and 
continued presence. How many airstrikes are--is the coalition 
conducting on a daily basis right now in Syria?
    General Austin. We're conducting, overall, about 24 or so 
airstrikes in Iraq and Syria, and about a third of those are in 
Syria. So.
    Senator Cotton. What efforts, if any, do we have underway 
to deconflict this battlespace now that we have hundreds, 
perhaps thousands, of Russians running around with air defense 
systems and battle tanks and personnel carriers?
    General Austin. Well, we continue to--from a military 
perspective, we continue to look at what the possibilities for 
encounters are, Senator. We have--we make sure that we have 
measures in place to ensure that we don't have an inadvertent 
encounter with either Russia--a Russian aircraft or a Syrian 
aircraft.
    Senator Cotton. Do our pilots have to have 100-percent 
positive identification that there is no Russian on a target 
before they can strike that target?
    General Austin. Well, we've not--the Russians, to my 
knowledge, have not started operations, as of this point, so 
we've not had to encounter that yet. But, clearly, these are 
things that, from a tactical perspective, that we will continue 
to work and think through. So.
    Senator Cotton. Assad's other main supporter inside of 
Syria is Iran, and specifically the Revolutionary Guard Corps 
and the Quds Force, which has been present in Syria for years. 
Do our pilots have to have 100-percent positive identification 
to--that there is no Iranian forces on a target before they 
strike that target?
    General Austin. Our pilots have to have 100-percent--well, 
they have to have certainty, Senator, that there are ISIL 
targets there that'll be engaged. Since, as you know, we can 
see what we're shooting at or what we're engaging, this is not 
an issue. So.
    Senator Cotton. Ms. Wormuth, there was a report recently in 
the media that Russia offered, in 2012, to help the West remove 
Assad from power, and that the United States declined that 
offer because we believed that Assad would fall of his own 
accord. Is that an accurate report?
    Ms. Wormuth. I don't believe that's an accurate report, but 
that's obviously from several years ago, and I wasn't in this 
position at that time. So, I don't believe it's accurate, but 
we're--I don't believe it's accurate.
    Senator Cotton. Do you believe that Iran and their proxies 
can be a partner in the fight against the Islamic State in any 
way in Iraq or Syria?
    Ms. Wormuth. No, not really. I mean, we're not cooperating 
with Iran right now in Iraq, for example. We are deconflicting 
for--you know, as you know well, they certainly have a role 
with the--some of the Shiite militia on the ground, some of the 
popular--the popular mobilization forces. But, we are not 
cooperating, and I don't see Iran as having a productive role 
in either Iraq or Syria.
    Senator Cotton. Thank you. I would agree, given the fact 
that their militias in Iraq had to rely on United States 
airpower, and now they appear to be relying on Russian forces 
in Iran to back up their hapless efforts, that they aren't 
going to be a partner. Trying to rely on Iran to defeat the 
Islamic State is like trying to rely on gasoline to put out a 
fire.
    Senator Reed. Thank you, Senator Cotton.
    On behalf of the Chairman, Senator King.
    Senator King. Thank you, Mr. Chair.
    General, I just want to touch, for a few moments, on the 
intelligence issue. I consider this extremely grave, a grave 
issue, because if we don't have reliable intelligence, as 
policymakers, and if the President doesn't have reliable 
intelligence, we can't make good policy. This keeps happening. 
I mean, this goes back to the Bay of Pigs, Vietnam, the Iraq 
War. This allegation is--these allegations are extremely 
serious, and I hope you will--I understand we have an IG 
investigation, but, as a commanding officer, I would hope that 
you would just be all over this.
    I want to ask you a direct question. Have you ever ordered, 
suggested, or hinted to any of the intelligence command that 
they should sweeten the intelligence reports in order to 
portray a more positive view of the success of our efforts in 
Iraq or Syria?
    General Austin. Absolutely not, Senator King. Absolutely 
not.
    Senator King. Well, I just hope that you will just stay on 
this, because, as you know better than any of us, if you don't 
have good intelligence, you're not only going into the battle 
blind in--if it's cooked intelligence, you're going into the 
battle with one hand tied behind your back. So, I just--I am 
extremely concerned about this issue.
    This is a question for the record. You used the term 
``progress'' in your statement a number of times, progress here 
and progress there. Not now, but for the record, I would like a 
very specific list of what you consider ``progress,'' where we 
are--where we are succeeding. Because, generally, it doesn't 
look like that. It looks more like a stalemate. I think, again, 
we should have this information. I know some of it is in your 
testimony, but I'd like, if you could, just a one-pager on 
where you think progress has been made.
    [The information referred to follows:]
      
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    
    
      
    General Austin. Be happy to provide that, sir. We'll get 
that to you right away.
    Senator King. Thank you. I think, from a broad question of 
policy--and this comes off of a lot of the other discussion 
we've had--Assad and ISIS are evil twins. ISIS largely came 
into existence in reaction to Assad. In retrospect--and, like 
Senator Kaine, I was one who was very reluctant about getting 
involved--but, in retrospect, the longer we've left Assad 
there, it has created a situation, both a humanitarian crisis 
and a situation, that has allowed al-Nusra and ISIL--ISIL 
didn't even exist when we first started having these hearings--
and it's allowed them to--it's given them an enemy and an 
opportunity to make hay with the population.
    So, a strategy that ignores Assad--and, for example, trains 
troops to go into Syria to only fight ISIL, but not Assad, I 
just think in--I'm--I think we now need to recognize that 
that's not a logical strategy. Part of good strategic thinking 
is that you modify your strategy according to the--according to 
changed circumstances. The circumstances are--and you mentioned 
he's losing his capabilities every day. I'm sorry, General, 
I've been hearing that at every hearing since 2013, ``Assad is 
about to go, he's about to collapse.'' I know you didn't say 
that today, but we've got to find a strategy that allows us to 
move Assad aside in some way, working with the Russians, if 
necessary, or the Iranians, if necessary, because he's the 
irritant that's keeping this thing stirred up.
    Then, finally, in terms of our troops, the fundamental 
problem, it seems to me, is we're not going to defeat ISIS with 
just airpower. Everybody knows that. We're trying to rely on a 
weak force in Iraq and no force in Syria. How do we refine this 
strategy, General? You know that we--in order to root them out 
of Mosul, Iraq, or anyplace else, you're going to have to have 
troops on the ground. We don't want them to be Americans. How 
do we break through this? Clearly, the Train and Equip is just 
too little, too late. Your thoughts.
    General Austin. We're going to need a greater commitment 
from the partners that we're enabling, Senator. You know, 
again, if the Iraqis make the commitment to put more troops 
through the Train and Equip Program, we'll get them trained and 
equipped, and we'll get them into the fight.
    Senator King. Are there signs that the Iraqis are willing 
to do that? Do they want Mosul back?
    General Austin. I think so. I certainly think so. They want 
to stabilize Anbar first, and then take on Mosul. But, yes, I 
believe that.
    Senator King. Ms. Wormuth, give me some thoughts on the 
overall strategy here.
    Ms. Wormuth. Certainly, Senator. I was going to say, in 
terms of getting more Iraqis into the fight, they are, as I 
said, increase--they're opening the aperture, in terms of which 
units they're putting into our training sites. So, that's going 
to help, I think, create additional troops on the ground.
    Senator King. I'd like specific numbers on that, by the 
way, for the record.
    [The information referred to can be found on page 155.]
    Ms. Wormuth. Certainly. Certainly.
    They are--we see them starting to now plan ahead, in terms 
of which units are going into the training pipeline, which, 
again, I think indicates a greater sense of urgency on their 
part.
    On the Syrian side of the ledger, I would say it is clearly 
harder to find partners on the ground on the Syrian side of the 
ledger. But, one of the things that we didn't envision a year 
ago was the partnership, if you will, that we have of our 
airpower with the Syrian Kurds and the Syrian Arab coalition 
that are operating with them. That group, on its own, won't be 
enough, but we are continuing to look for opportunities like 
that, even as we review our own Train and Equip Program.
    Senator King. Well, I would join in Senator Kaine's remarks 
that I really think you need to rethink a strategy about a safe 
zone, a no-fly zone, some protection from Assad's barrel bombs. 
This is some--I hate it when the Chairman's right, but he's 
been talking about this for 2 years, and I--in retrospect, I 
think he was right. We've allowed this to just--the atrocity to 
go on too long, and it's impacting us, it's impacting the rest 
of Europe. I really think that there should be a rethinking of 
the nonintervention strategy, not on--not in terms of troops, 
but in terms of airpower in order to level the playing field, 
bring pressure on Assad and the Russians, so that we can get a 
negotiated agreement. Because it doesn't seem to be a prospect 
now.
    Thank you very much, Mr. Chair.
    Senator Reed. Thank you.
    Again, upon--on behalf of the Chairman, Senator Tillis.
    Senator Tillis. Thank you.
    Ms. Wormuth, you made a--in your opening statement--I'm--
apologize that I had to step out; I had to go to a Judiciary 
Committee meeting--but, you made a comment in your opening 
statement that I want to focus a little bit of time on through 
a series of questions that--hopefully, I can get brief remarks.
    You said that ISIS is not 10 feet tall. The reason that I 
have a concern with that kind of statement is that it kind of--
it's reminiscent of characterizing them as the JV team. They 
are a very serious threat.
    Before I go forward, General Austin, I neglected to do what 
I always do when I see people in uniform. Thank you for your 
service. I know you guys are a part of the solution.
    But, when we say that ISIS is not 10 feet tall, they are 
the richest threat group of this kind in human history. Through 
the seizure of assets for the Iraqi National Bank, I think they 
seized some $820 million. Last week, we just had a memorial for 
9/11. It's estimated that the 9/11 attacks cost about $500,000. 
Through that one asset seizure, if my math is right, that 
equates to about 1,600 9/11s, having the resources to strike 
that kind of damage in our homeland, in the Middle East, in 
Europe, and other places. I think that we need to recognize 
them as one of the single greatest threats that we have today. 
Of course we have Russia and North Korea, Iran. But, they're at 
the front line for people that we have to take seriously. We 
have to figure out when we're making progress and when we're 
not. That leads to my questions.
    Do you feel like you're over your--over the last 24, 36 
month, whatever time horizon, General Austin, makes sense to 
you--does ISIS control more or less territory, or do they have 
greater or less influence in other areas that are emerging as 
potential strongholds for ISIS in the future? More or less?
    General Austin. Less in Iraq.
    Senator Tillis. What's the net? Because we know they're 
expanding elsewhere. We know they're changing jerseys in 
Afghanistan from al-Qaeda and other groups and Taliban into 
ISIS. We've got them operating in other areas. So, what's the 
net? More or less?
    General Austin. It would be more if you consider----
    Senator Tillis. Okay.
    Do they have--if you were to compare their resources--their 
economic resources over the last 24 or 36 months--do they have 
more or less dollars to support their terrorist operations?
    General Austin. Less. We have targeted their resources. I 
think--they make money, as you know, Senator, off things like 
oil collection---
    Senator Tillis. Antiquity sales, kidnappings----
    General Austin. Right, right. So, we have long--I have 
said, on a number of occasions, not only do we have to stop the 
flow of foreign fighters, but we have to take away this enemy's 
ability to finance the----
    Senator Tillis. Okay.
    Another measure. I'm trying to come up with this concept of 
a dashboard so that when we have the next committee hearing 
meeting, I can ask you the same series of questions and see 
where the trends are. Do they have more or less influence--are 
they--I--they seem to be winning on social media, in terms of 
reaching out to people in the homeland, reaching out to people 
in Europe. About 6 hours ago, it was posted that some 15-year-
old girl murdered her mother in Europe, was convicted of murder 
as a result of being radicalized by some of the social media 
presence. Have we stemmed the tide on their continued expansion 
of the use of social media to radicalize people internationally 
and in the homeland?
    Ms. Wormuth. I think they do have a more effective counter-
messaging campaign at this point.
    Senator Tillis. Yeah.
    Ms. Wormuth. That's an area we need to----
    Senator Tillis. It seems----
    Ms. Wormuth.--work on.
    Senator Tillis.--to be growing. It doesn't--it seems like, 
again, in terms of trends, the ground that they're taking, the 
places they're heavily influencing, social media--I mean, this 
is a--an organization that is trending in the wrong direction 
against the greatest superpower that's ever existed.
    I want to go back to chemical weapons. Do you think that--
there's been reports--I want to--I only want to talk about 
confirmed reports--do you think that their use of chemical 
weapons have increased over the last 24 months or are beginning 
to see evidence that they're being used in certain areas in 
Syria and Iraq? More or less?
    Ms. Wormuth. Senator, given that they had no apparent use 
of chemical weapons at the outset, there have been----
    Senator Tillis. So, now there's more.
    Ms. Wormuth.--some indications----
    Senator Tillis. Okay.
    Then, the last question I have is how we're working--I 
understand that most of the problem has to deal with the fact 
that Iraq has failed to do what they need to do to engage the 
Sunni population, but they haven't done it. So, over the course 
of the last 24-36 months, has the Sunni population been more or 
less inclined to side with ISIS where the conflicts are arising 
in Iraq?
    Ms. Wormuth. I think we've seen considerable outreach from 
Prime Minister Abadi----
    Senator Tillis. Has it worked?
    Ms. Wormuth.--to the Sunni community. There are now 4,000 
Sunni tribal fighters in Anbar that we didn't have 6 months 
ago.
    Senator Tillis. So, you feel like we're winning, in terms 
of engaging the hearts and minds of the Sunni population?
    Ms. Wormuth. I think we're bringing more Sunni tribal 
fighters into the fight.
    Senator Tillis. Okay.
    General Austin. I would agree that they're less inclined 
to--in Iraq--to side with ISIL. They've seen what ISIL brings 
to the table. Most of the Sunnis don't want that, going 
forward. But, they do want to be included in the Government of 
Iraq. So.
    Senator Tillis. I think that they should be if we're going 
to have a long-term strategy that has productive engagement.
    Thank you very much. I'm sorry, Ranking Member, for going 
over my time.
    Senator Reed. Thank you, Senator Tillis.
    Senator King has requested an additional question.
    Senator King----
    Senator King. Not a question, Mr. Chairman.
    I want to submit for the record an extraordinary speech by 
Robert Gates in 1992, when he was head of the CIA, on the 
danger of the politicization of intelligence. It's prescient 
and brilliant, which is not surprising, coming from Robert 
Gates. I just want to submit it for the record.
    Thank you.
    Senator Reed. Without objection, so ordered.
    [The information referred to follows:]

Guarding Against Politicization,
A message to analysts
                    Guarding Against Politicization
Robert M. Gates
    The following remarks by the Director of Central Intelligence were 
made on 16 March 1992 in the CIA auditorium.
    Bourne Cockran wrote to Winston Churchill in 1895 that, ``What the 
people really want to hear is the truth--it is the exciting thing--
speak the simple truth.'' Twenty years later, Churchill himself wrote, 
``The truth is incontrovertible; panic may resent it; ignorance may 
deride it; malice may destroy it, but there it is.'' Truth, insofar as 
we can determine it, is what our work is all about. Indeed our own main 
entrance is dominated by the chiseled words, ``And ye shall know the 
truth and the truth shall make you free.'' Because seeking truth is 
what we are all about as an institution, as professionals, and as 
individuals, the possibility--even the perception--that that quest may 
be tainted deeply troubles us, as it long has and as it should.
    The problem of politicization is as old as the intelligence 
business. The missile gap in the late 1950s, the disputes over our work 
on Vietnam in the 1960s, the criticisms of pandering to Nixon and 
Kissinger on detente in the early 1970s, that we were foils for the 
Carter administration on energy in the late 1970s--all these 
controversies and more--predated the 1980s. For as long as intelligence 
data has been collected and analyzed by human beings, it has been 
susceptible to their biases.
    Politicization can manifest itself in many ways, but in each case 
it boils down to the same essential elements: ``Almost all agree that 
it involves deliberately distorting analysis or judgments to favor a 
preferred line of thinking irrespective of evidence. Most consider 
`classic' politicization to be only that which occurs if products are 
forced to conform to policymakers' views. A number believe 
politicization also results from management pressures to define and 
drive certain lines of analysis and substantive viewpoints. Still 
others believe that changes in tone or emphasis made during the normal 
review or coordination process, and limited means for expressing 
alternative viewpoints, also constitute forms of politicization.''
    This has been an issue with which all of us have long grappled, but 
never as publicly, or as pointedly, as in my confirmation hearings last 
fall. I know that for many of you, the segments devoted to 
politicization were wrenching, embarrassing, and even humiliating at 
times. They pitted friends and colleagues against one another. I know 
too that there were strong views on all sides of the debate back here 
in the ranks.
    While I believed, and argued, that the specific allegations were 
unfair and untrue, I came away from that experience determined not only 
to find better ways to prevent the reality of policy-driven bias, but 
also to reexamine how we deal with perceptions of politicization.
    I also came away with a renewed belief that by dealing forthrightly 
with the politicization issue, we will also be strengthening our 
ability to fulfill our purpose--to provide the highest quality 
intelligence, accurate and relevant intelligence, to policymakers.
    As a result of those hearings, one of my first moves upon becoming 
Director of Central Intelligence was to instruct the Deputy Director 
for Intelligence to form a task force to address politicization and to 
work with members of the Directorate of Intelligence to come up with 
recommendations for future action. In my view, the report provided 
valuable insights into the issue and prescribed a variety of measures 
to address many of the concerns associated with politicization. I thank 
the task force members for their effort and encourage those of you who 
have not yet read the report or my resulting decision memorandum to do 
so.
    In their report, the task force found a persistent and impressive 
commitment to objectivity, high ethical standards, and professionalism 
in the DI. They found that most analysts and managers remain determined 
to resist direct or indirect pressures from policy officials for 
products that conform to their views. Moreover, they concluded that 
politicization is not perceived to be a pervasive problem by most in 
the DI. Indeed, it is not a problem at all in some areas.
    But, the task force did find that concerns about politicization are 
serious enough to warrant action. Furthermore, most of these concerns 
relate to internally generated distortions. Over half the respondents 
to the task force's survey said that forcing a product to conform to a 
view thought to be held by a manager higher up the chain of command 
occurs often enough to be of concern. Most of the charges raised in 
discussions with the task force revolved around internal distortions 
generated during the review and coordination process.
    I agree with the task force that this level of concern is 
disturbing, that it goes beyond the degree of frustration that is 
inherent to the review process, and that it demands the immediate 
attention of Agency management at all levels.
    While my comments to you today fulfill a promise I made to Congress 
several months ago and respond in part to the task force's 
recommendations, I believe I would have scheduled this address 
regardless. In the short time that I have been back at the Agency, I 
have become more aware of the profound impact the issue of 
politicization has had on the morale of analysts and managers alike. It 
is not a concern to be dismissed with token gestures. Politicization is 
a serious matter, and it has no place at CIA or in the Intelligence 
Community.
    As best we can, we must engage in a candid discussion of the issue, 
devise effective measures to prevent it from occurring, and resolve to 
deal decisively with any circumstances that may foster distortions in 
our analysis. I hope that our encounter today will launch a process of 
greater openness and dialogue.
    The DDI and I have accepted the task force recommendations in their 
totality, but before I discuss the specifics, I would like to talk with 
you further about politicization and the challenge it poses for us as 
intelligence analysts. The issue of politicization has dogged American 
intelligence for years and reflects the fact that although we belong to 
an institution with established norms and procedures, we are all human 
and prone to make mistakes and errors in judgment.
    Although the task force study focused on the DI, I believe we must 
include the National Intelligence Officers and the National 
Intelligence Council in the discussion of politicization. They, too, 
are engaged in analysis and--given their frequent contact with high-
level policymakers--their work is also vulnerable to distortion.
    Let's start by defining the policymakers' proper role in the 
intelligence process. I believe that most of you would agree that 
policymakers should be able to request intelligence products that 
address the issues they are dealing with on a daily basis. Such tasking 
is an integral part of the intelligence process. If we ignore 
policymaker interests, then our products become irrelevant in the 
formulation of our government's foreign policies. I think we also all 
would concur that a policymaker should not dictate the line of march 
that he or she expects our analysis to take. Nor should we withhold our 
assessments because they convey bad news or may not be well received.
    The challenge for us as analysts, then, is to produce intelligence 
that objectively assesses relevant policy issues--whether it supports 
or undermines current policy trends--and to ensure that our product is 
read and valued by the policymakers concerned. Ensuring objectivity 
means that we explore the issue fully, looking at and vetting all the 
available evidence and identifying where gaps, blindspots, or 
alternative scenarios exist. Our task is to facilitate an understanding 
of the realities of a particular situation and its implications for 
U.S. policy.
    Getting the policymaker to read our product should not jeopardize 
our objectivity; it does not mean sugarcoating our analysis. On the 
contrary, it means providing a frank, evenhanded discussion of the 
issues. If we know that a policymaker holds a certain viewpoint on an 
issue that is different from our analysis, we ought not lightly dismiss 
that view but rather address its strengths and weaknesses and then 
provide the evidence and reasoning behind our own judgment. I believe 
such an approach enhances our credibility and value. I realize, 
however, that in many cases the issues may not be clear-cut. In such 
situations, we owe it to ourselves to discuss fully how best to 
approach the subject before we even set pen to paper. In no instance 
should we alter our judgments to make a product more palatable to a 
policymaker.
    In dealing with policymakers, we also need to keep in mind our role 
as intelligence analysts. Managers and analysts alike should meet with 
policymakers on a regular basis to exchange views and explore new 
ideas. In today's changing world, however, we must guard against taking 
on tasks that do not deal with intelligence topics and may be intended 
instead to drive a specific policy agenda. Managers and analysts need 
to discuss such situations candidly and design products that address 
only the intelligence issues at hand.
    This brings me to the second aspect of politicization identified by 
the task force--the apparent lack of understanding and confidence 
between a number of DI analysts and managers. Somehow some seem to have 
lost the ability to discuss the substantive or structural aspects of an 
intelligence product frankly and in an atmosphere of trust. The task 
force report indicates that such circumstances exist in enough offices 
to be of concern. Apparently we have lost a sense of professional 
collegiality and find ourselves, in many instances, adopting a them-
against-us mentality which fosters perceptions of distortions in the 
intelligence process. No one has a monopoly on the truth; we are all 
learning new things every day. Although some may be more experienced 
than others, no one person should impose his or her view on another. 
Dialogue must take place, each participant must be open to new ideas, 
and well-grounded alternative views must be represented. There are many 
managers and analysts who understand this; unfortunately, many do not.
    If an analyst and manager or two analytical, groups interpret 
information differently and can't come to a common understanding, the 
situation can degenerate into a perception of politicization. If one 
group or one person forces his or her line of analysis out over 
another, whether by force of his or her position in the management 
structure or through control of dissemination channels, it can leave 
the perception that that person or group has politicized the process.
    I believe the first line of defense against politicization and 
analytic distortions is our own personal integrity; I want to spend 
some time talking about how each of us must work to ensure the highest 
integrity in our work.
    Let me talk for a moment to our managers. I believe that managers 
are in a special position, particularly branch chiefs, because they are 
the ultimate arbiters in any analytical disagreements. They are also 
the ones who are charged with teaching and counseling our analysts.
    As I see it, managers have three critical responsibilities to 
prevent distortions and corruptions of our products. First, managers 
have to challenge all of the analysis that comes through them to ensure 
its basic analytic soundness, logical validity, and clarity. As part of 
this, managers should always require analysts to defend their work.
    Second, managers must strive to be open to new ideas and new lines 
of analysis from any source. We cannot simply stick with our previous 
conceptions and hope to keep pace with our rapidly changing 
environment. In the past year, many of the old assumptions that helped 
us in our analysis have been invalidated.
    Third, I would also strongly concur with the task force in its 
conclusion that poor communication is the key source of the widespread 
concern within the DI about politicization.
    Managers must strive in every interaction they have with analysts 
and managers to ensure all communications are clear. Managers must be 
able to state clearly why they disagree with a judgment, or how they 
want a logical argument reconstructed. We cannot simply say we don't 
like it and we'll know what we want when we see it. That is more than a 
cop-out, that is a prescription for trouble.
    Let me emphasize this last responsibility. Managers, particularly 
those who are teaching our less experienced analysts how to do basic 
intelligence analysis, cannot afford poor communications. Managers 
should be showing analysts the bows and whys behind their decisions, 
not just telling them to change words. If you can't tell an analyst why 
you don't believe his or her arguments, or if you can't offer a logical 
counterargument, then you should take more time to construct your own 
analysis.
    Most managers in the DI face difficult and highly stressful demands 
on their time. In a directorate in which, at each level, the manager is 
expected to be part expert, part editor, and part bureaucrat, they are 
sometimes tempted to give the people-management side of their jobs 
short shrift. Frequently, the result is that suspicions of base motives 
arise when there are simply differences of view:

    <bullet>  This happens when a division chief is too timid--or 
thinks he or she is too busy--to sit down with the analyst and go over 
comments on a paper.
    <bullet>  It happens when a senior manager makes cryptic or 
offensive comments on drafts.
    <bullet>  It happens when the office director sits on a paper 
indefinitely because he or she lacks the courage to tell an analyst and 
his or her management that it is simply unworkable or irrelevant.
    <bullet>  It happens when an analyst responds to a reviewer with 
legitimate questions or counterarguments, only to discover he or she 
has been branded as uncooperative and unwilling to take criticism.
    <bullet>  It happens when subordinate managers are afraid to give 
bad news, or to admit to their own mistakes, and instead pin everything 
unpleasant on someone higher up the chain.
    <bullet>  It happens when there are so many layers of excessive 
review that some kind of misunderstanding somewhere along the way is 
inevitable.
    <bullet>  It happens when any manager becomes so intent on ``making 
a call'' or ``sharpening the judgments'' or ``defining the office 
view'' that he or she oversimplifies the argument or fails to provide 
alternative views.

    I think you get the idea. Perceptions of politicization or other 
kinds of intentional distortion tend to arise in the absence of an 
open, creative environment that encourages give-and-take. The manager 
who allows the press of business and the frequent need to push and prod 
for the best possible product to cause him or her to behave rudely, 
abruptly, or imperiously, does so at considerable peril to his or her 
reputation for objectivity. I know also that what is necessary is not 
the practice of some awkward, feel-good management technique. It is 
simply a matter of treating people the right way--with professional 
respect, civility, and confidence in their integrity and capabilities.
    Managers must create an environment in which analysts feel 
comfortable airing substantive differences. Managers must listen; they 
must talk; they must erode some of the hierarchy. They must create a 
sense of joint ownership of ideas. Managers need to create an 
atmosphere in which people can, approach them without fear of 
retribution. Managers must--I repeat must--create a barrier-free 
environment for ideas.
    Now let me address our analysts. Analysts have their own 
responsibilities to prevent distortions and politicization from 
creeping into our analysis. First and foremost, analysts must be able 
to construct clearly a logical analysis of an issue. This includes not 
only the ability to write a clear argument, but an ability to examine 
one's own biases, assumptions and limitations.
    Second, when an analyst sends forward a work to management, he or 
she should be prepared and expect to defend that analysis.
    Third, every analyst must approach editing, coordination, and 
review as a process to improve a piece. An analyst must see the process 
as a team effort, with coordinating analysts and managers as team 
members who will offer input that must be considered and dealt with. No 
analyst should think that his or her view of the world is the only 
correct view, or that the opinions and arguments of others are not 
worthy of consideration. We must always keep our minds open. As Judge 
Learned Hand wrote, ``Opinions are at best provisional hypotheses, 
incompletely tested. The more they are tested, after the tests are well 
scrutinized, the more assurance we may assume, but they are never 
absolutes. So, we must be tolerant of opposite opinions or varying 
opinions by the very fact of our incredulity of our own.''
    Last, and this is an important point, analysts must always 
challenge the arguments and opinions of others, including their 
managers. An analyst should not expect his or her analysis to go 
unchallenged, and he or she should not be willing to accept the 
analysis of others without challenge. By questioning managers and other 
analysts on the reasons underlying their comments and judgments, 
especially those in conflict with our own, we learn to look at issues 
in new ways--sometimes ways that are better. You should rightly 
question anyone who cannot defend or explain the reasons behind 
disagreements with your analysis.
    Also, unwarranted concerns about politicization can arise when 
analysts themselves fail to understand their role in the process. We do 
produce a corporate product. If the policymaker wants the opinion of a 
single individual, he or she can (and frequently does) consult any one 
of a dozen outside experts on any given issue. Your work, on the other 
hand, counts because it represents the well-considered view of an 
entire directorate and, in the case of National Estimates, the entire 
Intelligence Community. Analysts themselves must play a critical role 
in making the system work. They must do their part to help foster an 
open environment. Analysts must understand and practice the corporate 
concept. They must discard the academic mindset that says their work is 
their own, and they must take into account the views of others during 
the coordination process.
    What, then, can we do together to counter both real and perceived 
distortion of the analytical product? For starters, we can all recommit 
ourselves to a solid professional ethic and a high degree of 
collegiality. Distortion of analysis is much less likely, and much 
easier to spot, if there is a concerted effort at all levels to observe 
basic standards:

    <bullet>  We must make explicit what is not known and clearly 
distinguish between fact, inference, and judgment.
    <bullet>  We must recommit ourselves to the good oldfashioned 
scientific method--the testing of alternative hypotheses against the 
evidence.
    <bullet>  We should provide an outlet for different 
interpretations, theories, or predictions in our mainline publications, 
not just in a staff note or a piece at the back of a monthly.
    <bullet>  While we strive for sharp and focused judgments for a 
clear assessment of likelihood, we must not dismiss alternatives or 
exaggerate our certainty under the guise of making the ``tough calls.'' 
We are analysts, not umpires, and the game does not depend on our 
providing a single judgment. As Oliver Wendell Holmes wrote, 
``Certitude is not the test of certainty. We have been cocksure of many 
things that were not so.''
    <bullet>  We must protect ourselves from groupthink, an 
institutional mindset, or personal bias. We must also avoid the 
temptation to weight our arguments or our case as a corrective to the 
perceived failings of others.
    <bullet>  We must view coordination as an important step in 
ensuring that all views have been considered. Indeed, the task force 
found that refusal to alter a view or take into account the views of 
others during the coordination process frequently leads to charges of 
distortion or politicization.

    But, above all, we must build an atmosphere of confidence and trust 
between analysts and managers. This requires a renewed commitment to 
accountability, expertise, and intellectual honesty. Accountability 
means standing behind the intelligence that one sends forward and being 
held responsible for any distortions that have been imposed upon it. It 
is not producing analysis designed to please one's superiors; nor does 
it mean that a branch, division, or office's analysis must always be 
right. Accountability requires that analysts and managers understand 
each other's viewpoints and work together in producing the best 
analysis they can.
    In doing so, we rely on expertise. Managers should ensure that 
analysts are given opportunities to build and hone their substantive 
expertise and analytic skills. Managers are chosen to manage their 
analysts, not to become superanalysts themselves. In helping their 
analysts develop, managers can build a reserve of trust. Analysts, for 
their part, must dedicate themselves to becoming experts on their 
subject and sharpening their critical thinking skills. This takes 
talent; this takes hard work; this takes dedication; and, not least, 
this takes time! It follows that managers will demonstrate increased 
confidence in analysts of such proven expertise.
    Finally, we all need to recognize biases and blindspots--in 
ourselves and in others--viewing them not as weaknesses but as 
opportunities to grow. Such an approach would allow us to deal more 
openly with others and foster a more collegial give-and-take among 
analysts and managers. Greater intellectual honesty on everyone's part 
can make the process less bureaucratic, less hierarchical, and less of 
a win-lose situation.
    By improving analyst-manager trust, I believe that concerns about 
the review process skewing intelligence can be lessened. Moreover, in 
the scope of a more collegial relationship, a manager challenging 
assumptions should not be seen as a threat by analysts. On balance, it 
is the managers who bear the greater burden of responsibility in the 
review process, and they need to have a sound basis for their actions. 
In editing and revising intelligence products, I expect managers to 
explain their changes in face-to-face exchanges with their analysts and 
to be willing to admit when a revision is unwarranted. In turn, I 
expect analysts to use evidence and logic when arguing against proposed 
revisions in substance, to be open to new approaches and ideas, and to 
guard against purely defensive reactions. Expertise is a requirement, 
but analysts must not become so wedded to their views that they exclude 
well-grounded, alternative arguments.
    The issue of analyst-manager communications is paralleled in the 
DI-NIC relationship, where NIOs review drafts submitted by DI analysts. 
A majority of the time, the process works smoothly. In some instances, 
however, tensions have flared over disagreements on substantive 
changes. Both sides must endeavor to communicate openly to resolve 
differences in views or outline alternative scenarios. Moreover, the 
NIOs' access to the DCI is not exclusive; analysts are welcome to bring 
their concerns about the estimative process directly to me.
    I would like also to address the special obligations and 
responsibilities that fall on the Directorate of Intelligence and 
Directorate of Operations when CIA is involved in a covert action. For 
the DO, a covert action activity does not absolve it of its foreign 
intelligence reporting responsibilities. It must meet its professional 
obligation to report as accurately and as fully on an area or problem 
in which a covert action is under way, as on any other subject. The 
DO's task is made harder and scrutiny will be all the more intense 
because inevitably the DO will be working against the perception that 
its reporting is skewed by involvement in a covert action. In truth, it 
is only human nature to expect that those who are trying to implement a 
policy will develop strong opinions about, and even attachments to, 
that policy. We would be fooling ourselves if we tried to deny that 
reality. But all the more reason for the DO, as professional 
intelligence officers, to assert their own first obligation to seek and 
report the truth. All the more reason that we must reaffirm that those 
who are responsible for covert action must not be in a position to 
produce, coordinate, or disseminate anything that is, or looks like, 
finished intelligence. At the same time, DI analysts must seek out the 
expertise in the DO, including in areas where covert action is 
involved, where operations and reports officers have great experience, 
expertise, and day-to-day working insights. A special burden falls on 
the leaders of joint DO-DI Centers, who must ensure that neither the 
perception nor the reality of politicization gets a toehold.
    There is one other potential problem that I need to talk about. As 
we all know, the DO frequently has information that for one reason or 
another is not formally disseminated. This may be especially true in 
cases involving covert action. The DO, in those cases, must make sure 
that the relevant analysts are made privy to the information they need 
to strengthen their analytical understanding and work.
    In discussing this topic, I would be remiss in not stating that, 
with a few exceptions, we have a long history of effectively making 
this partnership between the DO and the DI work--where the DI has 
earned a well-deserved reputation for independence and insight and the 
DO for reporting unblinkingly and accurately even when involved in 
covert action.
    In its examination of politicization, the task force concluded that 
``the solution to the problem of politicization, broadly defined, is 
not so much a matter of mechanisms as it is confidence in the integrity 
and capabilities of our people. For our recommendations to yield 
positive results, every Agency employee from the DCI on down must 
demonstrate adherence to the principles of integrity on which objective 
analysis rests, and civility, which fosters a trusting, creative 
environment.''
    While I agree that, first and foremost, attitudes must change to 
help us overcome the unease that politicization has produced among 
Agency employees, concrete steps should be taken to set a process of 
reconciliation and dialogue in motion. As I noted earlier, I fully 
endorse the task force's recommended actions. At the risk of reciting a 
laundry list of new initiatives, I would like to outline for you the 
measures that I have undertaken in an effort to address the problem of 
politicization.
    As a first step, I pledge to you today my firm commitment to ensure 
that analytic objectivity is at the core of every finished intelligence 
product and that the importance of people-oriented management is 
instilled at every supervisory level. I want to see this Agency excel 
in its mission; but to do so, its personnel must have a sense of value 
and feel that their contribution matters. I expect every manager in 
this organization to echo my commitment and foster an atmosphere of 
confidence and trust.
    To strengthen management skills and enforce accountability for good 
management, I have directed the DDI to initiate a zero-based study of 
DI management practices, to mandate that performance appraisal reports 
explicitly cite deficiencies in management related to charges of 
politicization, and to support initiatives to secure better feedback 
from personnel--such as the evaluation forms being developed by the DI/
MAG.
    In an effort to assist managers in cultivating the analytic talent 
of the people under their supervision, I have asked the DDI to ensure 
that DI managers devote greater attention and resources to practical 
on-the-job training of analysts--showing them how to gather evidence, 
assess sources, make judgments, and write up or brief their analysis, 
our so-called ``tradecraft.'' The DDI also should develop a DI 
``tradecraft'' manual and work with the Office of Training and 
Education to enhance the ``tradecraft'' training that analysts receive 
in formal courses. In addition, managers should rely more frequently on 
the expertise and experience of senior analysts to assist in developing 
new analysts.
    As a means of minimizing the chances for distortions and 
misperceptions caused by the review process, I have directed the DDI to 
institute practical measures to reduce layers of review, encourage 
greater flexibility and variety of formatting, and encourage fuller 
debate of substantive issues. To achieve these goals, a DI task force 
will be established to study the directorate's review and coordination 
process. At the risk of prejudging the task force's findings, I expect 
to see a noticeable reduction in the layers of review. In addition, I 
have asked the DDI to reserve his own substantive review to sensitive 
products intended for high-level consumers. I have not and will not 
become involved in the review process.
    To ensure that our consumers get the benefit of differing analytic 
perspectives and to demonstrate the directorate's openness to new ideas 
and thoughtful alternative viewpoints, I have asked the DDI to restate 
his support for the inclusion of well-reasoned, relevant, and factually 
supported alternative views in mainline products, and to appoint a 
committee to develop practical means to accomplish this goal.
    In an effort to remain vigilant to future instances of 
politicization, I have directed all major analytic components to 
establish and publicize procedures--within the chain of command--to 
deal with allegations of politicization. I also asked the DDI to 
appoint a fulltime ombudsman to serve as an independent, informal 
counselor for those with complaints about politicization, and he has 
asked Dave Peterson to take on that job. Dave will have access to me, 
the DDCI, the DDI, and all DI analytic products; he will counsel, 
arbitrate, or offer recommendations and have the authority to initiate 
inquiries into real or perceived problem areas. While Dave will be 
administratively located in the DI, he will be responsible for dealing 
with concerns about or allegations of politicization from throughout 
the Agency, as well as the NIC and estimative process.He will also 
publish an annual report that includes an assessment of the current 
level of concern and the effectiveness of measures being taken to 
alleviate it.
    I have directed that several other measures be taken to guard 
against politicization becoming a problem in the future. IG studies of 
analytic components shall specifically consider the effectiveness of 
the review and coordination processes, and the DDI should make relevant 
portions of IG studies of DI components available to a wider audience 
within the DI. The DDI should also mandate wider dissemination of 
studies by the Product Evaluation Staff, as well as increase the 
studies' emphasis on distortions of the product and process and on the 
use of alternative analysis. As a follow-up to the task force's 
efforts, a survey of DI analysts and managers should be conducted a 
year from now on the issue of politicization.
    Finally, the DDI and I are committed to encouraging open and 
continuing discussion throughout the DI and the NIC of politicization 
and will promptly take steps when allegations of problems arise, 
particularly in centers and task forces involved with DO operations. 
Specifically, I have asked the DDI to encourage all components to 
discuss politicization in general, and as it pertains to specific 
substantive issues, and to mandate that officers engaged in the conduct 
of covert action in areas where policy implementation and analytic 
functions are integrated shall not be involved in the formal 
coordination of finished analytic products. The DDI, the NIC Chairman, 
and the Deputy Director for Operations currently are developing 
guidelines to ensure that the entire intelligence production process, 
including the preparation of regular intelligence analysis, National 
Intelligence Estimates, briefings, etc., including in the DCI centers, 
are insulated from the influence of those with responsibility for 
implementing and supervising covert action.
    I, better than anyone, know that this directorate lives and 
breathes skepticism. It is, after all, our stock in trade. No area is 
so subject to skepticism--even cynicism--than senior-level rhetoric. 
``Show me'' is the watchword. So it should be. I intend to monitor 
closely the implementation of these instructions and ensure that they 
are carried out. This will be no paper exercise. Actions at every level 
and a sustained commitment will be required and, as we go along, the 
DDI and I will continue to welcome ideas in implementing the 
recommendations.
    At the same time, you and I both know that this kind of problem 
cannot be directed away. You cannot order integrity, you cannot demand 
that a culture preserve its ethics. In the end, preventing distortion 
of our analysis depends on where all of us draw the line day in and day 
out. We must draw a line:

    <bullet>  Between producing a corporate product and suppressing 
different views.
    <bullet>  Between adjusting stylistic presentation to anticipate 
your consumer's predilections, and changing the analysis to pander to 
them.
    <bullet>  Between making order out of chaos and suppressing 
legitimate debate.
    <bullet>  Between viewing reporting critically and using evidence 
selectively.
    <bullet>  Between avoiding wishy-washiness and pretending to be 
more certain than we are.
    <bullet>  Between being a team player and being a careerist.
    <bullet>  Between maintaining efficiency and suppressing legitimate 
debate.
    <bullet>  Between providing leadership and fostering a fearful, 
oppressive climate.

    I wish I could look back on my career in the DI--from analyst to 
DDI--and say that in each and every case over 25 years I have always 
drawn all these lines in all the right places. I can tell you, however, 
that as DCI I intend to do everything in my power to guarantee that 
analytic objectivity remains the most important of the core values of 
the Central Intelligence Agency.
    It is my sincere hope that the steps I have outlined will help 
alleviate the underlying causes of and concerns about politicization. 
Let me reiterate. In our efforts to be policy-relevant, we should not 
allow our analysis to become skewed in favor of one policy option or 
another. Nor should the views of one individual--manager or analyst--
prevail when wellsourced, well-reasoned arguments support a different 
set of judgments. We must improve the analyst-manager relationship, and 
the burden is largely on those who lead. Collegiality and honesty 
should be two key watchwords in our dealings. We must also avoid 
ascribing base motives to those with whom we disagree. Moreover, the 
analytic process should vigorously scrutinize all available evidence, 
including clandestine reporting, to ensure that underlying policy goals 
are not distorting our analysis.
    In closing, I want to emphasize that the underlying key to dealing 
with this issue of politicization is respect for individuals, trust in 
their judgment, confidence in their capabilities, and concern for their 
well-being. Managers must tell employees what is expected of them, and 
they must hold them responsible for following through. At the same 
time, however, managers must give employees the trust and confidence, 
as well as the training and control, they need to carry out the task. 
They must reward employees for their competence, creativity, and 
commitment to the analytic process.
    I want respect for the employee again to become a central value of 
this organization, and I want that value to run deep. Many managers pay 
lipservice to this. I want all of us to deliver, and I think we should 
be held accountable for doing so. Because trust begets trust, I am 
certain perceptions of politicization would be reduced in the process.
    I will make a commitment to you today. My door is always open to 
discuss this issue with you. If you believe your work is being 
distorted and you are not satisfied your managers are seriously 
addressing your concerns, I want to hear from you.
    I am very proud of the Directorate of Intelligence. I served in it; 
I led it; and I used its analysis to frame policy. I want to see it--
and the people in it--prosper. I have always been greatly impressed 
with the breadth and depth of expertise in the DI. I do not want 
anybody--inside or outside the Agency--to believe this expertise is 
tarnished by political considerations.
    I was uncertain how to present my message today--how exactly to say 
what I wanted to convey. So, I did what I have often done for years. I 
turned to the DI for help. I asked two members of the politicization 
task force each to give me a draft of what they thought I should say, 
and I asked them to choose two analysts--unknown to me--to do the 
same.. My remarks today are an amalgam of those four drafts and my own 
views. Though many of the words today originally were not mine, I 
believe wholeheartedly in what they express. The sentiments, the views, 
are mine if not every word. Those who helped me know who they are, and 
I thank them.
    Let me conclude then by simply reiterating that the absolute 
integrity of our analysis is the most important of the core values of 
the Central Intelligence Agency. Policymakers, the Congress, and the 
American people must know that our views--right or wrong--represent our 
best and most objective possible effort to describe the threats and 
opportunities facing the United States. They must know our assessments 
are the product of the highest quality and the most honest intelligence 
analysis available anywhere in the world. Thank you.

Historical Document
Posted: May 08, 2007 08:48 AM
Last Updated: Aug 04, 2011 12:49 PM

    Senator Reed. On behalf of Chairman McCain, let me thank 
the witnesses and adjourn the hearing.
    Thank you.
    [Whereupon, at 11:56 a.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Jim Inhofe
                           isil capabilities
    1. Senator Inhofe. General Austin, what are ISIL capabilities today 
compared to last year with regards to the number of fighters, combat 
and support equipment, weapons and ammunition, supply lines, and areas 
controlled?
    General Austin. [Deleted.]

    2. Senator Inhofe. General Austin, has the flow of foreign fighters 
increased or decreased over the past year? How is that determined?
    General Austin. [Deleted.]

    3. Senator Inhofe. General Austin and Secretary Wormuth, how is 
ISIL funding their operations? Where are they getting their weapons and 
ammunition?
    General Austin. [Deleted.]
    Ms. Wormuth. [Deleted.]

    4. Senator Inhofe. General Austin, what are ISIL's centers of 
gravity and how is the coalition going after those centers? Are we 
effective?
    General Austin. [Deleted.]

    5. Senator Inhofe. General Austin and Secretary Wormuth, does ISIL 
has access to chemical or biological weapons? If yes, have they used 
them? What is the likelihood of ISIL expanding their use in the region 
and outside the region? What are the implications?
    General Austin. [Deleted.]
    Ms. Wormuth. [Deleted.]
                                 syria
    6. Senator Inhofe. General Austin, what are our strategic 
objectives in Syria and what are our specific objectives with regards 
to ISIL and Assad? Are any of these objectives at odds with each other?
    General Austin. Our strategic military objectives in Syria are to 
degrade, dismantle and ultimately defeat ISIL in Syria through air 
strikes and other support to indigenous moderate Syrian forces.
    With regard to the Asad Regime, our military strategy is designed 
to shape the conditions that will lead to an eventual managed political 
transition of government that is capable of providing security and 
governance for the Syrian people.
    These objectives support ongoing diplomatic efforts to change the 
course in Syria. These military objectives complement one another by 
contributing to the desired end state of a secure Syria and enhanced 
regional security.

    7. Senator Inhofe. Secretary Wormuth, is the refugee crisis being 
caused by Assad, ISIL, or both? Can the flow of refugees be stopped 
without addressing the Assad regime and ISIL operations in Syria?
    Ms. Wormuth. The Syrian refugee crisis is an urgent humanitarian 
problem with complex causes. Four years of violence perpetrated by the 
Assad regime on its own population, as well as the recent barbaric 
extremism demonstrated by ISIL, have contributed to this humanitarian 
situation.
    There can be no viable solution in Syria without a negotiated 
settlement and transition of power between the regime and opposition 
forces. A lasting solution to the refugee problem will not be achieved 
until a political solution is reached and the Syrian people no longer 
feel threatened by their government or extremist groups such as ISIL.

    8. Senator Inhofe. Secretary Wormuth and General Austin, what is 
your assessment of what Russia is trying to accomplish in Syria through 
its military buildup of equipment and offensive capabilities? How does 
that impact United States objectives in Syria and the region?
    General Austin. [Deleted.]
    Ms. Wormuth. Russia's military buildup in Syria likely has several 
aims. Russia would like to protect its access to airfields and seaports 
in the Eastern Mediterranean, protect the Syrian government that 
enables Russian presence in Syria, portray itself as a security 
guarantor in the region, and engage in counter-terror operations.
    Russia has said publicly that it intends to combat ISIL and other 
extremist groups; however, it is clear that Russia and Assad do not 
distinguish between ISIL and the more moderate Syrian opposition 
groups.
    Russia's presence in Syria does not change United States 
objectives. We will continue our efforts to degrade and defeat ISIL, 
which poses a threat to the United States and the international 
community. We also will continue to engage with moderate opposition 
forces fighting ISIL inside of Syria, and we will continue to be the 
largest donor in addressing the humanitarian catastrophe in Syria, and 
beyond its borders. We, unlike Russia, are joined by a coalition of 65 
partners in those efforts. Furthermore, any military-to-military 
discussions that the Department of Defense may have with Russia 
regarding its presence in Syria will focus on safety procedures for 
coalition and United States personnel engaged in military operations in 
Syria. In no way will this take away from our strong condemnation of 
Russian actions in Ukraine, or change our sanctions and security 
support in response to those destabilizing actions. Russian 
responsibilities to uphold the Minsk agreements and to redress its 
illegal attempted annexation of Crimea are still valid, and our 
policies have not changed. We will continue our strong support for 
Ukrainian sovereignty and territorial integrity.

    9. Senator Inhofe. Secretary Wormuth, in your assessment, who fills 
the void if Assad is removed?
    Ms. Wormuth. [Deleted.]

    10. Senator Inhofe. General Austin, what coordination or 
communication have you had with your Russian counterparts?
    General Austin. Answer updated to reflect current operations. My 
staff participated in OSD-level discussions with the Russians on safety 
procedures for flight operations in Syria. I signed the Memorandum of 
Understanding on 20 October; the agreement regulates all aircraft and 
drone flights over Syria.

    11. Senator Inhofe. General Austin, does the presence of Russian 
military to United States and coalition forces increase the potential 
for conflict with Russia and/or Assad's forces?
    General Austin. We are actively exploring mechanisms to de-conflict 
Coalition and Russian military operations in Syria to prevent 
miscalculation, ensure safety of flight, and promote desired 
battlefield effects against the enemy, ISIL.
                                  iraq
    12. Senator Inhofe. General Austin, do they still need this type of 
support today? What happens in the long term if we again remove our 
support too soon?
    General Austin. Yes, our coalition training and equipping efforts 
are still necessary to build combat forces capable of opposing ISIL and 
liberating areas under ISIL control. Additionally, the Iraqi military 
will continue to rely on United States and Coalition air strikes to 
degrade ISIL's command and control, military capabilities, and 
sustainment and inhibit the enemy's freedom of movement. Air strikes 
thereby provide the Iraqi Army with the time and space needed to build 
combat power and confidence.
    Furthermore, based on recent history, we assess that removing 
Coalition support prematurely risks creating a void that will be 
quickly filled by others such as Iran, Russia, and/or China. In the 
absence of Coalition support, Iranian influence could serve to further 
repress the Sunni population and potentially ignite increased sectarian 
conflict in the region.

    13. Senator Inhofe. General Austin and Secretary Wormuth, what is 
the current presence of Iranian forces in Iraq? What is your assessment 
of Iranian long term objective in Iraq? How does that impact United 
States objective in Iraq and the region?
    General Austin. We assess there are several hundred Iranian 
officials in Iraq. This includes both Qods Force and regular Iranian 
Revolutionary Guard Corps personnel providing oversight, guidance, 
weapons, and sometimes direct operational support using UAVs, 
artillery, and other military systems. These personnel coordinate 
operations with elements of Iraq's security forces. Iran refuses to 
support operations in which the United States is involved. Iranians 
operate almost exclusively in support of the most militant elements of 
the Popular Mobilization Forces, such as Kata'ib Hizballah, Asaib Ahl 
al Haqq, Badr Organization, the Imam Ali Brigades, and others. Qods 
Force Commander Soleimani frequently travels to Iraq to oversee these 
efforts.
    Iran likely seeks to incorporate Iraq into what it calls the ``axis 
of resistance'' against the West. This axis includes Iran, Syria, 
Lebanese Hezbollah, responsive proxies throughout the region, and the 
recent inclusion of Russia which acts to weaken Western and Allied 
influence. As such, Iran seeks the following in Iraq: a Shiite 
Islamist-dominated central government with minimal Sunni involvement; 
security forces dominated by Iranian allies; minimal United States or 
Western presence; a protected Shiite population and Shiite holy sites; 
a neutralized ISIL threat; a viable economic partner; and a secure 
border.
    While Iran and the United States share the goal of defeating ISIL, 
Iran's long-term intent for Iraq is at odds with the United States 
vision of an independent, inclusive, representative government which 
operates according to international norms and is at peace with its 
neighbors. Iran seeks to maintain Iraq as a client state with minimal 
association with either the West or its Sunni neighbors. As Iran 
pursues these objectives, its close collaboration with Shiite militant 
groups presents a clear threat to the stability and security of Iraq. 
These forces act as Iran's action arm and do not consider themselves 
accountable to international law or the Government of Iraq (GoI), and 
often complicate Iraqi military operations as evident in the Iranian-
backed Shiite Militant Groups' focus on Fallujah while the GoI 
struggles to make progress in Ramadi. Over the long term, Iran's 
efforts to create a second security establishment that answers to 
Tehran further reduces the GoI's ability to recruit, train, and employ 
an effective cross-sectarian security force. Moreover, it limits the 
government's ability to act against corruption, terrorism, 
sectarianism, and instability, while offering Iran a lever of military 
power it can leverage against the GoI or any group that acts against 
Iran's interests.
    Ms. Wormuth. [Deleted.]
                               __________
              Questions Submitted by Senator Roger Wicker
                       syria political objectives
    14. Senator Wicker. General Austin, I'd like to discuss some bigger 
picture issues about Syria. It appears to me that a decisive strategy 
to counter ISIL requires strategic clarity on our desired political 
end-state in Syria. In January of this year, former Secretary of State 
Henry Kissinger testified to this committee that: ``Today . . . a 
situation like Syria where the two main contenders are violently 
opposed to America, violently opposed to each other, and a victory for 
either of them is not in our interests.'' General Mattis also testified 
to this committee in January that: ``I think in this case we have to 
get to a very detailed level of understanding what is the political 
objective we are out to accomplish. Frankly I don't know what it is 
right now.'' Has the President told you what our political objectives 
are in Syria right now?
    General Austin. The President has been clear in his guidance: ``We 
will degrade and ultimately destroy Islamic State of Iraq and the 
Levant.'' ``In Syria, the only way that the civil war will end--and in 
a way so that the Syrian people can unite against ISIL--is an inclusive 
political transition to a new government, without Bashar Assad--a 
government that serves all Syrians.'' ``It's going to require us to 
stabilize Syria in some fashion, and stabilizing Syria in some fashion 
means that we've got to get moderate Sunnis who are able to govern and 
offer a real alternative and competition to what ISIL has been doing in 
some of these spaces.''

    15. Senator Wicker. General Austin, what should our political 
objectives be in Syria--what is in the realm of the achievable?
    General Austin. I would defer to our civilian leadership to 
determine our political objectives. United States Central Command 
conducts military activities in support of set policy objectives. 
However, I do believe the common objective is the defeat of ISIL and a 
peaceful transition to a new government--without Bashar Assad--a 
government that serves all Syrians.

    16. Senator Wicker. General Austin, what are the objectives of our 
current air campaign in Syria and is the effort robust enough to 
achieve them?
    General Austin. The objective of our air efforts in Syria and Iraq 
is one part of the larger Coalition campaign to degrade, dismantle, and 
ultimately defeat ISIL. Air power provides critical enabling support, 
including intelligence, surveillance, and reconnaissance (ISR) and 
kinetic fires; through air interdiction of critical ISIL capabilities. 
While air power alone will not be able to achieve the campaign's 
overall objectives, our current air operations have degraded ISIL's 
ability to spread its influence within the region while at the same 
time generating additional time and space to allow the indigenous 
forces to build needed capability to effectively degrade and defeat 
ISIL.
                        ``iraq first strategy''
    17. Senator Wicker. The Obama Administration has indicated an 
``Iraq First'' strategy and the subsequent military campaign in Syria 
seems ill-defined. General Austin, what are the consequences of having 
a strategy that is divided by what is to the enemy a nonexistent border 
and also dividing it sequentially (``Iraq First'') as the 
Administration has done?
    General Austin. We view Iraq and Syria as one battlespace with 
respect to the fight against ISIL. However, there are differences 
between them in terms of access, availability of reliable ground 
forces, support from the governments, etc. We stated at the outset that 
Iraq is the main effort because there is a government that we can work 
with and some amount of reliable ground forces. Further, the Government 
of Iraq asked for our support and the support of our Coalition 
partners. Because they requested our presence, we have greater access, 
freedom of movement, and we're able to provide much-needed support by 
way of training and equipping the Iraqi security forces. Meanwhile, in 
Syria, we continue to put pressure on the enemy and limit his ability 
to operate in ungoverned spaces. By doing so, and by doing what is 
necessary to reestablish the border between Syria and Iraq, we will 
curb ISIL's ability to send in reinforcements and resupplies from Syria 
to Iraq. This will in turn alleviate the pressure from ISIL in Iraq and 
enable the Iraqi security forces to effectively counter the enemy and 
provide for the defense of their sovereign territory.
                          syria regime change
    18. Senator Wicker. General Austin, how does the United States not 
having the explicit goal of removing Assad affect support for United 
States efforts in Syria--by Arab and European coalition members and by 
Syrians who would like to be part of the moderate Syrian opposition?
    General Austin. We currently have 30 nations in the military 
coalition participating in combat operations, and that includes six 
regional partners. This strong and cohesive coalition maintains the 
shared goal to degrade, dismantle, and ultimately defeat ISIL in 
accordance with various national policies.
    That said, all countries have their own perspectives and their own 
priorities. The issue of Assad and the role he will play in Syria going 
forward is a very emotional one. Most will agree that there can be no 
future for Syria with Assad in power. However, there are some 
differences in opinion among members of the Coalition and regional 
partners with respect to how and when that transition should occur. We 
have to balance our campaign objectives with these diverse national 
caveats to ensure Coalition cohesion remains strong.

    19. Senator Wicker. General Austin, in your military judgement, how 
does the presence of Russian combat troops undermine the moderate 
Syrian opposition?
    General Austin. [Deleted.]
                 training and equipping moderate forces
    20. Senator Wicker. General Austin, what kind of support is 
essential to ensure the success of trained and equipped moderate 
opposition fighters we send back to Syria?
    General Austin. In order to maximize the potential for success, it 
is essential to provide Coalition trained New Syrian Forces reinserted 
back into Syria ammunition, materiel support, intelligence, 
surveillance and reconnaissance support, operational guidance, and 
fires support to fight ISIL. Even with Coalition support, training the 
New Syrian Forces and inserting them back into Syria is a long-term 
effort that requires time to achieve results. The option of Coalition 
boots on the ground should be retained as we seek to build our 
understanding of opposition groups. This option would allow us to find, 
understand, and create linkages with existing tribal networks. This 
will aid our effort to curb the flow of lethal aid and fighters into 
Iraq and Syria.

    21. Senator Wicker. General Austin, can they survive without that 
support?
    General Austin. Most Moderate Syrian Opposition forces fighting in 
Syria are poorly led, trained, and equipped. However, they are 
resourceful, adaptable, and dedicated to their cause. Yes, they can 
survive without Coalition support. However, the lack of or the 
provision of inadequate Coalition support could drive them to align 
with more extremist forces to ensure survivability and secure the 
resources they need to sustain the fight. Moderate Syrian Opposition 
forces require significant external support if they are to generate the 
required combat power to gain the initiative, draw fighters to their 
cause, and conduct offensive operations.
                               __________
               Questions Submitted by Senator Mike Rounds
                      number of displaced persons
    22. Senator Rounds. Secretary Wormuth, what is the number of 
displaced persons associated with wars in Iraq and Afghanistan? 
Indclude: 1. Number by country, 2. Number by category to include as a 
minimum the number displaced internally and the number of refugees by 
country, and 3. The number of religious minorities, e.g. Yazidis in 
either category
    Ms. Wormuth.

    Iraq
    According to the International Organization for Migration (IOM), 
nearly 3.2 million Iraqis have been internally displaced since January 
2014. For Iraqi refugees, the Department of State Bureau of Population, 
Refugees, and Migration (PRM) monitors refugees in Jordan, Turkey, 
Syria, and Lebanon. According to the United Nations High Commissioner 
for Refugees (UNHCR), 50,856 Iraqis have registered as refugees in 
Jordan since January 2013. In August 2015, UNHCR estimate that there 
were 144,000 Iraqis residing in Turkey. Humanitarian assistance is 
provided based on need, not ethnicity or religion. The Department of 
State (PRM) does not retain data of displaced persons based on 
ethnicity or religion, such as Yazidi persons displaced or held 
captive.

    Afghanistan
    Since 2002 with the fall of the Taliban, nearly 6 million Afghan 
refugees have returned to Afghanistan. Despite the large number of 
returnees, there are still 1.5 million registered Afghan refugees in 
Pakistan and nearly 1 million registered Afghan refugees in Iran, the 
two countries that host significant numbers of Afghan refugees. Many of 
these refugees left Afghanistan at the time of the Soviet invasion. As 
of June 2015, there are approximately 950,000 internally displaced 
persons in Afghanistan due to conflict. The Department of State (PRM) 
does not retain data regarding religious minorities in the registered 
Afghan refugee population, or those internally displaced.
                               __________
               Questions Submitted by Senator Joni Ernst
                      turkey and the c-isil effort
    23. Senator Ernst. General Austin, while I am glad to hear Turkey 
is taking some steps to tighten its borders and conducting operations 
against ISIL, it appears as though the Turkish government has mostly 
mobilized its political, military, and security apparatus not primarily 
to assist the coalition in defeating ISIS--but to fight the Kurdistan 
Workers party (PKK), destroy Kurdish political involvement in Turkish 
politics, prosecute media outlets critical of the Turkish government, 
arrest teenage boys for Facebook posts and journalist trying to do 
their jobs and report the news. As Turkish President Erdogan continues 
to focus and escalate his military operations against the PKK and the 
Kurdish opposition, what do you assess are the near and long term 
consequences to the stability of the counter-ISIL coalition and the 
coalitions overall effort to defeat ISIL?
    General Austin. Turkey's continued support is vital to maintaining 
pressure on ISIL, and the Turks' provision of bases for Coalition air 
operations and humanitarian support, access to border crossing sites, 
overflight authorizations, etc. continue to pay significant dividends. 
We condemn recent PKK terrorist attacks within Turkey and respect 
Turkey's right to self-defense. Any Turkish military response to those 
attacks is separate from their contributions to the counter-ISIL 
campaign. That said, turkey's actions directed at the PKK do serve to 
complicate an already complicated situation. It diverts much-needed 
resources and attention away from the primary focus which is the fight 
against ISIL. Although the conflict between the Turks and the PKK does 
not appear to threaten the cohesion of the Counter-ISIL Coalition, it 
does risk causing increased friction between the Syrian Kurds (YPG) and 
the Turks and potentially between the Kurds and the United States and 
other members of the coalition. Prior to the resumption of hostilities 
between the parties, a ceasefire had been in place since 2013. Ideally, 
we would like to see the Turks and the PKK return to a cease fire 
agreement.

    24. Senator Ernst. General Austin, do you believe it would be in 
the best interests of the counter-ISIL coalition and for the overall 
fight against ISIS if the Turkish government and PKK both immediately 
returned to the peace table and to a ceasefire?
    General Austin. It would be in the best interest of our partner 
nations, the people of the region, and the Counter-ISIL campaign if the 
competing parties would come together and find a peaceful resolution to 
their conflicts.

    25. Senator Ernst. General Austin, does your Turkish military 
counterpart consult or coordinate with you regarding Turkey's military 
operations against the PKK?
    General Austin. [Deleted.]

    26. Senator Ernst. General Austin, is United States Central Command 
(CENTCOM) providing any form of assistance to Turkey in support of 
Turkey's operations against PKK militants in Iraq or Turkey?
    General Austin. [Deleted.]

    27. Senator Ernst. General Austin, if CENTCOM is providing any form 
of assistance to Turkey in support of Turkey's operations against PKK 
militants in Iraq or Turkey, what kind of assistance does CENTCOM 
provide to support Turkey's operations against the PKK?
    General Austin. [Deleted.]
                                  iraq
    28. Senator Ernst. General Austin, a few months ago, while speaking 
in Iraqi Kurdistan, General David Petraeus said that Iran ultimately 
poses a greater long-term threat to Iraq's stability than ISIL. \1\ Do 
you agree with this assessment?
---------------------------------------------------------------------------
    \1\ Liz Sly, ``Petraeus: The Islamic State isn't our biggest 
problem in Iraq'', Washington Post, March 20, 2015. https://
www.washingtonpost.com/news/worldviews/wp/2015/03/20/petraeus-the-
islamic-state-isnt-our-biggest-problem-in-iraq/
---------------------------------------------------------------------------
    General Austin. What I believe General Petraeus said during his 
Washington Post interview was that Shiite Militia, some backed by Iran, 
are the foremost threat to Iraq's long-term stability. I do agree with 
that statement. Meanwhile, ISIL and other Sunni extremist groups 
threaten Iraq's stability now. Unless they are defeated or 
marginalized, they will continue to leverage deep-seated Sunni-Shiite 
tensions and broader Arab-Kurd tensions in order to maintain support in 
Sunni regions.

    29. Senator Ernst. General Austin, a few months ago, while speaking 
in Iraqi Kurdistan, General David Petraeus said that Iran ultimately 
poses a greater long-term threat to Iraq's stability than ISIS. If you 
agree with this assessment, please elaborate on why and how you are 
working to reduce this long-term threat to United States interests and 
to our Iraqi allies?
    General Austin. N/A. Refer to questions 28 and 30

    30. Senator Ernst. General Austin, a few months ago, while speaking 
in Iraqi Kurdistan, General David Petraeus said that Iran ultimately 
poses a greater long-term threat to Iraq's stability than ISIS. If you 
do not agree with this assessment, please elaborate on who is the 
greatest long-term threat to Iraq's stability.
    General Austin. I believe the greatest long-term threat to Iraq's 
instability is its own inability to resolve its Sunni-Shiite sectarian 
issues. The primary challenge remains reconciliation and overcoming the 
mistrust and rivalry among ethno-sectarian groups that have intensified 
by many years of conflict.

    31. Senator Ernst. General Austin, for fiscal year 2015, the 
Department received $1.6 billion for the Iraq Train and Equip Fund to 
train-and-equip the Iraqi Security Forces, Kurdish Peshmerga, Sunni 
tribes, and other local forces. I continue to see photographs in the 
open source media displaying Iranian controlled Iraqi Shiite militias 
with United States weapons and equipment. Are you arming Iranian 
controlled or supported Iraqi Shiite militias with American weapons and 
equipment?
    General Austin. The United States provides weapons and equipment 
directly to the Government of Iraq who then distributes it to forces 
that have been vetted consistent with Section 1236 and Leahy Laws and 
are under the direct command and control of the Government of Iraq in 
support of the Counter-ISIL. The United States does not provide support 
of any kind to Iranian-backed Shiite militants.

    32. Senator Ernst. General Austin, for fiscal year 2015, the 
Department received $1.6 billion for the Iraq Train and Equip Fund to 
train-and-equip the Iraqi Security Forces, Kurdish Peshmerga, Sunni 
tribes, and other local forces. I continue to see photographs in the 
open source media of Iranian controlled Iraqi Shiite militias with 
United States weapons and equipment. If you are not providing these 
United States weapons and equipment to Iranian controlled Iraqi Shiite 
militias, who is?
    General Austin. [Deleted.]

    33. Senator Ernst. General Austin, for fiscal year 2015, the 
Department received $1.6 billion for the Iraq Train and Equip Fund to 
train-and-equip the Iraqi Security Forces, Kurdish Peshmerga, Sunni 
tribes, and other local forces. I continue to see photographs in the 
open source media of Iranian controlled Iraqi Shiite militias with 
United States weapons and equipment. What types of United States 
weapons and equipment are being obtained by Iranian controlled Shiite 
militias?
    General Austin. Based on open source reporting, we assess Shiite 
militias have obtained, or at least have access to, limited numbers of 
M-198 towed howitzers, M113 armored personnel carriers, Navistar 7000 
general purpose trucks, M1A1 main battle tanks, High Mobility, Multi-
purpose Wheeled Vehicles (HMMWV), Mine Resistant, Ambush Protected 
Vehicles (MRAP), M4 carbines, and M16 rifles.

    34. Senator Ernst. General Austin, for fiscal year 2015, the 
Department received $1.6 billion for the Iraq Train and Equip Fund to 
train-and-equip the Iraqi Security Forces, Kurdish Peshmerga, Sunni 
tribes, and other local forces. I continue to see photographs in the 
open source media of Iranian controlled Iraqi Shiite militias with 
United States weapons and equipment. What specifically are you doing to 
prevent these groups from obtaining United States weapons and 
equipment?
    General Austin. I share your concern when I see these kinds of 
photographs in the open source media and assure you we adhere to 
stringent vetting and accountability procedures. We are also working 
diligently with the Government of Iraq to identify losses, assess the 
cause of the losses, and implement measures to prevent these groups 
from obtaining United States weapons and equipment in the future. 
Senior level discussions between the United States ambassador and 
senior Iraqi leadership have taken place to impress upon the Government 
of Iraq the need for accurate accountability. In addition, all United 
States-provided defense articles, whether purchased with Iraqi funding 
or granted to Iraq, are accounted for under federally-mandated End Use 
Management procedures that we believe the Iraqis are complying with.

    35. Senator Ernst. General Austin, there continue to be reports of 
ISIL using chemical agents to attack the Kurdish Peshmerga. Do you 
support providing Mission Oriented Protective Posture (MOPP) equipment 
and other CBRN defensive equipment to Peshmerga forces to enhance their 
force protection?
    General Austin. The chemical, biological, radiological and nuclear 
(CBRN) threat is one of many threats to the Iraqi Security Forces 
(ISF). I support the providing CBRN protective equipment to the 
Peshmerga through the Government of Iraq via the Iraq Train and Equip 
Fund authorized by the 2015 Department of Defense Appropriations Act.

    36. Senator Ernst. General Austin, this week Lieutenant General 
Stewart, Director of the Defense Intelligence Agency, in reference to 
the integrity of Iraq and Syria, said, ``I'm having a tough time seeing 
it come back together.'' \2\ That he was ``wrestling with the idea that 
the Kurds will come back to a central government of Iraq.'' \3\ Do you 
agree with that overall assessment?
---------------------------------------------------------------------------
    \2\ Ken Dilanian, ``DIA chief: Iraq and Syria may not survive as 
states'', Military Times, September 10, 2015. http://
www.militarytimes.com/story/military/pentagon/2015/09/10/dia-chief-
iraq-and-syria-may-not-survive_states/72027834/
    \3\ Ken Dilanian, ``DIA chief: Iraq and Syria may not survive as 
states'', Military Times, September 10, 2015. http://
www.militarytimes.com/story/military/pentagon/2015/09/10/dia-chief-
iraq-and-syria-may-not-survive_states/72027834/
---------------------------------------------------------------------------
    General Austin. We continue to encourage cooperation and support 
for a unified Iraq. However, I assess there will be continued friction 
between Arabs and Kurds over a number of territorial and legislative 
issues. The Counter-ISIL Coalition has been successful in supporting a 
unified government through our training and equipping ``by, with and 
through'' the Government of Iraq (GoI). To date the GoI and the Iraqi 
Kurdish Peshmerga have cooperated and coordinated in support of the 
Counter-ISIL campaign and we will continue to encourage this 
cooperation.
                       adversary efforts in syria
    37. Senator Ernst. General Austin, over the past few years, Iran 
and Russia have been crucial to the survival of the Assad regime. On 
the ground, Iranian proxy, Hezbollah, has been key in defending the 
Assad regime in ground combat over the past few years. According to 
recent statements by the DOD, Russia is establishing a forward 
operating base in Syria, sending in additional Russian military 
personnel and advanced military equipment. Is there trilateral 
cooperation between Assad, Iran, and Russia in efforts to conduct 
military operations against the Syrian opposition? If so, could you 
describe some of these efforts and how vital they are to the survival 
of the Assad regime?
    General Austin. [Deleted.]

    38. Senator Ernst. General Austin, over the past few years, Iran 
and Russia have been crucial to the survival of the Assad regime. On 
the ground, Iranian proxy, Hezbollah, has been key in defending the 
Assad regime in ground combat over the past few years. According to 
recent statements by the DOD, Russia is establishing a forward 
operating base in Syria, sending in additional Russian military 
personnel and advanced military equipment. If there is trilateral 
cooperation between Assad, Iran, and Russia in efforts to conduct 
military operations against the Syrian opposition, please describe some 
of these efforts and how vital they are to the survival of the Assad 
regime.
    General Austin. [Deleted.]

    39. Senator Ernst. General Austin, over the past few years, Iran 
and Russia have been crucial to the survival of the Assad regime. On 
the ground, Iranian proxy, Hezbollah, has been key in defending the 
Assad regime in ground combat over the past few years. According to 
recent statements by the DOD, Russia is establishing a forward 
operating base in Syria, sending in additional Russian military 
personnel and advanced military equipment. Do you believe Russia, in 
the near-term, will commit conventional forces to ground combat in 
support of the Assad regime?
    General Austin. [Deleted.]

    40. Senator Ernst. General Austin, over the past few years, Iran 
and Russia have been crucial to the survival of the Assad regime. On 
the ground, Iranian proxy, Hezbollah, has been key in defending the 
Assad regime in ground combat over the past few years. According to 
recent statements by the DOD, Russia is establishing a forward 
operating base in Syria, sending in additional Russian military 
personnel and advanced military equipment. Under what conditions do you 
believe Russia would commit conventional forces to ground combat in 
support of the Assad regime?
    General Austin. [Deleted.]

    41. Senator Ernst. General Austin, during the Hearing, GEN Austin, 
you told the Committee that the effort in training Syrian fighters 
against ISIL have fallen short and that other options were being 
explored to retool the program. Please describe in detail the different 
courses of action you recommended to deploy a credible moderate Syrian 
opposition force to defeat ISIL.
    General Austin. [Deleted.]
            potential impacts of the iran nuclear agreement
    42. Senator Ernst. General Austin, regarding the Administration's 
deal with Iran--I am concerned of potential consequences to our 
national security and the security of our allies in the Middle East 
brought by the prospect of providing Iran with potentially up to $150 
billion in sanctions relief. While a nuclear Iran would be the most 
dangerous outcome we could face--Iran, through its proxies in Lebanon, 
Yemen, Syria, and Iraq, have been able to dominate much of the Middle 
East with AK-47s, RPGs, Katyusha rockets, and a lot of other 
unsophisticated military hardware. Specifically, how may Iran's ability 
to better support the Assad regime and Shiite militias in Iraq alter 
the battlefield in Syria and Iraq?
    General Austin. Certainly our regional partners are concerned about 
the threat of Iran having a nuclear weapon. Some of our Gulf 
Cooperation Council partners do also acknowledge that the lifting of 
sanctions could be economically beneficial to the region if Iran 
adheres to the terms of the Joint Comprehensive Plan of Action (JCPOA). 
That said, none view the nuclear issue as being the only concern with 
respect to Iran. They are also very concerned about Iran's other malign 
activities, including the activities of Iran's Qods Forces, Iran's 
advanced cyber and theater ballistic missile capabilities, and their 
ability to mine the Straits. We continue to assure our partners that we 
share an interest in stability and non-proliferation in the region and 
intend to work closely together to further strengthen security 
cooperation in that strategically-important region.

    43. Senator Ernst. General Austin, what are the risks and concerns 
voiced by your Arab military counterparts in the Middle East regarding 
the president's Iran Nuclear Agreement?
    General Austin. Certainly our regional partners are concerned about 
the threat of Iran having a nuclear weapon. Some of our Gulf 
Cooperation Council partners do also acknowledge that the lifting of 
sanctions could be economically beneficial to the region if Iran 
adheres to the terms of the Joint Comprehensive Plan of Action (JCPOA). 
That said, none view the nuclear issue as being the only concern with 
respect to Iran. They are also very concerned about Iran's other malign 
activities, including the activities of Iran's Qods Forces, Iran's 
advanced cyber and theater ballistic missile capabilities, and their 
ability to mine the Straits. We continue to assure our partners that we 
share an interest in stability and non-proliferation in the region and 
intend to work closely together to further strengthen security 
cooperation in that strategically-important region.
                               __________
                Questions Submitted by Senator Mike Lee
                            progress in iraq
    44. Senator Lee. Secretary Wormuth, you stated in front of the 
House Armed Services Committee in early March that: ``ISIL's momentum 
has been blunted, its ability to mass and maneuver forces has been 
degraded, and its leadership cells have been pressured or eliminated, 
its command and control and supply lines have been disrupted. In short, 
we have put ISIL on the defensive.'' A little more than two months 
later, ISIS fighters routed ISF forces and overtook Ramadi, causing the 
Iraqi government to reconsider plans to attempt retaking Mosul and 
focus on western Iraq. Do you still stand by your March assessment of 
the progress made in Iraq in light of the fall of Ramadi and its 
failure to be recaptured? If your assessment was correct in March, what 
changed between March and May that allowed for this ISIS advance to 
occur?
    Ms. Wormuth. Yes, I stand by our March assessment. When we began 
the campaign against ISIL over a year ago, ISIL was pushing into 
Kurdish territory in northern Iraq and toward Baghdad. Over the past 
several months, ISIL has lost territory in both Syria and Iraq despite 
advances in Ramadi and Palmyra. We anticipated there would be setbacks 
in some areas while we make advances in others throughout this 
campaign. While Ramadi is an example of a setback and the unique 
challenges we face in western Iraq, it does not negate the progress we 
have made in other areas of the campaign including northeastern Syria 
and northern Iraq.
                           political solution
    45. Senator Lee. Secretary Wormuth, the administration has stated 
repeatedly that there must be a political solution to the crisis in 
Syria and Iraq, and that this solution must be driven largely by 
countries in the Arab world and Europe whose security and economies are 
more directly threatened and whose historical, ethnic, and religious 
ties give them a better position for mediation. What more needs to be 
done by these nations politically and militarily to more effectively 
leverage their positions? What further can the United States do to 
encourage and facilitate such actions by these countries? Do these 
countries, who are all concerned about regional stability, share the 
United States' priority of defeating ISIS, or do they prioritize other 
actions in the region?
    Ms. Wormuth. As President Obama has said, there is no military 
solution to the conflict in Syria and Iraq. Therefore we continue to 
support a political solution to the conflict in Syria through a genuine 
political transition away from President Assad. We have urged all 
concerned governments, including our Arab and European partners, to 
support this objective, including support to the United Nations' (UN's) 
initiative to broker a political transition.
    Additionally, more than 60 countries are participating in the 
coalition, which includes European and Arab countries, and they share 
our priority of defeating ISIL. Like the United States, many countries 
must balance focus on the ISIL threat with other national security 
priorities to include the growing impact of refugees. Despite this 
balancing effort, the Coalition remains firmly committed to countering 
ISIL as a step to stabilizing the region. From a military perspective, 
we currently have sufficient forces to enable large portions of the 
plan, though we continue to work with partners to fill shortfalls. The 
recent addition of Turkey to the military campaign has helped fill gaps 
in the air campaign both because of the aircraft they are providing 
and, perhaps more significantly, because the basing access they have 
granted significantly enhances the Coalition's operational flexibility 
and logistical efficiencies. In addition, the State Department and 
Special Presidential Envoy for the Global Coalition to Counter ISIL 
have organized five separate working groups, ranging from countering 
foreign fighters to stabilization efforts. These working groups provide 
forums by which the United States and its partners share information on 
a regular, recurring basis regarding the requirements for success in 
the overall campaign. I refer you to the State Department for more 
details on the political actions of the coalition.
                             arming of isis
    46. Senator Lee. General Austin, what is your assessment of United 
States and coalition efforts to disrupt the funding, recruitment, and 
arming of ISIS fighters? Have we seen increases or decreases in ISIS 
force structure in the past year, and are we effectively identifying 
and moving to dismantle the sources of weapons and finances for ISIS?
    General Austin. The efforts of the United States-led Coalition, in 
support of the indigenous forces on the ground in Iraq and Syria, are 
having a measurable impact on ISIL's overall capability. We've removed 
some 20,000 enemy fighters from the battlefield; and, they continue to 
recruit additional fighters and move them across the border, primarily 
from Turkey into Syria and then into Iraq. Additionally, though our 
airstrikes have had a significant impact in terms of degrading ISIL's 
weapon production facilities, the enemy is still able to smuggle 
explosives precursors, as well as rockets/mortars and small arms, 
across the Turkish border. Furthermore, we cannot rule out the 
likelihood of ISIL exploiting gray arms dealers and the black market to 
supplement its military needs in Syria and Iraq.
    Of note, over the past several months, we have slowed ISIL's 
ability to generate revenue by targeting the group's oil and gas 
production capacity and we continue to work to disrupt their ability to 
export/sell these products. From a whole of government perspective, we 
are actively disrupting ISIL's revenue generation on a daily basis 
(e.g., sale of antiquities, foreign donors, and extortion and taxation 
system). We have also made great strides in our efforts to close the 
major crossing sites between Turkey and Syria, which ISIL uses to 
funnel needed additional fighters, equipment, supplies and revenue. To 
date, continuing efforts by the Turks and anti-ISIL forces in northern 
Syria have secured 75% of these crossing sites. Over time, these 
efforts are expected to greatly decrease the number of foreign fighters 
entering the country.

    47. Senator Lee. General Austin, since ISIS, as far as we know, is 
not producing its own weapons and military equipment, what are the 
primary sources of their arms and why has it been so difficult to 
starve out their weapons and equipment?
    General Austin. ISIL primarily procures weapons from battlefield 
seizures of military weapons and equipment, both in Syria and in Iraq. 
Additionally, we cannot rule out the likelihood of ISIL exploiting gray 
arms dealers and the black market to supplement its military needs in 
both countries.
                                  isf
    48. Senator Lee. General Austin, one of the key factors in the 
failure of the Iraqi Security Forces (ISF) over the past year and a 
half has been a ``lack of will to fight'', as General Dempsey has 
called it. We can spend billions of dollars arming and training these 
individuals, as we did in the past decade, but these efforts will be 
futile if the individuals being trained are not adequately lead or if 
they don't believe that the sacrifices they are being called to make 
are worthwhile. What is your assessment of the ISF's leadership and 
their willingness to fight for the political leaders in Baghdad? Is the 
general population that comprises and supports the ISF interested in 
fighting ISIS to retake western and northern parts of Iraq, or are they 
more concerned with securing and defending their current holdings?
    General Austin. The ISF is comprised of and led by individuals with 
varying ethnic and sectarian interests. Although their interests align 
in terms of protecting their respective ethno-sectarian power bases and 
population centers, there are clear delineations in regards to 
protecting areas dominated by other ethnicities. The Shiite, for 
example, are not inclined to fight (and risk their lives) to liberate 
and hold Sunni areas. There are also varying degrees of capability 
among the different elements of Iraq's security forces. Iraq's Counter-
Terrorism Services (CTS), for example, have performed very well to 
date, as have those units trained by the Coalition through our building 
partner capacity program; in contrast, some elements of the ISF have 
performed less well and have shown less willingness to take the fight 
to the enemy. These elements, generally speaking, suffer from weak 
leadership. Strong and capable leadership will prove absolutely 
essential to the Iraqis' success going forward.

    49. Senator Lee. Secretary Wormuth, has the Iraqi government been 
successful in integrating more of Iraq's Sunni population into the ISF 
or in working with Sunni tribes in contested areas? Does the Iraqi 
government's reliance on Shiite militias and close connections to Iran 
further alienate Sunni groups who may otherwise be inclined to fight 
ISIS?
    Ms. Wormuth. We believe Prime Minister Abadi is committed to 
integrating Sunnis into Iraq's security forces. Prime Minister Abadi 
has taken positive steps to integrate the Sunni population, including 
his five-point plan to stabilize Anbar and outreach to Sunnis, 
commitment to passing a National Guard law, and push for political 
reforms. The Iraqis have now enrolled more than 6,000 Sunni tribal 
fighters in Anbar, which has been helped by our presence at Habbiniyah/
Taqaddum since this summer, and we expect this number to increase as 
the campaign evolves. Additionally, Sunni's are being trained as local 
police with the expectation they will be critical to the post-ISIL hold 
plan post-ISIL. The Department of Defense (DoD) remains concerned about 
the role of Iranian-aligned militias in Iraq because they have been 
known to intimidate politicians, undermine state control, and attempt 
to thwart the Prime Minister's positive outreach to Sunnis. DoD does 
not, however, believe there is an over-reliance on Shiite militias by 
the Iraqi government. The Iraqi Army and the Counterterrorism Service, 
in addition to the police, have played a lead role in operations in and 
around Ramadi. With coalition air and advising support, these forces 
have been making slow, but steady progress in re-claiming this key 
Sunni area from ISIL.
                              dod strategy
    50. Senator Lee. Secretary Wormuth, you stated in front of the 
House Armed Services Committee in March that the DOD is working with 
agencies across the nine lines of effort in Syria and Iraq to defeat 
ISIS. Which of these lines of effort have been completed or are moving 
at an acceptable pace in the right direction, and which lines of effort 
have been the most difficult to achieve? How would you assess progress 
on the first two lines of effort-supporting effective governance in 
Iraq and denying ISIL safe-haven?
    Ms. Wormuth. In general, progress across the nine lines of effort 
has been slow, but steady. Secretary Carter meets frequently with his 
counterparts to assess progress and challenges across the other lines 
of effort, and we are continuously adapting our efforts as the campaign 
evolves. There have certainly been setbacks in the past year as ISIL 
has adapted to evolving conditions on the battlefield, and I would not 
assess any line of effort to have been completed. We continue to face 
challenges, particularly in the messaging space. As the military 
campaign to deny ISIL safe haven continues, the Department of Defense 
(DoD) expects that there will continue to be challenges clearing and 
holding territory. But DoD has also seen progress in the past year, 
including the successful operations to recapture Kurdish territory in 
Iraq, to defeat ISIL in Kobani, recently to retake Tikrit, and other 
successful engagements such as the seizure of Sinjar and al-Hawl. On 
the political front, Prime Minister Abadi continues to demonstrate the 
resolve necessary to confront ISIL and is striving to manage a very 
difficult political landscape in Baghdad. The U.S. Government, with the 
State Department in the lead, has focused on bolstering support for PM 
Abadi.

    51. Senator Lee. Secretary Wormuth, what would be the impact on 
coalition strategy, especially the goals of a political transition in 
Syria and an inclusive government in Baghdad, if Iran uses access to 
new assets to increase its support of President Assad, Hezbollah, and 
the Shiite militias in Iraq?
    Ms. Wormuth. Our Coalition strategy, to degrade and ultimately 
defeat the Islamic State in Iraq and the Levant (ISIL), remains sound 
regardless if Iran takes actions that inflame regional tensions or that 
run counter to United States national interests. We assess that Iran 
will use the preponderance of sanctions relief from the Joint 
Comprehensive Plan of Action to address its significant domestic and 
infrastructure needs; however, we also expect Iran to apply some funds 
to its security services. Iran's support for Assad, the Lebanese 
Hizballah, and Shiite militias in Iraq is well known. The United States 
will continue to use its posture, preparations, plans, and partnerships 
to address the threats posed by Iran to United States interests in the 
Middle East. We remain keenly aware of Iran's support for militants and 
terrorists, its provocative naval activity, and the threats posed by 
its conventional military forces. The United States will continue to 
support efforts to hold Iran accountable for its destabilizing 
behavior. We will also work through the United Nations to enforce non-
nuclear sanctions and will maintain appropriate United States sanctions 
against Iran in response to its terrorist activities, human rights 
abuses, and ballistic missile program.
                                 jcpoa
    52. Senator Lee. General Austin, as the commander of Central 
Command, you are responsible for safeguarding U.S. Forces and our 
interests in the region as well as planning for future contingencies 
and giving advice on how certain actions by the U.S. Government will 
impact your ability to execute missions. The success or failure of the 
JCPOA (the Iran agreement), will have a significant impact on the 
threats our forces are posturing for in the CENTCOM area of 
responsibility. How often were you consulted by members of the State 
Department negotiating team during the negotiations for the JCPOA?
    General Austin. No one from the State Department consulted with me 
during the negotiations for the JCPOA.
                                 turkey
    53. Senator Lee. The United States has placed specific emphasis on 
engaging Turkey and incorporating them into the fight against ISIS. 
This puts us in an awkward position with our Kurdish allies, who have 
been the most effective fighters against ISIS and who are regarded with 
suspicion and hostility by the Turkish government. While the Kurds have 
seemingly prioritized fighting against ISIS forces threatening 
historically Kurdish lands, the Turkish government and many opposition 
groups in Syria place an equal or greater priority on fighting Assad 
forces-a priority shared with many extremist groups. General Austin, 
how does the United States, and how do you as commander of CENTCOM, 
deal with these competing priorities and sometimes-contradictory 
alliances when trying to coordinate coalition missions? What has been 
most problematic for you in managing these relationships?
    General Austin. We manage these challenges through open, honest, 
and frequent communications with and among our coalition partners and 
we make sure to involve them in the decision-making process as often as 
possible. U.S. interests are always our top priority and we do our best 
to work with our partners to mitigate any issues. Ultimately, the 
primary objective that binds the coalition together is the defeat of 
ISIL. To achieve lasting effects against ISIL requires credible and 
reliable forces on the ground and building the capacity of these forces 
takes time. The strength of the coalition is its cohesion. We 
anticipate, identify, and react to challenges as a group and work 
together to accomplish our shared mission.

    54. Senator Lee. Secretary Wormuth, you were at the forefront of 
negotiating with Turkey this summer to increase their involvement with 
the coalition. What was discussed in your meetings in regards to the 
Kurd's involvement in this coalition, and what were the specific 
demands of the Turkish government regarding policy towards President 
Assad?
    Ms. Wormuth. Our discussions this summer focused on both parties' 
desire to intensify our cooperation against ISIL. Turkey agreed to 
allow the United States access to air bases in Turkey and committed 
Turkish aircraft to Coalition strike missions.
    We were clear that the Coalition will continue to support the 
efforts of counter-ISIL forces in northern Syria, which includes Syrian 
Kurdish, Arab, and Turkoman fighters. We also communicated to Turkey 
and others the importance of avoiding tensions and provocative actions 
among those engaged in the fight against ISIL. Turkey had no specific 
demands in regards to President Assad.
    We support Turkey's right to self-defense and proportionate 
response to terrorism, and we encourage a return by both sides to the 
peace process. Turkey's counter-ISIL strikes are fully integrated into 
the Coalition; its national counter-PKK strikes are separate and de-
conflicted from Coalition air operations.
                               __________
                Questions Submitted by Senator Ted Cruz
                   cooking the books on intelligence
    The Department of Defense Inspector General's investigation into 
CENTCOM's intelligence assessments is extremely concerning. The 
American people need confidence that DOD's intelligence products are 
apolitical assessments that allow honest debate and, ultimately, the 
best-informed decision making. The intelligence community does not 
exist to mischaracterize a policy to suit a political agenda.
    The fight against ISIS is one of the most serious challenges to our 
national security, and Congress demands the unvarnished facts on 
President Obama's now year-long effort to combat them. Frankly, there 
is an enormous disconnect between the reports from the Department of 
Defense and the information widely available in the media. In August, 
for example, the DOD claimed that ISIS ``can no longer operate freely 
in roughly 25 to 30 percent of populated areas of Iraqi territory where 
it once could,'' \4\ while the same press release failed to comment on 
ISIS's growing influence in Libya, Yemen, the Caucuses, and even 
Europe. \5\
---------------------------------------------------------------------------
    \4\ http://www.defense.gov/News/Special-Reports/0814--Inherent-
Resolve.
    \5\ http://www.haaretz.com/news/middle-east/1.663214.

    55. Senator Cruz. General Austin, I understand there are 
limitations to what you can say about an ongoing investigation. 
However, it is important that we know your personal guidance regarding 
the intelligence estimates prepared by your command. Have you ever 
directed and guided your senior intelligence officers what on what 
acceptable reports will or will not include? Have you ever given tacit 
or overt instructions to omit any items from reports that reflect 
negatively on the campaign efforts to date?
    General Austin. No, I have never directed and guided any 
intelligence officers, on my staff or otherwise, on what was acceptable 
to include or not include in their reports, nor have I given tacit or 
overt instructions to omit any items from reports that reflect 
negatively on Counter-ISIL Campaign efforts. I have made it clear to my 
staff from day one of command that I expect them to provide me with 
honest and unvarnished assessments.

    56. Senator Cruz. General Austin, how confident are you that the 
problems with CENTCOM's intelligence products now under investigation 
are confined to the mission against ISIS? What assurances can you 
provide that there is no contagion into other areas for which CENTCOM 
is responsible? Please specifically address the current assessment of 
Russia's activities in Syria, and the current assessment of the 
potential nuclear dimensions of Iran's nuclear program.
    General Austin. These allegations are currently being investigated 
by the DoDIG; therefore, it is premature to state that there are, in 
fact, problems with CENTCOM's intelligence products. That said, because 
of the breadth and nature of the mission at CENTCOM we do rely on a 
robust intelligence enterprise to support the command. Our team of 
seasoned intelligence professionals does exceptional work. As a 
commander, I greatly value and seek their input and insights. I 
consider their assessments, along with inputs that I receive from a 
variety of other sources that include senior LNOs from other USG 
agencies and my commanders on the ground who I talk with on almost a 
daily basis. I consider this full range of inputs when making my 
decisions.
    As for Russia's activities in Syria and Iran's nuclear program, I 
stand by the intelligence that has been produced and the statements I 
have made to date.

    57. Senator Cruz. Secretary Wormuth, in July Secretary Carter and 
General Dempsey outlined 9 lines of effort to combat ISIS. I find it 
strange to hear the Defense Secretary tell Congress that the most 
important line of effort in a war against radical Islamic extremists is 
led by the State Department, while ISIS beheads, rapes, tortures its 
victims; holds entire cities that once belonged to a sovereign nation, 
and expands its influence beyond the region. It underscores that the 
Obama Administration's entire approach to ISIS is convoluted and 
incoherent. Which agency is running the war against ISIS within our 
government, the State Department or Department of Defense? What efforts 
are being made within DOD to address that this campaign now spans 
across at least three Combatant Commands?
    Ms. Wormuth. The President's strategy to defeat ISIL is, and must 
be, a whole-of government-effort that integrates all the nation's 
strengths and instruments of power. This war cannot be won through 
military power alone. Building a more effective, inclusive, and multi-
sectarian governance in Iraq is fundamental to ensure that ISIL cannot 
leverage sectarian grievances to propagate its influence. Similarly, 
the campaign cannot be successful without a political transition from 
Bashar al-Assad to a more inclusive government in Syria. In addition to 
these critical political efforts led by the State Department, the 
Department of Defense leads the military efforts to deny ISIL safe 
haven and to build partner capacity in Iraq and Syria. The DOD, working 
with coalition partners, is conducting a major air campaign against 
ISIL, advising and assisting Iraqi security forces on the ground, and 
training and equipping vetted local forces. Each of these lines of 
effort are interdependent and synchronized across the interagency and 
combatant commands to ensure sustainable military and non-military 
progress.
                 intent of russian air defense systems
    There have been numerous reports about Russia increasing military 
assistance to the Assad regime in recent days and weeks. It is clear at 
this point that the Russians have no interest in seeing the conflict 
end or helping to broker an agreement where Assad leaves power. 
However, one aspect about the increasing Russian intervention in Syria 
truly concerns me, and the Obama Administration has not adequately 
addressed it.
    Last week, there were several news reports that in addition to the 
tanks, marines, and other weapons that the Russians have been sending 
to Syria, they have deployed more anti-aircraft systems, operated by 
Russian troops. \6\ I find this particularly troubling.
---------------------------------------------------------------------------
    \6\ http://www.reuters.com/article/2015/09/11/us-mideast-crisis-
syria-arms-idUSKCN0RB1Q020150911
---------------------------------------------------------------------------
    This is clearly a message to us. ISIS has no air force for the 
Russians to target. This can't be viewed in isolation to the larger 
trend that Russia is severing all ties to the West, stoking anti-
Western sentiments across the globe, and digging in for a protracted 
ideological war against the United States. In Syria, it seems that 
Putin is trying to give us a reason to pause, even though we haven't 
been targeting Assad's forces, by placing assets that he could use to 
kill Americans flying missions against ISIS in Syria, as well as 
prevent the United States from actively targeting Assad in the future. 
This is another example of ineffective, weak, and incoherent strategy 
that invites adversaries to seize the initiative.

    58. Senator Cruz. Secretary Wormuth, you stated that ``we're in 
close touch with our allies and partners about these developments.'' 
Unfortunately, Putin doesn't care about us being in touch with our 
allies; he understands that we won't respond, and because we show 
weakness he does what he wants. He's doing it in Ukraine, he's doing it 
in the Arctic, and he's doing it here. Ms. Wormuth, what tangible steps 
are you taking in response to Russia's deployment of anti-aircraft 
systems into Syria?
    Ms. Wormuth. I will not go into the specific U.S. military 
responses to threats or systems in an open forum, but I am confident 
that the United States military has the capabilities to address 
Russia's anti-aircraft systems.
    In Syria, United States and Coalition aircraft always have the 
right to defend themselves if attacked. The United States and the 
Coalition will continue our ongoing air operations as we have from the 
very beginning.
    The Department of Defense is open to having limited technical air 
protocol discussions to ensure the safety of our pilots and our 
Coalition. These communications would be solely focused on safety and 
would not constitute cooperation with Russia. In no way will this take 
away from our strong condemnation of Russia's actions in Ukraine and 
the steps we are taking in response to those destabilizing activities.

    59. Senator Cruz. Secretary Wormuth, what recommendation would you 
make if a Russian missile shot down an American aircraft over ISIS 
controlled territory?
    Ms. Wormuth. If a Russian missile intentionally shot down a United 
States aircraft, I would recommend a swift and forceful response. I 
will not get into the details of what specific measures the United 
States would take, and the final decision on a response would be the 
President's.

    60. Senator Cruz. General Austin, have the Russians messaged or 
threatened American forces with this deployment of air defenses? Have 
they actively targeted or locked onto U.S. aircraft with radar systems, 
either in this region or elsewhere?
    General Austin. I am not aware of any incidents where the Russians 
directly messaged or threatened United States forces and they have not 
actively targeted or locked onto United States aircraft.

    61. Senator Cruz. General Austin, are you confident that our 
recovery capabilities in Syria are adequate to prevent Islamists from 
capturing an Airman that has to eject over ISIS controlled territory?
    General Austin. I will not put a single U.S. service member in 
harm's way without sufficient capability in place to support them and 
that includes quick reaction forces and personnel recovery 
capabilities. U.S. Central Command is prepared to dedicate all 
available resources in the event we have to conduct a personnel 
recovery operation for U.S. and Coalition air crews flying in harm's 
way in support of Operation INHERENT RESOLVE.



  UNITED STATES STRATEGY TO COUNTER THE ISLAMIC STATE OF IRAQ AND THE 
         LEVANT AND UNITED STATES POLICY TOWARD IRAQ AND SYRIA

                              ----------                              


                      WEDNESDAY, DECEMBER 9, 2015

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m. in Room 
SD-106, Dirksen Senate Office Building, Hon. John McCain 
(chairman) presiding.
    Committee members present: Senators McCain, Inhofe, 
Sessions, Wicker, Ayotte, Fischer, Cotton, Rounds, Ernst, 
Tillis, Sullivan, Lee, Graham, Reed, Nelson, McCaskill, 
Manchin, Shaheen, Gillibrand, Blumenthal, Donnelly, Hirono, 
Kaine, King, and Heinrich.

            OPENING STATEMENT OF SENATOR JOHN McCAIN

    Chairman McCain. Well, good morning. The committee meets 
today to receive testimony on the ongoing efforts of the United 
States to combat ISIL [Islamic State in Iraq and the Levant] as 
well as United States policy toward Iraq, Syria, and the 
broader Middle East.
    We welcome our distinguished witnesses and thank them for 
their appearance today as well as for their continued service 
to our Nation.
    This morning, our hearts are with the loved ones of the 224 
people killed aboard a Russian airliner over Egypt, of the 43 
people killed in bombings in Beirut, of the 130 people killed 
in Paris, and of the 14 people killed in San Bernardino. Each 
one of these atrocities committed or inspired by ISIL has 
occurred in just the month and a half since the Secretary last 
appeared before this committee. A year and a half since he 
appeared, and all of these things have happened. Whatever 
illusions anyone may have had that our national security was 
not at stake in the conflict in Iraq and Syria or that ISIL was 
somehow contained, these attacks make it clear that ISIL's 
threat against our homeland is real, direct, and growing, that 
we are not winning this war, and that time is not on our side.
    Americans have never been more worried about being attacked 
than at any time since the months that followed September 11th, 
2001. Today's hearing is essential to help the American people 
and their elected representatives understand what the 
Department of Defense [DOD] is doing to protect our Nation from 
this new terrorist threat.
    The administration says it has a strategy to destroy ISIL 
which it has called, quote, ``an indirect approach,'' unquote. 
This means that, instead of taking the fight to ISIL more 
directly, the administration seeks to build up local ground 
forces in Iraq and Syria, to support them with United States 
and coalition airpower, to enable our local partners to 
liberate their own lands, and to create conditions for lasting 
political settlements. Much of this is what many of us have 
been advocating for years. To be sure, we are making some 
progress. As I recently saw on a visit to Iraq with Senator 
Lindsey Graham, the recent operation to retake Sinjar was 
important. Iraqi forces are closing in on Ramadi, though they 
still have not finished the job. Our counterterrorism 
operations are taking a lot of ISIL fighters off the 
battlefield in Iraq and Syria.
    All of this represents tactical progress, and it is a 
testament to our civilian and military leaders as well as 
thousands of U.S. troops hoping--helping to take the fight to 
ISIL every day. However, significant challenges remain. The 
Iraqi Government is weak and beholden to Iran. The training of 
Iraqi Security Forces [ISF] has been slow. The building of 
support for the Sunni tribal forces, even slower. At the 
current pace, U.N. [United Nations]--U.S. commanders estimate 
that ISIL will still control Mosul at the end of next year.
    In Syria, what the administration calls its ``strategy'' 
looks more like a hope. We will not destroy ISIL until Raqqa, 
the capital of the caliphate, falls. But, there is still no 
ground force that is both willing and able to retake Raqqa, nor 
is there a realistic prospect of one emerging soon.
    The Syrian Kurds could take Raqqa, but won't. The Syrian 
Sunni Arabs want to, but can't, partly due to our failure to 
support them. What's worse, our military and diplomatic efforts 
are misaligned. Russia and Iraq are doubling down on Bashar 
Assad. Russia's airstrikes are still overwhelmingly directed at 
coalition-supported groups, and more talks in Vienna will not 
convince Vladimir Putin to abandon his idea of Russia's 
national interests in Syria. We need leverage to do that, but 
nothing we are doing, military or otherwise, is creating the 
necessary conditions, both in Putin's mind as well as on the 
ground in Syria, to achieve a favorable political settlement. 
As a result, the conflict will likely grind on, ISIL will grow 
stronger, and the refugees will keep coming.
    Meanwhile, ISIS [Islamic State in Iraq and Syria] is 
metastasizing across the region--in Afghanistan, Lebanon, 
Egypt, Yemen, and, perhaps most worryingly, in Libya. In short, 
the threat is growing and evolving faster than the 
administration's efforts to counter it.
    The broader shortcomings of the administration's approach 
has to do with two assumptions it appears to be making.
    The first is that time is on our side, that we can afford 
to play out their indirect approach for years while ISIL 
continues to hold key terrain, such as Raqqa and Mosul. Time 
has never been on our side in this conflict, and it certainly 
is not now, after Sinai, Paris, and San Bernardino.
    The second assumption is that we should not put U.S. forces 
on the ground, because that's what ISIL wants. It is true that 
ISIL seeks an apocalyptic conflict with the West, but another 
key pillar of ISIL's ideology is the creation of the caliphate. 
So, as long as ISIL can claim to possess its caliphate, it 
projects an aura of success that is its most powerful tool of 
radicalization and recruitment. There are no local forces that 
are able and willing to destroy ISIL's caliphate on the ground. 
If we will not commit our own forces, then we are accepting the 
existence of the caliphate.
    On Sunday, President Obama once again resorted to the 
strawman argument that his critics want to invade Iraq and 
Syria with 100,000 United States troops. No one--no one is 
calling for that. What we do need in Iraq is several thousand 
additional United States troops to improve and accelerate the 
training of Iraqi forces, especially Sunni tribal fighters, 
embed with and advise Iraqi units closer to the fight, call in 
airstrikes from forward positions, and conduct counterterrorism 
operations. Once ISIL is destroyed in Iraq, we must keep a 
residual force there, as we should have done before. If we 
leave again, the threat will return, and we will have to 
intervene again. Iraqis must win the peace, but America has a 
major stake in their success, and a unique role to play in 
helping them. To do so, we must be present.
    In Syria, the United States needs a coherent strategy to 
destroy ISIL and end the civil war as soon as possible. Our 
military efforts must create the conditions for this outcome. 
America must work with its coalition partners to establish and 
protect zones inside Syria where refugees can be safe, to deny 
the Assad regime the use of airpower and barrel bombs, and to 
impose costs on Russia for targeting moderate opposition 
groups.
    Ultimately, to destroy ISIL in Syria, we will need a 
multinational ground force primarily made up of Sunni, Arab, 
and European forces, but with a strong United States component, 
to do what no local force now can or will: retake Raqqa, 
destroy ISIL's caliphate in Syria, and prepare for a long-term 
stabilization effort.
    Beyond Iraq and Syria, we need to seize the initiative and 
roll back ISIS--ISIL's regional expansion. This will require a 
greater forward presence of U.S. military and intelligence 
teams that can map its networks, destroy them as part of a 
broader strategy to support countries and building just and 
inclusive governments.
    Finally, Mr. Secretary, we have known each other for many 
years. I know you to be a skilled and dedicated public servant. 
I think you are performing to the best of your abilities as 
Secretary of Defense, and I value our partnership on many 
issues. It is true that you have made four appearances before 
this committee as Secretary. But, when you were nominated for 
your position, you agreed to, quote, ``appear and testify, upon 
request, before this committee.'' Since your last testimony, as 
I mentioned, we have seen ISIL launch or inspire attacks in the 
sky over Egypt, in Beirut, in Paris, and here at home, in San 
Bernardino. We have also heard the administration roll out 
additional actions that it claims are needed to address this 
threat. If we are truly at war against ISIL, as the President 
says, then we will continue to expect the Secretary of Defense 
to provide regular updates to the
    Senate Armed Services Committee on the progress of that 
war. This is your responsibility to us so we can perform our 
responsibilities on behalf of those who elected us.
    Senator Reed.

                 STATEMENT OF SENATOR JACK REED

    Senator Reed. Well, thank you very much, Mr. Chairman.
    Let me welcome Secretary Ash Carter and General Paul Selva.
    This morning's hearing is extraordinarily timely, in light 
of several recent and very disturbing events, including ISIL 
claiming responsibility for the bombing of the Russian 
airliner, the attacks on innocent civilians in Beirut and 
Paris, and the deadly attack in San Bernardino by what appears 
to be self-radicalized individuals. Our hearts go out to the 
victims of these terrible and senseless tragedies.
    As the President outlined in his speech to the Nation on 
Sunday, it is critical that the U.S.-led 60-plus-nation 
coalition for defeating ISIL pursue a multidimensional 
approach. The United States and its coalition partners are 
intensifying their efforts to degrade ISIL militarily and deny 
their leaders any safe havens, to cut off ISIL financing, to 
interdict the flow of foreign fighters to ISIL-controlled 
territories, and to counter the spread of ISIL's murderous 
ideology that the President accurately characterized as part of 
a cult of death. Such an approach will require the careful 
coordination of military, intelligence, diplomatic, and law 
enforcement efforts to combat ISIL across the departments of 
the United States Government and within our coalition.
    Recently, the administration announced a number of steps to 
intensify our military efforts in Iraq and Syria. These include 
the deployment of A-10s to Turkey, the addition of Special 
Operations Forces in northern Syria to assist local forces, 
and, most recently, an announcement by you, Secretary Carter, 
of the intent to deploy, in full coordination with the 
Government of Iraq, an expeditionary targeting force to assist 
the Iraqi and Kurdish security forces in removing ISIL leaders 
from the battlefield. In addition, coalition partners, 
including Britain, France, and Germany, have stepped up their 
contributions to the fight against ISIL since the Paris 
attacks. I welcome--and I think we all do--these continuing 
efforts to reevaluate and enhance our military campaign, and 
would be interested in any further steps that may be under 
consideration to intensify the military pressure on ISIL in 
Iraq and Syria. I think we all agree that that intensity has to 
be increased significantly and rapidly.
    At the same time, a sustainable defeat of ISIL in the 
region requires that ground combat forces be primarily local 
forces, though United States Forces can, and I think should, 
provide critical advice, assistance, and enablers to assist 
these forces and go where they must go to assist these local 
forces. Putting large numbers of U.S. troops on the ground, as 
has been suggested, I think, by all my colleagues, in Iraq and 
Syria, could play, directly or indirectly, into ISIL's 
propaganda war.
    It's also clear that a sustainable outcome will only be 
possible with more inclusive governance by the Haider al-Abadi 
government in Baghdad and a political transition in Syria that 
puts an end to the brutality of the Assad regime. Russia's 
direct engagement in the Syrian conflict will continue to 
further reduce the chances of achieving an acceptable political 
solution, so long as the Russians remain focused on attacking 
the moderate Syrian opposition and claiming to be joining an 
anti-ISIL fight, where they are, in effect, trying to degrade 
the anti-ISIL--Assad forces.
    We will be interested in hearing from our witnesses 
regarding the progress of the campaign to defeat ISIL, the 
status of our efforts to train, equip, and assist local forces 
in Syria and Iraq, and then having--training them to help them 
seize territory and hold territory taken from ISIL control.
    General, I hope you can also address whether we now have 
the right command structure for Operation Inherent Resolve and 
whether our military commanders in theater have the flexibility 
they need to carry out the campaign plan.
    Finally, the committee would be interested to get an 
assessment from our witnesses of the factors contributing to 
the expansion of ISIL and associated groups beyond the Syria-
Iraq region, as the Chairman has pointed out, and what the 
Department needs to counter this threat that is burgeoning 
throughout the region.
    Again, thank you to the witnesses.
    Thank you, Mr. Chairman.
    Chairman McCain. Welcome, Secretary Carter and General 
Selva.

   STATEMENT OF HON. ASHTON B. CARTER, SECRETARY OF DEFENSE; 
 ACCOMPANIED BY GENERAL PAUL J. SELVA, USAF, VICE CHAIRMAN OF 
                   THE JOINT CHIEFS OF STAFF

    Secretary Carter. Thank you. Chairman, Ranking Member Reed, 
members of the committee, thank you for inviting me to discuss 
the U.S. counter-ISIL military campaign with Vice Chairman Paul 
Selva, here. Chairman Joseph Dunford is, as you know, currently 
visiting our troops deployed around the world this holiday 
season, conveying to them the thanks of a grateful Nation for 
all they do in our defense. I will soon be doing the same.
    Chairman, you're right, and Ranking Member Reed, we are 
intensifying the campaign, and have, in the six weeks since I 
appeared before you last time. I'm happy to be here today to 
describe what we're doing. It's very much along the lines of 
what you just described. That is, forces to accompany, to call 
an airstrike, to conduct counterterrorism strikes, and train 
and equip. So, I'll describe those actions which we're taking.
    Because the attacks in Paris and San Bernardino were an 
assault upon the civilization that we defend, ISIL requires, 
and it will receive, a lasting defeat. The President has 
directed us to intensify and adapt the military campaign----, 
or, I'm sorry, had directed us to intensify the military 
campaign before the Paris attacks. The necessity of 
accelerating our efforts, as we're doing, has only been made 
more plain by the recent attacks.
    We are urging others in the region and around the world to 
do the same, because those attacks further highlighted the 
stakes that not just the United States, but the world, has in 
this fight. The defense of the homeland must be strengthened, 
to be sure. But, it is absolutely necessary to defeat ISIL in 
its parent tumor in Syria and Iraq, and also to take necessary 
action wherever else in the world this evil organization 
metastasizes. Achieving these objectives means leveraging all 
the components of our Nation's might, as the Chairman noted: 
diplomatic, military, and law enforcement, homeland security, 
intelligence, economic, informational. That's the right overall 
approach, for three principal reasons:
    First, the strategy takes the fight to the enemy where they 
are, which we must do.
    Second, it seeks to develop capable, motivated, local 
ground forces as the only force that can assure a lasting 
victory. U.S. and international coalition forces can and will 
do more to enable them, but we cannot substitute for them.
    Third, it seeks to set the conditions for a political 
solution to the civil war in Syria and for inclusive governance 
in Iraq, both of which are essential, because they're the only 
durable ways to prevent a future ISIL-like organization from 
re-emerging there. That's why the diplomatic work led by 
Secretary John Kerry is the first and absolutely critical line 
of effort.
    The Defense Department, of course, is centrally responsible 
for the military campaign, which is the focus of my statement 
today. Through our and our coalition partners' actions, the 
military campaign must and will deny ISIL any safe territorial 
haven, kill or capture its leadership and forces, and destroy 
its organization, all while we seek to identify and then enable 
motivated local forces on the ground who can expel ISIL from 
the territory it now controls, hold it, and govern it, and 
ensure that victory sticks.
    Militarily, we're taking new steps each week to gather 
momentum on the battlefield in Syria and Iraq. I'll take a few 
extra minutes this morning to give as much detail as possible 
about the new things we're doing, applying multiple pressures 
on multiple fronts simultaneously to accelerate ISIL's defeat.
    The reality is, we're at war. That's how our troops feel 
about it, because they're taking the fight to ISIL every day, 
applying the might of the finest fighting force the world has 
ever known.
    In northern Syria, local forces, with our support, are 
fighting along the Ma'ra line, engaging ISIL in the last 
remaining pocket of access into Turkey. Meanwhile, a coalition 
of Syrian Arabs that we helped equip in northeastern Syria are 
fighting alongside Kurdish forces and have recaptured important 
terrain, most recently pushing ISIL out of the town of al-Hawl 
and at least 900 square kilometers of surrounding territory. 
They're now focused on moving south to isolate ISIL's so-called 
capital of Raqqa, with the ultimate objective of collapsing its 
control over the city.
    To build on that, President Obama, on my and Chairman 
Dunford's advice, ordered United States Special Operations 
Forces to go into Syria to support the fight against ISIL. 
American special operators bring a unique set of capabilities 
that make them force multipliers, such as intelligence-
gathering, targeting, and enabling local forces. Where we find 
further opportunity to leverage such capability, we will not 
hesitate to expand it.
    Next, in the south of Syria, we're also taking advantage of 
opportunities to enable indigenous fighters trained and 
equipped by us and other coalition partners to conduct strikes 
inside Syria. We're also enhancing Jordan's border control and 
defenses with additional military assets and planning 
assistance.
    Turning to northern Iraq, Peshmerga units, with the help of 
United States power, airpower, and advisors, have retaken the 
town of Sinjar, cutting the main line of communication between 
Raqqa and Mosul, which are the two largest cities under ISIL's 
control. To move people and supplies, ISIL must now rely on 
backroads, where we will locate and destroy them.
    Elsewhere in Iraq, we have about 3,500 troops at six 
locations in support of Iraqi Security Forces. There, we've 
been providing increased lethal fire and augmenting the 
existing training, advising, and assisting program. We're 
prepared to do more as Iraq shows capability and motivation in 
the counter-ISIL fight and in resolving its political 
divisions.
    After a frustratingly long time, we are starting to see 
some movement in the operation to recapture Ramadi. Over the 
past several months, the coalition has provided specialized 
training and equipment, including combat engineering 
techniques, like in-stride breeching and bulldozing, and 
munitions, like AT-4 shoulder-fired missiles, to stop truck 
bombs, to the Iraqi Army and its counterterrorism service units 
that are now beginning to enter Ramadi neighborhoods from 
multiple directions. In fact, in the last 24 hours, the ISF 
retook the Anbar Operations Center on the northern bank of the 
Euphrates River, across from Ramadi's city center. It is an 
important step, but there's still tough fighting ahead. ISIL 
has counterattacked several times, but, thus far, the ISF has 
shown resilience.
    The United States is prepared to assist the Iraqi Army with 
additional unique capabilities to help them finish the job, 
including attack helicopters and accompanying advisors, if 
circumstances dictate and if requested by Prime Minister Abadi.
    I mention all this because it represents how we've adapted 
in the way we support our Iraqi partners, and it shows that 
training, advising, and assisting helps, and works. We will do 
more of what works, going forward.
    While we're focused on making additional tactical gains, 
the overall progress in the Sunni-populated areas of Iraq has 
been slow, much to Prime Minister Abadi's and our frustration. 
Indeed, with respect to Sunni tribal forces, we are urging the 
Iraqi Government to do more to recruit, train, arm, mobilize, 
and pay Sunni popular mobilization fighters in their 
communities. We continue to engage the Iraqi Government at all 
levels to move forward on this critically important aspect of 
the counter-ISIL campaign, including working with Sunni local 
police to ensure that there's an Iraqi hold force to sustain 
future gains.
    Next, in full coordination, again, with the Government of 
Iraq, we're deploying a specialized expeditionary targeting 
force to assist the ISF and Kurdish Peshmerga forces and put 
even more pressure on ISIL through a variety of raids and 
intelligence-gathering missions. This force will also be in a 
position to conduct unilateral operations in Syria.
    In Iraq, the force will operate at the invitation of the 
Iraqi Government and focus on defending its borders and 
building the ISF's ability to conduct similar operations. We 
will not be discussing specifics of this expeditionary 
targeting force, or its operations, in unclassified settings, 
both to protect our forces and to preserve the element of 
surprise. We want this expeditionary targeting force to make 
ISIL and its leaders wonder, when they go to bed at night, 
who's going to be coming in the window.
    Chairman Dunford and I recognize that, in principle, there 
are alternatives to the strategic approach we have adopted to 
drive ISIL from Syrian and Iraqi territory, including the 
introduction of a significant foreign ground force, 
hypothetically international, but including United States 
Forces, even in the absence of capable, motivated, local ground 
forces.
    While we certainly have the capability to furnish a U.S. 
component to such a ground force, we have not recommended this 
course of action, for several reasons. In the near term, it 
would be a significant undertaking that, much as we may wish 
otherwise, realistically we would embark upon largely by 
ourselves. It would be ceding our comparative advantage of 
Special Forces, mobility, and firepower, instead fighting on 
the enemy's terms.
    In the medium term, by seeming to Americanize the conflicts 
in Iraq and Syria, we could well turn those fighting ISIL, or 
inclined to resist their rule, into fighting us instead. As 
Chairman Dunford testified last week, quote, ``ISIL would love 
nothing more than a large presence of United States forces on 
the ground in Iraq and Syria so that they could have a call to 
jihad.''
    Lastly, in the long term, there would still remain the 
problem of securing and governing the territory. These must be 
done by local forces. So, in the end, while we can enable them, 
we cannot substitute for them.
    Next, momentum on the ground, as I've described, in both 
Syria and Iraq has been enabled by greatly increased coalition 
airstrikes. Additional strike aircraft we've deployed to 
Incirlik Airbase in Turkey, along with improved intelligence, 
allowed us, in November, to significantly increase our 
airstrikes against ISIL to the highest level since the start of 
our operations in August 2014. Moreover, because of improved 
intelligence and understanding of ISIL's operations, we've 
intensified the air campaign against ISIL's war-sustaining oil 
enterprise, a critical pillar of ISIL's financial 
infrastructure. In addition to destroying fixed facilities, 
like wells and processing facilities, we've destroyed nearly 
400 of ISIL's oil tanker trucks, reducing a major source of its 
daily revenues. There is more to come, too.
    We're also improving our capability to eliminate ISIL's 
leadership. Since I last appeared before this committee, in 
late October, we have removed two more key ISIL figures from 
the battlefield; namely, ``Jihadi John,'' an ISIL executioner, 
and Abu Nabil, ISIL's leader in Libya. Like previous actions, 
these strikes serve notice to ISIL that no target is beyond our 
reach.
    As our military campaign intensifies on the ground and in 
the air, the Defense Department is also developing more 
strategic options in the cyberdomain.
    These, then, are just nine areas of the adaptations we've 
made over the past six weeks to accelerate this campaign and to 
see momentum build. President Barack Obama is committed to 
doing what it takes as opportunities arise, as we see what 
works, and as the enemy adapts, until ISIL is defeated in a 
lasting way. The President has consistently supported the 
recommendations from me and General Dunford, and we know he is 
prepared for us to bring him more. We will.
    At the same time that we're constantly looking to do more 
in the fight--in this fight, the world must do the same. The 
international community, including our allies and partners, has 
to step up before another attack like Paris. France was 
galvanized by the attack on its capital, and intensified its 
role. Britain has now expanded its air campaign to strike ISIL 
in Syria. Italy has deployed its most elite police units, like 
the Carabinieri, to assist in Iraq. Germany is now making 
additional contributions. The Netherlands is actively 
considering doing more, as well.
    But, we all--let me repeat that--all must do more. Turkey 
must do more to control its often porous border. Saudi Arabia 
and the Gulf states joined the air portion of the campaign in 
the early days--only the air part--but have since been 
preoccupied by the conflict in Yemen, both in the air and on 
the ground. Just this past week, I personally reached out to my 
counterparts in forty countries around the world in the 
coalition and asked them to contribute more--in many case, 
contribute much more--to enhancing the fight against ISIL. The 
types of things I've requested from our partners include 
Special Operations Forces, strike and reconnaissance aircraft, 
weapons, and munitions, training assistance, and other items.
    Meanwhile, as the Chairman noted, Russia, which is publicly 
committed to defeating ISIL, has instead largely attacked 
opposition forces. It's time for Russia to focus on the right 
side of this fight.
    Before I conclude, I'd like to respectfully request the 
committee's attention to matters that bear upon our security 
and its responsibilities:
    First, over a month ago, I submitted a request to the four 
congressional defense committees, including this one, to 
release holds on the final tranche of funds in the Syria 
equipping program; that is, some $116 million. We need these 
funds to provide and transport ammunition, weapons, and other 
equipment to further enable the progress being made against 
ISIL in Syria by partners like the Syrian Arab Coalition. All 
four committees have failed to act on that request. I ask you 
to release these holds, urgently. We should not be impeding the 
very momentum we are trying to build.
    Next is the necessity to fill key vacancies in the Defense 
Department's critical leadership positions. I have appeared 
before this committee, as noted, six times over the last ten 
months--four times on the Middle East, and twice in just the 
last six weeks, on ISIL. While this committee has held 58 full 
hearings over the last year, only three have been confirmation 
hearings for DOD civilian leaders. DOD currently has 16 
nominees awaiting the constitutional advice and consent of the 
Senate. Twelve of these 16 are still awaiting even a hearing, 
including our nominees to be Secretary of the Army, the Under 
Secretaries of each of our three military departments--Army, 
Navy, and Air Force--and the Under Secretaries of both 
Intelligence and Personnel and Readiness. These positions 
should be filled by confirmed nominees, especially in a time of 
conflict. So, I welcome that the process is now moving, and I 
urge it to move quickly for all of our civilian nominees and 
also for our senior military nominations that will be made 
early next year.
    Finally, as I conclude, I want to commend this committee on 
last month's budget deal, which is the kind of deal I called 
for back in March. It was a consequential agreement for the 
Nation's security. As current funding for the government is set 
to expire, it is vital that the two houses now conclude work on 
funding all of the government, consistent with the budget deal. 
Now is not the time for more gridlock.
    I thank this committee in advance for your efforts, because 
funding this budget deal is what our national security demands, 
and it sends the right message to our troops, our allies, and 
our enemies in this time of broad global national security 
challenges, and especially in this war.
    Thank you.
    [The prepared statement of Secretary Carter follows:]

         Prepared Statement by Secretary of Defense Ash Carter
    Chairman McCain, Ranking Member Reed, Members of the Committee: 
Thank you for inviting me to discuss the United States counter-ISIL 
military campaign with Vice Chairman Paul Selva. Chairman Dunford is, 
as you know, currently visiting our troops deployed around the world 
this holiday season, conveying to them the thanks of a grateful nation 
for all they do in our defense. I will soon be doing the same.
    The attacks in Paris and San Bernardino were an assault on the 
civilization we defend. ISIL requires, and it will receive, a lasting 
defeat. The President had directed us to intensify and adapt the 
military campaign before the Paris attacks. The necessity of 
accelerating our efforts, as we're doing, has only been made more plain 
by the recent attacks. We are urging others in the region and around 
the world to do the same, because those attacks further highlighted the 
stakes that not just the United States but the world has in this fight.
    The defense of the homeland must be strengthened, to be sure, but 
it is absolutely necessary to defeat ISIL in its parent tumor in Syria 
and Iraq, and also to take necessary action wherever else in the world 
this evil organization metastasizes. Achieving these objectives means 
leveraging all the components of our nation's might--diplomatic, 
military, law enforcement, homeland security, intelligence, economic, 
informational.
    That's the right strategic approach for three principal reasons. 
First, it takes the fight to the enemy where they are, as we must do.
    Second, it seeks to develop capable, motivated, local ground 
forces--as the only force that can assure a lasting victory. U.S. and 
international coalition forces can and will do more to enable them, but 
we cannot substitute for them.
    Third, it seeks to set the conditions for a political solution to 
the civil war in Syria and for inclusive governance in Iraq, which are 
essential because they are the only durable ways to prevent a future 
ISIL-like organization from re-emerging there. That's why the 
diplomatic work, led by Secretary Kerry and the State Department, is 
the first and absolutely critical line of effort in our strategy.
    The Defense Department is, of course, centrally responsible for the 
military campaign--the focus of my statement today. Through our and our 
coalition partners' actions, the military campaign must and will deny 
ISIL any safe territorial haven, kill or capture its leadership and 
forces, and destroy its organization--all while we seek to identify and 
then enable capable, motivated local forces on the ground who can expel 
ISIL from the territory it now controls, hold and govern it, and ensure 
that victory sticks.
    Militarily, we are taking new steps each week to gather momentum on 
the battlefield in Syria and Iraq. I will take a few extra minutes this 
morning to give as much detail as possible about the new things we are 
doing--applying multiple pressures, on multiple fronts, 
simultaneously--to accelerate ISIL's defeat.
    The reality is, we are at war. That's how our troops feel about it, 
because they're taking the fight to ISIL every day--applying the might 
of the finest fighting force the world has ever known.
    In northern Syria, local forces, with our support, are fighting 
along the Ma'ra line, engaging ISIL in the last remaining pocket of 
access into Turkey. Meanwhile, a coalition of Syrian Arabs that we 
helped equip in Northeastern Syria are fighting alongside Kurdish 
forces and have recaptured important terrain, most recently pushing 
ISIL out of the town of Al Hawl and at least 900 square kilometers of 
surrounding territory. They are now focused on moving south to isolate 
ISIL's so-called capital of Raqqa, with the ultimate objective of 
collapsing its control over the city.
    To build on that, President Obama, on my and Chairman Dunford's 
advice, ordered United States special operations forces to go into 
Syria to support the fight against ISIL. American special operators 
bring a unique set of capabilities that make them force multipliers, 
such as intelligence gathering, targeting, and enabling local forces. 
Where we find further opportunity to leverage such capability, we will 
not hesitate to expand it.
    Next, in the south of Syria, we are also taking advantage of 
opportunities to enable indigenous fighters, trained and equipped by us 
and other Coalition partners, to conduct strikes inside Syria. We are 
also enhancing Jordan's border control and defenses with additional 
military assets and planning assistance.
    Turning to northern Iraq, Peshmerga units, with the help of United 
States air power and advisers, have retaken the town of Sinjar, cutting 
the main line of communication between Raqqa and Mosul, the two largest 
cities under ISIL's control. To move people and supplies, ISIL now must 
rely on backroads, where we will locate and destroy them.
    Elsewhere in Iraq, we have about 3,500 troops at six locations in 
support of Iraqi Security Forces, or ISF. There, we've been providing 
increased lethal fire and augmenting the existing training, advising, 
and assisting program. We're prepared to do more as Iraq shows 
capability and motivation in the counter-ISIL fight and in resolving 
its political divisions.
    After a frustratingly long time, we are starting to see some 
movement in the operation to recapture Ramadi. Over the past several 
months, the coalition has provided specialized training and equipment--
including combat engineering techniques like in-stride breaching and 
bulldozing, and munitions like AT-4 shoulder-fired missiles to stop 
truck bombs--to the Iraqi Army and counter-terrorism service units that 
are now beginning to enter Ramadi neighborhoods from multiple 
directions.
    In fact, in the last 24 hours, the ISF retook the Anbar Operations 
Center on the northern bank of the Euphrates River across from Ramadi's 
city center. This is an important step, but there is still tough 
fighting ahead. ISIL has counter-attacked several times, but thus far 
the ISF has shown resilience. The United States is prepared to assist 
the Iraqi Army with additional unique capabilities to help them finish 
the job, including attack helicopters and accompanying advisors, if 
requested by Prime Minister Abadi.
    I mention all this because it represents how we've adapted in the 
way we support our Iraqi partners. It shows that training, advising, 
and assisting is the right approach. We will do more of what works 
going forward.
    While we are focused on making additional tactical gains, the 
overall progress in the Sunni-populated areas of Iraq has been slow, 
much to our and Prime Minister Abadi's frustration. Indeed, with 
respect to Sunni tribal forces, we would like to see the government do 
more to recruit, train, arm, and mobilize Sunni popular mobilization 
fighters in their communities. We continue to engage the Iraqi 
Government at all levels to move forward on this critically important 
aspect of the counter-ISIL campaign, including working with Sunni local 
police to ensure there is an Iraqi hold force to sustain any future 
gains.
    Next, in full coordination with the government of Iraq, we're 
deploying a specialized expeditionary targeting force to assist the ISF 
and Kurdish Peshmerga forces and to put even more pressure on ISIL 
through a variety of raids and intelligence gathering. While this force 
will also be in a position to conduct unilateral operations in Syria, 
in Iraq the force will operate at the invitation of the Iraqi 
Government and focus on defending its borders and building the ISF's 
ability to conduct similar operations. We will not be discussing 
specifics of this expeditionary targeting force or its operations in 
unclassified settings, both to protect our forces and preserve the 
element of surprise. We want this expeditionary targeting force to make 
ISIL and its leaders wonder when they go to bed at night, who's going 
to be coming in the window?
    Chairman Dunford and I recognize that in principle there are 
alternatives to the strategic approach we have adopted to drive ISIL 
from Syrian and Iraqi territory--including the introduction of a 
significant foreign ground force, hypothetically international but 
including U.S. Forces, even in the absence of capable, motivated, local 
ground forces. While we certainly have the capability to furnish a U.S. 
component to such a ground force, we have not recommended this course 
of action for several reasons:
    In the near-term, it would be a significant undertaking that, 
realistically, we would have to do largely by ourselves; and it would 
be ceding our comparative advantage of special forces, mobility, and 
firepower, instead fighting on the enemy's terms.
    In the medium-term, by seeming to Americanize the conflicts in Iraq 
and Syria, we could well turn those fighting ISIL or inclined to resist 
their rule into fighting us instead. As Chairman Dunford testified last 
week, ISIL ``would love nothing more than a large presence of United 
States forces on the ground in Iraq and Syria, so that they could have 
a call to jihad.''
    Lastly, in the long-term, there would still remain the problem of 
securing and governing the territory--these must be done by local 
forces. So in the end, while we can enable them, we cannot substitute 
for them.
    Momentum on the ground in both Syria and Iraq has been enabled by 
increased coalition airstrikes. Additional strike aircraft we've 
deployed to Incirlik Air Base in Turkey along with improved 
intelligence allowed us, in November, to significantly increase our 
airstrikes against ISIL, to the highest level since the start of our 
operations in August 2014.
    Moreover, because of improved intelligence and understanding of 
ISIL's operations, we've intensified the air campaign against ISIL's 
war-sustaining oil enterprise, a critical pillar of ISIL's financial 
infrastructure. In addition to destroying fixed facilities like wells 
and processing facilities, we've destroyed nearly 400 of ISIL's oil 
tanker trucks, reducing a major source of its daily revenues. There's 
more to come too.
    We're also improving our capability to eliminate ISIL's leadership. 
Since I last appeared before this committee in late October, we have 
removed two more key ISIL figures from the battlefield--Mohammed 
Emwazi, a.k.a ``Jihadi John,'' an ISIL executioner; and Abu Nabil, 
ISIL's leader in Libya. Like previous actions, these strikes serve 
notice to ISIL that no target is beyond our reach.
    As our military campaign intensifies on the ground and in the air, 
the Defense Department is also developing more strategic options in the 
cyber domain.
    These are just nine areas of the adaptations we've made over the 
past six weeks to accelerate this campaign, and we've seen momentum 
build. President Obama is committed to doing what it takes--as 
opportunities arise, as we see what works, and as the enemy adapts--
until ISIL is defeated in a lasting way. The President has consistently 
supported the recommendations from me and General Dunford and we know 
he is prepared for us to bring him more. We will.
    At the same time that we're constantly looking to do more in this 
fight, the world must do the same. The international community--
including our allies and partners--has to step up before another attack 
like Paris.
    France has been galvanized by the attacks in its capital, and the 
French have intensified their role. Britain has now expanded its air 
campaign to strike ISIL in Syria. Italy has deployed its most elite 
police units, the Carabinieri, to assist in Iraq. Germany is now making 
additional contributions. The Netherlands is actively considering doing 
more as well.
    But we all, let me repeat that, we all must do more. Turkey must do 
more to control its often porous border. Saudi Arabia and the Gulf 
states joined the air campaign in the early days, but have since been 
pre-occupied by the conflict in Yemen. Just this past week, I 
personally reached out to some 40 countries around the world to ask 
them to contribute, and in many cases contribute more, to enhancing the 
fight against ISIL. The types of things I've requested from our 
partners include special operations forces, strike and reconnaissance 
aircraft, and weapons and munitions.
    Meanwhile, Russia, which has publicly committed to defeating ISIL, 
has instead largely attacked opposition forces. It's time for Russia to 
focus on the right side of this fight.
    Before I conclude, I'd like to respectfully request the committee's 
attention to matters that bear upon our security and its 
responsibilities.
    First, over a month ago I submitted a request to the four 
Congressional defense committees, including this one, to release 
`holds' on the final tranche of funds in the Syria equipping program--
that is, some $116 million dollars. We need these funds to provide and 
transport ammunition, weapons, and other equipment to further enable 
the progress being made against ISIL in Syria by partners like the 
Syrian Arab Coalition. The committees have failed to act on that 
request, and I ask you to release these holds urgently. We should not 
be impeding the very momentum we are trying to build.
    Next is the necessity to fill key vacancies in the Defense 
Department's critical leadership positions. I have appeared before this 
committee six times over the last 10 months--four times on the Middle 
East, and twice in just the last six weeks on ISIL. While this 
committee has held 58 full hearings over the last year, only three have 
been confirmation hearings for DOD civilian leaders.
    DOD currently has 16 nominees awaiting the Constitutional advice 
and consent of the Senate. Twelve of those 16 are still awaiting even a 
hearing--including our nominees to be Secretary of the Army, the Under 
Secretaries of each of our three military departments--Army, Navy, and 
Air Force--and the Under Secretaries of both Intelligence and Personnel 
and Readiness. These positions should be filled by confirmed nominees, 
especially in a time of conflict. So I welcome that the process is now 
moving, and I urge it to move quickly for all of our civilian nominees, 
and also for senior military nominations that will be made next year.
    Finally, as I conclude, I want to commend this committee on last 
month's budget deal, which is the kind of deal I called for back in 
March. It was a consequential agreement for the nation's security.
    As current funding for government is set to expire, it is vital 
that the two houses now conclude work on funding all of government 
consistent with the budget deal. Now is not the time for games. I thank 
this committee in advance for your efforts, because funding this budget 
deal is what our national security demands. It sends the right message 
to our troops, our allies and our enemies in this time of broad 
national security challenges--and conflict.
    Thank you.

    Chairman McCain. Thank you, Mr. Chairman. In response--Mr. 
Secretary--in response to your last two points, one on the 
funding, we just received that request last week, but you know 
very well it's a result of the absolute failure of the 
expenditure of what was judged then to be $43 million and four 
or five people were trained. We don't want to approve of 
something like that again. We want to--if you want that kind of 
funding to train and equip, we want to know what the plan is, 
and we don't want to see a repetition of the testimony by the 
head of Central Command who said, ``Well, we have four or five 
less, and we've spent $43 million.'' We have an obligation to 
the taxpayers.
    On the nominees, there is four pending before the
    United States Senate today, and there is four more who will 
be having hearings this afternoon, which takes care of half of 
yours.
    I'm not going to waste the time of the committee to go back 
and forth about threats of vetoes that, in the view of the 
majority of this committee, were totally unjustified on the 
part of the President, including the failure, still--still, 
despite your appearance in my office with the President's 
counterterrorism person, that you were going to send me a plan, 
you were going to send this committee a plan on the closure of 
Guantanamo. We still haven't gotten that plan, Mr. Secretary.
    So, if you're a little bit concerned about a lack of 
movement, I've been a little concerned about a lack of movement 
on Guantanamo for the last seven years.
    Secretary Carter. Right.
    Chairman McCain. So, I will do what I can to get the four 
that are pending before the Senate today confirmed by the 
Senate, and I will--we will be having a hearing this afternoon 
on the four additional ones.
    So----
    Secretary Carter. Thank you, Mr. Chairman. Appreciate that.
    Chairman McCain. Thank you.
    Mr. Secretary, on the 1st of December, before the House 
Armed Services Committee, Congressman J. Randy Forbes asked 
General Dunford, quote, ``Have we currently contained ISIL?'' 
General Dunford, ``We have not contained ISIL.'' Mr. Secretary, 
do you agree with General Dunford?
    Secretary Carter. I agree with that General Dunford said, 
yes.
    Chairman McCain. So, if we have not contained ISIL, how are 
we to know--believe that we are succeeding against ISIL?
    Secretary Carter. I think that we are building momentum 
against ISIL. I'm going to be very careful about describing 
the--I have described the trajectory of that success all around 
Iraq and Syria, some actions we're taking in Libya. It's not my 
principal responsibility, but I met, yesterday, with the 
Secretary of Homeland Security, the Director of the FBI 
[Federal Bureau of Investigation], the Director of National 
Intelligence, and other officials, to talk about what we could 
do more to strengthen the defense of the homeland, as the 
Department of Defense. But, in our principal responsibility, 
which is to take the fight to Syria and Iraq, I've described 
the actions that we've taken just since----
    Chairman McCain. And----
    Secretary Carter.--I appeared last time, and I think they 
are building momentum----
    Chairman McCain. Thank you. How long do you think it'll be 
before we retake Mosul or Raqqa?
    Secretary Carter. With respect to Mosul, Mr. Chairman, it 
is hard to say, because it--that depends much on the progress 
of the Iraqi Security Forces, which I described, in building 
themselves into a more capable combat force.
    With respect to Ramadi, as I described----
    Chairman McCain. Raqqa. Raqqa. Raqqa.
    Secretary Carter. Oh, Raqqa. Well, Raqqa, there the--and 
you noted this, yourself, Mr. Chairman--the Syrian Kurds to the 
north have done an excellent job of clearing their territory. 
We're going to----
    Chairman McCain. They're not going to----
    Secretary Carter.--work with the Syrian Arabs----
    Chairman McCain. They're not going to go into Raqqa, and 
you and I know that.
    Secretary Carter. They're not going to go to Raqqa. No, no, 
no. No. It's--the Syrian Arab--it would be the Syrian Arabs.
    Chairman McCain. I guess the point is, Mr. Secretary, here 
we are with attacks on the homeland, the United States of 
America. We have not contained ISIL. We have no timeline--the 
timeline I was given when Senator Graham and I went over there 
was at least the end of next year before Mosul, and there is no 
plan, no strategy, to retake Raqqa. I think it's pretty obvious 
to all that, as long as they have a caliphate base, then they 
are able to orchestrate attacks such as they've successfully 
achieved in the last several weeks, whether it be the--Ankara, 
Russian airliner, southern Beirut, Paris, or San Bernardino. 
So, here we are with a--and you described some measures that 
are probably very helpful, but with no timeline of which to 
take out the caliphate from which there are many things 
happening, including, according to news reports, developing 
chemical weapons. So--and this is why I'm really puzzled.
    This morning, by the way, on one of the news shows, former 
head of the United States Army--Chief of Staff of the United 
States Army, General Ray Odierno, said we ought to have 
American contingent of troops on the ground. I, frankly, do not 
understand the logic in your statement about--said, while you 
certainly have the capability to furnish a U.S. component in 
such a ground force, ``we've not recommended, because it would 
be a significant undertaking.'' I agree. ``We would have to do 
it largely by ourselves.'' I do not agree. ``It would be ceding 
our comparative advantage''? We'd be--``And the meaning--in the 
medium term, it would seem to Americanize the conflicts.'' Does 
somehow--does anybody really believe that if the United States 
struck back against the people that just slaughtered some 
American in San Bernardino, that somehow that would encourage 
them? What encourages them, Mr. Secretary, is success. They 
have a pretty serious record, here, of success, just in the 
last several--couple of months since you were here.
    So, I do not understand why in the world you wouldn't want, 
as General Jack Keane, the architect of the surge, the 
successful surge, and others, military leaders, including, this 
morning, former Chief of Staff of the United States Army, a 
small component of American forces with an international force 
which could be--if the United States had the credibility, could 
be gathered and then go in and take out this caliphate. As long 
as the caliphate--I know of no expert who doesn't believe that, 
as long as this caliphate exists in Raqqa, they're going to be 
able to orchestrate attacks and metastasize, and maybe even 
move to Libya.
    So, maybe you can help the committee out again that this 
would somehow cede a comparative advantage if we went in with a 
large Arab force--the Turks and Egyptians, even, and other 
Sunni nations--and go in there and take those people out. 
There's 20 to 30,000 of them that--it's--they are not giants. 
So--but, finally----
    Secretary Carter. May I----
    Chairman McCain.--someone's going to have to convince me 
that airpower alone, and Special Operations Forces, are going 
to succeed in the short term in order to prevent further 
things, such as San Bernardino. I'd love to hear you response.
    Secretary Carter. A couple of things, Mr. Chairman.
    First of all, to your main point about more American 
forces--and I would say Special Forces, but others, as well, 
that train, advise, assist, and accompany--they're not Special 
Forces--we are doing----
    Chairman McCain. I was talking about a multinational force.
    Secretary Carter. Well, there, Mr. Chairman, as I 
indicated, I, too, wish that particularly the Sunni Arab 
nations of the Gulf would do more. And going way back----
    Chairman McCain. They are willing to do so.
    Secretary Carter.--to March----
    Chairman McCain.--if there's----
    Secretary Carter. I've had lengthy conversations with----
    Chairman McCain. So have I.
    Secretary Carter.--representatives there. Well, I have to 
say that I have consistently emphasized to them that they have 
a unique role, here, and also, insofar as they're concerned 
about Iran, which is another concern they have--and, by the 
way, that we have, also--totally different, but serious, 
subject also--that what I've emphasized to them is that we 
don't like it, but the Iranians are in the game, on the ground. 
I very much would like, and we would very much welcome--and 
we've repeatedly said this--working with those countries on the 
ground, because we believe, as you noted, that they have--would 
have a distinctive advantage in a ground fight.
    With respect to the Europeans, the Europeans have, 
generally speaking, offered to do more within their 
capabilities and capacities. I will note here--and there--this 
is uneven across Europe, but, in general, I am quite concerned 
with the level of investment that Europe is making in its 
militaries and its alliance and partnership therefore with the 
United States. There is much more that their economies would 
enable them to do, and that their history, as standing up for 
the same kind of civilized values that we stand up with, really 
require of them. So, while we're getting more from the 
Europeans--and I indicated I've asked for more--I'd like there 
to be still more. So, in that sense, I completely am with you.
    I just--I simply in--on the basis of my urgent and 
persistent consultations with them, am less--have less high 
hopes, perhaps, than you that they would assemble such a force. 
We would certainly welcome that.
    With that, I also don't want to----
    Chairman McCain. Could I just say that I urgently and 
fervently asked you for a strategy that you can tell us when 
we're going to take Mosul, when we're going to take Raqqa, and 
when we're going to wipe out this caliphate. Frankly, I have 
not seen that.
    General, did you want to add anything?
    General Selva. Sir, I would add three points.
    First, I agree completely that defending the homeland is 
our top priority.
    Second, taking the fight----
    Chairman McCain. That's helpful.
    General Selva.--taking the fight to the caliphate is what 
is going on today in Iraq and Syria. The combination of 
increasing the momentum with the movements in Iraq in Baiji, as 
well as in Ramadi, and partnering with Sunni----
    Chairman McCain. Again, General, there is no timeline for 
Mosul and Raqqa, which is the basis of the caliphate.
    General Selva. Sir, the fight on the ground defines the 
progress we will make against the caliphate. We have put 
significant pressure on northern Syria. We have taken--with 
Syrian Arab coalition partners, have taken significant ground 
in the north and the east of Syria. They are using the 
equipment that we have provided to put pressure on ISIL's main 
lines of communication between Raqqa and Mosul. To provide a 
timeline would deny the fact that the enemy on the ground gets 
a vote, but they do not have freedom of maneuver. They do not 
have operational freedom of maneuver, they do not have tactical 
freedom of maneuver.
    Chairman McCain. General, they were just able to 
orchestrate an attack in San Bernardino, California.
    My time is long ago expired.
    Senator Reed.
    Senator Reed. Well, thank you very much, Mr. Chairman.
    Mr. Secretary, we've all come to the conclusion we need 
American forces on the ground. The question, very generically, 
is how many, and what are they going to do? This is a unique 
situation, but we've got some analogies, or at least examples. 
One, in Enduring Freedom, we sent in specialized teams of U.S. 
personnel and--airpower--and, together with local forces, were 
able to disrupt and then ultimately defeat the Taliban. In 
Iraqi Freedom, we sent in conventional forces, we won a very 
swift and brilliant conventional victory, and then were 
confronted with instability and counterinsurgency. It would 
seem to me that you're tending to favor the former model, which 
would be to have specialized troops in there with our airpower, 
et cetera, and that the constraining factor right now is the 
local indigenous forces on the ground, particularly Arab 
forces--not Kurdish forces, but Arab forces. I am told there's 
about 100, sort of, new Syrian fighters that have been trained, 
that are on the ground, that are the potential. Can you 
elaborate on those comments?
    Secretary Carter. I can. First of all, with respect to the 
Afghan experience, I agree with your general analysis of the 
history of those two incidents. That was a circumstance, in 
2001 and 2002, where we were able, very rapidly and extremely 
effectively, to leverage a preexisting indigenous force--
namely, largely the Northern Alliance--which we had, over the 
previous, geez, decade or so, built up in order to fight the 
Soviets. They actually succeeding at expelling the Soviets from 
Afghanistan. That force, that organization, and other 
organizations of the so-called Mujahideen in those days, we 
could quickly link up with again. By providing them--enabling, 
exactly in this manner, they would advance. That would cause 
the Taliban to expose their positions, and we could cream them 
from the air. So, that was a perfect example--ideal. We'd like 
to replicate that. Of course, in this current circumstance in 
Syria and Iraq, we're having to build those forces, and they 
don't exist in the same way that they did in the Northern 
Alliance.
    With respect to the new Syrian forces--and it gets back to 
the funding issue--we did change our approach to training and 
equipping Syrian forces. Our early experience there was 
disappointing. I've said that. I always told you I'm going to 
be very honest about things. That didn't work out very well, 
because we were trying to build units from scratch. What our--
the new approach--and by--the one we're asking you to fund, and 
we are providing--I'm willing to send up a team today to brief 
you further on what we're looking for. But, we really need this 
agility if we're going to fight a war, so I'd plead with you to 
take the briefings or whatever. We have a reason for requesting 
this money. It's different from the old program. We learned our 
lesson. We're doing something different, which is this. We're 
taking units that have already formed and have undertaken to 
combat ISIL. The Syrian Arab coalition is an example of that. 
Instead of making--trying to create a brand new force or 
recruit a brand new force--and then put them, including by 
being on the ground with them, but especially equipping them 
and providing them with airpower, amplifying their power. We 
hope--and this gets to the Chairman's question about a timeline 
for Raqqa--the--that if we make them successful as they move 
further south--remember, now these are Syrian Arabs, not 
Kurds--the Chairman rightly noted wouldn't be appropriate for 
us----
    Senator Reed. Right.
    Secretary Carter.--to attack largely Arab Raqqa--that they 
and their success will build, so to speak, a snowball that 
accumulates more fighters as they go. As that accumulates and 
there are more of them, we'll do more in--to fall in behind 
them, with the objective, then, of them taking Raqqa, which 
would be a very important victory in the heart of ISIL 
territory.
    Senator Reed. Thank you.
    General, quickly, the command arrangements. General Sean 
MacFarland is now the joint commander with operational control 
both in Iraq and Syria, I understand. Are you satisfied, and 
General Dunford satisfied, that you have the best framework for 
command now to integrate all of the DOD elements and ancillary 
elements you need?
    General Selva. Yes, sir. The Joint Task Force command 
structure in Baghdad that covers both Iraq and Syria is more 
than adequate to cover the military maneuver that's required 
and to orchestrate the forces that are required, and has the 
support of Central Command's headquarters as a oversight and 
supporting headquarters.
    Senator Reed. They have the flexibility to make critical 
decisions in a timely way without sort of second-guessing up 
and down the line?
    General Selva. Yes, sir.
    Senator Reed. Thank you, Mr. Chairman.
    Chairman McCain. Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I appreciate your remarks. There's a great deal of 
frustration, Secretary Carter, and concern that we're drifting 
and reacting and not in--don't have the kind of plan that will 
lead to success, number one.
    Number two, I understand now the President says he wants an 
authorization of force. But, because of the difficulties and 
bungling I think that we've seen so far, we're going to have to 
know what you're going to do, how you're going to do it, how 
it's going to be successful. That is not clear. It's not clear 
to the American people. It's not clear to Congress, not clear 
to our European allies, our allies in the Middle East, or our 
enemies. That's a problem we've got. It's just very real.
    Secondly, I think that Secretary Bob Gates was correct to 
say we need an overarching strategy for this whole deal with 
Islamic extremism in maybe 20, 30, 50 years. We've used the 
word ``containment'' to deal with that. However, that does not 
mean that, in a long-term strategy of containment of extremism, 
that we don't have to act decisively and militarily now.
    I just think, and I shared with you, that we're--I believe 
the Defense Department is underestimating the significance of 
the refugee crisis, the impact it's having in Europe, the 
impact it's having in the United States, what's happening from 
all this disorder and the flee of human beings and the deaths 
that's being caused and the humanitarian disaster that's out 
there.
    So, it seems to me, does it not to you, that a prompt, 
decisive action to create safe zones in Syria, where people 
don't have to flee their home country, can be kept safe there, 
would be positive as a matter of humanity and as a military 
possibility?
    Secretary Carter. Thank you, Senator. I'll begin, including 
on the safe zones, and then perhaps ask the Vice Chairman to 
add in. He's done a lot of work on that, as well.
    I'll just note, with respect to the AUMF [Authorization for 
Use of Military Force], that we have the--I'm not a lawyer, but 
I'm told, and I'm glad, otherwise it would be a problem--we 
have the authority, legal authority, to do what we want to do. 
The AUMF, as I've testified, that the President submitted would 
also allow us to do everything we need to do in this campaign.
    Senator Sessions. Well, just don't blame the Congress----
    Secretary Carter. And----
    Senator Sessions.--for not rubberstamping it immediately--
--
    Secretary Carter. Yeah. No, I understand----
    Senator Sessions.--if we don't understand what the----
    Secretary Carter. I think it's okay. In fact, I didn't even 
mention it, for just that--for just that reason.
    You're right. I--I associate myself with you about acting 
decisively. I do recognize that there may be decades of 
combating radicalism, in general. But, we need to go after ISIL 
in its parent tumor, in Iraq and Syria, now, and urgently. So, 
I associate myself with that point of view.
    Refugees is a tragic matter. By the way, I--just a reminder 
that only about half of other refugees are actually from Syria. 
They are also, importantly, from Libya, from Afghanistan, from 
throughout Africa. While there are women and children and--
caught up in this circumstance, the great bulk of them are 
young people, mostly male, and professionally oriented, who are 
looking for work. That's why German companies are at the train 
station, recruiting them off the trains for their companies. 
That's the reality. But, what does that mean for the countries 
from which they come? It's a tremendous talent drain, as well 
as a humanitarian issue. So, all the more reason why in Syria, 
to the extent that's part of--a major part of the refugee 
crisis, we have to get an end to the civil war there and get a 
government that can govern decently. Assad's government is not 
that.
    With respect to safe zones, we have thought about that. 
I've certainly thought about that a great deal. I'll begin and 
describe--the concept of a safe zone would be to create a patch 
of Syria that--wherein people who are inclined to go there 
could go there and be protected. They would need to be 
protected, because you can foresee that at least ISIL and other 
radical groups, and quite possibly elements of the Assad 
regime, would undertake to prove that it wasn't safe. So, it 
would have to be made safe, and that takes us back to the 
question of who--what's the--an appropriate force of that size 
to protect a zone of that size? It's--in our estimates, it's 
substantial. Again, I don't see, much as I wish otherwise, 
anybody offering to furnish that force.
    I also think we have thought about who might want to reside 
in such a zone. I think it would undesirable if it became a 
place into which people were pushed, say, from Turkey or 
Europe, expelled, so to speak, into this zone. I don't know 
what the people who now live in the zone would think about 
other people coming into the zone. That would have to be taken 
into account--and whether other people want to live there.
    So, it's--so, we have thought about it. It's complicated. 
We have not recommended that, because it's an undertaking of 
substantial scale, wherein I--my judgment, the costs outweigh 
the benefits.
    Let me ask General Selva----
    Senator Sessions. Just--before you answer, on--a major 
European Ambassador told me that the Europeans have recommended 
that, and the United States has said no. Is that correct?
    Secretary Carter. No European defense leader has indicated 
a willingness to do that and contribute to a force to do that.
    Senator Sessions. Well, I asked him twice. I said, ``So, 
you've recommended that, and the United States is the one 
saying no?'' That's what he said, ``Yes.''
    Secretary Carter. I haven't observed that, no.
    Chairman McCain. Senator McCaskill.
    Senator McCaskill. Thank you.
    If you would disagree with any of these statements, I'm 
going to summarize a letter that General Lloyd Austin sent to 
Senator King about what is the situation in the fight against 
ISIL.
    Number one, ISIL is losing territory. Correct? I won't go 
into all the details that delineate the territory they've lost, 
but--because I don't want to take the time, but certainly it's 
factually available to any member of the committee or any 
American.
    Secondly, ISIL is losing leadership. Correct?
    Secretary Carter. Yes.
    Senator McCaskill. We've--we have, in fact, taken out more 
than 100 of ISIL's leadership, including the Special Ops taking 
out their chief financial officer, where we gained a great deal 
of intelligence about what was funding ISIL. Secondly, air 
strikes taking out their online recruiting campaign, the cyber 
caliphate, and also the top commander in Libya. Correct?
    Secretary Carter. That--that's--and ``Jihadi John,'' the 
executioner, another one of note. But, there are many, yes.
    Senator McCaskill. We have taken--and they are losing 
funding, correct?
    Secretary Carter. That is correct.
    Senator McCaskill. We have--the coalition airstrikes have 
destroyed hundreds of oil transport trucks just in the last 30 
days----
    Secretary Carter. That's----
    Senator McCaskill.--correct?
    Secretary Carter.--true.
    Senator McCaskill. In addition to oil operations 
infrastructure that we have taken out with our airstrikes.
    Secretary Carter. True also.
    Senator McCaskill. Okay. So, one of our colleagues, who is 
not here today, which is interesting, considering this would be 
a pretty important hearing if you're running for President, he 
has said, quote--this is Senator Cruz--has said, ``We will 
utterly destroy ISIS. We will carpet-bomb them into oblivion. I 
don't know if sand can glow in the dark, but we're going to 
find out.''
    How many women and children would be involved if we carpet-
bombed the areas where ISIS is currently a stronghold? What are 
we talking about, in terms of lives lost of women and children 
in those areas? Does anybody have an estimate?
    Secretary Carter. I--Senator, I'll let General Selva speak 
that. That is, of course, not our approach. We are very 
effective from the air, but we take some----
    Senator McCaskill. We're surgical.
    Secretary Carter.--which is able to be effective. We're 
able to be effective, while minimizing collateral damage.
    Senator McCaskill. One of the reasons the locations we took 
out was so important is, now we've forced their transport 
trucks out into the open, where we can find them and take them 
out; whereas, when they're in the city center, we'd kill 
thousands of innocent people, correct?
    General Selva. Senator, our process is to be as deliberate 
as possible, as careful as we can, with the intelligence that 
we have, and to discriminately strike targets and avoid 
civilian collateral damage. That has been our process since day 
one. It has proven very effective. I--that's where I would end 
the comment.
    Senator McCaskill. Isn't the biggest danger to the homeland 
the ability of this extreme jihad viewpoint being transferred 
to Americans and them become radicalized and do what these 
people did in San Bernardino? Isn't that the biggest threat to 
our homeland?
    General Selva. Senator, it's clear from ISIL's strategy 
that their objective is to cause us to engage in what they 
believe is an apocalyptic war with the West. Anything that we 
do to feed that particular frame of thinking counters our 
national security. We have to be very careful about how we 
prosecute a campaign that appears to be an indiscriminate 
attempt to attack ISIL and the population that surrounds it.
    Senator McCaskill. If we did an indiscriminate carpet-
bombing of a major area, and killed thousands of women and 
children, would you assume that would have some impact on their 
ability to recruit misguided barbarians, like this couple that 
took out more than a dozen innocent people last week? I would 
have to assume it would put their recruiting on steroids.
    General Selva. Senator, I'm going to avoid anything 
hypothetical. What I would say categorically is, the process 
you described as your hypothetical question is not the way that 
we apply force in combat. It isn't now, nor will it ever be.
    Senator McCaskill. Ever.
    General Selva. No, ma'am.
    Senator McCaskill. If we cleared out Raqqa, which I have no 
doubt that our military could do, if we could--cleared our 
Raqqa or Ramadi, do we have any local force capable of 
providing security on the ground in those locations ongoing?
    General Selva. Senator, I can't talk about specifically 
about Raqqa, because we don't have that kind of intelligence on 
Raqqa. In the case of Ramadi, there is a Sunni--predominantly 
Sunni police force that is ready to follow in behind the force 
that is attempting to take Ramadi back, and it is the intention 
of the Iraqi Government to put that police force in place. I 
don't, at this instant, have the numbers. I can provide them 
for you if you'd like them.
    Senator McCaskill. But, in Raqqa, are we aware of any force 
that is available to secure and hold Raqqa if we were able to 
take it out, or would we have to stay as long as it took?
    General Selva. The forces that we are aware of at this 
point are the Syrian Democratic Forces that are working with 
Kurdish partners that are willing to put pressure on Raqqa. 
It's not clear that that force is large enough to be the hold 
force and the security force that would follow. That is one of 
the reasons that we have advocated and gotten authorities to 
put Special Ops Forces into Syria to build that depth of 
intelligence to understand which forces are available to put 
increasing pressure and a hold force into Raqqa.
    Senator McCaskill. Thank you very much.
    Chairman McCain. You don't want to neglect World War II, 
General Selva, as far as carpet-bombing is concerned.
    Senator Sullivan has asked for--to take precedence over his 
colleagues.
    Senator Sullivan. Thank you, Mr. Chairman.
    Fix this mic, here. Thanks. Having a mic issue.
    Mr. Secretary, General, good to see you.
    You know, I think one of the things that's--you're hearing 
here is a common theme, really from all our colleagues, is a 
sense of urgency. So, you're laying out the strategy. I think 
some of the elements that you've highlighted in your testimony 
look like they're useful elements of strategy, but they're--
there's a strong belief that there's a lack of sense of 
urgency, here. I think one only had to watch the press 
conference between President--with President Obama and 
President Francois Hollande, and you saw one leader who was 
very urgent, he was going around the world trying to get our 
allies motivated on this, and you saw another leader--
unfortunately, it was our President--was very passive. I think, 
no matter what the strategy is, if there's not engaged American 
leadership, serious leadership, that people believe that we're 
in there and committed to the strategy, we're not going to be 
able to do any of these things. We've talked about an Arab army 
force. They're not going to follow unless they believe we're 
fully committed. So, I think that's one of the elements of the 
frustration that you see among the members on the committee 
today.
    Let me ask you, in terms of strategy. Now, this is a bit of 
a difficult question, but let's say that there's another, kind 
of, San Bernardino event, but maybe much bigger, in our 
country, maybe 200 Americans killed, an ISIS-directed attack on 
Americans. Would we keep the same strategy right now, or would 
we keep the same strategic patience, as the White House calls 
it? Assume you had a crystal ball and you saw that coming two 
weeks from now or three weeks from now, where 200 Americans are 
killed by--would you be satisfied that this should be the 
strategy?
    Secretary Carter. As far as the military campaign is 
concerned, Senator, I just want to say, I share your sense of 
urgency. As far as----
    Senator Sullivan. But, it doesn't seem like the President 
does. I think that's a real common--even members of his own 
party have indicated that.
    Secretary Carter. He has encouraged General Dunford and me, 
and we have encouraged all of our subordinate commanders, as 
was asked--said before, to propose ways to accelerate the 
campaign. The--he has approved all the ones we've proposed so 
far. We expect to propose more, as I indicated, and to gather 
momentum in this campaign.
    With respect to others following----
    Senator Sullivan. So, let me ask just the question I--if 
you can address the question I asked. Assume there's a Paris-
like attack, 200 Americans killed. God forbid it happens, 
right? None of us want that to happen. But, let's say that 
happens and it's directed by ISIS. Would you go back to the 
President, saying, ``Keep the same strategy''?
    Secretary Carter. Well, look, Senator, if I had more to 
recommend to him to accelerate the defeat of ISIL in Syria and 
Iraq, I'd be doing it now.
    Senator Sullivan. But, isn't that the key question? That we 
want to make sure we don't have 200 Americans killed in an 
ISIS-like attack, so we should be doing everything now so we 
don't have to be motivated to do it once it happens?
    Secretary Carter. I think--again, on the military campaign, 
it is as I said. With respect to homeland security--and here, 
I'd have to refer you to Secretary----
    Senator Sullivan. But, they're all related----
    Secretary Carter.--Jeh Johnson--of course--and so forth. I 
know that you all are considering various provisions in the law 
that affect visa waivers and so forth. I think there are 
probably some improvements and steps that can be taken in that 
direction. If there are, again, I would refer you to Secretary 
Johnson and Director James Comey and Attorney General Loretta 
Lynch and others on that. I----
    Senator Sullivan. Well, Mr. Secretary, I just--I think it's 
important. We can't wait for an attack--a big attack--we've 
already just had one--on our country to get the President 
engaged and more urgent. I think that's the frustration that 
you're seeing.
    Let me ask a related question on urgency. Do you believe 
that the longer ISIS holds territory, that that increases risk 
to the homeland? Do you think that's a--so, if they hold more 
territory, and they continue to do so, does that increase risk 
to our citizens here at home?
    Secretary Carter. Whenever a terrorist group finds safe 
haven somewhere from which to plot against the United States, 
that's a danger to the United States. We've been pursuing such 
groups for--since 9/11, and actually before, and we have to do 
that with respect to ISIL today. So, yes, that's absolutely 
right.
    Senator Sullivan. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.
    Thank you all for being here. I appreciate very much your 
service, too.
    Secretary Carter, I think that, you know, all--you can--the 
frustration--I can just speak for the constituents in West 
Virginia, all the good people and all the military that we have 
from West Virginia. We're just--they ask me the question, 
``What's the end game this time? Is it going to repeat what 
we've done before? Are we going to get bogged down for 10 years 
or more again? American men and women in our National Guard 
people put on the front line, in jeopardy?'' So, if ISIS and/or 
Assad would fall, if we're able to make that transition, how do 
we prevent that being filled by another terrorist group? 
Because, you know, we started out with the Taliban we heard 
about first, then al-Qaeda, then all the spinoffs of al-Qaeda, 
and then ISIS came about. So, they believe that, basically, 
when you cut the head off, you can't kill the snake. That's 
what they're concerned about. How do you ever have an end game 
that has any type of normalty--or normalty from that area, if 
it's even possible?
    Secretary Carter. Well, I've been speaking, obviously, 
mostly of the military campaign and the urgent need----
    Senator Manchin. Yeah.
    Secretary Carter.--to crush ISIL. You're asking a--the--a 
very good question. I said the political line of effort is 
fundamental here, because, in order to have what you're 
correctly identifying as the end state that will keep the peace 
in the long run, there has to be, first of all, in Syria, a 
political transition from Assad to a government that includes 
some of the opposition--the moderate opposition that's been 
countering him, and preserves some of the structure of the 
Government of Syria so people can have a government there that 
functions and is decent.
    In Iraq, a government along the lines that Prime Minister 
Abadi says--and I believe he's genuine, he's trying to create 
there, which is one he--he calls it, I think, a decentralized 
Iraq, namely one in which the different sectarian elements of 
Iraqi territory, mainly Sunnis and Shiites and Kurds, can 
remain one state, but have enough autonomy within their 
different areas that they're not going at each other. That's 
absolutely fundamental in both----
    Senator Manchin. Mr. Secretary----
    Secretary Carter.--of those places.
    Senator Manchin. Mr. Secretary, if I could ask this 
question. I think the perfect--have we identified anybody--any 
group that we think's--can take over if Assad's put aside to 
where the--I mean, are we able to come to an agreement--and we 
have to come to agreement, I would assume--with Russia? Because 
they're much involved in that. Iran seems to be having an awful 
lot of input in that. Are we three going to be able to come to 
agreement of a new leadership in that--that's going to bring 
the rebel--so-called friendly rebels in and everyone turns 
their efforts towards ISIL?
    Secretary Carter. I'd have to refer you to Secretary Kerry 
on that matter. But, it--I think that's exactly what he's 
trying to do. In addition to the three parties you mentioned--
namely, us and the Russians and the Iranians--and, of course, 
the Russians and the Iranians are on the--working in the wrong 
direction at the moment, so it means getting them turned 
around. But, also I might note, all the Gulf--Sunni Gulf states 
that we've talked about, otherwise, would need to be involved, 
as well. That's the end state that will keep the peace in 
Syria.
    Senator Manchin. Can you give me--I understand that they're 
currently meeting in Saudi Arabia now, talking about all of 
these things that we're talking about right now. Why hasn't the 
YPG [People's Protection Units] or the Syrian Kurds been 
involved in these talks? Why do you think they haven't--which 
has seemed to be the most effective ground troops we have in 
Syria right now--of them leading the charges, and they're not 
even asked to be at the table. Would that be because we're 
trying to please the Saudis and not upset the Turks? Or----
    Secretary Carter. Can I get back to you on that question? I 
don't know where, diplomatically--I mean, we are obviously in 
touch with them. We are--and Secretary Kerry knows that and 
is----
    Senator Manchin. Sure.
    Secretary Carter.--involved with them. I simply----
    Senator Manchin. Sure.
    Secretary Carter.--would have to give you----
    Senator Manchin. The other thing I'd----
    Secretary Carter.--a considered answer.
    [The information referred to follows:]

    The State Department is ably leading these talks and would be best 
positioned to respond to this question.

    Senator Manchin.--like to get your opinion on is that--you 
know, we've been talking about, ``What do we do for the visas--
visa waivers?'' I've had a lot of conversation with different 
people from that part of the world that basically have located 
in West Virginia. They understand that we have to have a much 
tougher, much stronger vetting process, or--they don't want to 
relax that at all.
    The other thing they would be acceptable to is biometric 
scanning. I'm thinking biometric scanning--people can change 
their name, they can change their appearance, they can't change 
who they are. To me, I think the American people would be a lot 
more comfortable if we go down that path and says, ``There will 
be no more visas coming to this country unless you've had 
biometric scanning and we know who you are.'' That's something 
that's accepted, I think, in--is it--is that something that you 
think, in your thought process, would be feasible, we could do?
    Secretary Carter. I really would need to defer you to the 
Department of Homeland Security and so forth on that, Senator. 
Very good question. I just simply don't know a good answer.
    Senator Manchin. Thank you, Mr. Chairman.
    Chairman McCain. Senator Ayotte.
    Senator Ayotte. I want to thank you both for being here.
    General Selva, could you tell us what percentage of U.S. 
sorties are returning in the fight right now against ISIS 
without dropping munitions?
    General Selva. Madam Senator, it depends on which day and 
which target set we're talking about, but roughly 40 percent 
come back every day not having struck dynamic targets, with 
weapons still aboard.
    Senator Ayotte. So, let me ask you this. We asked Central 
Command recently whether or not the Department of Defense JTACs 
[Joint Terminal Attack Controllers] are operating outside of 
operations centers. Basically, what we heard back is that they 
weren't. So, I would like to hear from you, Secretary Carter, 
and you, General Selva--I mean, we know that the--one of the 
things that makes our airstrikes even more effective are the 
forward air controllers on the ground calling them in. What is 
our position, in fact, on embedding JTACs, whether it's with 
the Kurds or Iraqi forces, so that we can more effectively bomb 
ISIS and take out the most productive targets to defeat them?
    Secretary Carter. First, I'll note a very good memory I 
have of your coming to the Pentagon with a number of JTACs----
    Senator Ayotte. I did.
    Secretary Carter.--a couple of months ago.
    Senator Ayotte. I appreciate--we met with the JTAC 
Associations. Thank you for doing that.
    Secretary Carter. Oh, thank you. It was very grateful, and 
they're great people, because they represent veterans of a 
great capability. And a--that's--we talk about American 
comparative advantage, this is one of the things we are 
incomparably good at and that is very effective when we do it.
    The answer to your question is yes, we are--I want to be 
careful about what we're doing actually today, as I speak, but 
we are doing that, accompanying. People who have those--and, by 
the way, other skills--intelligence skills and other skills 
that allow us to leverage a local force and make it much more 
powerful by bringing in the full weight of America--America's 
might behind it. It's the JTACs and those kind of skills that 
create that connection between a motivated local force and the 
might of American power.
    General Selva, do you want to say anything about JTACs?
    General Selva. Senator, in areas where we're not able to 
accompany to the nearest point of contact, we have actually 
trained Syrian Arabs, members of the New Syrian Forces, as well 
as our Iraqi partners, to provide the kind of precision target 
identification that's necessary. Then we're passing that pack 
through JTACs to be vetted in Ops Centers.
    Senator Ayotte. Well, I'm glad to hear this, because what 
we were hearing before is that they were only in the Ops 
Centers. Obviously, when possible, getting them at the 
battalion level is going to make the difference. So, we can 
train all the other people we want, but we know our guys are 
the best, and women who do this. That they're going to be able 
to call in these airstrikes. We've got 40 percent returning. We 
can increase that percentage dramatically by having the right 
information on the ground.
    One question I've gotten a lot of is--you know, I saw, in 
your testimony, Secretary Carter, that we've taken out 400 ISIS 
fuel trucks at this point. I appreciated the report that there 
were 116 of those taken out with the help of A-10s. But, why 
did it take so long for us to go after assets like the fuel 
trucks, knowing where they were? I think there's a lot of 
people that have asked that. Are we going to be more aggressive 
in really going after these assets, going forward?
    Secretary Carter. Yes, we're going to be more aggressive, 
but--and what made it possible was intelligence that we didn't 
have before. That is what allowed us to identify those parts of 
the oil infrastructure that are being used to fund ISIL. We 
greatly increased our insight into that infrastructure in 
recent months. This is one of the ways that, as our 
intelligence, which I have to say, when I started out, had a 
lot of improvement to be done in--there, in terms of collection 
and graininess of data and so forth--is getting a lot better. 
That is also a huge enabler. Because when those JTACs call in 
airstrikes, it's based upon an intelligence foundation. That's 
getting--that is what made the critical difference in our 
ability to go after the energy infrastructure----
    Senator Ayotte. So, I don't want to--I don't want to 
interrupt, but I need to, since my time is almost up, and a 
really important topic before we leave, and that's Iran. We've 
now been informed that Iran has made another missile test, on 
November 21st. We know that previously they made a missile test 
on October 10th, in violation of existing U.N. resolutions. As 
far as I can tell, in raising this with the administration, 
nothing has been happening. No response. These are certainly--
our own Ambassador to the U.N. has said the October 10th, clear 
violation of the U.N. resolution. You and I have talked, 
Secretary Carter, about the importance of stopping them from 
having ICBM [intercontinental ballistic missiles] capability. 
Yet, they continue to test, in violation of U.N. resolutions. 
What's our response?
    Secretary Carter. Well, what we're doing, in the Defense 
Department--and you may remember, we discussed this shortly 
after the nuclear deal was made with Iran--is, basically, we 
continue to deter Iran to counter its malign influence, to have 
a military presence in the region, which is oriented not only 
toward the urgent need to defeat ISIL in its homeland, but we 
also have to remember we need to deter and counter Iran, as 
well.
    As far as its ballistic missile program is concerned, as 
you know, we're making some improvements in our--both 
qualitative and quantitative--in our missile defense system. 
That's principally oriented towards North Korea at the moment, 
but it's also a capability that will be relevant against Iran, 
in the unfortunate event which--sometime in the future they 
were able, as we discussed earlier, to field an ICBM.
    On the specific matter of this missile test, I'd refer you 
to the U.S./U.N. or our--or the State Department on that. But, 
on the military side, we are continuing unchanged in our need 
to deter and counter Iranian malign influence in the region.
    Senator Ayotte. Let me just say this. I'm all for--I've 
been long supporting enhancing our missile defense system in 
this country, but there already are existing U.N. resolutions 
that they're in violation of, that--in testing these missiles. 
If we don't respond to their violations in a very forceful way, 
then this agreement--we might as well--you know, this--tear 
this JCPOA [Joint Comprehensive Plan of Action] up, because it 
doesn't matter, because this issue is already a demonstration 
of them really backing off on international commitments with 
this agreement pending.
    Chairman McCain. Before I recognize Senator Donnelly, Mr. 
Secretary, you may want to correct the record. We all knew 
those fuel trucks were moving back and forth. We've seen them. 
We knew it. A decision was not made by the White House to 
attack them. I think you may want to correct the record, 
because I certainly knew----
    Secretary Carter. Well, I can----
    Chairman McCain.--that the fuel trucks were----
    Secretary Carter. Not a matter of correction at all. I can 
clarify, if you--if that would help.
    The--that is the case. And the--what the air commanders 
were able to do is identify those trucks--and in a classified 
setting, I can describe exactly how that information was 
obtained--which were directly supporting ISIL. We have and 
continue to try to withhold attacks upon that part of the 
general infrastructure--energy, electricity, water, et cetera--
that is also necessary for the people of Syria. We're trying to 
peel off that which is--which ISIL uses in command and controls 
for its own revenue source. We are now able to make that 
distinction, which is what enabled the airstrikes, Chairman.
    With regard to where that intelligence came from and so 
forth, I'd be happy to have somebody come up and tell you in a 
classified manner.
    Chairman McCain. I'll be glad to. But, I repeat, we knew 
those fuel trucks were moving back and forth. We saw them. 
Through ISR [Intelligence Surveillance, and Reconnaissance]--
and the decision was not made in the White House to attack them 
or not. You can't tell me they were moving all that stuff back 
and forth for over a year and we didn't know about it. I mean, 
it's just not possible, given our technologically--
capabilities. But, I'll be glad to hear additional information. 
But, I was told directly, in Iraq, that we didn't attack them 
because the decision had not been made to attack them, and they 
didn't want to harm anybody. So, I'll be glad to call those 
people a liar that briefed me that were doing those attacks.
    Senator Donnelly.
    Senator Donnelly. Thank you, Mr. Chairman.
    Mr. Secretary, you said before that none of the European 
defense ministers has offered to provide troops to creating a 
safe zone. Have you asked any of them to provide troops for 
creating a safe zone and to provide an area for Syrian 
refugees?
    Secretary Carter. We've talked to them about all kinds of 
capabilities. As I indicated----
    Senator Donnelly. Did you ask any of them to provide troops 
to help create a safe zone?
    Secretary Carter. Well, we believe that a--the costs 
outweigh the benefits----
    Senator Donnelly. So, you----
    Secretary Carter.--of a safe zone. So, that is----
    Senator Donnelly. So, it's safe to say----
    Secretary Carter.--not something----
    Senator Donnelly.--we did not ask them.
    Secretary Carter. We--I have not asked them for forces for 
that undertaking. I have asked them persistently for forces of 
all kinds for undertakings where we think the benefits outweigh 
the costs. There are many of those.
    Senator Donnelly. What are the answers that you're getting 
from the French, from the English, from the Saudis, from the 
Jordanians?
    Secretary Carter. It varies. But, just to--the French, as I 
mentioned, were truly galvanized. I spoke several times to the 
French Defense Minister. He came here to the United States. 
We've talked. They're doing a great deal more. I'm sorry about 
the circumstances that galvanized them----
    Senator Donnelly. My expectation----
    Secretary Carter.--but I appreciate the help.
    Senator Donnelly.--is that if you asked the French Defense 
Minister for troops for a safe zone, he would probably offer 
them.
    Additionally, what I'm trying to find out is--I believe 
also, like you and like others, when ISIS holds ground, it 
makes it more dangerous for our own country, because they have 
a safe haven to work out of. So, I have confidence that we're 
working in Iraq to move them out of Iraq. Then we look at 
Syria. So, we talk about 100 people in training. They have 
20,000 on the ISIS side. How do we get to Raqqa, and when do we 
get to Raqqa, when we are training 100 people? Where do the 
other people come from?
    Secretary Carter. The people that we are now not only 
training--in fact, not even principally training, but equipping 
and enabling, are Syrian Arab forces that are working with the 
Kurdish YPG in the northern part of Syria. They are prepared to 
advance. They already have, as I indicated, advanced south. We 
are enabling them. We're doing more to enable them. As they do 
more, we will do yet more to enable them.
    Senator Donnelly. Do we have any timeline----
    Secretary Carter. They're the right force to do it, if I 
may say, because they're Syrian Arabs.
    Senator Donnelly. Well, you know, I was in Saudi Arabia, 
and they said, ``We want to put in troops to help.'' Maybe they 
told you different. Maybe they wouldn't actually do it. But, 
they said they want to put in troops to help. King Abdullah, in 
Jordan, said, ``We want to put in troops to help.'' So, you 
have Sunnis in Jordan, you have Sunnis in Saudi Arabia who want 
to put in troops to move the ball to head toward Raqqa. So, you 
have other groups that want to help, as well. Do you not want 
their help, or do you not think that they----
    Secretary Carter. We welcome everything King Abdullah is 
doing, and are very grateful to it. As I said, I've spoken to 
the Saudis, and I remind you that the--that we had a--the Gulf 
Cooperation Council [GCC] leaders to Camp David, back in--geez, 
that was--I think it was April or so--and specifically talked 
to them about the creation of a Sunni-Arab combined force. So--
and that has not----
    Senator Donnelly. So, why can't we----
    Secretary Carter.--materialized among them.
    Senator Donnelly.--get that off the ground? Isn't that the 
force that gets to Raqqa?
    Secretary Carter. Well, it depends on--from one to another. 
I would prefer to speak about part of this--these things 
privately.
    Senator Donnelly. That's fine.
    Secretary Carter. But, one thing that's very clear, in the 
case of the Saudis, just to--since you mentioned them, has been 
the Yemen situation, which has preoccupied a lot of the time 
and energy of their forces, as well as their leadership.
    Senator Donnelly. I also spoke with some of the Sunni 
tribal leaders today. They still have extraordinary 
humanitarian needs. Do we have a plan to work to meet those? 
Because they still have people who are starving.
    Secretary Carter. Yeah, there is. It's a--State Department, 
AID [Agency for International Development], and various 
international donors are part of that. I can't speak to that 
authoritatively. Secretary Kerry could. But, it's important to 
note, from the military point of view, from our point of view, 
because it's an important part of holding territory once it's 
taken. To give you an example, when Tikrit was retaken, it was 
important that order be kept, that services be restored, and 
that humanitarian assistance be rendered. That's why people are 
moving back into Tikrit----
    Senator Donnelly. I apologize, Mr. Secretary. I have a vote 
I have to get to. I just want to finish up by saying this. It 
is strongly believed, by me and many others, that, as long as 
Raqqa is held and other areas are held, that dramatically 
increases the chance of another attack in our country. When we 
ask, ``When are we going to get to Raqqa and move them out?''--
it's not because we're trying to find a date, it's because it's 
extraordinarily dangerous to the citizens of this country that 
they're there. So, the sooner the better that we clear up the 
clutter with the Saudis, the Jordanians, and move on that city.
    Thank you, Mr. Chairman.
    Secretary Carter. Amen.
    Chairman McCain. Senator Fischer.
    Senator Fischer. Thank you, Mr. Chairman.
    Mr. Secretary, you mentioned the targeting force. What 
impact do you expect that force to have on the battlefield?
    Secretary Carter. I'm sorry. Well, I'm hoping it has a very 
great effect. That's what it's designed to do. I believe it 
will. The--it--the--we envision a variety of missions for--I 
want to be careful what I say here--that range from 
interdicting individuals on the move, leaders on the move, to 
the kind of--well, let me give you two examples where we've 
already employed this technique, because, again, I want to be 
very careful about operational security here. This is a no-
kidding, you know, force that'll be doing important things. 
But, to--I think it would help everyone to understand. If you 
remember the raid that killed Abu Sayyaf, that's an example of 
the kind of thing that this force could do. Another one was the 
freeing of 70 prisoners--ISIL prisoners in which a very heroic 
action was taken by a soldier, Joshua----
    Senator Fischer. Correct.
    Secretary Carter.--Wheeler----
    Senator Fischer. We've seen----
    Secretary Carter. So, there's an example of the kinds of 
things that can be done. It puts the leadership on notice. 
It'll get valuable intelligence. It'll free people, in the case 
of that kind of mission. So, there's a variety of missions, and 
I----
    Senator Fischer. Correct. I--if I can, we've seen those two 
raids in the last year and a half. Would you anticipate that 
we're going to see a greater frequency with this force in the 
days and weeks and months ahead?
    Secretary Carter. That's absolutely the intent, Senator.
    Senator Fischer. I would hope we could have general 
conversations--I realize the sensitivity of this force, but I 
would hope we could have general conversations about them so we 
could lay out truly what the goals are when we're talking about 
the force. Do you have any immediate goals in mind for this 
targeting force that you can speak about in a--general terms at 
this point?
    Secretary Carter. In general terms, they fall in the 
categories I described: intelligence-gathering, interdiction of 
leadership, key nodes, facilitation--and certainly, for you, we 
can discuss more in a classified setting also. But, that's the 
kind of thing that--it's actually a really--to me, to all of 
us, a very flexible and potent tool. So, it would learn from 
experience. By using it, one raid builds on another. You know, 
the Abu Sayyaf raid built on things, because we gained 
understanding, as has been reported.
    Senator Fischer. You said that we will do more of what 
works, going forward. So, I hope, in a more classified setting, 
you can lay out those goals so that we can have something to 
measure the success or failure of these raids by them in the 
future.
    I was also interested in knowing, as the number of raids 
are increasing, will General MacFarland receive any authority 
to help to plan and order the--that these raids be carried out, 
then?
    Secretary Carter. Yeah, General MacFarland is in overall 
charge of the campaign there. I've made that very clear. I have 
great confidence in him, and it's why I created that role, so 
that we would have one senior leader in charge of the entire 
campaign, covering both Syria and Iraq. That is General 
MacFarland, who has--who is extremely experienced.
    Senator Fischer. Will he be able to approve those raids by 
himself, or will he need to come to you or the President?
    Secretary Carter. In many cases, this would be something 
that he and General--I think General Austin, remember, also in 
the chain of command--otherwise, when--if they come to me for 
approval of things that they think require my approval, that's 
fine, too. But, there will, and there has to be, a certain 
amount of delegation of authority, here, so that the--because, 
for one thing, one expects that raids build upon themselves, 
and so you can't--you're going to want to strike again after 
you're struck once, on the basis of what you've learned from 
the first strike. So, we need to have some significant 
authority in there.
    Senator Fischer. When you said it--it's ``fine, too'' if 
they come to you, do you--don't you have that laid out what a--
--
    Secretary Carter. We do.
    Senator Fischer.--certain plan would be that would 
require----
    Secretary Carter. Yes, we----
    Senator Fischer.--the General, then, to come to you?
    Secretary Carter. Yes, we do. It's based on their judgment 
about whether approval at my level is required. That's as--I 
mean, that's generally true. It's perfectly appropriate in this 
case.
    Senator Fischer. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. On behalf of Chairman McCain, let 
me recognize Senator King.
    Senator King. Thank you.
    Before beginning my questions, several references have been 
made to a letter, which I received in early November from 
General Austin, which laid out a series of steps that had been 
taken. I'd like to submit that letter for the record, please.
    Senator Reed. Without objection.
    Senator King. Thank you.
    [The information referred to follows:]

      
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
      
    
    
      

    Senator King. Mr. Secretary, it strikes me that this is an 
exceedingly complex challenge. I guess that's pretty obvious. 
But, part of the problem is, we want to defeat ISIS, but we 
want to do it in such a way that doesn't propagate their 
ideology around the Muslim world. That really makes it very 
difficult. I think the San Bernardino attack is a good example. 
There's no evidence that I've heard that that attack was 
directed by ISIS. Instead, these people were self-radicalized 
and took it upon themselves to perform these heinous acts.
    The question is, How do we keep moderate Muslims, the vast 
majority of the 1.6 billion Muslims in the world, from falling 
into the ISIS trap? ISIS has made it clear that part of their 
strategy is to provoke us to Westernizing this conflict and 
making it a war of America and the West against Islam, and 
thereby pushing heretofore moderate Muslims in their direction. 
So, this gets to the question of, How do we take Raqqa, for 
example? My understanding is that there's no inclination to use 
a large contingent of U.S. troops, but there is a recognition, 
as the President has already acknowledged, that there are 
places for U.S. troops in a Special Forces kind of setting. Is 
this the kind of calculation that you're making?
    Secretary Carter. That's exactly correct, yes.
    Senator King. How do we--the gap in the strategy, it seems 
to me, from the beginning--and I say ``gap,'' that's not a 
criticism, that's just the fact--is, Where do we get ground 
troops in Syria? Ground troops are available in--Arab ground 
troops, Muslim ground troops, are available in Iraq, the Iraqi 
Security Forces and the Peshmerga. In Syria, there's not an 
available force. That's why, it seems to me, the whole issue of 
getting rid of Assad is a key part of this calculation, that 
Assad is the lightning rod that, in effect, created ISIS, in 
part. If we can work with other parties, particularly Russia, 
to move Assad off the stage, then you've got an Arab army, a 
Muslim army, in Syria. It's the--all of the opposition, except 
perhaps Jabhat al-Nusra, and the Syrian army. That's why, it 
seems to me, that's a key part of it. But, the question that 
our colleagues are asking is: time. We--somehow we've got to 
accelerate the timetable. We can't wait years for Assad to 
leave and we turn the guns of the opposition and the Syrian 
army on ISIL. Would you--do you share that----
    Secretary Carter. I do. I mean, I--as you can hear, I'm all 
for urgency and acceleration of the military campaign. I'd like 
to see that, too, on the political side. It's trickier. 
Secretary Kerry's trying to work toward that end. But, it is 
exactly as you say. If we could get a political transition that 
brought the Syrian armed forces, that part of which it would be 
appropriate to carry forward into a new Syria, plus the 
moderate opposition, you'd have a force that could both clear 
Syrian territory of radicals and eliminate the civil war, which 
is what fuels the violent--this extremism, in the first place--
--
    Senator King. Do----
    Secretary Carter.--and have a governance of Syria that the 
Syrian people deserve.
    Senator King. But, there's one piece of this--and you've 
mentioned it--you listed a long series of things that we needed 
to do, and, at the very end, you said, ``information.'' That's 
where we're losing right now. I heard a figure recently that 
ISIS posts something like 90,000 posts a day in social media. 
Just reading a piece about a young man in the United States, 17 
years old, who found this ISIS community online, and he's being 
encouraged to move forward. I know it's not in the Department 
of Defense, but we--this country has to do a much better job, 
it seems to me, of countering the story that ISIS is telling to 
attract young people across the world. We're not only engaged 
in a military war, here, we're engaged in a war of ideas. Right 
now, I think we're--it's somewhere close to a stalemate on the 
military side, but we're losing the war of ideas.
    Secretary Carter. May I just note, Senator, that it is for 
that very reason that yesterday I got together with the 
Secretary of Homeland Security, the Director of the FBI, the 
Director of National Intelligence, and we were talking exactly 
about that, how--what--the information war. Now, you're right, 
it's not principally a defense thing. We don't operate here at 
home. We do operate in the cyberdomain. I alluded to that. You 
know, we're at war, and we have authorities to use our Cyber 
Command in this case, and are identifying opportunities to do 
that. At the same time, I just--I have to say, the FBI, the 
Department of Homeland Security, and the Director of National 
Intelligence are working intensely--they were before San 
Bernardino, they're working now--and hence the--on exactly this 
question of these people who are----
    Senator King. If we----
    Secretary Carter.--sitting with a keyboard somewhere in the 
United States.
    Senator King. If we win a town in Syria and lose 10,000 
kids in France or Belgium or Florida or Ohio, that's not 
victory. I'd hope, in the councils of war, you will continue to 
press that point of view.
    Secretary Carter. Will do.
    Senator King. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Thank you.
    On behalf of Chairman McCain, Senator Wicker, please.
    Senator Wicker. Thank you very much.
    Mr. Secretary, always good to have you back. I do echo what 
Senator McCain said, and I hope you'll come back more often and 
share with us your thoughts.
    Let me let you be explicit on the issue of Bashar Assad, 
because I hear and I read in the paper--for example, December 
7, Bloomberg said, ``Obama no longer seems sure Assad should 
go.'' Is that true? Do you believe that Mr. Assad should 
explicitly be removed from power? Or is there a growing feeling 
that perhaps we ought to team up with Assad?
    Secretary Carter. I think--and I don't want to speak for 
him, but I think what Secretary Kerry is trying to engineer is 
the departure of Assad in a way that everyone can support, 
which, by the way, includes the Russians, who have a lot of 
influence with Assad, so there--it's important to see if you 
can get them on the right side of history, here--and that 
accomplishes that--and this is important, quite apart from the 
atrocities that Assad has committed--in a way that removes him 
while the structures of the Syrian state are still relatively 
intact, because, to get back to what Senator King was saying a 
moment ago, we do want--we do need there to be, after Assad, 
an--a Government of Syria that is inclusive, that involves the 
forces that have been fighting each other, fighting ISIL and 
governing the territory decently. That is exactly the 
transition that Secretary Kerry is working----
    Senator Wicker. Much like we needed in Iraq after the 
successful invasion. I think I understand what you're saying. 
But, let's get your testimony on this. To your knowledge, is 
the President still resolute in saying that Assad should go and 
that a solution is not that we should begin to work with him?
    Secretary Carter. No, I--a political transition in which 
Assad leaves power and is replaced by a more inclusive form of 
government is the outcome that we're trying to----
    Senator Wicker. A political solution in which Assad stays 
in power, is that acceptable to you?
    Secretary Carter. I think what--no, Secretary--what 
Secretary----
    Senator Wicker. Is it acceptable to the President?
    Secretary Carter. Well, what Secretary Kerry is trying to 
arrange is----
    Senator Wicker. I understand what your testimony just was. 
I'm--but, I'm wondering--we need to get this on the record, and 
Americans need an answer to this. Is the President steadfast in 
having a goal that includes Mr. Assad being removed from power?
    Secretary Carter. Well, that's the path that he has--that's 
the kind of political transition that he has Secretary of--
Kerry seeking, yes.
    Senator Wicker. Would you agree that it would be very 
difficult to convince Syrian rebels to fight only ISIS if--and 
not Assad--if that were a direction in which the administration 
should----
    Secretary Carter. We actually have experience in exactly 
that matter, and----
    Senator Wicker. What is your experience?
    Secretary Carter. The experience is that they're--that it's 
easier to find fighters who are intent upon fighting Assad than 
to find ones that are intent upon fighting ISIL.
    Senator Wicker. Do you believe Mr. Assad should be removed 
from power?
    Secretary Carter. Yeah. I think that to have a decent 
government there that is in--that brings the moderate 
opposition into governance there is going to require the 
departure of Assad. The how, the when, the where, and so forth, 
is something that Secretary Kerry is negotiating.
    Senator Wicker. Yeah, I----
    Secretary Carter. You know, the----
    Senator Wicker.--I understand.
    Secretary Carter.--civil war has gone on a long time, and 
he's been a lightning rod in that civil war. If we want to get 
it behind us and defeat ISIL and get peace in Syria, I think 
that's going to be necessary, yeah.
    Senator Wicker. Well--very good. I may try to follow up 
with some questions on the record there.
    Let me ask you about no-fly zones. I understand we've had 
some testimony today about safe zones. I'll ask you first, Mr. 
Secretary, and then if you want to ask the General to add his 
thoughts, that would be good.
    Safe zone--I mean, no-fly zones would allow Syrians to stay 
in their own country instead of seeking to become refugees 
anywhere. They would allow Syrian opposition leaders to 
exercise sovereignty over Syrian territory. Do you and our 
coalition partners have the pilots, personnel, and equipment 
required to establish no-fly zones? In particular--I think 
maybe earlier, while I was out of the room, there was an 
attempt to get you to discuss the coalition partners that might 
be able to enforce this. Do you believe President Putin would 
challenge our air dominance there and the clearly defined no-
fly zones that we would be seeking to enforce?
    First you, Secretary Carter.
    Secretary Carter. Sure. On no-fly zones, that's something 
that I've discussed for the committee before. That's not a step 
we have recommended--again, because the benefits don't warrant 
it, in light of the costs. I can explain more, but I'm going to 
ask General Selva, who's done a lot of work on that kind of 
thing, to comment further.
    With respect to the Russians, also, he can comment on the 
Memorandum of Understanding there, and it--and the working 
relationship we have with the Russian military in the air in--
over Syria right now.
    Senator Wicker. Fair enough.
    General?
    General Selva. Senator, we have the military capacity to 
impose a no-fly zone. The question that we need to ask is, Do 
we have the political and policy backdrop with which to do so? 
I don't mean that in the case of our government, but in the 
case of the governments who would challenge the no-fly zone. 
So, if we're asking the question, Could we do it?--the answer 
is yes. Are we willing to engage the potential of a conflict--a 
direct conflict with the Syrian Integrated Air Defense System 
or Syrian forces, or, by corollary, a miscalculation with the 
Russians, should they choose to contest the no-fly zone? Those 
are the questions that have been posed, asked, and answered.
    So, military capacity, we have the capacity to do this. We 
have not recommended it, because the political situation on the 
ground, and the potential for miscalculation and loss of 
American life in the air in an attempt to defend the no-fly 
zone, don't warrant the no-fly zone, given the fact that, on 
the ground, the forces would still contest the safe zone on the 
ground.
    Senator Wicker. Well, I'm way over my time, but let me just 
say that the Secretary mentioned the cost and benefit. When I 
think of the benefit that we could have had in the United 
States not to be faced with this refugee crisis, the benefit to 
Europe if we had given Syrians a place where they could live in 
their own country safely, away from these barrel bombs and 
the--and these attacks on civilians, it just seems to me that 
the benefit of doing so, even now, but certainly having done so 
over time, would have been so enormous that it would have 
justified whatever cost we might have had to risk.
    So, thank you very much for your answers.
    I appreciate the Chair indulging me.
    Chairman McCain [presiding]. General, I must say, it's one 
of the more embarrassing statements I've ever heard from a 
uniformed military officer, that we are worried about Syria and 
Russia's reaction to saving the lives of thousands and 
thousands of Syrians who are being barrel-bombed and massacred. 
So far, 240,000 of them. Remarkable performance.
    Senator Hirono.
    Senator Hirono. Thank you, Mr. Chairman.
    Thank you, Mr. Secretary and General Selva, for being here.
    Mr. Secretary, you noted in your testimony that Russia, 
which has publicly committed to defeating ISIL, has instead 
largely attacked opposition forces. You said, ``It's time for 
Russia to focus on the right side of this fight.'' What's it 
going to take to have Russia turn its attention to fighting 
ISIL rather than propping up Assad?
    Secretary Carter. Well, I can't speak for the Russians, but 
I have spoken to the Russians, and I have explained to them why 
their actions are wrongheaded and counterproductive even from 
the point of view of their own security, because it fuels the 
civil war in Syria, which we've discussed, which is the 
underlying cause of the radicalization that gave rise to ISIL, 
which is the very thing they fear. So, their actions are--as 
I--the phrase I've used is ``pouring gasoline on the civil war 
in Syria.''
    Senator Hirono. So--I'm sorry, Mr. Secretary--so, is Russia 
fully engaged in the discussions to end the--with us, with 
Secretary Kerry and the--some of the other parties that are--
that need to be at the table, in ending the civil war in Syria? 
Are they fully engaged in that?
    Secretary Carter. I don't want to speak for Secretary Kerry 
in that regard--fully engaged. They are certainly engaged. He's 
talking to them along the lines that we discussed, along with a 
range of other parties that will be necessary to a final 
political transition, here.
    Senator Hirono. I think there are a lot of people who agree 
with the assessment that ending the civil war in Syria is one 
of the keys in enabling the United States, as well as Russia 
and our other partners, some 60-plus, to focus on defeating 
ISIL. I think that that is generally acknowledged, and I 
certainly agree with that.
    One of the advantages that ISIL has its ability to recruit 
young men and women and influence actors around the world 
through its online media campaign. San Bernardino is just the 
most recent example. In your opinion, how can we counter this 
or overcome the effectiveness of ISIL's online presence? I 
realize that this is an issue that should be addressed, not 
just by--perhaps not even mainly by you, but FBI and the 
Director of National Intelligence, Homeland Security, with whom 
you met. So, what do we have to do to debase ISIL's ability and 
its success in motivating lone wolves in our country and all 
across the world in committing terrorist acts?
    Secretary Carter. Well, you're right. Here at home, the FBI 
and the Department of Homeland Security and Director of 
National Intelligence are working along those lines at--to 
identify those who are self-radicalizing or plotting using the 
Internet. I wouldn't want to speak for them. They're--I can 
only tell you that they're intent upon solving that problem.
    There is a role, I would say, not in that fight, but it is 
related to the fight we are waging, because it's why I think 
it's important to strike at and eliminate the parent tumor in 
Syria and Iraq, because that's part of the creation of the 
narrative that fuels the Internet, which fuels even lone 
wolves, and also, where we are able to, to eliminate people who 
are trying to recruit our people.
    I think the Chairman referred, earlier, to the elimination 
of Junaid Hussain, which I reported to you when I was last up 
here. He was somebody who was trying to recruit Americans to 
attack Americans. No doubt about it.
    So, there are some things even we can do--well, not only 
``even we'' we can do as the Department of Defense to assist in 
this. But, this--a big effort by Director Comey and Secretary 
Johnson and the Director of National Intelligence, the Director 
of Central Intelligence, on this effort. Now, it began well 
before San Bernardino, but San Bernardino illustrates why this 
is no-kidding important thing to do.
    Senator Hirono. Would you say that debasing the ability of 
ISIL to motivate lone wolves--what--people who don't even have 
any direct contact with ISIL, but who have access to their 
ideology and through the Internet--that this is more of a 
whole-of-government approach that we need to take that includes 
law enforcement and--local law enforcement as well as people in 
the community?
    Secretary Carter. Yes. This whole campaign really is a 
whole-of-government campaign. Has to be. In today's world, all 
these pieces need to be connected.
    Senator Hirono. Mr. Chairman, my timing--the timer is not 
working, so I have absolutely no idea how much time I have 
left. Well, in that case, I will stop here.
    [Laughter.]
    Chairman McCain.--I'd say to the Senator.
    Senator Hirono. I just have one last question, that--we 
talk about defeating ISIL. Really, what does that look like? I 
mean, what does defeating ISIL look like?
    Secretary Carter. In----
    Senator Hirono. Including the--preventing the ability of 
them to encourage the lone-wolf actors all across the world.
    Secretary Carter. In Iraq and Syria, which, as I said, is 
necessary--not sufficient, but necessary--it means destroying 
their organization, their leadership, their ability to control 
territory, their ability to have a source of revenue, and their 
ability to claim that they're anything but a bunch of 
barbarians, their state. That's what eliminating them--and 
that's the end state that we're seeking in Iraq and Syria. Of 
course, to make that stick gets us back to what others have 
been talking about, the political dimension of it. But, from 
the military point of view, that's the objective.
    Senator Hirono. Thank you, Mr. Chairman.
    Chairman McCain. Senator Cotton.
    Senator Cotton. I'd like to return to this question of no-
fly zones. General Selva, your testimony is that United States 
has the military capability to impose a no-fly zone over Syria.
    General Selva. Yes, sir.
    Senator Cotton. A little over two weeks ago, Turkey shot 
down a Russian aircraft for violating Turkish airspace. How 
many Russian aircrafts have violated Turkish airspace since 
that incident?
    General Selva. None that I know of.
    Senator Cotton. Do you think we can infer a lesson from 
Vladimir Putin's conduct in the aftermath of that shootdown, 
since he had repeatedly violated Turkish airspace beforehand?
    General Selva. I think I'd be very careful in inferring his 
decision process to that particular set of circumstances, 
because what the Russians have done, as a consequence of that 
shootdown, is to beef up their integrated air defense. They've 
brought surface-to-air missiles into their base in Latakia, 
they've installed surface-to-air missiles around Aleppo. They 
have worked with Syrian partners, and the Syrian partners now 
have their radars active, which they didn't have just a few 
weeks ago.
    So, I think it's--it is that set of consequences, when we 
think about no-fly zones, that we have to factor into our 
calculus. If a no-fly zone is to be defended, and it is to have 
effect on the ground, the consequences of activity by surface-
to-air missile systems and air-defense aircraft have to be 
factored into the equation. We have the capability to deal with 
those. The consequence is a direct confrontation with Russia or 
Syria.
    Senator Cotton. Thank you.
    Secretary Carter, I noticed that you were smirking at my 
question. Could I get your take on that?
    Secretary Carter. No, I was--I'm sorry, I was smiling at 
the General's----
    Senator Cotton. I think it might deserve a smirk. I'm not--
--
    Secretary Carter.--directly, but it's hard to----
    Senator Cotton.--rebuking you.
    Secretary Carter. No, no, no. I was smiling about inferring 
Vladimir Putin's intentions. I--and I--he rightly said, it's a 
little hard to know. That's all. I was just----
    Senator Cotton. Well, I would submit that he repeatedly 
violated Turkish airspace until Turkey defended its airspace, 
and he has not done that--done so since then, and that maybe we 
can learn a lesson from that.
    I also want to return to the point that Senator Ayotte was 
discussing about the oil trucks that we struck shortly after 
the Paris attacks. I believe it was a little over 100. Can you 
explain why that didn't happen earlier? I mean, why that didn't 
happen six months ago, a year ago?
    General Selva. There are two principal reasons. First is 
the development of the actual intelligence as to the 
contribution of those particular routes to the finances of 
ISIL. With respect to the Chairman, those are--that black-and-
gray economy in oil across the region----
    Senator Cotton. I--so, I understand that, and I understand 
that intelligence can often be hard to develop, especially when 
you don't have a presence on the ground. But, I don't 
understand what's hard to develop intelligence about tanker 
trucks leaving refineries in ISIS-controlled space.
    General Selva. The second point, Senator, is that, in an 
effort to minimize the civilian casualties, the drivers of 
those trucks are not necessarily adherents to ISIL's ideology, 
but are Syrians trying to make----
    Senator Cotton. I have no doubt about that.
    General Selva. So----
    Senator Cotton. They're probably Syrians who are driving 
trucks, and Islamic State said, ``Drive this truck or we're 
going to kill you and cut the heads off your kids.''
    General Selva. So, I actually visited with the unit that 
prosecuted the attacks on the bulk of those vehicles. They used 
a set of tactics, techniques, and procedures [TTPs] that warned 
the drivers in advance so they could flee their trucks, and 
then destroyed the trucks in situ. We are looking for more 
opportunities to do exactly the same thing so that we don't 
alienate the civilian population, those that are not ISIL 
adherents.
    Senator Cotton. I----
    General Selva. We'll continue to degrade the infrastructure 
for production----
    Senator Cotton. I strongly support that. I'm aware of the 
TTPs you're discussing, but those are things that our Air Force 
have done for a long time to minimize civilian casualties. We 
didn't just develop these TTPs in the last month, did we? I 
mean, we could leaflet civilians 6 months ago or 12 months ago, 
right?
    General Selva. They are not new TTPs, but the opportunities 
and the places with which to use them are a product of the 
intelligence that we developed from our understanding of the 
oil infrastructure and distribution network that supports it.
    Senator Cotton. I'd like to talk about, now, the rules-of-
engagement decision-making authority. One constant thing I've 
heard from senior commanders down to low-level troops in my 
travels in the region and here in the United States is that 
decisions that were being made in the middle part of the last 
decade by O-5s are now being made by three- and four-star 
generals, or even civilians, in Washington, and that the rules 
of engagement [ROE] have been incredibly restrictive--as the 
example, this oil tanker truck example. Secretary Carter, do 
you care to comment on what I've been hearing from troops 
directly on my trips----
    Secretary Carter. I'll start, and then I do want General 
Selva to represent professional military judgment in this 
matter, so I'd like him--to give him the opportunity to speak, 
as well.
    The commanders there, the air commanders, have told me--and 
I'll let--and General Selva and General Dunford have reported 
to me about limitations on the effectiveness of the air 
campaign. I have asked about whether our rules of engagement 
are a limiting factor that is stopping them from being more 
effective. Just two things I'd say about that, and then I'll 
let General Selva go into it ion more detail.
    They have not changed over time. By the way, they are not--
these are not things that are approved in Washington or 
anything, they're--these are things that are done by the air 
operators in theater, which is appropriate. The--in--the things 
that have really enabled our air--well, let me put--turn it 
around and say, the things that have limited it from time to 
time, our air campaign, have been, first of all, annoyingly, 
weather. That was true a month and a half ago, for a couple of 
weeks. But, then more--and that's important--more fundamentally 
has been intelligence. We've gotten a lot better intelligence 
picture now, and therefore are able to conduct more effective 
strikes, which is one reason why we're able to be--to conduct 
more strikes, absorb more air capability, because we can get 
into Incirlik, from which the sorties were shorter, absorb more 
capability from the French and others, and put it to good use, 
because we could develop the targets. I always say it's better 
to have more airplanes than targets, than targets than 
airplanes. So, on some days, a sortie goes out for dynamic 
targeting, as opposed to deliberate targeting. Deliberate 
targeting, the bombs are almost always dropped. More than 90 
percent. Dynamic targeting is where you go out there and hope 
that a target that you're thinking might develop actually does 
develop. That's an important thing to do, because it's what 
stops ISIL from being able to use the roads safely, having to 
drive at night with their lights off, all that kind of stuff. 
You don't always find those targets. So, sometimes the 
airplanes come back with their bombs on them. It's intelligence 
that makes all the difference.
    General, please.
    General Selva. Senator, I haven't met a soldier, sailor, 
airman, or marine who wouldn't ask for looser ROE in any active 
fight. But, having consulted with the commanders, from the JTF 
[Joint Task Force] all the way up to Central Command, I know of 
no rules-of-engagement restrictions that have prevented us from 
striking targets and that prevented our forces from being as 
effective as they can be on the ground. I've consulted with all 
of them.
    Senator Cotton. Thank you.
    I'm over time. But, Senator Reed, if I can have one moment 
to ask a more lighthearted question of General Selva.
    For 60 years, NORAD [North American Aerospace Defense 
Command] and the Air Force has been tracking Santa over the 
skies of North America. Can you assure the boys and girls of 
this country that NORAD and the Air Force are fully prepared to 
track Santa once again?
    General Selva. I don't have a complete intelligence report, 
Senator, but I understand that the reindeer have been, in fact, 
fed their quantity of oats and are prepared for the delivery of 
all of those gifts to those who have been nice and not naughty.
    Senator Cotton. Well, I think it's a welcome reminder that, 
while most Americans are at home enjoying Christmas with their 
families, that our airmen, soldiers, sailors, and marines, 
whether they're in NORAD or around the world, are out there 
keeping us safe and defending our values and what makes this 
country great.
    General Selva. Sir, not to extend the questioning and the 
answering, but I did spend my Thanksgiving with our troops in 
Iraq, in Baghdad, Taji, and Arrow, and I can report to you that 
their moral is high, and they did phone home and talk to the 
people who love them.
    Senator Reed [presiding]. Thank you very much for reminding 
us of the service and sacrifice of so many, Senator.
    On behalf of Chairman McCain, Senator Nelson, please.
    Senator Nelson. Thank you, Mr. Chairman.
    Secretary Carter, I gave a speech recently and showed the 
map of Syria and Iraq and the area that ISIS used to occupy 
that it no longer occupies and the area that it occupies now 
that it did not occupy. The difference is dramatic, that you 
all have shrunk the territorial occupation of ISIS. You are to 
be congratulated on that.
    But, at the end of the day, as you all have already 
testified, Syria is not going to be able to contain ISIS until 
at least there is a plan for the exit of President Assad. Now, 
when that occurs, what is the Arab force that is going to be on 
the ground, with the guidance of our Special Operations 
Forces--what is--give me a concept of what that makeup is of 
that Arab force.
    Secretary Carter. Well, it's a very good question, and it 
gets to the issue of the end state of the campaign, here, and 
the critical political ingredient, because a political 
transition in Syria is essential to a durable end state to 
this. Because it's the civil war in Syria that started this 
whole business in Syria. That would mean--and, at that time, 
the force that is now not available because they're fighting 
each other, but that could fight ISIL, is the combination of 
Syrian forces and the moderate opposition that is now fighting 
in Syria. If there's a political settlement, that--in the 
meantime, we're using forces--some Kurds up north, the YPG, and 
we're trying to accumulate additional Syrian Arabs who want to 
take their homes back from ISIL. But, the civil war is, 
meanwhile, using up a lot of combat power that could 
potentially be used against ISIL.
    Senator Nelson. So, you really believe that, once there's a 
path for Assad to leave, that Syrian Government forces, which 
include Alawites, which are Shiites, are going to join up with 
the opposition Sunni forces to go after ISIL.
    Secretary Carter. The political transition is exactly to 
have a Syria that is once again whole, multisectarian for sure, 
like all those states over there, with all the complications 
that go with that, and that we see in Iraq. But, that, as an 
alternative to sectarianism and the continuation of sectarian 
civil----
    Senator Nelson. Right.
    Secretary Carter.--war, yes.
    Senator Nelson. So, go over to Iraq. Is that anti-
sectarian? Is it working, with the forces on the ground that 
we're supporting from the air?
    Secretary Carter. Well, first of all, Prime Minister 
Abadi--I've spoken to him frequently; I'll have an opportunity 
to speak to him in coming days when I, too, will be visiting 
our troops in theater--is committed precisely to that kind of 
vision for Iraq. I believe him. I've talked to him----
    Senator Nelson. Do you think he----
    Secretary Carter. Well, that's the--whether he can pull it 
off in Baghdad is obviously a difficult matter for him. We are 
supporting him in that regard, because we believe that the 
alternative, which is further sectarian division, civil war, 
cleansing, and so forth--we've seen that before. If he can keep 
his vision of an Iraq, which, as he called it, is 
decentralized, so it's not everybody under the thumb of 
Baghdad, because he knows the Kurds and the Sunnis won't go for 
that--but, still, the ability to retain an integral state that 
keeps peace within its borders--that's what he's----
    Senator Nelson. Right.
    Secretary Carter.--committed to. That's the end state we 
also want in Iraq.
    Senator Nelson. Right. So, it's possible that, with Assad 
leaving Syria, you could get Syria under control, but 
everything could go haywire in Iraq.
    Secretary Carter. They are two separate dynamics. There's 
one thing I'll mention that I mentioned when I was with you six 
weeks ago, and we have--and has subsequently come to pass. I 
was talking about the importance of getting the town of 
Sinjar--you're talking about territory, but the--but, you know, 
a lot of that territory is empty, and it's the towns that 
matter. The critical crossing of Sinjar--now, what is Sinjar? 
Sinjar is a place in between Mosul and Raqqa. The--to cut ISIL 
into its Syrian branch and stop them from cross-feeding is a--
the objective of taking Sinjar. So, in the end, the political 
end states are different for Syria and Iraq, absolutely.
    Senator Nelson. Understand.
    Mr. Chairman, if I may, just one quick question, because 
the Department of Defense has asked for $116 million 
reprogramming to keep the effort of General Mike Nagata's 
training program. Do you support the restarting of that 
program?
    Secretary Carter. I urgently support that funding. I--but, 
I don't describe it, and the documents we sent you don't 
describe it, as a restarting of the old program. As I described 
earlier, we learned from the old program. It had some success, 
but not nearly what we had hoped for. I've told you that that--
for me, that was a disappointment. So, I'm very up front about 
that. But, what we're asking for is that--is funds that were 
previously earmarked for that to an approach that we think is 
more effective, which is precisely one of the ones I've been 
describing today. That's why we would urgently like that fund.
    I just--you know, I mean, people decry micromanagement, but 
micromanagement also comes from--can come from many sources. I 
would urge you, please, to avoid that, give us that funding 
that we've requested. We submitted the paperwork--I know the 
Chairman said, a week ago, and I--I apologize if it was that 
recently. My understanding was, it was more than that. But, 
this is a war, and I'd simply urge you--I know you're very busy 
people who have lots of things to do, but if you can please 
give that your earliest attention.
    Chairman McCain [presiding]. We will, Mr. Secretary. We 
also, obviously, as I mentioned before, would like to know the 
details of how it's used. I think that's appropriate. I thank 
you.
    Secretary Carter. Fair enough.
    Chairman McCain. Senator Tillis.
    Senator Tillis. Thank you, Mr. Chairman.
    Gentlemen, thank you both for being here today.
    On November the 12th, the President answered the question, 
``Is ISIS gaining strength?'' by saying, ``I don't think 
they're gaining strength, and I believe we've contained them.'' 
Now, two weeks before that interview, in Ankara we saw two 
bombs kill 102 people, in the Sinai we saw 224 people lose 
their lives when the Russian jetliner was downed. On the day of 
his interview, in Beirut, two suicide bombers killed 43. Then 
the day after his interview, a wave of six terrorist attacks 
killed 130 in Paris. Then on December 2, 14 Americans were 
killed.
    Right now, in another committee hearing down at Judiciary 
Committee--I stepped in for a minute before I came back here--
Director Comey said that America is at its highest threat level 
since 9/11.
    So, I'm trying to square the statement made by our 
President on November 12th, that they're not gaining strength 
and that we have contained them, with a comment that you made 
in the opening, I think, in response to Chairman--the 
Chairman's question about how we contain them. What am I 
missing, in terms of you saying that we haven't contained them, 
the President says that we have and that they're not gaining 
strength, with the events that we've--I've just summarized 
there? Secretary Carter, I'll start with you, and then General 
Selva.
    Secretary Carter. Well, we have to defeat ISIL. And----
    Senator Tillis. I agree with that, but----
    Secretary Carter.--and that----
    Senator Tillis.--a part of it is--excuse me, because I want 
to try to stick to the time--a part of it has to do with the 
President acknowledging the current situation. Do you agree 
with his characterization that they're not gaining strengthen--
--
    Secretary Carter. The----
    Senator Tillis.--and we've contained them?
    Secretary Carter. The President has asked me, and asked our 
military leaders, to give him recommendations, and to keep 
giving him recommendations, to defeat ISIL. That--and he has 
approved all the ones that we've taken to him. We expect to 
take more. And I think that's----
    Senator Tillis. Secretary Carter----
    Secretary Carter.--that's the----
    Senator Tillis.--have you told the President that they're 
not gaining strength and that we've contained them?
    Secretary Carter. I have not used--General Dunford said, 
last--talked about tactical containment versus strategic 
containment, if we're going to use that word. I kind of like 
the word ``defeat,'' myself, Senator.
    Senator Tillis. General Selva, I want to ask you a question 
about some of the airstrikes. I know that you were talking 
about the rules of engagement. And it seems to make sense to 
try and protect the civilian drivers in the tankers, et cetera.
    Back in June, the military officials acknowledged that 75 
percent of the planes flying combat missions returned without 
dropping their weapons. You, in response to Senator Ayotte's 
questions, said that that's now about 40 percent. What's 
changed?
    General Selva. Senator, we've increased the number of 
deliberate strikes, preplanned designated targets, as opposed 
to having airplanes looking for dynamic targets in the 
environment. We have sufficient airpower in the region to 
accomplish both. But, in any case of dynamic targeting, some of 
those airplanes are always going to come back with their 
ordnance because targets don't present themselves.
    Senator Tillis. Thank you.
    Former Deputy Director Mike Morell, of the CIA, made, in a 
comment on November the 25th, that we didn't go after oil 
wells, actually hitting oil wells that ISIS controls, because 
we didn't want to do environmental damage and we didn't want to 
destroy infrastructure. Are those still key factors in whether 
or not you go after ISIS targets?
    General Selva. I don't know of the rules of engagement that 
he's talking about, but, as we develop deliberate targets, we 
do bring environmental considerations into the factors that we 
consider, but they do not limit us from striking the 
infrastructure. They just change the way we strike it. So, we 
try to do as little environmental damage as possible, but still 
limit the capacity of the well to produce.
    Senator Tillis. Secretary Carter, maybe just to close out 
with this, just to go back to defining the problem. If we 
shift--and you made the distinction between tactical and 
strategic containment--but, if we shift to a global 
perspective, away from the narrow focus of, maybe, tactically, 
what we're doing in Iraq and Syria, is there any grounds for 
describing ISIS as ``contained''?
    Secretary Carter. I'll let General Dunford, who's not here, 
speak for himself. I described, and I think we need to be 
concerned about--we've talked about metastasis to the homeland, 
and we've talked about the necessity of getting the parent 
tumor. We have not discussed as much the necessity of going 
after ISIL elsewhere. I mentioned Libya. We took out its leader 
in Libya. We're going to have to do more in Libya. ISIL is 
becoming a magnet for groups that previously existed, in some 
cases, that are now rebranding themselves as ISIL. But, it's 
worse than that, because in--they're also gaining energy from 
the movement in Iraq and Syria, which is why we need to destroy 
it in Iraq and Syria. But, this is a worldwide phenomenon. And 
I've talked to leaders--I was recently talking to some leaders 
in southeast Asia, actually, about many things, but one of the 
things they raised is concern about little patches of ISIL and 
self-radicalization of the kind that we find.
    So, in the Internet Age and the Social Media Age, terrorism 
doesn't have any geographic bounds. So, I think we have to 
recognize it while we need to attack it geographically on the 
ground in Syria and Iraq. That is necessary, it's not 
sufficient.
    Senator Tillis. Thank you, Mr. Chair.
    Chairman McCain [presiding]. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chairman.
    Thank you, to your--to our witnesses, for your service and 
your testimony.
    Secretary Carter, do you agree with a recent study done by 
the RAND Corporation suggesting that it would be wise for 
Congress to pass a new Authorization for Use of Military Force 
against ISIL?
    Secretary Carter. I haven't seen that study, Senator. I 
have testified in favor of the AUMF that the President 
submitted, and I welcome that. It's not necessary, literally, 
in the sense that we're able to conduct our campaign.
    Senator Kaine. The RAND--the study--I would just encourage 
you to take a look, because I think it backs up----
    Secretary Carter. Will do.
    Senator Kaine.--backs up your position; it was reported two 
days ago--says that an authorization by Congress would send a 
message of resolve to our allies----
    Secretary Carter. Would do.
    Senator Kaine.--send a message of resolve to ISIL, it would 
send a message of resolve to the troops.
    Secretary Carter. Troops.
    Senator Kaine. RAND, which is, you know, not biased on the 
legal analysis, said that, at a minimum, the connection of the 
battle against ISIL to the 2001 and 2002 authorizations 
requires, quote, ``legal gymnastics'' that it would be wise to 
clear up.
    Secretary Carter, what message does it send to the 3600 
troops that are deployed overseas in this fight at the 
holidays, and to the families of the 11 servicemembers who have 
lost their lives in Operation Inherent Resolve, and five others 
who have been wounded, that Congress has been unwilling to 
debate and vote upon this war in the 16 months since it 
started?
    Secretary Carter. I think that the passage of an AUMF, as 
you indicate--and this is one of the reasons why I testified in 
favor of it, would be a signal of resolve and support to our 
troops. Therefore, I think it's--it is desirable. By the way, a 
signal of resolve to our enemies.
    I should say, that's not the only thing. I think when you 
visit them, as some of you have done in the last week, when you 
hold a hearing like this and show that you care what they're 
doing, when you go back to your bases and--at home and tell 
them how proud you are of them, the family members that are 
back here--all that stuff's incredibly important. They need to 
know we're behind them. And, you know, I always tell our 
people, ``I'm 1,000 percent behind you.'' And----
    Senator Kaine. Let me----
    Secretary Carter.--if this would add to it----
    Senator Kaine. Let me ask you this.
    Secretary Carter.--that's good.
    Senator Kaine. It--our Chairman, Senator McCain, was quoted 
last week--now, this was not an approving quote, this was a 
critical quote, in the same way that I am critical of the 
current status of affairs where Congress has been silent for 16 
months--the quote was that a congressional vote to authorize 
war against ISIL doesn't seem forthcoming now, because of 
politics here, and that it, quote, ``may require an attack on 
the United States of America to force such a vote.'' Would it 
wise for Congress to wait that long?
    Secretary Carter. Again, I--I'm--I am in favor of the one 
that the President submitted. I think, on balance, it would be 
a positive thing and a sign that the country's behind the 
troops. And, provided it allowed me and General Selva and our 
military leaders to do what we think is needed to defeat ISIL--
provided it does that, it--I think the signal it sends of 
resolve by this country is a good thing.
    Senator Kaine. At least three nations on the U.N. Security 
Council--England, France, and, I'm very sorry to say, Russia--
have submitted to their legislative bodies the--a--for a debate 
and vote, their engagement in military action in Syria and 
Iraq. And other nations, such as Germany, have done the same. 
The President started the war against ISIL 16 months ago 
yesterday. There's only been one vote in the Senate--it was a 
Senate Foreign Relations Committee vote, a year ago Friday. 
There hasn't really been action in the House.
    I just hope that we would follow--I hate to say this--I 
hope we would follow the lead of other nations whose 
legislative bodies have decided it was important enough to have 
a debate and vote on this before the public.
    Second issue I want to just bring up. And this is more just 
kind of an observation for you. Senator McCain was the first to 
call for the no-fly zones. At the time that he started that, I 
didn't agree with him. The reason I didn't is that there were 
testimony from General Martin Dempsey and others here that to 
do a no-fly zone would run the risk of running across the 
Syrian air defenses. To many of us on the committee, that 
argument fell away when the administration came and proposed an 
aerial attack on Syria after the use of chemical weapons 
against Bashar al-Assad. When we reminded them, ``Hey, wait a 
minute. You said Syria has really tough air defenses,'' the 
administration testimony at that point was, ``Yeah, well, we're 
not that worried about them.''
    Let me tell you why I think the absence of the humanitarian 
zone is going to go down as one of the big mistakes that we've 
made, equivalent to the decision not to engage in humanitarian 
activity in Rwanda in the 1990s. With respect to Syria, there's 
been testimony from the military to us that the Syrian Air 
Defense System is really not all that great, and that we could 
take care of it. And with respect to Russia, Russia voted for 
Security Council Resolution 2139 in February of 2014 calling 
for cross-border delivery of humanitarian aid into Syria 
without the permission of Bashar al-Assad.
    There are few guarantees in life, but I can pretty much 
give you this one. Russia would not intervene and try to mess 
around with us if we were engaged in a humanitarian effort that 
was premised upon a U.N. Security Council Resolution that they 
actually voted for. And since February of 2014, we've had the 
ability and the legal rationale to enforce that resolution. And 
we haven't. And millions of refugees have left the country. If 
we had done that then, I think we'd be in much better place 
now. And I think we can still do it, and we'd be in much better 
place.
    So, just in terms of the argument about, ``Here's why we 
don't think it's a good idea,'' previous testimony to the 
committee by folks from the Pentagon have undercut your 
argument with respect to Syria and Russia.
    Mr. Chair, I don't have any other questions.
    Chairman McCain. Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    Mr. Secretary and General, thank you for your service.
    The President addressed the Nation Sunday night. Did you 
hear his address, Mr. Secretary?
    Secretary Carter. I did not. I read it.
    Senator Graham. Okay. Do you believe that we're at war with 
ISIL?
    Secretary Carter. I do.
    Senator Graham. Do you believe they're at war with us? The 
answer is----
    Secretary Carter. Yeah.
    Senator Graham.--yes, yeah. They would hit our homeland if 
they could.
    Secretary Carter. For sure. They say that----
    Senator Graham. Okay.
    Secretary Carter. They say that they--and they indicate 
that----
    Senator Graham. Is there any place on the planet that you 
would take off limits when it comes to fighting ISIL?
    Secretary Carter. No, I don't think we can do that, for the 
reasons I just--I said earlier. They are metastasizing 
everywhere, and everywhere there is--there are information 
media, there are going to be people who go online who, maybe, 
have never been to Syria or Iraq, or even know where they are--
--
    Senator Graham. The answer is----
    Secretary Carter.--they only know----
    Senator Graham.--no.
    Secretary Carter.--where their screen is.
    Senator Graham. Right, I agree with you. I think that's a 
very good answer. There is noplace on the planet we should give 
them safe haven.
    Number two, when it comes to time, in terms of this war, 
when will it end?
    Secretary Carter. As soon as we can possibly bring it to--
--
    Senator Graham. Five years? Ten years? Does anybody know?
    Secretary Carter. Well, I think that----
    Senator Graham. Do you want to put a time limit on how long 
we should fight it?
    Secretary Carter. I think, in war, it's good to have plans. 
I think it was Eisenhower, who----
    Senator Graham. Here's my question. Are you willing to put 
a time limit on how long we can fight ISIL?
    Secretary Carter. I think we have to fight ISIL until ISIL 
is defeated everywhere.
    Senator Graham. I couldn't agree with you more.
    When it comes to means, do you believe this country should 
use all lawful means when it comes to fighting ISIL, depending 
on what the circumstances dictate?
    Secretary Carter. Sure.
    Senator Graham. Do you think Raqqa, Syria, will be--still 
will be in the hands of ISIL by January 2017, more or less 
likely?
    Secretary Carter. I'm sorry, you said--which ones?
    Senator Graham. Do you think Raqqa, Syria, will be in the 
hands of ISIL----
    Secretary Carter. Oh, I very much hope that it won't--that 
it would be--that----
    Senator Graham. Do you think it's more likely----
    Secretary Carter.--it will either be--it not be in the 
hands of ISIL or that there--control will be substantially 
eroded----
    Senator Graham. Okay. So----
    Secretary Carter. I hope that. I can't guarantee----
    Senator Graham. Right.
    Secretary Carter.--that. You can't guarantee anything----
    Senator Graham. Right. But----
    Secretary Carter.--in war, but it's----
    Senator Graham.--we hope----
    Secretary Carter.--certainly an objective.
    Senator Graham. We all----
    Secretary Carter. As soon as possible.
    Senator Graham. We all hope, but we're not going to get 
there on hope. So, you're a good man. I'm not trying to fight 
you, here.
    Here's what I've done. I'm making an offer to our President 
that I believe this war is going to go on for a long time, 
after his presidency. I believe that they're going to go 
wherever they can on the planet, and that we should stop them 
wherever necessary. And when it comes to means, we should not 
limit this Commander in Chief or any other Commander in Chief 
when it comes to means. Do you agree with that?
    Secretary Carter. Yeah, I do.
    Senator Graham. So, I have an Authorization to Use Military 
Force, Senator Kaine. It's not limited by geography. It's not--
could you put it up, please--it's not limited by geography, 
time, or location. It represents a theory that this President 
and future Presidents need to have the same capabilities 
against ISIL as we gave--that existed after 9/11 regarding al-
Qaeda.
    So, I agree with Senator Kaine that the Congress should be 
involved. I am answering the request of the President to get 
involved. And here is the question. As Secretary of Defense, 
could you support an authorization using military force that 
has no limit on geography, time, or lawful means when it comes 
to destroying ISIL?
    Secretary Carter. Well, I'm not going to invent a new AUMF 
here. This is the first time I've studied yours. I'm sorry to--
--
    Senator Graham. Okay.
    Secretary Carter.--to say. I did support the President's 
AUMF, for two principal reasons. The first----
    Senator Graham. Do you----
    Secretary Carter.--first----
    Senator Graham. Do you----
    Secretary Carter.--the first was because I thought it 
could, exactly as you say, permit us to conduct the campaign 
that we need to do to defeat ISIL. That's critical. It did have 
a time dimension in it, which I----
    Senator Graham. From a military point of view, General, do 
you think saying you're going to have a time dimension is 
probably a wrong signal to send to the enemy?
    General Selva. The context of the time signal makes a 
difference. I would prefer not to have one.
    Senator Graham. Okay.
    General Selva. So I could say to them, ``I'm going to 
prosecute you anywhere I find you.''
    Senator Graham. That's what I want to say.
    General Selva. As long as I----
    Senator Graham. I want to say to this President that, ``I 
want to give you the tools, that time is no factor when it 
comes to destroying ISIL, and location doesn't mean a damn 
thing, where, after you--wherever you go, as long as it takes, 
whatever is required to defeat you.'' That's the statement I 
think America needs to make. Is that a fair statement?
    Mr. Secretary? ``Whatever it takes, as long as it takes, 
wherever we need to go to destroy you,'' when it comes to ISIL.
    Secretary Carter. Well, I mean, that's okay, from the point 
of view of conducting the military campaign, but you have to--
--
    Senator Graham. That's----
    Secretary Carter.--but you have to get the votes.
    Senator Graham. That's--no, I know.
    Secretary Carter. And I--that, I can't----
    Senator Graham. Yeah, but, you know----
    Secretary Carter.--predict. So----
    Senator Graham.--I'm not asking you to vote.
    Secretary Carter.--I'm not going to try to craft what it--
what can be passed here, Senator. I've testified in favor of 
the AUMF the President----
    Senator Graham. Would you vote for this?
    Secretary Carter.--submitted.
    Senator Graham. Would you vote for this?
    Secretary Carter. I don't know. I'm seeing it for the first 
time. I'm----
    Senator Graham. Well, as Secretary----
    Secretary Carter.--not a----
    Senator Graham.--Secretary of Defense, do you support the 
concept that the President----
    Secretary Carter. I support an AUMF that the President 
submitted----
    Senator Graham. Do you support----
    Secretary Carter.--that gives us the authority----
    Senator Graham. With----
    Secretary Carter.--to wage the war that----
    Senator Graham. Just----
    Secretary Carter.--we need to wage. That's----
    Senator Graham. Mr. Secretary----
    Secretary Carter.--the important thing.
    Senator Graham.--do you support the concept, the authority 
that this President should have no time limits placed on his 
ability to fight the war? Do you support that concept?
    Secretary Carter. I think the AUMF, as submitted, only 
recognizes that his term of office----
    Senator Graham. I'm not asking you----
    Secretary Carter.--comes to an end----
    Senator Graham.--about his AUMF.
    Secretary Carter.--in a year.
    Senator Graham. Right. I agree with that. Do you agree the 
next President, whoever he or she may be, should have a AUMF 
not limited by time? That's just a smart decision, from the 
military point of view. Do you agree with that?
    Secretary Carter. Well, it's not----
    Senator Graham. When you--are you going to--are you, as 
Secretary of Defense, telling me that you want to put limits, 
in terms of time, regarding----
    Secretary Carter. No, I'm trying to explain to you why--as 
I explained to this committee before, why I understood that 
there was the three-year time thing----
    Senator Graham. I'm not asking you about----
    Secretary Carter.--provision. And it was not----
    Senator Graham. Listen.
    Secretary Carter.--for a military reason.
    Senator Graham. Okay, right. But----
    Secretary Carter. It was in deference to a future 
President.
    Senator Graham. Yeah. Okay.
    Secretary Carter. And you can agree or disagree----
    Senator Graham. Right.
    Secretary Carter.--with that, but that was the reason why 
it was included----
    Senator Graham. Okay.
    Secretary Carter.--in there. And I--that was a political 
reason----
    Senator Graham. Right.
    Secretary Carter.--having to do with----
    Senator Graham. From a military point of view----
    Secretary Carter.--the constitutional system, not a 
military----
    Senator Graham. From a military--listen to me, please. From 
a military point of view, you don't want time limits.
    Secretary Carter. I don't think we can--I don't think----
    Senator Graham. From a military point of view, you don't 
want geographical limits.
    Secretary Carter. Yeah, I don't--we don't--we can't have 
geographic----
    Senator Graham. From a military point of view, you don't 
want to take means off the table that are lawful, when it comes 
to----
    Secretary Carter. And that we----
    Senator Graham.--destroying ISIL.
    Secretary Carter.--that are useful to this----
    Senator Graham. Yeah.
    Secretary Carter.--campaign.
    Senator Graham. So, to the Congress, if you don't like what 
this President or future president does, in terms of fighting 
ISIL, defund it. That's your job. I am making a simple 
proposition to this President that, ``I will give you whatever 
you need, in terms of my authorization to go wherever you need 
to go, as long as it takes, to use whatever available tools you 
have, within legal limits, to destroy this threat. Mr. 
President, are you all in, or not?'' The Secretary of Defense 
seems to be indicating this is good military policy.
    To my colleagues on the other side, if we produce an 
Authorization to Use Military Force restricted by time, means, 
or geography, you're sending a message to the enemy I will not 
send, you're restricting our ability to defend this homeland, 
which is a--an imminent attack is coming. So, I want to have 
this debate, like Senator Kaine has suggested. And it is 
imperative that the Congress get off the sidelines.
    Tim Kaine and I may have a different outcome, but you're 
absolutely right, let's have a discussion, let the enemy know, 
without hesitation, there is no limitations on time, means, or 
location when it comes to destroying ISIL.
    ``Mr. President, embrace this authorization for you and 
future presidents, because the country needs it.''
    Thank you very much, Mr. Secretary and General, for your 
fine service.
    Chairman McCain. Senator Blumenthal.
    Senator Blumenthal. Thank you, Mr. Chairman.
    Thank you for your service, Mr. Secretary, General. And 
thank you for being here.
    I've just come from a vote on the floor, but, before that, 
a hearing of the Judiciary Committee, where FBI Director Comey 
was testifying about many subjects related closely to the 
subject matter of your testimony. Even though the geography may 
be different, the threat is the same. And clearly, the strategy 
for confronting that threat of terror has to be coordinated and 
targeted to what poses the danger to our Nation. And my feeling 
is--I agree with you--the reality is, we are at war. That's the 
stark, irrefutable reality. And more needs to be done, more 
aggressively, more intensely, and more effectively, in using 
our Special Operators, advising local forces, supplying and 
equipping them, providing them with intelligence, intercepting 
communications of our adversaries, and cutting off the flow of 
money, which is their lifeblood. And the pace of our present 
activities seems inadequate.
    Now, we may differ on that point. And you have more on-the-
ground knowledge than I do. But, the American people are 
growing impatient and apprehensive. I think that statement, in 
fact, is an understatement.
    So, I would like to see our strategy become more aggressive 
and intensified in combating this threat abroad, in the 
theater, where we confront ISIL, and at home, where we confront 
terror in our neighborhoods and streets, and where the 
adversary is just as real and potentially growing just as 
alarmingly.
    Are you satisfied that the intersection and coordination 
between those two efforts, in the Middle East and elsewhere in 
the world and internally at home, is sufficiently aligned and 
coordinated that we have the most effective strategic approach?
    Secretary Carter. I met, just yesterday, with Director 
Comey, also along with the Director of Homeland Security, Jay 
Johnson, the Director of National Intelligence, James Clapper--
John Brennan's out of the country, but his--somebody from CIA 
[the Central Intelligence Agency] was there, and other 
agencies, working to do exactly what you rightly know is 
necessary--say is necessary, namely to align our efforts 
overseas, which involve exactly the ingredients that you name, 
and you're right, we are looking for opportunities to do more 
by using precisely the tools you describe. We're finding them, 
and we're strengthening and gaining momentum in the military, 
which we need to do, because we need to defeat ISIL over there 
as soon as possible. Back here, we haven't--it's a different 
kind of challenge, but it's related. Director Comey's working 
extremely hard and skillfully on that. And the purpose of my 
calling this meeting yesterday was precisely to make sure that 
we're all aligned. And we'll continue to do that periodically. 
And there are things, by the way, that we can do, as DOD, even 
though we obviously don't operate here in the United States the 
way the FBI does, in terms of striking their information 
infrastructure the same way we strike their energy 
infrastructure, their command and control, and so forth, in 
Iraq and Syria.
    Senator Blumenthal. I thank you for that answer. I agree 
totally that the efforts need to be aligned. And, in fact, 
better aligned, more seamless than they are now, in terms of 
intelligence-sharing and intelligence-gathering, but also 
working with our partners in the region, because the troops on 
the ground need to be local. We cannot send American troops 
back to that part of the world in massive numbers with a combat 
mission. There's always the danger of mission creep, even in a 
small number. But, I remain dissatisfied that the number of 
Special Operators on the ground may be insufficient, and the 
pace of sending them there may be too lengthy, and that local 
forces, like the Peshmerga, have shown that a robust effort 
involving all of those ingredients that are planned to be sent 
can make a difference if they're timely and sufficient.
    I agree, finally, that an Authorization for the Use of 
Military Force is absolutely essential. The reality is, we are 
at war. The President deserves a declaration of war. That 
declaration may define the kind of conflict that we see, and 
provide a forum for debate about the limits we may want to put 
on them. But, at least it will provide a framework for public 
support that the President needs for this continuing war.
    Thank you, Mr. Chairman.
    Chairman McCain. Senator Lee.
    Senator Lee. Thank you, Mr. Chairman.
    Thanks, to both of you, for all you do for us to keep us 
safe.
    I want to start by echoing some of the concerns that have 
been stated by my colleagues, Senator Kaine and Senator 
Blumenthal. Like them, I feel like, for constitutional reasons, 
we ought to be following the process in the Constitution. For 
some of the reasons mentioned by Senator Graham, I think it's 
important to have the debate and the discussion about the 
extent of our involvement there. And that's another nice 
process associated with following the constitutional structure.
    After the failure of the initial train-and-equip program in 
Syria, the Department of Defense seems to have shifted its 
focus to equipping forces that are already on the ground in 
Syria, such as the Syrian Kurds and Arab groups that we have 
somehow, in one way or another, using methods that I'm not 
familiar with, deemed to be moderate, or deemed to somehow have 
interests that overlap with ours.
    Mr. Secretary, can you explain to us how, specifically, 
we're vetting this--these groups, how we decide who ought to be 
the beneficiary of this program?
    Secretary Carter. Well, you're basically right. We--that is 
the shift we made, although, you know, we're still willing to 
do--we're open to lots of different possibilities with our 
train-and-equip program, but the--it is essentially----
    Senator Lee. It's not, basically, an equip program rather 
than a train-and-equip program, right?
    Secretary Carter. No. We take some of the people out for 
training. We're willing to do that. And we have those training 
sites, so we'll take selected individuals--not the whole unit--
out and give them specialized training in how to connect with 
us and how to connect with our enablers. So, there is a 
training aspect to it. But, you're right, fundamentally, it's 
enabling groups that exist rather than trying to create brand-
new groups. That's the essential correction, I'd say--course 
correction that we made.
    You asked how they're vetted. They are--they're--it is 
their leaders that are vetted, rather than down to the 
individual level. And I can get you a description of that.
    [The information referred to follows:]

    Vetted Syrian Opposition (VSO) groups become eligible to receive 
United States assistance under the Syria Train and Equip program if the 
leaders of the recipient groups have been appropriately vetted. In 
other words, at a minimum, they are assessed for associations with 
terrorist groups or with Syrian or Iranian Government-aligned militias, 
in accordance with Department of Defense (DOD) procedures, and provide 
a credible commitment to promote respect for human rights and the rule 
of law. DOD vets these VSO unit leaders using procedures that include 
biographic records review, biometrics, and an interview.

    Secretary Carter. And, General Selva, maybe you'd like to 
say something about the vetting process in general.
    General Selva. We have, in the case of the Syrian Arab 
coalition, convinced leaders to come to the Iraqi side of the 
border. We have vetted them through public and classified 
databases for their relationships and prior conduct, and we 
have spent time with them on the items that the Secretary 
talked about, how they link to our forces, how they communicate 
back their progress. And our relationship with them is 
relatively transactional, where we supply them with ammunition 
and the advice required to hit strike-specific targets, and 
then we watch that progress.
    Senator Lee. Once we decide to equip a particular group--I 
mean, it sounds like it is--it's made on a group basis, based, 
in part, on our assessment of their leaders--what degree of 
command and control do we retain over the group in question, 
over its leaders, and specifically, perhaps most importantly, 
over the supplies that we give them?
    General Selva. I could go into much more detail in a 
classified environment, but, at the surface level, we don't 
exercise command and control. We exercise influence. And the 
influence we have is their connection to the enablers, that we 
provide fire support through airpower, advice, and training.
    Senator Lee. Do the groups that we're supporting in this 
capacity, specifically the Syrian Kurds and the Syrian Arabs--
do they--or to what extent do they share the same political 
goals and the same vision for Syria in the future?
    General Selva. Today, they share the goal of wanting to 
take their homes back and defeat ISIL in doing so. And that is 
necessary and sufficient to get at the fight in eastern Syria 
and working our way back towards Raqqa.
    Senator Lee. Are you concerned about the possibility of 
their goals shifting? I mean, is it common in the region for 
some groups to have one focus one day and then have a priority 
shift, perhaps one day having interests that align roughly with 
our own goals and with preserving interests that are important 
to American national security that might change later?
    General Selva. If you'd allow me to discuss that one in a 
classified setting on the how we measure and manage that 
relationship, it will be much more useful than doing it in open 
session.
    Senator Lee. Okay.
    Can you tell me roughly how many people are involved in 
this right now, how many units or how many members they have? 
Is that something we can discuss in a nonclassified 
environment?
    General Selva. Yes, sir. The Syrian Arab coalition, we 
brought out roughly 40 of their leaders--I'm sorry--20 of their 
leaders, did a full vetting of their allegiances and their 
prior conduct. They brought to the battlefield roughly 1600. 
The number varies up and down slightly from that number, based 
on who's engaged in the fight. But, roughly 1600 fighters that 
have worked their way through roughly three villages or three 
towns right now in eastern Syria. They started in a place 
called al-Hasakah. They have taken al-Hawl, and they are 
beginning the preparatory actions to prosecute a third target 
that I'd like to keep private at this point.
    Senator Lee. Okay.
    I see my time is expired. Thank you very much.
    Chairman McCain. Senator Gillibrand.
    Senator Gillibrand. Thank you, Mr. Chairman.
    Thank you so much for your testimony today. This has been 
extremely helpful to our committee. And thank you, obviously, 
for your extraordinary service.
    In yesterday's hearing, Commander Jeffrey Eggers said that, 
while our military victories against ISIL will affect their 
ability to recruit new fighters, how we conduct the war will 
also affect that ability. Specifically, he said that having 
ground troops go into Syria is what ISIL wants.
    On Monday, a New York Times article pointed out that in 
2003, Abu Musab al-Zarqawi had called the Iraq war, quote, 
``the blessed invasion,'' because his and ISIL's apocalyptic 
vision is that non-Muslims will come to Syria to fight Muslims 
and bring about the end of the world.
    So, do you believe that a ground war with Western troops 
would help or hurt ISIL's recruiting? And which countries are 
best positioned to fight ISIL on the ground, in your opinion?
    Secretary Carter. The forces that are best positioned to 
fight ISIL on the ground in both Iraq and Syria would be local 
indigenous forces, particularly Sunni forces, because the ISIL 
representation and the territory they occupy is mostly Sunni 
territory. Therefore, outside of--well, so in both Iraq and 
Syria, Iraqis and Syrian local forces--that's why we're trying 
to work with them, that's why we're trying to put a political 
end to the civil war in Syria, so that the Syrians stop--
Syrians who are not ISIL--are not ISIL sympathizers, not under 
the thumb of ISIL right now, can unite to defeat ISIL.
    Next in line--and this is something that I have urged, and 
the U.S. has urged now for some months, would be for more of 
Sunni Arabs from the Gulf states to become involved, not 
necessarily occupying territory, but participating in enabling 
local forces there and----
    Senator Gillibrand. Have you had any luck there? I mean, 
any?
    Secretary Carter. Well, they have participated, in the 
early days, in the air war. Now, I'm generalizing a little 
bit----
    Senator Gillibrand. Yeah.
    Secretary Carter.--here--and not--generally disinclined to 
participate on the ground and, of course, now with the Yemen 
conflict, got preoccupied with that. But----
    Senator Gillibrand. General?
    General Selva. Ma'am, I think your quote of Mr. Zawahiri--
or Zarqawi, I'm sorry--that said, ``Bringing Americans to this 
fight is a blessing to the radical Islamic view that ISIL 
portrays'' is exactly right. What we don't do enough of is 
talking about who ISIL is and what they do. They're barbaric, 
they are--they subjugate women, they subjugate children, they 
engage in extortion. They are not creating a caliphate that's 
consistent with Islamic teaching; they're creating caliphate 
that's consistent with their narrative of Western subjugation 
and extremist Islam. And it's about their power and enriching 
themselves. And so, we need to tell that truth. If we fall into 
the trap of radical Islamic violent extremists baiting us into 
a ground fight, we're actually doing exactly what they want us 
to do.
    Senator Gillibrand. Yeah.
    General Selva. So, as we work through and with partners 
that we can find that are willing to fight, they'll have the 
effect we need them to have.
    Senator Gillibrand. And can't we be more aggressive with 
our allies in the region, particularly Sunni Arab allies, to do 
more? I mean, I don't--I haven't seen our success there yet. 
So, I'm wondering if you feel there's leverage there to get 
that result.
    General Selva. We have had support from Turks, from the 
Jordanians, as well as from a small number of our Sunni 
partners. That is a place where we might be able to exert some 
additional effort.
    Senator Gillibrand. Just quickly on Turkey, since you raise 
it. Obviously, Turkey is critical to the fight against ISIL. 
What do you think were Turkish calculations in shooting down 
the Russian plane? And has it affected our ability to work with 
Russia and Turkey?
    General Selva. I can only tell you what I learned from 
consultation with my Turkish counterpart the day of the 
shootdown. I actually was in Turkey that afternoon after the 
shootdown. They believe, and executed against, a incursion into 
their airspace. What I pressed him on, though, was securing 
their--the Turkish border from end to end. And there is a 
roughly 90-kilometer span of the Turkish border through which 
ISIL still has a fair number of smuggling lanes that are 
relatively open because ISIL controls the Syrian side of that 
border. The Turkish have redoubled their efforts. They have 
opened up their Terrorist No-Fly List, their Terrorist 
Identification Database, and a variety of other techniques to 
help seal that border. Much beyond that, if we could do that in 
a closed session or a private conversation, that would be----
    Senator Gillibrand. That would be fine.
    Secretary Carter, do you have anything you'd like to add?
    Secretary Carter. No, I think General Selva said it very 
well. We--the--Turkey is--shares a border with both Syria and 
Iraq. That border has been used as the principal border through 
which fighters flowed in both directions. And we've asked the 
Turks to do more. They have done some more. We're helping them 
do yet more. But, it's critical that they control their border.
    Senator Gillibrand. Thank you.
    Thank you, Mr. Chairman.
    Chairman McCain. Well, of course, ISIS wants, more than 
anything else, to preserve their caliphate. No one is arguing 
to--that there should be 100,000 troops, although the 
President, and obviously you, like to set up the strawmen. It 
is clear that, without American participation and leadership, 
there is no strategy to take Raqqa, which is their base of 
operations where they are planning and orchestrating attacks. 
We just saw the manifestation of it, including working on 
chemical weapons.
    Mr. Secretary, I would beg you to call up General Keane, 
General David Petraeus, Secretary Gates, Secretary Leon 
Panetta, even former Secretary of State Hillary Clinton. Ask 
all of them, and they will tell you that a safe zone could have 
prevented the millions of refugees and the horrible 
consequences of at least a quarter of a million people barrel-
bombed.
    For you to sit there, General, and say that we'd have to 
take out Syrian air defenses is either a stunning display of 
ignorance or, again, this whole aspect of avoiding--or making 
the problem seem so huge that we can't handle it. All we have 
to do is protect a no-fly zone. We don't have to take out a 
single airplane--air defense capability of theirs. All we have 
to do is tell them, ``If you fly into this area, you're going 
to get shot down,'' which we can do with Patriot batteries. And 
everybody knows that. And that's why General Keane and General 
Petraeus and Secretary Gates, Secretary Panetta, and even 
Secretary Clinton have said that these things are doable. It's 
really saddening to see that, basically, business as usual 
while thousands and thousands of Syrians are slaughtered by 
this horrible barrel-bombing, which also was accompanied by 
acts of chemical weapons.
    So, I leave this hearing somewhat depressed, because 
clearly there is no strategy to take Raqqa, there is no 
motivation to set up a no-fly zone, which, even as I say 
Hillary Clinton has supported and every military leader that I 
know that was architect of the surge, says you can do it 
without much difficulty. But, we are seeing again what we have 
seen from this administration for the last four years, since 
some of us advocated it, saying that it would be too hard to 
do, ignoring the fact that, as long as Bashar Assad continues 
to do this horrible barrel-bombing, they're slaughtering 
thousands of innocent civilians--men, women, and children. 
Where is our moral--where is our--the tradition of the United 
States of America? We went to Bosnia after the--after they 
ethnically cleansed 8,000 people. This guy has killed 240,000. 
And yet, it's too hard for the most powerful nation on Earth to 
set up a no-fly zone.
    This hearing is adjourned.
    [Whereupon, at 12:26 p.m., the hearing was adjourned.]

    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator James Inhofe
      strategy/end states--isil, iraq, syria, and the middle east
    1. Senator Inhofe. What policy objectives were given to Department 
of Defense in order to develop a military strategy?
    Secretary Carter. The policy objective given to the Department of 
Defense was to degrade and ultimately destroy the Islamic State of Iraq 
and the Levant, which guided the development and implementation of the 
military campaign plan.

    2. Senator Inhofe. Was the Department of Defense given any 
constraints in developing a military strategy?
    Secretary Carter. The Department of Defense recognizes that a 
successful strategy to defeat the Islamic State of Iraq and the Levant 
(ISIL), at its core, is not purely reliant on the military; it is a 
strategy that requires a whole of government effort. The military 
campaign plan was informed by policy and nested within the broader 
national strategy. As the campaign has progressed, I have gained a 
clearer assessment of the strengths and weaknesses of the Coalition's 
efforts, and have received approval from the President to accelerate 
the military campaign, degrading ISIL's control of territory.

    3. Senator Inhofe. Does operational and tactical decision making 
and control of operations reside with our commanders in the field or is 
it back in the Pentagon or White House?
    Secretary Carter. Lieutenant General Sean McFarland, Commander of 
the Combined Joint Task Force-Operation Inherent Resolve, is the 
commander and the senior leader in charge of the military campaign in 
Iraq and Syria. He and United States Central Command Commander General 
Austin have broad authorities within Iraq and Syria to prosecute this 
campaign.

    4. Senator Inhofe. Is current United States strategy just against 
ISIL in Iraq and Syria or globally?
    Secretary Carter. The strategy against the Islamic State of Iraq 
and the Levant (ISIL) is a global one. It is also absolutely necessary 
to focus on defeating the ISIL parent tumor in Syria and Iraq. The 
recent strike against ISIL's leader in Libya highlights the recognition 
that ISIL is a diverse and global adversary. The Department is looking 
for opportunities to degrade and defeat ISIL trans-regionally and 
transnationally; every combatant command is engaged in this worldwide 
campaign. I would add that it is not merely a kinetic fight. Other 
actions like messaging, counter-finance, and foreign fighter flow are 
targeting ISIL globally.

    5. Senator Inhofe. What are our end states in Iraq and Syria?

    <bullet>  No Iranian presence?
    <bullet>  No Russian presence?
    <bullet>  Stable and unified Iraq with representative Sunni-Shia-
Kurd government?
    <bullet>  Stable and unified Syria absent Assad?
    <bullet>  Are these end states interlinked with our ISIL end state/
strategy?

    Secretary Carter. The desired end-states in Iraq and Syria are for 
each to achieve a state of political stability free from the Islamic 
State of Iraq and the Levant: in Iraq through a unified and inclusive 
central government; and in Syria through a political transition. Iran 
and Russia could play constructive roles in achieving each of these 
end-states if they so choose; to date, they have chosen otherwise.

    6. Senator Inhofe. What are the required resources and estimated 
timeline required to achieve this end state?
    Secretary Carter. With the help of Coalition partners, the 
Department has intensified offensive operations to degrade and destroy 
the Islamic State of Iraq and the Levant's (ISIL) control of territory, 
disrupt its command structure by removing its leadership, and reduce 
its ability to sustain its war-making enterprise through effective air 
strikes and enabling local partners on the ground to seize territory 
from ISIL. The timeline required will be based on conditions on the 
ground.

    7. Senator Inhofe. Do you need ground forces occupying territory to 
achieve these end states?
    Secretary Carter. Yes, local ground forces responsive to a 
sovereign government are needed to achieve lasting stability in Iraq 
and Syria and to prevent the rise of additional terrorist groups in the 
future. This is why our military strategy combines coalition air power 
with enabling capable and motivated local forces on the ground to 
achieve a lasting defeat of the Islamic State of Iraq and the Levant. 
This is coupled with a diplomatic strategy for political settlement to 
end the civil war in Syria.

    8. Senator Inhofe. You are increasing operations in Syria and Iraq, 
deploying additional personnel, expending additional weapons and 
placing additional wear and tear on equipment. You are also meeting all 
your other global contingency operations requirements that are also 
increasing. Will OCO funds cover all of these operations or will you 
have to take money out of the base budget??
    Secretary Carter. The Department is very concerned that Fiscal Year 
(FY) 2016 Overseas Contingency Operations (OCO) requirements may exceed 
the enacted FY 2016 OCO funding levels. Increased counter-Islamic State 
of Iraq and the Levant activities in Iraq, Syria, and the Middle East, 
coupled with a slowed drawdown in Afghanistan, are the primary reasons 
for concern. The Department identified an unfinanced requirement of 
$3.3 billion for these efforts to the FY2016 OCO request. The 
Consolidated Appropriations Act of 2016 (Public Law 114-113) recognized 
this shortfall, but only provided $1.277 billion along with $1.0 
billion more in special transfer authority for potential reprogramming.
    The Department will review execution rates and spend plans during 
its mid-year review in the spring. At that time, the Department will be 
in a better position to ascertain the magnitude of any shortfall and 
make recommendations to meet the remaining requirements, if necessary.

    9. Senator Inhofe. Does the United States need to maintain a long 
term presence in Iraq and/or Syria or can we withdrawal when we reach 
our end state?
    Secretary Carter. The United States is committed to the lasting 
defeat of the Islamic State in Iraq and the Levant. I cannot predict or 
prescribe hypothetical future force posture in Iraq or Syria.

    10. Senator Inhofe. Is the refugee crisis being caused by Assad, 
ISIL, a lack of strategy, a power vacuum, or all of the above? Can the 
flow of refugees be stopped without addressing the Assad regime and 
ISIL operations in Syria?
    Secretary Carter. There is no single cause for the refugee crisis. 
Some refugees fled the civil war that began when the Assad regime 
attacked its own people. Others fled the Islamic State of Iraq and the 
Levant's (ISIL) brutality. Still others fled for the promise of a life 
in the West. Resolving the refugee crisis requires both an end to the 
civil war and the defeat of ISIL.
    To that end, the Department is intensifying the offensive 
operations to degrade and collapse ISIL's control of territory, disrupt 
its command structure by removing its leadership, and reduce its 
ability to sustain its war making enterprises. Where coalition-
supported forces have liberated territory from ISIL, such as in Kobane 
and Tal Abyad, some refugees and internally displaced persons have 
returned to their homes. They will require security, reconstruction, 
humanitarian assistance, and civil services provided by a government 
that meets their needs. Extending these conditions to the whole of 
Syria is a challenge. There is no purely military solution to the civil 
war. To that end, Secretary Kerry has led intense diplomatic efforts 
through the International Syria Support Group to seek a political 
resolution to the conflict. Until there is both security and 
opportunity in Syria for those who fled, it will not be possible to 
resolve the refugee crisis.
    To address the immediate needs of displaced Syrians, the Department 
of Defense, with Congressional support, is providing approximately $115 
million in humanitarian assistance. This assistance addresses life-
saving needs in the categories of shelter, health and sanitation, and 
water for Syrian refugees and other displaced persons in Lebanon, 
Jordan, Turkey, Iraq, and Syria.

    11. Senator Inhofe. Is Russia still attacking United States-trained 
Syrian opposition forces?
    Secretary Carter. [Deleted.]

    12. Senator Inhofe. What does the presence of a S400 surface to air 
missiles mean to United States and coalition air operations in Syria 
and in Turkey?
    Secretary Carter. [Deleted.]
                           measuring success

    13. Senator Inhofe. How are you measuring success in your strategy 
against ISIL--territory controlled, number of combat effective units, 
end of hostile engagements, integration, and/or surrender?
    Secretary Carter. We are measuring success across nine lines of 
effort in order to degrade and ultimately defeat the Islamic State of 
Iraq and the Levant (ISIL). Given ISIL's hybrid terrorist-state nature, 
measuring traditional elements of state power are minimally applicable. 
The approach requires a whole-of-government strategy; efforts to remove 
ISIL from the battlefield alone will not be sufficient to eliminate the 
threat ISIL poses to United States persons and interests in the region 
and around the world. In the lines of effort for which the Department 
of Defense has the lead--namely, denying ISIL safe haven and building 
partner capacity--United States Central Command is measuring success 
across five objectives: establishing a Coalition and employing forces; 
increasing regional partner capacity and security; degrading ISIL's 
military effectiveness; decreasing ISIL's freedom of maneuver in Iraq 
and Syria; and degrading ISIL's organizational capabilities.

    14. Senator Inhofe. What benchmarks are you using to measure this 
success?
    Secretary Carter. The Department of Defense uses five benchmarks 
for success in the two lines of effort for which the Department has the 
lead--denying safe haven and building partner capacity. These five 
objectives include: establishing a Coalition and employing forces; 
increasing regional partner capacity and security; degrading the 
Islamic State of Iraq and the Levant's (ISIL) military effectiveness; 
decreasing ISIL's freedom of maneuver in Iraq and Syria; and degrading 
ISIL's organizational capabilities. Given ISIL's hybrid terrorist-state 
nature, measuring traditional elements of state power are minimally 
applicable.

    15. Senator Inhofe. Of our 65 coalition partners, what coalition 
partners are conducting ground combat operations and what partners are 
conducting air combat operations?
    Secretary Carter. Currently, there are 17 coalition partner nations 
in Iraq conducting advise and assist and building partner capacity 
missions. In addition to the U.S, they are: Australia, Belgium, Canada, 
Denmark, Finland, France, Germany, Great Britain, Hungary, Italy, 
Norway, Portugal, Spain, The Netherlands, New Zealand, and Sweden.
    Currently, the United States and 12 coalition partners are 
conducting air combat operations in Iraq and/or Syria. They are: 
Australia, Bahrain, Belgium, Canada, Denmark France, Great Britain, 
Jordan, The Netherlands, Saudi Arabia, Turkey, and UAE.

    16. Senator Inhofe. Secretary Carter, you stated that the new 
special operations forces are being sent into Iraq would conduct raids, 
free hostages, gather intelligence, and capture ISIL leaders. Where are 
you going to hold these detainees and for how long?
    Secretary Carter. The appropriate disposition for a detainee is 
determined, consistent with United States domestic law and 
international law, on the basis of all the facts and circumstances, 
including the national security interests of the United States and its 
allies and partners, and the conduct the detainee has engaged in. 
Depending on the circumstances, detainees may be prosecuted in the 
United States, detained in their home countries, or detained in a third 
country. The Department makes assessments regarding the appropriate 
disposition of detainees on a case-by-case basis.

    17. Senator Inhofe. Are you sending the right number and type of 
forces in Syria and Iraq to achieve your strategy? Have you accurately 
defined their mission and objectives?
    Secretary Carter. Yes, we are sending the correct number and type 
of United States and coalition personnel to Iraq and Syria given 
current opportunities and the number of local ground partners assisting 
our efforts in those countries. In addition to trainers and advisors in 
Iraq, United States Special Operations Forces (USSOF) are being 
deployed to enable local partners in Iraq and Syria to counter the 
Islamic State of Iraq and the Levant more effectively. Given current 
circumstances, their mission and objectives have been accurately 
defined. If we identify additional opportunities in Iraq (in 
partnership with the Government of Iraq) and in Syria to enable 
capable, local partners, I am prepared to recommend to the President to 
deploy additional USSOF capabilities.
                               __________
              Questions Submitted by Senator Kelly Ayotte
                             inf violations
    18. Senator Ayotte. Secretary Carter, according to public reports, 
``Russia flight-tested a new ground-launched cruise missile . . . that 
United States intelligence agencies say further violates the 1987 
Intermediate-Range Nuclear Forces (INF) treaty.'' On September 29, 
before this committee, I asked Deputy Secretary of Defense Work if he 
believes that Russia has violated the INF Treaty. Reiterating previous 
statements by this administration, he said ``We believe very strongly 
that they did.'' Do you still believe that Russia has violated the 
Intermediate-Range Nuclear Forces Treaty?
    Secretary Carter. Yes. Under the Intermediate-Range Nuclear Forces 
(INF) Treaty, Russia is obligated not to possess, produce, or flight-
test a ground-launched cruise missile with a range capability of 500 to 
5,500 kilometers, or to possess or produce launchers of such missiles. 
Russia has built and tested a ground-launched cruise missile system 
that violates the Treaty. For additional information, please see the 
Annual Report to Congress on Adherence to and Compliance With Arms 
Control, Nonproliferation, and Disarmament Agreements and Commitments.

    19. Senator Ayotte. Secretary Carter, despite acknowledging 
Moscow's violation of this landmark treaty, Deputy Secretary of Defense 
Work said more than two months ago that ``we have not decided on any 
particular action at this point.'' When I asked what this 
administration was going to do about it, he said, ``we are still in the 
midst of negotiating this position.'' What specific steps is the 
Department of Defense taking to respond to Russia's violation of the 
INF Treaty, and why has it taken so long for the administration to 
study this?
    Secretary Carter. The Department of Defense (DOD) has reviewed a 
broad range of military response options and, with the interagency, 
considered the effect each option could have on either convincing 
Russian leadership to return to compliance with the Intermediate-Range 
Nuclear Forces (INF) Treaty or on countering the capability of the 
prohibited ground-launched cruise missile (GLCM) system. This 
assessment was conducted at the same time as new strategic realities 
developed in Europe--a Russia that is destabilizing the European 
security order by purporting to annex Crimea and conducting illegal 
activities in eastern Ukraine, a Russia that is actively seeking to 
undermine the North Atlantic Treaty Organization (NATO), and a Russia 
that is modernizing its military capabilities across a range of 
systems.
    In 2015, the Administration determined that the United States 
needed to consider Russian actions with regard to the INF Treaty in the 
context of its overall aggressive and bellicose behavior that flouts 
international legal norms and destabilizes the European security order. 
Russia is not violating the INF Treaty in isolation from its overall 
aggressive behavior; therefore, the Administration concluded that 
responses cannot focus solely on the INF Treaty.
    Consequently, DOD is committing to many investments irrespective of 
Russia's decision to return to compliance with the INF Treaty.
    United States responses to Russia's increased aggressive actions, 
including its violation of the INF Treaty, involve a broad range of 
efforts--within the Department, bilaterally with allies and partners, 
and within the NATO Alliance. These responses cover a variety of 
initiatives including increasing posture and presence, refocusing 
planning and shaping of future military activities in Europe, and 
improving defensive measures to deny Russia offensive capabilities by 
modifying and expanding air defense systems.
    For example, DOD plans to continue the European Reassurance 
Initiative (ERI), with $789.3 million requested in fiscal year (FY) 
2016. Under the ERI, the United States has maintained a persistent, 
rotational air, land, and sea presence in the Baltics and in Central 
Europe to reassure Allies and to build up their capacity. ERI also 
enables the United States to expand bilateral and multilateral 
exercises in Europe in order to improve interoperability and to 
strengthen United States warfighting capability in the face of newer 
threats from Russia. DOD will continue to seek funding for ERI in FY 
2017.
    DOD is also transforming its posture in Europe to be more 
responsive and sustainable for the 21st century. In order to allow 
United States rotational forces to move more quickly and easily to 
participate in training and exercises in Europe, DOD is prepositioning 
equipment, termed ``European Activity Sets'', which include: tanks, 
artillery, infantry fighting vehicles, and other equipment to respond 
rapidly to crises and provocation. Estonia, Lithuania, Latvia, 
Bulgaria, Romania, and Poland have offered to host company- to 
battalion-sized elements outfitted with this equipment, which will be 
moved around the region for training and exercises.
                                  nato
    20. Senator Ayotte. General Selva, I asked General James Jones, 
USMC (Ret.), in a recent hearing what may happen if the United States 
fails to alter its course with respect to Russia's aggression. He 
responded, ``I think it's possibly the beginning of the end of the 
North Atlantic Treaty Organization. I think it is that serious. We just 
can't sit back and let this happen.'' He continued, ``[NATO] should 
become more proactive . . . sitting back and being reactive and then 
debating it for six months hoping for on-hundred percent consensus 
among 28 countries is not a formula for success with Vladimir Putin.'' 
There is serious concern that a failure to stand up in Moscow in 
Ukraine and elsewhere will invite Putin's adventurism in the Baltics--
creating an Article 5 crisis for NATO. Is the Department of Defense re-
evaluating United States defense posture in Europe, and can you provide 
an update?
    General Selva. The United States' commitment to NATO Article 5 
remains Ironclad. In order to demonstrate our willingness and 
capability, DOD is re-evaluating our defense posture in Europe to 
ensure the United States military can deter and defend against Russian 
aggression. We will ensure the U.S. military remains postured to 
support ongoing and future contingency operations, counter 
transnational threats, deter and defeat Russian aggression, and build 
Allied and partner capability. The European Reassurance Initiative 
(ERI) has enabled us to increase responsiveness and readiness by pre-
positioning ammunition, fuel and equipment for use in regional training 
and exercises, as well as improving infrastructure that enhances NATO 
operations and enables Eastern Allies to rapidly receive 
reinforcements. ERI also enables us to maintain our increased 
rotational force presence along NATO's eastern flank under Operation 
ATLANTIC RESOLVE (OAR) to demonstrate the ability and commitment to act 
together with NATO to deter and counter Russian malign influence, 
coercion, and aggression. In 2015, we prepositioned additional European 
Activity Sets--complete equipment set for one armor brigade combat 
team--to bolster NATO's eastern flank. We will continually assess 
required presence and equipment prepositioning in order to meet the 
demands of an evolving security environment in Europe.

    21. Senator Ayotte. General Selva, what specific steps is the 
United States taking to make clear to Moscow that we will defend NATO 
and honor our Article 5 commitments, including in Eastern Europe?
    General Selva. The United States has made clear to Russia through 
political, diplomatic, economic, and defense measures that we do not 
accept Russia's aggressive foreign policy, and we will defend NATO and 
honor our Article 5 commitments. Focusing on defense and military 
measures, European Reassurance Initiative (ERI) funding has enabled the 
United States to increase its military activities in Eastern and 
Central Europe to reassure Allies and partners of our solemn commitment 
to their security and territorial integrity in the face of aggressive 
Russian actions in Ukraine and elsewhere. Through ERI we increased 
responsiveness and readiness by pre-positioning ammunition, fuel and 
equipment for use in regional training and exercises, as well as 
improved infrastructure that enhances NATO operations and enables 
Eastern Allies to rapidly receive reinforcements. ERI also enables us 
to maintain increased rotational presence along NATO's eastern flank 
under Operation ATLANTIC RESOLVE (OAR) to demonstrate the ability and 
commitment to act together with NATO in the face of the challenges from 
Russia. Examples of action taken to demonstrate resolve in Eastern 
Europe in 2015 include the persistent rotational presence of 
approximately 500 Soldiers; organized in company teams of approximately 
150 Soldiers training alongside allied forces in Estonia, Latvia, 
Lithuania, and Poland, the approximate three month deployment of 12 A-
10s to Estonia and 12 F-15Cs to Romania, shorter duration deployments 
of A-10s, F-15s, F-16s, F-22s and C-130s to eastern Europe, and 
multiple exercises involving thousands of United States forces 
throughout 2015. In addition to unilateral U.S. efforts, we are working 
with our NATO Allies to implement the Readiness Action Plan (RAP) 
agreed to at the 2014 NATO Summit in Wales. RAP includes a series of 
assurance and adaptation activities to enhance NATO's defense posture 
and increase NATO's readiness for and responsiveness to security 
challenges in and around Europe.
                               __________
                Questions Submitted by Senator Ted Cruz
    Volume of Airstrikes in Iraq and Syria, Release Authorities, and 
the National Security Council's Role in the Counter ISIS Campaign
    Secretary Carter, during Desert Storm we dropped 88,500 tons of 
bombs while conducting over 48,000 strike sorties and averaged over 
1,100 sorties per day. \1\ During Operation Iraqi Freedom, the 31 day 
air campaign against Saddam Hussein averaged over 800 sorties per day. 
By contrast, since Obama announced his intention to defeat ISIS, the 
United States has conducted a paltry 6,846 air strikes in Iraq and 
Syria. \2\ Averaged over the 465 days of operations, that amounts to 
less than 15 strikes per day.
---------------------------------------------------------------------------
    \1\ http://www.wsj.com/articles/mark-gunzinger-and-john-stillion-
the-unserious-air-war-against-isis-1413327871
    \2\ http://www.defense.gov/News/Special-Reports/0814_Inherent-
Resolve
---------------------------------------------------------------------------
    Meanwhile, ISIS continues to control territory across Iraq and 
Syria. They rape women from minority communities. They murder 
Christians, Muslims, Yazidis, and others in horrific and brutal ways. 
According to reports from Pentagon officials, ISIS remains as strong 
today as it was before the bombing began, with estimates ranging from a 
fighting force of 20,000 to 30,000 persons. \3\
---------------------------------------------------------------------------
    \3\ http://www.usatoday.com/story/news/world/2015/10/12/islamic-
state-pentagon/73840116/
---------------------------------------------------------------------------
    The order of magnitude between a serious air campaign that is 
focused on destruction of our enemy and the photo-op campaign being 
conducted by this Administration is striking. Just as startling are the 
reports that this campaign is being so micro-managed by the White 
House, that the warfighting expertise of our military leaders is being 
overridden by ``little twerp[s] from the NSC.'' \4\
---------------------------------------------------------------------------
    \4\ https://www.washingtonpost.com/world/national-security/how-the-
obama-white-house-runs-foreign-policy/2015/08/04/2befb960-2fd7-11e5-
8353-1215475949f4_story.html

    22. Senator Cruz. What role is the National Security Council taking 
in managing the day to day operations in Iraq and Afghanistan?
    Secretary Carter. The National Security Council does not have a 
role in managing the day-to-day operations in Iraq, Syria, or 
Afghanistan. For Iraq and Syria, I appointed a commander, Lieutenant 
General McFarland, to be in charge of counter-Islamic State of Iraq and 
the Levant (ISIL) operations. He manages day-to-day operations in Iraq 
and Syria and has appropriate authorities delegated to him to undertake 
such operations successfully.
    In Afghanistan, General Campbell has the authority to manage the 
missions he has been given, including the United States 
counterterrorism mission focused on defeating al-Qaeda and its 
associates and a mission to train, advise, and assist the Afghan 
National Defense and Security Forces. He also has the authority to deal 
with force protection threats from any individual or group that poses a 
threat to United States and coalition personnel.

    23. Senator Cruz. Who maintains final approval for the deliberate 
target selection process? What authorities have been completely 
delegated to the COCOM? Please describe the authorities and permissions 
in the targeting process, as written, and as actually practiced.
    Secretary Carter. The Combined Joint Task Force (CJTF)-Operation 
Inherent Resolve Commander is the approval authority for deliberate 
strikes in Iraq and Syria. The written process for deliberate targeting 
is to pursue Intelligence Community (IC) vetting if necessary; however, 
the CJTF has adopted a practice of seeking IC concurrence for all 
deliberate targets.

    24. Senator Cruz. Who approves strikes against a target of 
opportunity observed by an airborne pilot over Iraq or Syria?
    Secretary Carter. The Combined Joint Task Force-Operation Inherent 
Resolve Commander is the Target Engagement Authority for striking 
dynamic targets, including targets of opportunity. He may further 
delegate this to a general or flag officer (O-7 or higher).

    25. Senator Cruz. Can our Special Operations Forces conduct 
operations without approvals from the White House or the National 
Security Council?
    Secretary Carter. Yes. Lieutenant General McFarland is in charge of 
operations, and he has appropriate authorities to conduct operations 
without approvals from the White House or the National Security 
Council.

    26. Senator Cruz. How many times per week do our military leaders 
and staff officers at the Combatant Command and lower levels of 
operations interact with the National Security Council for permissions 
or approvals?
    Secretary Carter. Lieutenant General McFarland, Commander of the 
Combined Joint Task Force--Operation Inherent Resolve, has appropriate 
authorities to carry out operations. He does not interact with the 
National Security Council for permissions or approvals on a daily or 
weekly basis.

    27. Senator Cruz. Senator McCaskill is offended that the conduct of 
an air campaign might result in unintentional instances of collateral 
damage. For all of her sanctimonious lecturing, ISIS is doing 
tremendous damage to the civilian populations, with the assistance of a 
slow and lumbering Administration that is unwilling to focus its 
efforts, nor even correctly identify the threat. Reports indicate that 
4,406 documented innocent civilians have been killed by ISIS, \5\ with 
estimates going well into the 10s of thousands. How many civilian 
casualties has ISIS inflicted on the local populations? How many 
refugees have been displaced from their homes?
---------------------------------------------------------------------------
    \5\ http://www.motherjones.com/politics/2015/12/isis-syria-death-
casualty-count
---------------------------------------------------------------------------
    Secretary Carter. The Department does not keep those statistics. 
According to the Office of the United Nations High Commissioner for 
Refugees there were 7,632,500 Internally Displaced Persons (IDP) in 
Syria as of June 2015. There is no exact numbers of how many IDPs have 
been directly displaced by the Islamic State in Iraq and the Levant, 
Syrian Government forces, or the other various countries and factions 
fighting in Syria.

    28. Senator Cruz. Does the target approval process deny strikes on 
locations where there might be a chance of accidental collateral 
damage?
    Secretary Carter. The target approval process will deny any strike 
that exceeds the stated level of acceptable risk for collateral damage.
 preventing iranian influence in baghdad from taking advantage of isis

    29. Senator Cruz. Secretary Carter, how do you propose that we 
break the influence of the despotic, theocratic Iranian Ayatollah 
Khameni over Baghdad now that the central government is almost 
completely dependent on the security that Iranian backed militias and 
Quds forces provide?
    Secretary Carter. The United States is a strong partner to the 
Government of Iraq. We are able to provide Iraq with support and combat 
capabilities that no other partner, including Iran, can provide. I am 
confident in the strength of the United States' partnership with Iraq. 
I share your concerns about the sectarian nature of Iran's approach in 
Iraq. I believe that sectarianism could pose serious challenges to 
Iraq's stability as the Islamic State of Iraq and the Levant (ISIL) is 
pushed out of the territory it currently occupies.
    Iran does have deep and historic religious, cultural, and economic 
ties with Iraq that cannot be ignored. Although Tehran wields influence 
in Baghdad, the central Iraqi Government does not depend completely on 
Iran or Iranian-backed militias for its security. Iraqi Security Forces 
along with Kurdish forces and Sunni fighters--not just the Shia 
militias--are all central to the defeat of ISIL and to Iraq's long-term 
stability and prosperity. I believe that Prime Minister Abadi is 
committed to this vision for Iraq, but more time is needed for him to 
implement his reform agenda and to establish an effective and inclusive 
government. The Department of Defense encourages all nations to engage 
constructively with Iraq to help ensure a stable and inclusive Iraq.

    30. Senator Cruz. Secretary Carter, what are you doing to develop a 
strategy that counters Iran's anti-American designs to isolate and harm 
our allies using terrorism and violence across the Middle East and the 
rest of the world?
    Secretary Carter. The Department of Defense (DOD) addresses the 
totality of threats posed by Iran through its Iran policy architecture, 
which includes military plans, preparations, posture, and regional 
partnerships, recognizing that these DoD policy tools are just one part 
of a robust interagency effort to address Iran's support to terrorism 
and other destabilizing activities. More specifically, DOD retains and 
updates plans that address Iran's conventional and unconventional 
threats. Our military preparations and posture serve to deter and, if 
necessary, respond to Iranian aggression, including its support to 
terrorism. More than 35,000 U.S. military personnel and our most 
advanced missile, air, and ground forces are currently deployed to the 
region to protect U.S. partners and interests. The Department also 
continues to intensify our efforts working with regional and 
international partners to counter the threats posed by Iran.
                               __________
             Questions Submitted by Senator Jeanne Shaheen
                                 syria
    31. Senator Shaheen. What effect do you expect renewed efforts by 
France, the UK, and Germany to have on the fight in Syria?
    Secretary Carter. France, the United Kingdom (UK), and Germany's 
decision to expand their counter-Islamic State of Iraq and the Levant 
(ISIL) operations in Syria will significantly enhance the Coalition's 
efforts to defeat ISIL's parent tumor. On November 15th, French 
aircraft began striking key ISIL nodes, such as command and recruitment 
centers, ammunition storage facilities, and training camps in Raqqah, 
the group's de-facto capital in Syria. The UK also made its impact felt 
immediately, launching airstrikes against ISIL oil infrastructure in 
eastern Syria on December 3rd mere hours after Parliament approved 
these strikes. On December 4th, the German Parliament approved the 
deployment of reconnaissance and refueling aircraft to support 
Coalition efforts in Syria, adding needed niche capabilities to the 
Coalition's fight against ISIL.
    Our partners' contributions will continue to accelerate the 
campaign in Syria by striking ISIL's military capabilities, severing 
its lines of communication, targeting its leadership and economic 
infrastructure, and supporting partners on the ground.
    General Selva. Renewed efforts of our European allies, particularly 
France, the UK, and Germany, have enhanced both military capability and 
diplomatic efforts of the Coalition to bring pressure against ISIL on 
multiple fronts. Their support in operational planning, intelligence, 
logistics, training, and air operations nests effectively within the 
military lines of effort and overall campaign plan. More importantly, 
the impact is political--solidifying our resolve with concrete actions 
to drive ISIL out of Syria, pave the way for a political solution, and 
bring stability to the region, which ultimately serves to protect the 
homelands in Europe as well as the United States.
                     regional and coalition efforts

    32. Senator Shaheen. As we increase the tempo of air operations are 
we at risk of running short of munitions? Do you need additional 
funding to replenish our stocks?
    Secretary Carter. and General Selva. Increased air operations tempo 
is creating shortfalls in some precision guided munitions, 
specifically, recent expenditures of Joint Direct Attack Munitions 
(JDAMs) and Small Diameter Bombs (SDBs) in support of Operation 
Inherent Resolve (OIR). The Department is developing options to 
reprogram fiscal year 2016 funding and adjust future munitions program 
funding to recover to pre-OIR levels by fiscal year 2021.
                                 russia

    33. Senator Shaheen. What threat does Russia's deployment of S-400 
anti-aircraft defenses in Syria pose to our operations and those of our 
allies? What steps are we taking to mitigate?
    Secretary Carter. and General Selva. [Deleted.]

                                 <all>
</pre></body></html>
